No. 21-____

In the Supreme Court of the United States
THE STATE OF TEXAS, PETITIONER
v.
DEB HAALAND, SECRETARY OF THE U.S. DEPARTMENT OF
THE INTERIOR, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION APPENDIX
VOLUME II
KEN PAXTON
Attorney General of Texas
BRENT WEBSTER
First Assistant Attorney
General

JUDD E. STONE II
Solicitor General
Counsel of Record
LANORA C. PETTIT
Principal Deputy Solicitor
General
MICHAEL R. ABRAMS
BETH KLUSMANN
Assistant Solicitors General
OFFICE OF THE
ATTORNEY GENERAL
P.O. Box 12548 (MC 059)
Austin, Texas 78711-2548
Judd.Stone@oag.texas.gov
(512) 936-1700

TA BLE O F C O NTE N TS – V O LU ME I

Appendix A — En Banc Opinion, Brackeen v.
Haaland, No. 18-11479 (5th Cir. Apr. 6, 2021) ....... 1a
TA BLE O F C O NTE N TS – V O LU ME II

Appendix A (cont’d) — En Banc Opinion,
Brackeen v. Haaland, No. 18-11479
(5th Cir. Apr. 6, 2021) ........................................... 344a
Appendix B — Order on Petitions for Rehearing
En Banc, Brackeen v. Bernhardt, No. 18-11479
(5th Cir. Nov. 7, 2019) ........................................... 397a
Appendix C — Opinion, Brackeen v. Bernhardt,
No. 18-11479 (5th Cir. Aug. 9, 2019, as modified
Aug. 16, 2019) ........................................................ 400a
Appendix D — Order on Motions for Summary
Judgment, Brackeen v. Zinke,
No. 4:17-cv-00868-O (N.D. Tex. Oct. 4, 2018) ...... 468a
Appendix E — Final Judgment, Brackeen v.
Zinke, No. 4:17-cv-00868-O (N.D. Tex.
Oct. 4, 2018) ........................................................... 528a
Appendix F — Order on Motions to Dismiss,
Brackeen v. Zinke, No. 4:17-cv-00868-O
(N.D. Tex. July 24, 2018) ...................................... 530a
Appendix G — Relevant Constitutional
Provisions .............................................................. 580a
Appendix H — Relevant Portions of the Indian
Child Welfare Act of 1978, 25 U.S.C. ................... 581a
Appendix I — Relevant Portions of the Final
Rule, 25 C.F.R. ...................................................... 600a

344a
PRISCILLA R. OWEN, Chief Judge, concurring in part,
dissenting in part.
I
A
I first consider whether the States have standing.
For the reasons articulated in JUDGE DENNIS’s and
JUDGE COSTA’s opinions 1 the States do not have standing
to assert in this suit that the Indian Child Welfare Act of
1978 (ICWA) 2 violates the Equal Protection Clause of
the Fifth Amendment. As to all other claims, I conclude
that the States do have standing.
The States have asserted various, often overlapping,
claims in Counts I through IV and Count VII of the live
complaint in the district court—the Second Amended
Complaint. Briefly summarized, the States seek a
determination that Congress did not have the authority
to supplant state law in child-welfare and adoption cases
with certain directives in ICWA, and that Congress
cannot require state courts to follow ICWA. The States
also contend that the Bureau of Indian Affairs (BIA)
violated the Administrative Procedure Act (APA) and
the federal Constitution when it promulgated the Final
Rule (Count I). The States contend that the Indian
Commerce Clause did not empower Congress to enact
certain provisions of ICWA (Count II); that adoption,
foster care, and pre-adoptive placement of “Indian
children” are not permissible subjects of regulation
under the Tenth Amendment (Count III); that ICWA
and the Final Rule violate anti-commandeering
See DENNIS, J., concurring and dissenting, part I(A)(1), p. 39
n.13; COSTA, J., concurring and dissenting, part I, p. 3 n.2.
2
25 U.S.C. §§ 1901-1923, 1951-1952.
1

345a
principles under the Tenth Amendment (Count III); that
ICWA and the Final Rule violate the Equal Protection
Clause of the Fifth Amendment(Count IV); and that
ICWA and the Final Rule violate the non-delegation
doctrine of Article I, Section 1 because they “delegate to
Indian tribes the legislative and regulatory power to
pass resolutions in each Indian child custody proceeding
that alter the placement preferences state courts must
follow” (Count VII).
The States complain about the costs of complying
with ICWA and the Final Rule, including the hours and
resources that child-welfare agencies expend, costs
borne by the States to employ experts, and the time
consumed in state-court proceedings resolving ICWA
issues. The States further contend they “are directly and
substantially injured by the delegation of power over
placement preferences because it violates the
Constitution’s separation of powers through abdication
of Congress’s legislative responsibility and requires
State Plaintiffs to honor the legislation and regulation
passed by tribes in each child custody matter, which can
vary widely from one child to the next and one tribe to
another.”
The States have adequately alleged that they are
injured by ICWA and the Final Rule for standing
purposes. 3 The determinative question is whether those

See Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992) (“[T]he
plaintiff must have suffered an injury in fact—an invasion of a
legally protected interest which is (a) concrete and
particularized…and (b) actual or imminent, not conjectural or
hypothetical.” (citations, footnote, and internal quotation marks
omitted)).
3

346a
injuries could be redressed if a federal court were to
grant the relief the States seek in this case.
The States seek a declaration that parts of ICWA are
unconstitutional and therefore that state rather than
federal law governs. To the extent the States are seeking
to supplant ICWA with state substantive and procedural
law in child-welfare proceedings, such a declaration
would not redress the States’ injuries because no state
court would be bound by such a declaration. 4 Every state
court would, of course, be free to decide the
constitutionality of ICWA de novo because the rulings of
the federal district court and of this court would not bind
state courts and would not bind private litigants in state
court proceedings. For this reason, the assertion in
JUDGE DUNCAN’s opinion that a decision of this court
“would also remove state child welfare officials’
obligations to implement [ICWA’s] preferences” 5 is, with
great respect, incorrect.
The States contended in the district court that
because
various
provisions
of
ICWA
are
unconstitutional, the federal government cannot require
the States to comply with those provisions and therefore
could not withhold federal funding for child welfare as a
consequence of noncompliance with ICWA. Specifically,
the States requested the district court to hold that
certain statutes authorizing the Secretary to withhold
federal child welfare funds from states that do not
comply with ICWA, including 42 U.S.C. §§ 622(b)(9) and
See Aransas Project v. Shaw, 775 F.3d 641, 648 (5th Cir. 2014)
(per curiam) (“Redressability requires ‘a likelihood that the
requested relief will redress the alleged injury.’” (quoting Steel Co.
v. Citizens for a Better Env’t, 523 U.S. 83, 103 (1998))).
5
See DUNCAN, J., concurring and dissenting, part I(B), p. 21.
4

347a
677(b)(3)(G), are unconstitutional. The States sought an
injunction prohibiting the federal defendants from
implementing or enforcing those statutes in their initial
pleadings.
However, the States did not thereafter pursue any
relief in the district court regarding the withholding of
funds by the federal defendants. The States moved for
summary judgment, but they did not seek summary
judgment or request injunctive relief in their motion with
regard to federal funding of child welfare. They did not
cross-appeal in this court seeking such relief, nor could
they since they did not pursue it in the district court. The
question then arises as to whether there is redressability
at this point in the proceedings, since standing must be
present at each stage of litigation. 6
A determination in this case that certain provisions of
ICWA, the Final Rule, or both were unconstitutional
would be a binding determination (res judicata) as
between those States and the federal government. This
would mean that the States could categorically direct
their child-welfare agencies to cease compliance with the
provisions of ICWA if it were held unconstitutional. Such
relief would address injuries asserted by the States and
establishes the States’ Article III standing to raise the
constitutional challenges to ICWA, other than equal
protection. The States would no longer be burdened with
ICWA’s requirements and would not incur the costs and
Lewis v. Cont’l Bank Corp., 494 U.S. 472, 477-78 (1990) (“[The]
case-or-controversy requirement subsists through all stages of
federal judicial proceedings, trial and appellate. To sustain our
jurisdiction in the present case, it is not enough that a dispute was
very much alive when suit was filed . . . .” (first citing Deakins v.
Monaghan, 484 U.S. 193, 199 (1988); and then citing Steffel v.
Thompson, 415 U.S. 452, 459 n.10 (1974))).
6

348a
expenses associated with compliance unless and until, in
a state-court proceeding, individual plaintiffs asserted
rights under ICWA and a final state-court judgment
were to hold, contrary to a judgment of this court or the
district court, that ICWA is constitutional and the State
is bound by its requirements in that state-court
proceeding. The potential for such a collision between
state and federal courts as to ICWA’s constitutionality
does not mean that federal courts cannot redress the
States’ injuries in the present case. A federal-court
judgment in the States’ favor in this case could
conceivably redress their injuries, though in the longer
term, a state court’s view of the constitutionality of
ICWA might ultimately carry the day were a conflict
between state-court holdings and federal-court holdings
to arise.
A judgment in the present case holding that the
States prevail against the federal defendants on their
claims that ICWA is unconstitutional could also
potentially be the basis for precluding the federal
government from withdrawing funding for a State’s
failure to comply with unconstitutional statutory or
regulatory provisions. Does that mean that the federal
government is prohibited from using a “carrot/stick”
approach to persuade a State to comply with ICWA or
else withdraw funding? That issue was not raised or
briefed in the district court or this court. It has not been
decided. But the point is, it is not improbable that the
relief that the States do continue to seek in the present
case would, in future litigation between the States and
the federal government, preclude the federal
government from withholding child welfare funds under
ICWA as a consequence of the States’ failure to comply

349a
with ICWA. The constitutionality of ICWA would be off
the table in any such future litigation between a State
who is a party to this case and the federal government.
Not all the States’ claims are grounded in the federal
Constitution. The States challenge 24 C.F.R. § 23.132(b)
on the basis that the clear-and-convincing-evidence
standard is contrary to 25 U.S.C. § 1915, and on the basis
that in promulgating the Final Rule, the Bureau of
Indian Affairs (BIA) did not provide a reasoned
explanation for reversing its prior, long-held
interpretation of ICWA. The relief sought by the States
in this regard would redress their complaint that the
Final Rule imposes too high a standard on state agencies
seeking to place a child other than in accordance with
ICWA’s preferences. The Final Rule’s offending
provisions would be abrogated and therefore would not
be a factor or at issue in state-court adoption or
placement proceedings. This would redress the injuries
identified by the States.
Accordingly, I concur in parts I(C) and (D) of JUDGE
DENNIS’s opinion, with the exception of the last sentence
in part I(D).
B
As to the standing of the individual plaintiffs, I concur
in part I(A)(1) of JUDGE DENNIS’s opinion, and parts I
and II(A) and the final paragraph of part II(B) of JUDGE
COSTA’s opinion.
I add these observations. None of the individual
plaintiffs have standing to press any of their claims,
other than those with regard to the APA and the Final
Rule, because nothing this court has to say about ICWA
binds any state court in adoption or foster care
placement cases when a private party asserts that

350a
ICWA’s provisions are constitutional and must be
applied or that they are unconstitutional and cannot be
applied. Private parties in child-welfare and adoption
proceedings would not be bound by a judgment issued by
a federal district court or this court declaring rights as
between the Brackeens, for instance, and the federal
defendants, or as between the States and the federal
government.
The assertion in JUDGE DUNCAN’s opinion that the
individual plaintiffs’ claims are redressable because the
“Federal Defendants would be barred from inducing
state officials to implement ICWA, including the
preferences, by withholding funding,” 7 is, with great
respect, erroneous. None of the individual plaintiffs have
standing to argue that the federal government is
precluded from withholding child welfare funds from a
State. They do not argue that they have a right or
interest that would permit them to insert themselves into
disputes as to funding between the federal government
and the States under ICWA. The individual plaintiffs cite
no statute or constitutional provision that would confer
such a right. Any relief granted to the States regarding
child-welfare funding under ICWA would redress the
individual plaintiffs’ claims, if at all, only incidentally and
tangentially. In any event, as discussed above, the States
did not pursue in the district court their request for a
declaration that the federal defendants are barred from
withholding child-welfare funding under ICWA. Such
relief was not granted by the district court, and the
States do not seek such relief in this court. No judgment
of this court could now grant the relief that JUDGE

7

DUNCAN, J., concurring and dissenting, part I(B), p. 21.

351a
DUNCAN’s opinion says would redress the individual
plaintiffs’ claims regarding ICWA’s preferences.
The individual plaintiffs do have standing to
challenge the Final Rule. However, even were the Final
Rule abrogated in its entirety, ICWA’s statutory
preferences and other requirements would remain
intact. The individual plaintiffs do not have standing to
challenge ICWA’s provisions directly or in the abstract
in the present case. A judgment of this court would not
resolve any actual case or controversy as between the
individual plaintiffs and the federal defendants, other
than challenges to the Final Rule, for the reasons
considered above and in JUDGE DENNIS’s and JUDGE
COSTA’s opinions.
II
I agree with the conclusion in JUDGE DENNIS’s
opinion, 8 as a general proposition, that Congress had the
authority under the Indian Commerce Clause 9 to enact
ICWA. However, I do not join JUDGE DENNIS’s analysis
fully. I join part II(A) of JUDGE COSTA’s opinion as to this
issue.
III
A
Because I conclude that neither the States nor the
individual plaintiffs have standing to bring direct equal
protection challenges to ICWA’s statutory provisions, I
would not and do not reach the merits of any of those
claims. To the extent that equal protection claims have
DENNIS, J., concurring and dissenting, part II(A)(1).
U.S. CONST. art. I, § 8, cl. 3 (“The Congress shall have Power
. . . To regulate Commerce with foreign Nations, and among the
several States, and with the Indian Tribes.”).
8
9

352a
been asserted by the individual plaintiffs in challenging
the Final Rule, I join the final paragraph in part II(B) of
JUDGE COSTA’s opinion. The individual plaintiffs have
standing to assert equal protection challenges to ICWA
in this context. I agree with the conclusion in JUDGE
DENNIS’s opinion that ICWA’s preferences are political
not racial. Those preferences withstand rational-basis
scrutiny. I therefore conclude that the Final Rule did not
violate the Equal Protection Clause in implementing
ICWA’s statutory preferences, including the preference
for “Indian Families.”
B
Regarding the commandeering and preemption
claims, I join part II(A)(2)(a)(i) of JUDGE DENNIS’s
opinion and part III(B) of JUDGE DUNCAN’s opinion.
To clarify, with regard to part III(B)(1)(a)(iii) of
JUDGE DUNCAN’s opinion, I agree that 25 U.S.C.
§§ 1915(a)-(b), and implementing regulations, in large
measure violate the anti-commandeering doctrine.
However, the placement preferences set forth in that
statute and its implementing regulations, standing alone,
do not commandeer, as JUDGE DUNCAN’s opinion
explains. 10 Those federal laws preempt contrary statelaw preferences. The commandeering occurs because
state agencies are directed to undertake action to
identify and assist individuals who might be entitled to
preference over others seeking to adopt or to provide
foster care. To the extent the state courts and state
agencies become aware of individuals who seek to have

10

p. 83.

DUNCAN, J., concurring and dissenting, part III(B)(1)(a)(iii),

353a
ICWA’s preferences applied, ICWA’s preferences
should be followed.
C
Only the State plaintiffs asserted claims that
Congress impermissibly delegated legislative power to
Indian tribes in ICWA. With regard to the nondelegation issues, I join part II(C) of JUDGE DENNIS’s
opinion.
D
Regarding the APA claims, I join part III(D)(3) of
JUDGE DUNCAN’s opinion. I do not join part III(D)(2) of
that opinion because the discussion as to whether
regulations bind state courts is abstract. It is unclear
from the discussion which regulations purport to bind
state courts separate and apart from statutory
provisions which do bind state courts to the extent the
statutory provisions are constitutional.
E
I would grant declaratory relief consistent with the
conclusions in this opinion.

354a
JACQUES L. WIENER, JR., Circuit Judge, dissenting in
part:
I concur with JUDGE DENNIS’s Opinion, except for its
holding on standing to challenge 25 U.S.C. § 1915(a) and
(b) on equal protection grounds. I also concur with
JUDGE COSTA in his partial dissent on standing. For the
reasons more explicitly stated below, I write separately
because the Plaintiffs’ second amended complaint is
deficient and should be dismissed for lack of standing.
JUDGES DUNCAN and DENNIS each conclude that the
Individual Plaintiffs, through the Brackeens and
Cliffords, have Article III standing to challenge § 1915(a)
and (b) of ICWA on equal protection grounds. 1 This
conveniently allows the Opinions to proceed to the merits
of the Plaintiffs’ equal protection arguments. Like
JUDGE COSTA, I disagree with JUDGES DUNCAN’s and
DENNIS’s conclusions that the Plaintiffs have Article III
standing to challenge § 1915(a) and (b), so I would not
reach the merits of the Plaintiffs’ equal protection claim.
In addition to the redressability problems cited in JUDGE
COSTA’s dissent, JUDGES DUNCAN and DENNIS choose to
ignore three important facts: (1) the date that the most
recent complaint was filed, (2) the Brackeens’ delayed
supplementation of the record, and (3) the fact that the
Cliffords could have appealed their case to the Minnesota
Supreme Court but did not do so. Those facts are
dispositive of the Plaintiffs’ ability to show standing: The
Brackeens and Cliffords (and, by extension, all of the
Individual Plaintiffs) do not have standing to challenge
JUDGE DENNIS concludes that the Plaintiffs do not have
standing to challenge § 1913(d) and 1914, and I concur for the
reasons provided in that opinion.
1

355a
§ 1915(a) and (b), so we do not have jurisdiction to decide
whether these parts of ICWA pass constitutional muster.
I. Background
The Plaintiffs filed their initial complaint in October
2017, seeking declaratory and injunctive relief, claiming
that ICWA and the Final Rule are unconstitutional and
violate the Administrative Procedure Act. 2 At that time,
the Brackeens were attempting to adopt A.L.M., who
qualified as an “Indian child” under ICWA. A.L.M.’s
biological parents voluntarily terminated their parental
rights in May 2017, and the Brackeens completed their
adoption of A.L.M. in January 2018. The Plaintiffs filed
a second amended complaint two months later.
Presumably because they knew that standing would be
an issue, the Brackeens stated that they “also intend to
provide foster care for, and possibly adopt, additional
children in need. Because of their experience with the
Final Rule and ICWA, however, [they] are reluctant to
provide a foster home for other Indian children in the
future.” Despite their reluctance, however, the
Brackeens attempted to adopt A.L.M.’s sister, Y.R.J.,
who was born in June 2018—three months after the
second amended complaint was filed. The Plaintiffs
supplemented the district court record in October 2018
(after it had entered final judgment), notifying the court
that the Brackeens were attempting to adopt Y.R.J. The
Brackeens intervened in a state court adoption
proceeding in November 2018, seeking to terminate the

See Brackeen v. Zinke, 338 F. Supp. 3d 514, 526–46 (N.D. Tex.
2018), rev’d sub nom. 937 F.3d 406 (5th Cir. 2019), reh’g en banc
granted, 942 F.3d 287 (5th Cir. 2019).
2

356a
parental rights of Y.R.J.’s mother—eight months after
the second amended complaint was filed. 3
The Plaintiffs also stated in their second amended
complaint that the Cliffords wished to adopt Child P., a
six-year-old girl whom the Cliffords had fostered since
July 2016. With the support of Child P.’s guardian ad
litem, the Cliffords moved to adopt Child P. The
Minnesota court denied their petition in January 2019
because Child P.’s tribe intervened in her case and
invoked ICWA’s placement preferences. 4 The Cliffords
appealed the Minnesota court’s order, but the Minnesota
court of appeals affirmed. 5 It does not appear that the
Cliffords timely appealed that court’s judgment.
II. Article III Standing
Under Article III of the United States Constitution,
federal courts only have jurisdiction over a “case” or
“controversy.” 6 “To establish a ‘case or controversy,’ a
plaintiff must establish that it has standing.” 7 Standing
requires that a plaintiff show (1) “an injury in fact” that
is (2) fairly traceable to the challenged action of the
defendant, and that is (3) likely to be “redressed by a
favorable decision.” 8 JUDGES DUNCAN and DENNIS only
analyze standing to challenge § 1915(a) and (b) on equal
See In re Y.J., 2019 WL 6904728, at *3 (Tex. App. Dec. 19,
2019).
4
See In re Welfare of the Child in the Custody of: Comm’r of
Human Servs., No. 27-JV-15-483 (4th Dist. Minn. Jan. 17, 2019).
5
In re S.B., No. A19-0225, 2019 WL 6698079, at *6 (Minn. Ct.
App. Dec. 9, 2019).
6
See U.S. CONST. art. III, § 2, cl. 1.
7
Legacy Cmty. Health Servs., Inc. v. Smith, 881 F.3d 358, 366
(5th Cir. 2018) (citing Lujan v. Defs. of Wildlife, 504 U.S. 555, 560–
61 (1992)).
8
Lujan, 504 U.S. at 560–61.
3

357a
protection grounds as to the Brackeens and the
Cliffords. No other Individual or State Plaintiff can show
standing to challenge these provisions of ICWA.
Fatal to the Brackeens’ assertion of standing are the
facts that (1) they had already adopted A.L.M. prior to
the Plaintiffs’ filing of the second amended complaint,
and (2) their stated desires to adopt or provide foster
care for other Indian children were too vague to
constitute an injury in fact. The Brackeens must show
Article III standing both at the time of the filing of the
complaint and throughout the lawsuit. 9 The court must
analyze standing at the time that the latest complaint is
filed. 10
The first requirement of standing is that a plaintiff
must have suffered an “injury in fact.” 11 An injury in fact
must be (1) concrete and particularized and (2) actual or
imminent, not conjectural or hypothetical. 12 Some courts
have held that when “plaintiffs seek declaratory and
injunctive relief only, there is a further requirement that
they show a very significant possibility of future harm; it
is insufficient for them to demonstrate only a past

See Rockwell Int’l Corp. v. United States, 549 U.S. 457, 473–74
(2007) (noting that standing is assessed at the time the complaint is
filed); Arizonans for Off. Eng. v. Ariz., 520 U.S. 43, 45 (1997) (“[A]n
actual controversy must be extant at all stages of review, not merely
at the time the complaint is filed.”).
10
See Rockwell, 549 U.S. at 473–74 (“[W]hen a
plaintiff…voluntarily amends the complaint, courts look to the
amended complaint to determine jurisdiction.”); Cnty. of Riverside
v. McLaughlin, 500 U.S. 44, 51 (1991) (analyzing standing at the
time the second amended complaint was filed).
11
Lujan, 504 U.S. at 560–61.
12
Id. at 560.
9

358a
injury.” 13 “A request for injunctive relief remains live
only so long as there is some present harm left to
enjoin.” 14 “Past exposure to illegal conduct does not in
itself show a present case or controversy regarding
injunctive relief . . . if unaccompanied by any continuing,
present adverse effects.” 15
The Brackeens could not show an actual injury in fact
at the time the Plaintiffs filed the second amended
complaint because the Brackeens had already adopted
A.L.M. Actual injury requires the Plaintiffs to show that
they are presently affected by ICWA and the Final
Rule. 16 The Brackeens’ injury was a “past injury,” which
“is insufficient for them to demonstrate” the injury in
fact necessary to obtain injunctive or declaratory relief. 17
Neither could the Brackeens show an imminent
injury in fact. 18 Their stated desire to adopt or provide
13
San Diego Cnty. Gun Rts. Comm. v. Reno, 98 F.3d 1121, 1126
(9th Cir. 1996).
14
Taylor v. Resol. Tr. Corp., 56 F.3d 1497, 1502 (D.C. Cir. 1995).
15
O’Neal v. City of Seattle, 66 F.3d 1064, 1066 (9th Cir. 1995)
(omission in original) (quoting City of L.A. v. Lyons, 461 U.S. 95, 102
(1983)).
16
See N.J. Physicians, Inc. v. Obama, 653 F.3d 234, 239 (3d Cir.
2011) (noting that a plaintiff must be “presently impacted” by the
defendant’s actions).
17
Reno, 98 F.3d at 1126.
18
JUDGE DUNCAN notes that he would reach the same
conclusion as to the Brackeens’ adoption of A.L.M. because it fits
within the “capable of repetition, yet evading review” exception to
mootness. This exception is inapposite, so the case would be moot
were it not lacking an injury in fact, because (1) the adoption
proceedings were not too short in duration to be fully litigated, and
(2) there is no reasonable expectation that the Brackeens would be
subject to the same injury again. See Davis v. Fed. Election
Comm’n, 554 U.S. 724, 735 (2008). As to the first prong, the
Brackeens could have litigated their ICWA challenges in state court

359a
foster care for other Indian children was too vague
because they had not specified a date or time that they
would attempt to adopt Y.R.J. or other Indian children. 19
The Brackeens did not attempt to show that they
planned to adopt another Indian child until October
2018—seven months after the second amended
complaint had been filed and after final judgment had
been entered. At the time that the second amended
complaint was filed, the Brackeens’ “intent” to provide
foster care for Indian children, or the “possibility” that
they would adopt any, was insufficient to show injury in
fact. As the Supreme Court has explicitly held, “[s]uch
‘some day’ intentions—without any description of
concrete plans, or indeed even any specification of when
the some day will be—do not support a finding of the
‘actual or imminent’ injury that our cases require.” 20
The Brackeens’ standing issue in this case is similar
to those found in cases—some of which are cited in
JUDGE DENNIS’s Opinion—wherein the Supreme Court
has held that plaintiffs lack standing because their
injuries were not “imminent.” For example, in O’Shea v.
Littleton, the Court held that the plaintiffs lacked
standing because, even though they had suffered past
unconstitutional practices they could not prove a present
during A.L.M.’s July 2017 adoption proceedings, long before
October 2018 when the district court entered judgment against the
Defendants. As to the second prong, the Brackeens’ stated
reluctance to adopt more Indian children was too vague, as
discussed above. See Lujan, 504 U.S. at 564 (holding that a sufficient
specification of when the injury in fact will occur is necessary).
19
See Reno, 98 F.3d at 1127 (holding that plaintiffs could not
show injury in fact, because “[t]he complaint does not specify any
particular time or date on which plaintiffs intend to violate the Act”).
20
Lujan, 504 U.S. at 564.

360a
or future impact as a result of those practices. 21 The
Court noted that the alleged imminent threat was not
“sufficiently real and immediate to show an existing
controversy simply because [the plaintiffs] anticipate
violating lawful criminal statutes and being tried for
their offenses.” 22 Similarly, in City of Los Angeles v.
Lyons, the Court rejected the plaintiff’s standing
argument, noting that the complaint “depended on
whether [the plaintiff] was likely to suffer future injury
from the use of the chokeholds by police officers.” 23
Further, JUDGES DUNCAN and DENNIS err by
considering Y.R.J.’s proceedings for purposes of
standing because the Plaintiffs did not move to
supplement the record with information relating to the
Brackeens’ attempted adoption of Y.R.J. until October
10, 2018. Final judgment had been entered, however, on
October 4, 2018. The Supreme Court has explicitly held
that a lack of standing cannot be cured by evidence
entered into the record after final judgment. 24 Unlike

414 U.S. 488, 493, 495–96 (1974).
Id. at 496.
23
461 U.S. at 105. Although these cases arose in the context of
unconstitutional police practices, which are unlike allegedly
unconstitutional adoptive proceedings, they are instructive. Here,
like the plaintiffs in O’Shea and Lyons, the Plaintiffs are seeking
future remedies based on past exposures to harm, which JUDGES
DUNCAN and DENNIS incorrectly classify as a regulatory burden.
On the contrary, there can be no regulatory burden in a completed
adoption proceeding, viz., the completed adoption of A.L.M.
24
See Summers v. Earth Island Inst., 555 U.S. 488, 495 n.*
(2009) (“After the District Court had entered judgment, and after
the Government had filed its notice of appeal, respondents
submitted additional affidavits to the District Court. We do not
consider these. If respondents had not met the challenge to their
21
22

361a
Mathews v. Diaz, in which the Supreme Court held that
a supplemental pleading cured the jurisdictional defect,
the Brackeens’ supplementation of the district court
record occurred after judgment had been entered. 25
Finally, the Cliffords do not have standing to
challenge § 1915(b) because their claim is not

standing at the time of judgment, they could not remedy the defect
retroactively.”).
25
Cf. 426 U.S. 67, 75 (1976). In Mathews, cited by JUDGE
DENNIS, the Court noted that “[a] supplemental complaint would
have eliminated this jurisdictional issue; since the record discloses,
both by affidavit and stipulation, that the jurisdictional condition
was satisfied, it is not too late, even now, to supplement the
complaint to allege this fact.” Id. (emphasis added). Mathews
involved Federal Rule of Civil Procedure 15(d), which allows a party
to file a supplemental pleading. See id. at 75 n.8; accord Northstar
Fin. Advisors Inc. v. Schwab Inv., 779 F.3d 1036, 1044 (9th Cir.
2015). The Brackeens did not file a supplemental pleading. Instead,
they filed a supplement to the record. Further, Mathews involved
the issue of exhaustion, not standing. See 426 U.S. at 75-76. Finally,
Mathews’ language that “even now,” filing a supplemental pleading
would not be “too late,” is dictum. In Mathews, the plaintiffs filed a
supplemental pleading after the complaint had been filed but before
final judgment had been entered. Id. at 75 (noting that the pleading
was supplemented “while the case was pending in the District
Court”). There was no issue of filing a supplemental pleading at the
Supreme Court level; thus, this language is dictum. Here, as stated,
the Brackeens did not supplement the record until after final
judgment was entered, and this cannot cure the defective complaint.
See Prasco, LLC v. Medicis Pharm. Corp., 537 F.3d 1329, 1337 (Fed.
Cir. 2008) (noting that “while ‘later events may not create
jurisdiction where none existed at the time of filing, the proper focus
in determining jurisdiction are the facts at the time the complaint
under consideration was filed’” (brackets and emphasis omitted)
(quoting GAF Bldg. Materials Corp. v. Elk Corp., 90 F.3d 479, 483
(Fed. Cir. 1996)).

362a
redressable. 26 They could have appealed their challenges
to ICWA in Minnesota state court but likely missed the
deadline to appeal. 27 The state of Minnesota is also not a
party to this lawsuit, so any ruling we make on the
constitutionality of ICWA would have no effect on the
Cliffords’ adoption proceedings. 28
III. Conclusion
It would be convenient if we could ignore facts that
are dispositive of Article III standing—as do JUDGES
DUNCAN and DENNIS—and proceed to the merits in
important constitutional cases such as this. We are,
however, governed by the rule of law. And a federal court
cannot weigh in on an issue over which it lacks
jurisdiction, however appealing doing so might be. I
concur with JUDGE COSTA that the Plaintiffs lack
standing because their case is not redressable. And even
though I join JUDGES DENNIS’s well-reasoned and
thorough Opinion on the merits, I would reverse the
district court’s order that the Plaintiffs have Article III
standing to challenge 25 U.S.C. § 1915(a) and (b) on equal
protection grounds.

See Susan B. Anthony List v. Dreihaus, 573 U.S. 149, 158
(2014) (noting that redressability is a requirement for standing)
27
See In re S.B., No. A19-0225, 2019 WL 6698079, at *1 (Minn.
Ct. App. Dec. 9, 2019) (showing no notice of appeal to the January
2020 judgment); see also Minn. R. Civ. App. P. 117 subd 1 (requiring
filing of notice of appeal within 30 days of the filing of the Court of
Appeals’ decision).
28
See Okpalobi v. Foster, 244 F.3d 405, 426–27 (5th Cir. 2001)
(en banc) (concluding that the plaintiffs’ claim was not redressable
because the defendants were “powerless to enforce [the Act] against
the plaintiffs (or to prevent any threatened injury from its
enforcement”)).
26

363a
HAYNES, Circuit Judge, concurring:
I concur with portions of both JUDGE DENNIS’s and
JUDGE DUNCAN’s Opinions (respectively, the “Dennis
Opinion” and the “Duncan Opinion”). 1 On standing, I
concur with the conclusions of Part I of the Duncan
Opinion that Plaintiffs have standing to bring all their
claims. 2
On the equal protection issues, I concur in part with
Part II(B)(2) of the Dennis Opinion that the definition of
“Indian child” does not violate the Equal Protection
Clause. As to the placement preferences, I conclude that
the first two prongs of ICWA § 1915(a)—concerning the
members of the child’s extended family and tribe—
withstand even strict scrutiny, so I concur with Part
II(B)(2) of the Dennis Opinion that they are
constitutional; but I concur with Part III(A)(3) of the
Duncan Opinion that the “other Indian families” prong
of ICWA § 1915(a) violates the Equal Protection Clause
because it fails to be rationally tied to fulfilling
Congress’s goals of protecting Indian tribes.
On the anti-commandeering/preemption issues, I
concur with the conclusion in Part II(A)(1) of the Dennis
Opinion that Congress had plenary authority under the
Indian Commerce Clause to enact ICWA, but I concur
with Parts III(B)(1)(a)(i) and III(B)(1)(a)(iv) and in part
with Parts III(B)(1)(a)(ii), III(B)(1)(b), and III(B)(2)(b)
of the Duncan Opinion that ICWA §§ 1912(d), (e) and
1915(e) violate the anti-commandeering doctrine and are
All references to the Dennis Opinion and Duncan Opinion are
to the enumerated sections under the “Discussion” portion of each
opinion.
2
In that regard, I also agree with the conclusions of Parts
I(A)(2)–(D) of the Dennis Opinion.
1

364a
invalid preemption provisions. With respect to the
remaining statutory provisions at issue, I concur with the
Dennis Opinion that they do not violate the anticommandeering doctrine and validly preempt state law.
On the nondelegation doctrine issue, I concur with
Part II(C) of the Dennis Opinion that ICWA § 1915(c)
does not violate that doctrine.
Lastly, on the Administrative Procedure Act issues,
I concur with Part III(D)(1) of the Duncan Opinion that
the Final Rule is invalid to the extent that it implements
the unconstitutional statutory provisions identified
above: ICWA §§ 1912 (d), (e), and 1915(e) and the “other
Indian families” prong of ICWA § 1915(a). However, to
the extent that the Final Rule implements constitutional
ICWA provisions, I concur with Part II(D)(1) of the
Dennis Opinion that those portions of the Final Rule are
valid. I also concur with Part II(D)(2) of the Dennis
Opinion that BIA did not exceed its authority in making
the Final Rule binding. But I concur with Part III(D)(3)
of the Duncan Opinion that the “good cause” standard in
25 C.F.R. § 23.132(b) fails at Chevron step one.

365a
STEPHEN A. HIGGINSON, Circuit Judge, concurring in
part, with whom JUDGE COSTA joins:
I concur in Judge Dennis’s comprehensive opinion
except for Discussion § I.A.2 and write separately to
highlight lessons I draw from two Supreme Court cases.
“Any rule of state immunity that looks to the
‘traditional,’ ‘integral,’ or ‘necessary’ nature of
governmental functions inevitably invites an unelected
federal judiciary to make decisions about which state
policies it favors and which ones it dislikes.” Garcia v.
San Antonio Metro. Transit Auth., 469 U.S. 528, 546
(1985). Engaging in this type of policy weighing, the
dissent would strike a statute that has garnered support
from Congressional members on both sides of the aisle,
a large number of states, and at least 325 federally
recognized Indian tribes and has been the law of the land
for over four decades.
Specifically, the dissent would hold that the
“structural guarantee of state sovereignty” limits
Congress’s authority to regulate state child custody
proceedings involving Indian children. It bases this on
two observations: “[n]o Supreme Court decision
supports Congress deploying its Indian affairs power to
govern state government proceedings,” and there is no
“comparable founding-era exercise[ ] of Congress’s
Indian affairs power.”
Yet, in Garcia, the Court explained why it rejected,
“as unsound in principle and unworkable in practice, a
rule of state immunity from federal regulation that turns
on a judicial appraisal of whether a particular
governmental function is ‘integral’ or ‘traditional’”: (1)
“it prevents a court from accommodating changes in the
historical functions of States, changes that have resulted

366a
in a number of once-private functions like education
being assumed by the States and their subdivisions”; (2)
it “results in line-drawing of the most arbitrary sort; the
genesis of state governmental functions stretches over a
historical continuum from before the Revolution to the
present, and courts would have to decide by fiat precisely
how longstanding a pattern of state involvement had to
be for federal regulatory authority to be defeated”; (3) it
is “unworkable,” in part “because of the elusiveness of
objective criteria for ‘fundamental’ elements of state
sovereignty”; and (4) “[s]tate sovereign interests . . . are
more properly protected by procedural safeguards
inherent in the structure of the federal system than by
judicially created limitations on federal power.” 469 U.S.
at 543–52. Contrary to this Supreme Court instruction,
the dissent risks resuscitating a misunderstanding of
state sovereignty that entangles judges with the
problematic policy task of deciding what issues are so
inherent in the concept and history of state sovereignty
that they fall beyond the reach of Congress.
“[T]he fact that the States remain sovereign as to all
powers not vested in Congress or denied them by the
Constitution offers no guidance about where the frontier
between state and federal power lies.” Id. at 550.
Instead, it is the nature of our federalist system that
states retain sovereign authority “only to the extent that
the Constitution has not divested them of their original
powers and transferred those powers to the Federal
Government.” Id. at 549. As Judge Dennis
comprehensively explains, the Indian Commerce Clause
has done exactly that with respect to Indian Affairs.
But it is not only the dissent’s test that diverges from
Supreme Court authority—it would also be its result.

367a
The Supreme Court has repeatedly recognized that
Congress can preempt state law that applies in state
domestic relations proceedings. See, e.g., Egelhoff v.
Egelhoff ex rel. Breiner, 532 U.S. 141, 146 (2001) (holding
that ERISA preempted application of Washington
statute in state probate proceedings); Boggs v. Boggs,
520 U.S. 833, 841 (1997) (holding that ERISA preempted
application of Louisiana community property law in state
probate proceedings); McCarty v. McCarty, 453 U.S.
210, 232–33 (1981) (holding that federal law preempted
application of California community property law in
state divorce proceedings); Hisquierdo v. Hisquierdo,
439 U.S. 572, 590 (1979) (holding that the Railroad
Retirement Act preempted application of California
community property law in state divorce proceedings);
Free v. Bland, 369 U.S. 663, 670 (1962) (holding that
federal law preempted application of Texas community
property law in state probate proceedings); Wissner v.
Wissner, 338 U.S. 655, 658–59 (1950) (holding that the
National Service Life Insurance Act preempted
application of California community property law in
state probate proceedings); McCune v. Essig, 199 U.S.
382, 389–90 (1905) (holding that the Homestead Act
preempted application of Washington community
property law in state probate proceedings); see also
Gregory v. Ashcroft, 501 U.S. 452, 460 (1991) (“Congress
may legislate in areas traditionally regulated by the
States.”). That is exactly what Congress did here. See 25
U.S.C. § 1902 (declaring Congress’s intent to establish
“minimum Federal standards” to be applied in state
child custody proceedings involving Indian children).
The dissent relies primarily on Seminole Tribe v.
Florida, 517 U.S. 44 (1996), to support a contrary result.

368a
But even Chief Justice Rehnquist—the author of
Seminole Tribe and perhaps the most faithful proponent
of state’s rights—explicitly recognized that Congress
may preempt state domestic relations law. See McCarty,
453 U.S. at 237 (Rehnquist, J., dissenting) (“[T]he
authority of the States should not be displaced except
pursuant to the clearest direction from Congress.”
(emphasis added)); see also Bond v. United States, 572
U.S. 844, 858 (2014) (“‘[I]t is incumbent upon the federal
courts to be certain of Congress’ intent before finding
that federal law overrides’ the ‘usual constitutional
balance of federal and state powers.’” (quoting Gregory,
501 U.S. at 460)). Although Chief Justice Rehnquist’s
position was narrower than the dissent’s here, see
McCarty, 453 U.S. at 232 (finding state community
property law preempted where (1) there was a conflict
between the federal and state laws and (2) the
consequences of the state law sufficiently injured the
objectives of the federal program), I highlight it to
demonstrate how consequential the dissent’s retort to
clearly stated congressional authority actually is. Even
applying Chief Justice Rehnquist’s dissenting position,
the Indian Child Welfare Act (“ICWA”) stands. The
ICWA establishes “minimum Federal standards” to be
applied in state child custody proceedings involving
Indian children—it is hard to image a clearer indication
of Congress’s intent to preempt state law. 25 U.S.C.
§ 1902.
Just as “[n]one can dispute the central role
community property laws play in . . . community
property States,” Boggs, 520 U.S. at 839–40, it is
irrefutable that states have a compelling interest in their
child custody proceedings. Nevertheless, important,

369a
longstanding, and binding Supreme Court precedent
recognizes both the United States’ unique and
compelling obligation to Indians, see United States v.
Lara, 541 U.S. 193, 200 (2004) (“[T]he Constitution
grants Congress broad general powers to legislate in
respect to Indian tribes, powers that we have
consistently described as ‘plenary and exclusive.’”
(citations omitted)); see also McGirt v. Oklahoma, 140 S.
Ct. 2452, 2462 (2020) (“This Court long ago held that the
Legislature wields significant constitutional authority
when it comes to tribal relations.”), and dictates that
“[t]he relative importance to the State of its own law is
not material when there is a conflict with a valid federal
law, for the Framers of our Constitution provided that
the federal law must prevail,” Free, 369 U.S. at 666.

370a
GREGG COSTA, Circuit Judge, concurring in part and
dissenting in part, with whom CHIEF JUDGE OWEN joins
as to Parts I and II(A) and the final paragraph of Part
II(B), with whom JUDGES WIENER and HIGGINSON join,
with whom JUDGE DENNIS joins as to Part II, and with
whom JUDGE SOUTHWICK joins as to part I:
Congress passed the Indian Child Welfare Act of
1978 on voice votes, a procedure typically reserved for
noncontroversial legislation. The law continues to enjoy
bipartisan support. See Brief of Members of Congress as
Amici Curiae in Support of Defendants-Appellants and
Reversal. Leading child welfare organizations believe
the law “embodies and has served as a model for the child
welfare policies that are [the] best practices generally”
and reflects “the gold standard for child welfare policies
and practices in the United States.” Brief of Casey
Family Programs and 30 Other Organizations Working
with Children, Families, and Courts to Support
Children’s Welfare as Amici Curiae in Support of
Appellants at 2; Letter from Child Welfare Advocates to
Elizabeth Appel, Off. of Regul. Aff. & Collaborative
Action, U.S. Dep’t of Interior (May 19, 2015),
http://www.nativeamericanbar.org/wpcontent/uploads/2014/01/CFP-et-al-Support-Letter-ReProposed-ICWA-Regulations.pdf.
Yet more than four decades into its existence, a
federal district court held key parts of the law
unconstitutional. That facial invalidation is contrary to
the longstanding views of state courts, where adoption
proceedings of course take place. 1 It is ironic that a
See, e.g., In re K.M.O., 280 P.3d 1203, 1214–15 (Wyo. 2012); In
re Phoenix L., 708 N.W.2d 786, 795–98 (Neb. 2006); In re Baby Boy
1

371a
federal court saw infringements on state sovereignty
that the state courts themselves have not seen.
I.
Such ironies abound in this case. The most
astonishing irony results from this being a federal court
challenge to laws that apply in state adoption
proceedings. It will no doubt shock the reader who has
slogged through today’s lengthy opinions that, at least
when it comes to the far-reaching claims challenging the
Indian Child Welfare Act’s preferences for tribe
members, this case will not have binding effect in a single
adoption. That’s right, whether our court upholds the law
in its entirety or says that the whole thing exceeds
congressional power, no state family court is required to
follow what we say. See, e.g., Penrod Drilling Corp. v.
Williams, 868 S.W.2d 294, 296 (Tex. 1993) (per curiam)
(noting that Texas state courts are “obligated to follow
only higher Texas courts and the United States Supreme
Court”); ASARCO Inc. v. Kadish, 490 U.S. 605, 617
(1989) (recognizing that state courts “render binding
L., 103 P.3d 1099, 1106–07 (Okla. 2004); In re A.B., 663 N.W.2d 625,
634–37 (N.D. 2003), cert. denied, 541 U.S. 972 (2004); Ruby A. v.
State, Dep’t of Health & Soc. Servs., 2003 WL 23018276, at *4–5
(Alaska Dec. 29, 2003); In re Marcus S., 638 A.2d 1158, 1158–59 (Me.
1994); In re Armell, 550 N.E.2d 1061, 1067–68 (Ill. App. Ct. 1990),
cert. denied, 498 U.S. 940 (1990); In re Miller, 451 N.W.2d 576, 578–
79 (Mich. Ct. App. 1990) (per curiam); In re Application of Angus,
655 P.2d 208, 213 (Or. Ct. App. 1982), cert. denied, 464 U.S. 830
(1983); In re Appeal in Pima Cty. Juvenile Action No. S-903, 635
P.2d 187, 193 (Ariz. Ct. App. 1981), cert. denied, 455 U.S. 1007
(1982); In re Guardianship of D.L.L., 291 N.W.2d 278, 281 (S.D.
1980). But see In re Santos Y., 92 Cal. App. 4th 1274 (Cal. Ct. App.
2001) (upholding “as applied” constitutional challenges to ICWA
when the child had never been part of an Indian home).

372a
judicial decisions that rest on their own interpretations
of federal law”).
There is a term for a judicial decision that does
nothing more than opine on what the law should be: an
advisory opinion. That is what the roughly 300 pages you
just read amount to.
The rule that federal courts cannot issue advisory
opinions is as old as Article III. See Hayburn’s Case, 2
Dall. 409, 410 n.* (1792); 3 THE CORRESPONDENCE AND
PUBLIC PAPERS OF JOHN JAY 486–89 (Johnston ed. 1891)
(August 8, 1793, letter from Chief Justice Jay refusing to
give the Washington Administration advice on legal
questions relating to war between Great Britain and
France); see also Flast v. Cohen, 392 U.S. 83, 96 (1968)
(“[I]t is quite clear that ‘the oldest and most consistent
thread in the federal law of justiciability is that the
federal courts will not give advisory opinions.’” (quoting
CHARLES ALAN WRIGHT, FEDERAL COURTS 34 (1963))).
Early courts could just call such a case what it was—a
request for an advisory opinion, see, e.g., Muskrat v.
United States, 219 U.S. 346, 361–63 (1911); United States
v. Ferreira, 54 U.S. 40, 51–52 (1851); Hayburn’s Case, 2
Dall. at 410 n.*. The modern rise of public law litigation
resulted in the development of doctrines likes standing,
ripeness, and mootness to enforce the “case or
controversy” requirement. See Cass R. Sunstein, What’s
Standing After Lujan? Of Citizen Suits, “Injuries,” and
Article III, 91 MICH. L. REV. 163, 169 (1992) (noting that
the Supreme Court did not use the word “standing” until
1944 (citing Stark v. Wickard, 321 U.S. 288 (1944))). This
compartmentalization of justiciability law risks losing
the forest for the trees. Justiciability doctrines, with
their various elements and exceptions, have one

373a
underlying aim: ensuring federal courts only hear cases
that actually decide concrete disputes. Decide is the key
word here. When a judicial opinion does not actually
resolve a dispute, it has no more legal force than a law
review article.
The modern doctrinal box most concerned with
weeding out advisory opinions is the redressability
element of standing. “Satisfaction of this requirement
ensures that the lawsuit does not entail the issuance of
an advisory opinion without the possibility of any judicial
relief, and that the exercise of a court’s remedial powers
will actually redress the alleged injury.” Los Angeles v.
Lyons, 461 U.S. 95, 129 (1983) (Marshall, J., dissenting).
The redressability requirement proves fatal to at
least the equal protection claim (which is really a claim
under the Fifth Amendment’s Due Process Clause
because ICWA is a federal law). Nothing we say about
equal protection will redress the Brackeens’ alleged
injury of potentially being subject to preferences that
would favor tribe members in the adoption of Y.R.J. 2
Their argument for redressability is that the family court
judge may, or even says he will, follow our constitutional
ruling. In other words, our opinion may advise him on
how to decide the adoption case before him. This
description of the plaintiffs’ argument reveals why it
doesn’t work. Maybe the opinion will convince the family
court judge, maybe it won’t. The same is true for law
The States do not have standing to pursue the equal protection
claim because they are not “persons” entitled to the protection of
the Fifth Amendment. See South Carolina v. Katzenbach, 383 U.S.
301, 323–24 (1966). They thus cannot suffer an equal protection
injury of their own. Indeed, neither the opinion from the threejudge panel nor the en banc majority opinion relies on the States for
equal protection standing.
2

374a
review articles or legal briefs. But what is supposed to
separate court decisions from other legal writings is that
they actually resolve a dispute.
Yet JUDGE DENNIS’s Opinion signs off on plaintiffs’
redressability theory, 3 finding it sufficient that it is
“‘substantially likely that [a state court] would abide by
an authoritative interpretation’ of ICWA.” 4 Dennis Op.
at 45 (quoting Franklin v. Massachusetts, 505 U.S. 788,
803 (1992)); see also id. at 43 (stating that “the Texas trial
court has indicated that it will refrain from ruling on the
Brackeens’ federal constitutional claims pending a ruling
from this court”). Finding redressability based on the
possibility that another court will consider the opinion
persuasive would allow the requirements of standing to
be satisfied by advisory opinions—the very thing that

3
On their own, neither JUDGE DENNIS’s Opinion nor JUDGE
DUNCAN’s Opinion garners a majority of the court to find standing
for the equal protection claim. Combining the two opinions,
however, a majority concludes there is standing. I thus address both
opinions.
4
Don’t overlook the ellipsis—it obscures something critical. The
replaced language was not referring to a “state court” that might
follow the federal decision, but to “the President and other executive
and congressional officials.” Franklin, 505 U.S. at 803. That lawsuit
challenging a decennial reapportionment of congressional seats was
brought against the Secretary of Commerce, who was certainly
bound by the judgment, and the question was whether a ruling
against that Cabinet member who oversaw the census could
influence the reapportionment even though the President had
ultimate policymaking authority in the executive branch. Holding
that the head of the relevant cabinet agency could be sued was
hardly
extraordinary.
What
is
extraordinary—in
fact
unprecedented—is to find standing based on the chance that
another court might follow the federal decision not because it has to
but because it might want to.

375a
the doctrine was designed to prevent. Justice Scalia
nailed the problem with this reasoning:
If courts may simply assume that everyone
(including those who are not proper parties to
an action) will honor the legal rationales that
underlie their decrees, then redressability
will always exist. Redressability requires
that the court be able to afford relief through
the exercise of its power, not through the
persuasive or even awe-inspiring effect of the
opinion explaining the exercise of its power.
Franklin, 505 U.S. at 825 (Scalia, J., concurring in part
and in the judgment). It therefore is not enough that the
family court judge has indicated he might, or even will,
follow what the federal court decides.
This court has no authority to resolve whether the
ICWA-mandated burden of proof will apply in the Y.R.J.
adoption. The binding effect of a legal decision—in
standing lingo, its ability to redress an injury—must flow
from the judgment itself. Id; see also United States v.
Juvenile Male, 564 U.S. 932, 937 (2011) (per curiam)
(rejecting the notion that a case could be justiciable
because “a favorable decision in this case might serve as
useful precedent for respondent in a hypothetical
[future] lawsuit”). But the Brackeens would come up
short even if a decision’s precedential effect could
establish redressability. Texas courts do not have to
follow the decisions of lower federal courts on questions
of federal law. 5 Penrod Drilling Corp., 868 S.W.2d at 296;
Apparently recognizing this problem, the Brackeens argue
that “if the Supreme Court affirmed, all courts would be bound by
that decision.” En Banc Brief of Individual Plaintiffs 63. The
5

376a
see also Arizonans for Official English v. Arizona, 520
U.S. 43, 58 n.11 (1997) (rejecting as “remarkable” the
idea that a state court must follow the precedent of lower
federal courts); Lockhart v. Fretwell, 506 U.S. 364, 375–
76 (1993) (Thomas, J., concurring) (explaining that
“neither federal supremacy nor any other principle of
federal law requires that a state court’s interpretation of
federal law give way to a (lower) federal court’s
interpretation”).
The bottom line is that both before and after the
district court held ICWA unconstitutional, the Texas
judge in the Y.R.J. adoption case (or any other) could
come out either way on an equal protection claim.
Indeed, the state court judge has already ruled on some
of the constitutional claims presented here. See In re
Y.J., 2019 WL 6904728, at *1 (Tex. App.—Fort Worth,
Dec. 19, 2019) (noting family court’s holding that ICWA
violated the anticommandeering doctrine). A petition
challenging that ruling is pending with the Supreme
Court of Texas. See In re Y.J., Tex. S. Ct. No. 20-0081
(petition available at 2020 WL 750104). Some of the
issues the petition asks the state high court to resolve
argument ignores the principle explained above that redressability
must come from the judgment itself as opposed to the precedential
force an opinion may have.
And there is another problem with this argument, one again
recognized by Justice Scalia. Standing is determined at the outset
of a lawsuit, and no one then knows whether the case will be one of
the rare ones that makes it to the Supreme Court. Lujan v.
Defenders of Wildlife, 504 U.S. 555, 570 n.5 (1992) (explaining that
“standing is to be determined as of the commencement of suit” and
“at that point it could certainly not be known that the suit would
reach this Court”). If standing depended on whether the Supreme
Court granted cert, then a cert denial would wipe away the years of
litigation in the lower federal courts.

377a
will sound familiar: whether ICWA was “lawfully
enacted by Congress” and whether it “discriminate[s] on
the basis of race.” Id. at 9, 13. What we think about those
same issues will have no binding effect on the state
courts that get to resolve the adoption, whether that be
the state supreme court or the family court judge. That
irrefutable point means our ruling on the lawfulness of
ICWA preferences cannot redress the plaintiffs’ injury.
One might wonder if the advisory nature of this case
doesn’t always characterize declaratory judgments.
After all, “ordinarily a case or judicial controversy
results in a judgment requiring award of process of
execution to carry it into effect.” Fidelity Nat’l Bank &
Tr. Co. v. Swope, 274 U.S. 123, 132 (1927). To be sure,
there is an advisory flavor to all declaratory actions: they
resolve rights in a future suit that has not yet fully
materialized. Concerns that declaratory judgments were
advisory led the Supreme Court to refuse to hear some
claims for declaratory relief before the enactment of the
Declaratory Judgment Act of 1934. Willing v. Chi.
Auditorium Ass’n, 277 U.S. 274, 286–89 (1928)
(Brandeis, J.) (explaining that deciding whether a lessee
would have violated a lease by demolishing a building
before the demolition occurred would be a “declaratory
judgment[, which] relief is beyond the power conferred
upon the federal judiciary”); Liberty Warehouse Co. v.
Grannis, 273 U.S. 70, 76 (1927) (holding there was no
jurisdiction over claim under Kentucky’s declaratoryjudgment law). But see Nashville, Cent. & St. Louis Ry.
v. Wallace, 288 U.S. 249, 258, 264–65 (1933) (holding that
federal courts had jurisdiction over claim brought under
state declaratory-judgment law).

378a
What saves proper declaratory judgments from a
redressability problem—but is lacking here—is that
they have preclusive effect on a traditional lawsuit that
is imminent. 6 See 10B WRIGHT ET AL., supra, § 2771 (“A
declaratory judgment is binding on the parties before
the court and is claim preclusive in subsequent
proceedings as to the matters declared . . . .”); accord
RESTATEMENT (SECOND) OF JUDGMENTS § 33. Take an
insurance coverage dispute, which was the nature of the
case upholding the federal Declaratory Judgment Act
and remains the prototypical declaratory action today.
Aetna Life Ins. Co. v. Haworth, 300 U.S. 227 (1937). A
federal court’s declaration, in a case between the insurer
and insured, of whether there is coverage will bind those
parties in a subsequent lawsuit seeking to recover on the
policy. See id. at 239, 243–44. That “definitive
determination of the legal rights of the parties” is what
allows declaratory judgments in federal court. Id. at
241. To be justiciable, a declaratory judgment must seek
“specific relief through a decree of a conclusive
character.” Id.; accord MedImmune, Inc. v. Genentech,
Inc., 549 U.S. 118, 127 (2007). In contrast, our resolution
of the equal protection question will conclude nothing.
A leading federal procedure treatise recognizes that
preclusive effect is what separates a permissible

The more common standing problem for declaratory
judgments is whether the second lawsuit “is of sufficient immediacy
and reality.” See 10B CHARLES ALAN WRIGHT ET AL., FEDERAL
PRACTICE & PROCEDURE § 2757 (4th ed. 2020). That is part of
standing’s injury requirement, which requires an “actual or
imminent” harm. Lujan, 504 U.S. at 560 (1992) (quotations omitted).
The redressability problem this request for declaratory relief poses
is less common but no less fundamental.
6

379a
declaratory judgment from an impermissible advisory
opinion:
The federal Declaratory Judgment Act
provides that a declaratory judgment shall
have the force and effect of a final judgment
or decree. The very purpose of this remedy is
to establish a binding adjudication that
enables the parties to enjoy the benefits of
reliance and repose secured by res judicata.
Denial of any preclusive effect, indeed, would
leave a procedure difficult to distinguish from
the mere advisory opinions prohibited by
Article III.
18A WRIGHT ET AL., supra, § 4446. This requirement
explains why you will not find a declaratory judgment
that lacks preclusive effect.
This case will be the first. There is no mutuality of
parties, nor is the state court judge who will decide
Y.R.J.’s case a party. The Brackeens have suggested that
a ruling in this federal case would bind the Navajo Nation
in state court. That is not true for multiple reasons. For
starters, the Navajo Nation was not a party in the
district court (it intervened on appeal), so standing on
that basis would not have existed when the suit was filed
or even when judgment was entered. See Lujan, 504 U.S.
at 570 n.5 (“[S]tanding is to be determined as of the
commencement of suit.”). 7 Relatedly, it is doubtful that
Lujan is right on point. The plaintiff sought to establish
redressability by arguing that “by later participating in the suit”
two federal agencies “created a redressability (and hence a
jurisdiction) that did not exist at the outset.” Id. at 569 n.4. That
argument did not work because “[t]he existence of federal
jurisdiction ordinarily depends on the facts as they exist when the
7

380a
issue preclusion applies to a party that does not litigate
in the trial court. Apart from these defects relating to the
timing of Navajo Nation’s entering this lawsuit, issue
preclusion does not usually apply to pure questions of law
like whether ICWA’s preferences violate the Fifth
Amendment. John G. & Marie Stella Kenedy Mem.
Found. v. Dewhurst, 90 S.W.3d 268, 288 (Tex. 2002)
(explaining that “[d]eterminations of law are not
generally given preclusive effect” in refusing to give
effect to federal court ruling interpreting old land grant
under Mexican civil law); see also In re Westmoreland
Coal Co., 968 F.3d 526, 532 (5th Cir. 2020);
RESTATEMENT (SECOND) OF JUDGMENTS § 29(7) (1982);
18 WRIGHT ET AL., supra, § 4425, at 697-701 (all
recognizing same principle). This ordinary reluctance to
give preclusive effect to questions of law becomes even
stronger when, as here, the two cases are in different
forums and neither jurisdiction’s highest court has
resolved the issue. RESTATEMENT (SECOND) OF
JUDGMENTS § 29(7) cmt. i.
JUDGE DUNCAN’S Opinion states the plaintiffs need
only show that the “practical consequences” of a ruling
by this court would “significantly increase the likelihood
of relief.” Duncan Op. at 20. Note the opinion does not
say—and can’t say because no case does—that
redressability can be met when the “practical
consequence” is convincing a state court judge to follow
our lead. That distinction is critical. As I have recounted,
state courts have no obligation to follow a lower federal
complaint is filed.” Id. (quoting Newman-Green, Inc. v. AlfonzoLarrain, 490 U.S. 826, 830 (1989)). Any claim of postfiling
redressability is even weaker here because Navajo Nation did not
intervene until the appeal.

381a
court’s ruling on federal law. In contrast, the executive
branch officials sued in cases like Franklin would be
bound in later litigation by the federal court’s
declaratory judgment. 505 U.S. at 803 (recognizing that
the Commerce Secretary’s role in “litigating [the]
accuracy” of the census meant that declaratory relief
against her would redress plaintiff’s injuries). The
Franklin redressability dispute was about whether the
Cabinet member being sued had sufficient influence over
the challenged policy even though the President had the
ultimate say (as is always the case). On that question, a
substantial likelihood that the Commerce Secretary
could influence the census conducted by the department
she headed established redressability. 505 U.S. at 803
(recognizing that it was the Commerce Secretary’s
“policy determination concerning the census” that was
being challenged); see also supra note 4. Franklin’s
unremarkable reasoning is why there is redressability
for the APA claims—a declaratory judgment against the
Interior Secretary would bind her when it comes to
enforcing the department’s challenged regulations.
But contrary to JUDGE DUNCAN’S Opinion, the
Plaintiffs’ standing to challenge regulations cannot
bootstrap the claims challenging ICWA’s statutory
preferences into federal court. DaimlerChrysler Corp. v.
Cuno, 547 U.S. 332, 352 (2006) (“[O]ur standing cases
confirm that a plaintiff must demonstrate standing for
each claim he seeks to press.”). Even without a
regulation requiring “clear and convincing” evidence to
justify departing from the preferences, the statutory
preferences remain and must be applied by state court
judges unless they hold them unconstitutional. The
benefit the individual Plaintiffs would receive from a

382a
declaration that the “clear and convincing evidence”
regulation is invalid establishes redressability for the
APA claim challenging that regulation; it does not show
how a declaration that the underlying statutory
preferences are unconstitutional would redress
plaintiffs’ injuries. But see Duncan Op. at 21–22.
JUDGE DUNCAN’S second stab at redressability also
improperly cross-pollinates standing among different
claims. Redressability arising from a declaration that
any obligations the placement preferences impose on
child welfare officials violate anti-commandeering
principles at most establishes standing for that
“particular claim[],” Allen v. Wright, 468 U.S. 737, 752
(1984), not the equal protection claim that seeks to
declare unlawful the preferences as they apply in state
court proceedings. But see Duncan Op. at 21–22. And the
statutory preferences remain on the books regardless of
federal funding based on ICWA compliance. 8 But see id.
at 21.
The final redressability theory in JUDGE DUNCAN’S
Opinion is that the “requested relief would make the
adoptions less vulnerable to being overturned” because
it “would declare unenforceable the collateral attack
provisions themselves and the underlying grounds for
invalidity.” Duncan Op. at 21 (citing 25 U.S.C. §§ 19111914). This again mixes and matches claims against
different provisions instead of requiring the plaintiffs to
“demonstrate standing separately” for each claim.
CHIEF JUDGE OWEN also correctly notes that the funding
issue “was not raised or briefed in the district court or this court.”
Owen Op. at 5. Nor is it clear how the individual plaintiffs, as
opposed to the States which cannot assert a Fifth Amendment
claim, are injured by the funding issue.
8

383a
Friends of the Earth, Inc. v. Laidlaw Envtl. Servs., Inc.,
528 U.S. 167, 185 (2000). More fundamentally, it brings
us back to where I started: no state court judge has to
follow what we say about ICWA. Consequently, even if
standing to challenge the collateral review provisions
somehow transfers to support standing for challenging
the separate provisions establishing the preferences in
the first place, no state court has to follow a “ruling” we
make about the collateral review provisions. To a state
court judge, our “ruling” is nothing more than
pontifications about the law. Perhaps our view persuades
the state court, perhaps not.
So both of the opinions that find standing for the
equal protection claim end up basing that view, at least
in part, on the possibility that a Texas judge might decide
to follow our view of the law. Think about the
consequences of this unprecedented view of standing. A
plaintiff need only find a state court judge who says she
would defer to a federal court ruling on the difficult
constitutional issue she is facing. Presto! A plaintiff could
manufacture standing for a federal lawsuit even when a
declaratory judgment would not have preclusive effect
on any parties to the federal suit. Talk about upsetting
the state/federal balance.
This license to allow outsourcing of traditional state
court matters to federal court brings me back to the
opening point. To supposedly vindicate federalism, we
offend it by deciding questions that state court judges
are equipped to decide and have for decades—with the
Supreme Court having a chance to review those rulings.
See, e.g., Adoptive Couple v. Baby Girl, 570 U.S. 637
(2013) (case arising in South Carolina courts); cf. Moore
v. Sims, 442 U.S. 415, 418, 434–35 (1979) (holding that

384a
Younger abstention applies to family law cases). That we
disregard the limits of federal jurisdiction to reach out
and decide issues that are raised directly in adoption
cases makes our lack of faith in our state court colleagues
even more troubling. Why aren’t they capable of deciding
these issues that are squarely before them? Any
historical and institutional concerns about state courts’
willingness to vindicate federal constitutional rights are
lessened when a federal statute is being challenged. If
anything, state court judges would be more receptive to
concerns, like the allegations plaintiffs raise here, that a
federal law is interfering with constitutional protections
for States and individuals.
If the case-or-controversy requirement means
anything, it prevents a federal court from opining on a
constitutional issue on the mere hope that some judge
somewhere may someday listen to what we say. No
limitation on Article III is more fundamental than our
inability to issue such an advisory opinion.
II.
A.
That brings us to the most tragic irony of today’s
opinions. After more than two centuries of courts’
recognizing sweeping federal power over Indian affairs
when that power was often used to destroy tribal life, our
court comes within a whisker of rejecting that power
when it is being used to sustain tribal life. It would be
news to Native Americans that federal authority to wage
war against Indian nations, to ratify treaties laying claim
to more than a billion acres of Indian land, to remove
Indian communities to reservations, and to establish
schools aimed at “civilizing” Indian pupils does not reach
the Indian family. See United States v. Lara, 541 U.S.

385a
193, 201–04 (2004); 1 COHEN’S HANDBOOK OF FEDERAL
INDIAN LAW §§ 1.01–03. Contrary to what a nearmajority of our court concludes, the same power
Congress once relied on to tear Indian children from
Indian homes authorizes Congress to enlist state courts
in the project of returning them.
Two centuries of federal domination over Indian
affairs are enough to sustain ICWA’s provisions
regulating state domestic relations proceedings.
Congress has “plenary and exclusive” authority “to
legislate in respect to Indian tribes.” Lara, 541 U.S. at
200. This “broad power,” White Mountain Apache Tribe
v. Bracker, 448 U.S. 136, 142 (1980), is found in Article I,
which authorizes Congress to “regulate commerce…with
the Indian tribes.” U.S. CONST. art. I, § 8. The Indian
Commerce Clause “accomplishes a greater transfer of
power from the States to the Federal Government than
does the Interstate Commerce Clause.” Seminole Tribe
of Fla. v. Florida, 517 U.S. 44, 62 (1996).
JUDGE DENNIS well articulates how federal
supremacy in the field of Indian affairs grew out of the
Founding generation’s understanding of the relationship
between the new nation and tribes. From the outset, the
Continental Congress dealt with Indian tribes just as it
did foreign nations, wielding an indivisible bundle of
powers that encompassed war, diplomacy, and trade. En
Banc Brief for Professor Gregory Ablavsky in Support
of Defendants-Appellants and Reversal at 5–6. But
under the Articles of Confederation, some states claimed
much of the same authority, leaving the state and federal
governments jostling for control over Indian relations.
Gregory Ablavsky, Beyond the Indian Commerce
Clause, 124 YALE L.J. 1012, 1021–22 (2015) (discussing

386a
ARTICLES OF CONFEDERATION OF 1781, art. IX, para. 4).
The Constitution solved this predicament by making
federal authority over Indian commerce, treatymaking,
and territorial administration exclusive. Id. The national
government soon claimed, with the apparent assent of
state leaders, undivided power over Indian affairs. Id. at
1041–44. Dennis Op. at 7–13.
The Framers grounded federal power over Indian
affairs in both the explicit constitutional text and in
implicit
preconstitutional
understandings
of
9
sovereignty. Brief of Indian Law Scholars as Amici
Curiae in Support of Defendants-Appellants at 1. They
viewed relations between the United States and Indian
tribes as governed by the law of nations. Ablavsky,
supra, at 1059–67. Many early treaties embraced the
idea that the United States, as the more powerful
sovereign, owed a duty of protection to tribes. Brief of
Indian Law Scholars, at 1–2 (collecting examples). And
the Supreme Court emphasized that this responsibility
for Indian welfare imbued the federal government with
immense power at the expense of the states. See, e.g.,
Worcester v. Georgia, 31 U.S. 515, 560–61 (1832); United

Just as the Supreme Court has stressed that background
principles of state sovereign immunity inform interpretation of the
Eleventh Amendment, Seminole Tribe, 517 U.S. at 72, the Court has
recognized the relevance of the historical context from which the
plenary federal Indian power emerged. See Lara, 541 U.S. at 201
(tracing federal authority over Indian affairs to “the Constitution’s
adoption of preconstitutional powers necessarily inherent in any
Federal Government”); Morton v. Mancari, 417 U.S. 535, 551–53
(1974) (“The plenary power of Congress to deal with the special
problems of Indians is drawn both explicitly and implicitly from the
Constitution itself.”).
9

387a
States v. Kagama, 118 U.S. 375, 384 (1886); United
States v. Rickert, 188 U.S. 432, 437–38 (1903).
How far does this power extend? The Supreme Court
has upheld federal authority to enact special criminal
laws, in the name of “continued guardianship,” affecting
U.S. citizens who are Indian tribe members. United
States v. Nice, 241 U.S. 591, 595–99 (1916) (construing
the General Allotment Act of 1887). Congress may
violate treaty obligations in its disposal of tribal
property, Lone Wolf v. Hitchcock, 187 U.S. 553, 564, 567–
68 (1903) (validating congressional allotment in conflict
with treaty between the United States and Kiowa and
Comanche Tribes); unilaterally determine tribal
membership for the purposes of administering tribal
assets, Del. Tribal Bus. Cmte. v. Weeks, 430 U.S. 73, 84–
86 (1977) (upholding statute appropriating award made
by Indian Claims Commission); exercise eminent domain
over tribal lands, Cherokee Nation v. S. Kan. Ry. Co., 135
U.S. 641, 656–67 (1890) (upholding legislation granting
railroad right of way through Indian land); and single out
Indian applicants for preferred hiring in federal jobs,
Mancari, 417 U.S. at 551–55 (sustaining constitutionality
of Indian Reorganization Act of 1934). 10

The Supreme Court has recognized the extraordinary breadth
of federal power in another area where Congress wields plenary
authority: immigration. See Michael Doran, The Equal-Protection
Challenge to Federal Indian Law, 6 U. PA. J. L. & PUB. AFF. 1, 34–
42 (2020). The foundational cases recognizing plenary federal
authority over immigration and Indian affairs were decided just
three years apart and rely on similar reasoning. Compare Chae
Chan Ping v. United States, 130 U.S. 581 (1889), with Kagama, 118
U.S. at 375 (1886); see also Doran, supra, at 34–36 (noting
similarities in the reasoning of the cases).
10

388a
Where do the states stand in relation to the “plenary
and exclusive” federal power over Indian affairs? They
are “divested of virtually all authority over Indian
commerce and Indian tribes.” Seminole Tribe, 517 U.S.
at 62. The states, in ratifying the Constitution, ceded to
Congress “the exclusive right to regulate . . . intercourse
with the Indians,” Worcester, 31 U.S. at 590, as clearly as
the states gave Congress sole power to “coin money,
establish post offices, and declare war,” id. at 580–81.
Even when federal policy favoring state control over
Indian affairs reached its height, Congress withheld
from the states “general civil regulatory powers . . . over
reservation Indians.” Bryan v. Itasca Cty., 426 U.S. 373,
390 (1976) (interpreting Pub. L. 280); COHEN’S § 1.06 &
n.32.
Some examples illustrate the limits of state authority
to regulate Indian affairs even in core areas of state
power like criminal law and taxation. Without Congress’s
blessing, states cannot exercise criminal jurisdiction
over Indian country. See Washington v. Confederated
Bands and Tribes of the Yakima Indian Nation, 439
There is also symmetry in the scope of federal power over these
two subjects. Just as limited rational-basis review governs
classifications involving tribes, the immigration power allows the
federal government to discriminate among noncitizens in a way that
states may not. Compare Mathews v. Diaz, 426 U.S. 67, 79–80 (1976)
(Congress may withhold Medicare eligibility from certain
noncitizens), with Graham v. Richardson, 403 U.S. 365, 376 (1971)
(states may not constitutionally deny welfare benefits to certain
noncitizens); see also Doran, supra, at 36–39 & n.193 (drawing this
comparison). And because “the regulation of aliens is so intimately
blended and intertwined with responsibilities of the national
government,” “[a]ny concurrent state power that may exist is
restricted to the narrowest of limits.” Hines v. Davidowitz, 312 U.S.
52, 66–68 (1941).

389a
U.S. 463, 470–71 (1979) (discussing federal authorization
of state jurisdiction under Pub. L. 280); United States v.
John, 437 U.S. 634, 649–54 (1978) (holding state criminal
jurisdiction precluded by Major Crimes Act of 1885);
Kagama, 118 U.S. at 379–80. Congress can exempt
Indians from state property taxes. Bd. of Comm’rs of
Creek Cty. v. Seber, 318 U.S. 705, 715–18 (1943). Even
when Congress has not legislated, exclusive federal
authority in the domain of Indian affairs may preempt
state regulation. McClanahan v. State Tax Comm’n of
Ariz., 411 U.S. 164, 165 (1973) (invalidating state tax on
tribe member’s income earned on reservation); Bracker,
448 U.S. at 150–52 (striking down state tax on
commercial activities of non-Indians on Indian land).
JUDGE DUNCAN’s Opinion proclaims ICWA a novel
exercise of congressional power because it interferes
with state domestic relations proceedings. But as JUDGE
DENNIS recounts, the federal government has been a
constant, often deleterious presence in the life of the
Indian family from the beginning. And, as will be
discussed, ICWA is hardly the only statute to impose
federal standards on state courts.
Congress’s interest in the destiny of Indian children
is older than the Republic itself. The Continental
Congress viewed Indian education as a wartime
strategy, authorizing a grant to Dartmouth College with
the hope that bringing Indian students to the school
would deter any possible attack by British-allied tribes.
Matthew L.M. Fletcher & Wenona T. Singel, Indian
Children and the Federal-Tribal Trust Relationship, 95
NEB. L. REV. 885, 911 (2017). Following Independence,
more than one hundred treaties provided for Indian
education. Brief of Indian Law Scholars, at 4. But early

390a
federal efforts to offer voluntary education programs
morphed into a “coercive and destructive” system of
boarding schools designed to assimilate Indian children.
MATTHEW L.M. FLETCHER, PRINCIPLES OF FEDERAL
INDIAN LAW § 3.6 (1st ed. 2017); Brief of Ablavsky, at 20.
The federal government instituted its “civilization”
policy by force, punishing Indian families that resisted
turning over their children and hunting down the pupils
who escaped. FLETCHER, FEDERAL INDIAN LAW § 3.6.
At these schools, students were beaten for speaking their
native languages. COHEN’S § 1.04; Dennis Op. at 21–24.
While these practices have abated, federal involvement
in Indian schooling has not. Under today’s federal policy
of Indian self-determination, Congress provides
substantial funding for Indian education and continues to
operate some schools with “tribal input and . . . tribal
control.” Fletcher & Singel, supra, at 964; see also Brief
of Indian Law Scholars, at 4.
In the view of JUDGE DUNCAN’s Opinion, this
narrative sheds little light on whether Congress can set
standards for state adoptions involving Indian children
because no Supreme Court decision or “founding-era
congressional practice” explicitly blesses federal
intervention in state domestic relations proceedings.
Duncan Op. at 2, 29. But adoption as we know it today did
not exist at common law and did not become the subject
of state legislation until the mid-nineteenth century.
Stephen B. Presser, The Historical Background of
American Adoption Law, 11 J. FAM. L. 443, 443 (1971).
It would have been “anachronistic . . . and bizarre,” in the
words of one amicus, for the founding-era Congress to
attempt legislative interference with state proceedings
that would not exist for another eight decades. Brief of

391a
Ablavsky, at 16; see also Brown v. Bd. of Educ., 347 U.S.
483, 489–90 (noting that the history of the Fourteenth
Amendment was “inconclusive” on the issue of school
segregation because “[i]n the South, the movement
toward free common schools, supported by general
taxation, had not yet taken hold” at the time of
enactment). Given that “at least during the first century
of America’s national existence . . . Indian affairs were
more an aspect of military and foreign policy than a
subject of domestic or municipal law,” it should come as
no surprise that the focus of the broad federal power over
Indian affairs has shifted over time. Lara, 541 U.S. at 200
(internal citation omitted).
Still, JUDGE DUNCAN’s Opinion declares ICWA—as a
“federal Indian law [that] governs states’ own
administrative and judicial proceedings” for domestic
relations—to be highly “unusual,” and finds no historical
analogue for this (highly specific) category of legislation.
Duncan Op. at 2, 34. But while family court proceedings
typically are governed by state law, they are not a “no fly
zone” for federal interests. See Brief of Casey Family
Programs, at 24–26 (discussing federal laws that apply in
domestic relations cases). Take the Servicemember’s
Civil Relief Act. 50 U.S.C. §§ 3901–4043. The law sets
rules governing child custody proceedings in state courts
by, among other things, limiting the court’s
consideration of a servicemember’s deployment when
determining custody. See id. §§ 3931, 3938. In asserting
a federal interest in family court proceedings, the
Servicemember’s Civil Relief Act is not unique. To
further the federal government’s treatymaking and
foreign relations powers, the International Child
Abduction Remedies Act charges state courts with

392a
administering the Hague Convention on the Civil
Aspects of International Child Abduction to ensure
“prompt return” of abducted children. See 28 U.S.C.
§§ 9001–03. And JUDGE HIGGINSON cites several
examples of federal laws that preempt state domestic
relations law. Higginson Op. at 2-3 (citing cases involving
ERISA, the Railroad Retirement Act, the National
Service Life Insurance Act, and Homestead Act). If
these statutes permissibly “govern[] states’ own
administrative and judicial proceedings,” Duncan Op. at
2, why would Congress lack authority to do the same
through its “plenary and exclusive” power over Indian
affairs?
When Congress enacted ICWA, it declared the
removal of Indian children from their homes by state
officials “the most tragic and destructive aspect of
American Indian life today.” See H.R. Rep. No. 95-1386,
at 9 (1978). Family-separation policies had “contributed
to a number of problems, including the erosion of
generations of Indians from Tribal communities, loss of
Indian traditions and culture, and long-term emotional
effects on Indian children caused by the loss of their
Indian identity.” Indian Child Welfare Act Proceedings,
Final Rule, 81 Fed. Reg. 38,864, 38, 780 (June 14, 2016)
(citing Hearing Before the Subcommittee on Indian
Affairs of the Senate Comm. on Interior & Insular
Affairs on Problems that Am. Indian Families Face in
Raising Their Children & How These Problems Are
Affected by Fed. Action or Inaction, 93 Cong., 2d Sess.,
at 1–2, 45–51 (1974)). Although ICWA can never heal
these wounds, it sought to stanch their bleeding. As the
culmination of extensive federal involvement in the
education and welfare of Indian children, the law falls

393a
well within the broad congressional power over Indian
affairs.
B.
This leads to today’s final irony. JUDGE DUNCAN’s
Opinion overrides the plenary federal power over Indian
affairs, with its deep textual and historical roots, based
on a principle that finds support in neither text nor
history: the notion that the Constitution prohibits the
federal government from granting preferences to tribe
members. Rather than credit copious originalist
evidence of the sweeping federal power over Indian
affairs, JUDGE DUNCAN’s Opinion adopts the atextual
and ahistorical argument that the Fifth Amendment’s
implicit equal protection guarantee strips Congress of
the power to enact tribal preferences. Duncan Op. at 71;
see Bolling v. Sharpe, 347 U.S. 497, 499 (1955)
(recognizing that the Fourteenth Amendment’s
guarantee of “‘equal protection of the laws’ is a more
explicit safeguard of prohibited unfairness” than the
Fifth Amendment’s Due Process Clause). That is nothing
new. Originalism usually goes AWOL when the issue is
whether the government may grant preferences to
historically disadvantaged groups. See, e.g., ERIC J.
SEGALL, ORIGINALISM AS FAITH 127–30 (2018); CASS R.
SUNSTEIN, RADICALS IN ROBES 131–42 (2005); Steven G.
Calabresi & Gary Lawson, The Rule of Law as a Law of
Law, 90 NOTRE DAME L. REV. 483, 490–91 (2014);
Michael B. Rappaport, Originalism and the Colorblind
Constitution, 89 NOTRE DAME L. REV. 71, 76 (2013);
Stephen M. Griffin, Rebooting Originalism, 2008 U. ILL.
L. REV. 1185, 1202–03; Jed Rubenfeld, Affirmative
Action, 107 YALE L.J. 427, 430–32 (1997); Eric
Schnapper, Affirmative Action and the Legislative

394a
History of the Fourteenth Amendment, 71 VA. L. REV.
753, 754 (1985). 11
Ignoring the lack of historical support for a
constitutional ban on federal preferences to historicallydisadvantaged groups is especially flagrant in light of
200-plus years of jurisprudence recognizing vast federal
power over Indian affairs. As that authority flows in part
from the federal government’s plenary power over
foreign relations, there is nothing unusual or
unconstitutional about exercising it to grant preferences.
Preferring some nations over others—through alliances,
aid, and treaties, among other things—is the essence of
foreign policy. That’s why a preference for tribe
members “does not constitute racial discrimination.”
Mancari, 417 U.S. 553; see Bethany R. Berger, Savage
Equalities, 94 WASH. L. REV. 583, 627 (2019) (“ICWA’s
definition of ‘Indian children,’ which requires either
tribal citizenship or that the child has a tribal citizen
parent and is eligible for citizenship, rests squarely on
the kind of ‘political rather than racial’ belonging of
which Mancari approved.”). When Congress “single[s]
out [Indians] for special treatment,” it draws upon its
expansive authority to structure relations between the
United States and another sovereign. Mancari, 417 U.S.
Although Professor Rappaport recognizes that some court
decisions rejecting the constitutionality of affirmative action
programs “engage[] in little discussion of the constitutional text and
almost no discussion of the history of the Fourteenth Amendment,”
he tries to push back on the prevailing scholarly view that the
original understanding allows states to pursue such policies.
Rappaport, supra, at 76. But even he recognizes that the historical
case is much different when it comes to claims that the federal
government cannot adopt policies that prefer disadvantaged
groups. Id. at 71 n.2, 73.
11

395a
at 554–55 (describing Indians as “members of quasisovereign tribal entities”); accord Fisher v. Dist. Court,
424 U.S. 382, 390 (1976) (explaining that the jurisdiction
of a tribal court “does not derive from [] race . . . but
rather from the quasi-sovereign status of [tribes] under
federal law”). These preferences further centuries-old
interests animating the federal government’s “special
relationship” with tribes. Mancari, 417 U.S. at 541–42,
552.
C.
Why bother with these objections to the substantive
aspects of today’s opinions if, as I have explained, they
will have all the binding effect of a law review article? 12
Because the procedural and substantive problems with
this case are two peas in the same activist pod.
Judicial restraint is a double victim of today’s tome.
The court ignores standing requirements that enforce
“the proper—and properly limited—role of the courts in
a democratic society.” Warth v. Seldin, 422 U.S. 490, 498
(1975). And a willingness, even eagerness, to strike down
a 43-year-old federal law that continues to enjoy
bipartisan support scorns the notion that “declar[ing] an
Act of Congress unconstitutional . . . is the gravest and
most delicate duty” that federal judges are “called on to
perform.” Blodgett v. Holden, 275 U.S. 142, 147–48 (1927)
(Holmes, J., concurring).

In addition to a federal court’s inability to create precedent
for state courts, the two equal protection challenges our court
upholds will not even be precedential within our circuit because we
are affirming the district court’s ruling by an equally divided vote.
12

396a
Whither the passive virtues? Alexander Bickel, The
Supreme Court 1960 Term Foreword: The Passive
Virtues, 75 HARV. L. REV. 40 (1961).
Whither the “conviction that it is an awesome thing
to strike down an act of the legislature approved by the
Chief Executive”? ROBERT H. JACKSON, THE STRUGGLE
FOR JUDICIAL SUPREMACY: A STUDY OF A CRISIS IN
AMERICAN POWER POLITICS 323 (Legal Classics ed.
2000).
Heaped, one must conclude, on the pile of broken
promises that this country has made to its Native
peoples.

397a
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-11479
CHAD EVERET BRACKEEN; JENNIFER KAY
BRACKEEN; STATE OF TEXAS; ALTAGRACIA
SOCORRO HERNANDEZ; STATE OF INDIANA;
JASON CLIFFORD; FRANK NICHOLAS
LIBRETTI; STATE OF LOUISIANA; HEATHER
LYNN LIBRETTI; DANIELLE CLIFFORD,
Plaintiffs - Appellees
v.
DAVID BERNHARDT, SECRETARY, U.S.
DEPARTMENT OF THE INTERIOR; TARA
SWEENEY, in her official capacity as Acting Assistant
Secretary for Indian Affairs; BUREAU OF INDIAN
AFFAIRS; UNITED STATES DEPARTMENT OF
INTERIOR; UNITED STATES OF AMERICA;
ALEX AZAR, In his official capacity as Secretary of
the United States Department of Health and Human
Services; UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN SERVICES,
Defendants - Appellants

398a
CHEROKEE NATION; ONEIDA NATION;
QUINAULT INDIAN NATION; MORONGO BAND
OF MISSION INDIANS,
Intervenor Defendants - Appellants
__________________________
Appeals from the United States District Court
for the Northern District of Texas
__________________________
ON PETITIONS FOR REHEARING EN BANC
[Entered Nov. 7, 2019]
(Opinion August 9, 2019, Modified August 16, 2019,
5 Cir., 2019, 937 F.3d 409)
Before OWEN, Chief Judge, JONES, SMITH,
STEWART, DENNIS, ELROD, SOUTHWICK,
HAYNES, GRAVES, HIGGINSON, COSTA,
WILLETT, DUNCAN, ENGELHARDT, and
OLDHAM, Circuit Judges.1
BY THE COURT:
A member of the court having requested a poll on the
petitions for rehearing en banc, and a majority of the
circuit judges in regular active service and not
disqualified having voted in favor,
Judge Ho is recused and did not participate in this
decision.
1

399a
IT IS ORDERED that this cause shall be reheard by
the court en banc with oral argument on a date
hereafter to be fixed. The Clerk will specify a briefing
schedule for the filing of supplemental briefs.

400a
APPENDIX C
MODIFIED August 16, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit
FILED
August 9, 2019
Lyle W. Cayce
Clerk
No. 18-11479
CHAD EVERET BRACKEEN; JENNIFER KAY
BRACKEEN; STATE OF TEXAS; ALTAGRACIA
SOCORRO HERNANDEZ; STATE OF INDIANA;
JASON CLIFFORD; FRANK NICHOLAS
LIBRETTI; STATE OF LOUISIANA; HEATHER
LYNN LIBRETTI; DANIELLE CLIFFORD,
Plaintiffs - Appellees
v.

DAVID BERNHARDT, SECRETARY, U.S.
DEPARTMENT OF THE INTERIOR; TARA
SWEENEY, in her official capacity as Acting Assistant
Secretary for Indian Affairs; BUREAU OF INDIAN
AFFAIRS; UNITED STATES DEPARTMENT OF
INTERIOR; UNITED STATES OF AMERICA;
ALEX AZAR, In his official capacity as Secretary of
the United States Department of Health and Human

401a
Services; UNITED STATES DEPARTMENT OF
HEALTH AND HUMAN SERVICES,
Defendants - Appellants
CHEROKEE NATION; ONEIDA NATION;
QUINAULT INDIAN NATION; MORONGO BAND
OF MISSION INDIANS,
Intervenor Defendants - Appellants
______________________
Appeals from the United States District Court for the
Northern District of Texas
______________________
Before WIENER, DENNIS, and OWEN, Circuit
Judges.
JAMES L. DENNIS, Circuit Judge:
This case presents facial constitutional challenges to
the Indian Child Welfare Act of 1978 (ICWA) and
statutory and constitutional challenges to the 2016
administrative rule (the Final Rule) that was
promulgated by the Department of the Interior to clarify
provisions of ICWA. Plaintiffs are the states of Texas,
Indiana, and Louisiana, and seven individuals seeking to
adopt Indian children. Defendants are the United States
of America, several federal agencies and officials in their
official capacities, and five intervening Indian tribes.
Defendants moved to dismiss the complaint for lack of
subject matter jurisdiction, but the district court denied
the motion, concluding, as relevant to this appeal, that
Plaintiffs had Article III standing. The district court
then granted summary judgment in favor of Plaintiffs,

402a
ruling that provisions of ICWA and the Final Rule
violated equal protection, the Tenth Amendment, the
nondelegation doctrine, and the Administrative
Procedure Act. Defendants appealed. Although we
AFFIRM the district court’s ruling that Plaintiffs had
standing, we REVERSE the district court’s grant of
summary judgment to Plaintiffs and RENDER
judgment in favor of Defendants.
BACKGROUND
I. The Indian Child Welfare Act (ICWA)
Congress enacted the Indian Child Welfare Act of
1978 (ICWA), 25 U.S.C. §§ 1901 et seq., to address rising
concerns over “abusive child welfare practices that
resulted in the separation of large numbers of Indian
children from their families and tribes through adoption
or foster care placement, usually in non-Indian homes.”
Miss. Band Choctaw Indians v. Holyfield, 490 U.S. 30,
32 (1989). Recognizing that a “special relationship” exists
between the United States and Indian tribes, Congress
made the following findings:
Congress has plenary power over Indian affairs. 25
U.S.C. § 1901(1) (citing U.S. CONST. art. I, section 8, cl. 3
(“The Congress shall have Power . . . To regulate
Commerce . . . with the Indian Tribes.”)).
“[T]here is no resource that is more vital to the
continued existence and integrity of Indian tribes than
their children . . . .” Id. at § 1901(3).
“[A]n alarmingly high percentage of Indian families
are broken up by the removal, often unwarranted, of
their children from them by nontribal public and private
agencies and that an alarmingly high percentage of such

403a
children are placed in non-Indian foster and adoptive
homes and institutions.” Id. at § 1901(4).
“States exercising their recognized jurisdiction over
Indian child custody proceedings through administrative
and judicial bodies, have often failed to recognize the
essential tribal relations of Indian people and the
cultural and social standards prevailing in Indian
communities and families.” Id. at § 1901(5).
In light of these findings, Congress declared that it
was the policy of the United States “to protect the best
interests of Indian children and to promote the stability
and security of Indian tribes and families by the
establishment of minimum Federal standards for the
removal of Indian children from their families and the
placement of such children in foster or adoptive homes
which will reflect the unique values of Indian culture, and
by providing for assistance to Indian tribes in the
operation of child and family service programs.” Id. at
§ 1902.
ICWA applies in state court child custody
proceedings involving an “Indian child,” defined as “any
unmarried person who is under age eighteen and is
either (a) a member of an Indian tribe or (b) is eligible
for membership in an Indian tribe and is the biological
child of a member of an Indian tribe.” Id. at § 1903(4). In
proceedings for the foster care placement or termination
of parental rights, ICWA provides “the Indian custodian
of the child and the Indian child’s tribe [] a right to
intervene at any point in the proceeding.” Id. at § 1911(c).
Where such proceedings are involuntary, ICWA
requires that the parent, the Indian custodian, the child’s
tribe, or the Secretary of the United States Department

404a
of the Interior (Secretary or Secretary of the Interior)
be notified of pending proceedings and of their right to
intervene. Id. at § 1912. In voluntary proceedings for the
termination of parental rights or adoptive placement of
an Indian child, the parent can withdraw consent for any
reason prior to entry of a final decree of adoption or
termination, and the child must be returned to the
parent. Id. at § 1913(c). If consent was obtained through
fraud or duress, a parent may petition to withdraw
consent within two years after the final decree of
adoption and, upon a showing of fraud or duress, the
court must vacate the decree and return the child to the
parent. Id. at § 1913(d). An Indian child, a parent or
Indian custodian from whose custody the child was
removed, or the child’s tribe may file a petition in any
court of competent jurisdiction to invalidate an action in
state court for foster care placement or termination of
parental rights if the action violated any provision of
ICWA §§ 1911–13. Id. at § 1914.
ICWA further sets forth placement preferences for
foster care, preadoptive, and adoptive proceedings
involving Indian children. Section 1915 requires that
“[i]n any adoptive placement of an Indian child under
State law, a preference shall be given, in the absence of
good cause to the contrary, to a placement with: (1) a
member of the child’s extended family; (2) other
members of the Indian child’s tribe; or (3) other Indian
families.” Id. at § 1915(a). Similar requirements are set
for foster care or preadoptive placements. Id. at
§ 1915(b). If a tribe establishes by resolution a different
order of preferences, the state court or agency effecting
the placement “shall follow [the tribe’s] order so long as

405a
the placement is the least restrictive setting appropriate
to the particular needs of the child.” Id. at § 1915(c).
The state in which an Indian child’s placement was
made shall maintain records of the placement, which
shall be made available at any time upon request by the
Secretary or the child’s tribe. Id. at § 1915(e). A state
court entering a final decree in an adoptive placement
“shall provide the Secretary with a copy of the decree or
order” and information as necessary regarding “(1) the
name and tribal affiliation of the child; (2) the names and
addresses of the biological parents; (3) the names and
addresses of the adoptive parents; and (4) the identity of
any agency having files or information relating to such
adoptive placement.” Id. at § 1951(a). ICWA’s
severability clause provides that “[i]f any provision of
this chapter or the applicability thereof is held invalid,
the remaining provisions of this chapter shall not be
affected thereby.” Id. at § 1963.
II. The Final Rule
ICWA provides that “the Secretary [of the Interior]
shall promulgate such rules and regulations as may be
necessary to carry out [its] provisions.” 25 U.S.C. § 1952.
In 1979, the Bureau of Indian Affairs (BIA) promulgated
guidelines (the “1979 Guidelines”) intended to assist
state courts in implementing ICWA but without “binding
legislative effect.” Guidelines for State Courts; Indian
Child Custody Proceedings, 44 Fed. Reg. 67,584 (Nov.
26, 1979). The 1979 Guidelines left the “primary
responsibility” of interpreting certain language in ICWA
“with the [state] courts that decide Indian child custody
cases.” Id. However, in June 2016, the BIA promulgated
the Final Rule to “clarify the minimum Federal

406a
standards governing implementation of [ICWA]” and to
ensure that it “is applied in all States consistent with the
Act’s express language, Congress’s intent in enacting the
statute, and to promote the stability and security of
Indian tribes and families.” 25 C.F.R. § 23.101; Indian
Child Welfare Act Proceedings, 81 Fed. Reg. 38,778,
38,868 (June 14, 2016). The Final Rule explained that
while the BIA “initially hoped that binding regulations
would not be necessary to carry out [ICWA], a third of a
century of experience has confirmed the need for more
uniformity in the interpretation and application of this
important Federal law.” 81 Fed. Reg. at 38,782.
The Final Rule provides that states have the
responsibility of determining whether a child is an
“Indian child” subject to ICWA’s requirements. 25
C.F.R. §§ 23.107–22; 81 Fed. Reg. at 38,778, 38,869–73.
The Final Rule also sets forth notice and recordkeeping
requirements for states, see 25 U.S.C. §§ 23.140–41; 81
Fed. Reg. at 38,778, 38,875–76, and requirements for
states and individuals regarding voluntary proceedings
and parental withdrawal of consent, see 25 C.F.R.
§§ 23.124–28; 81 Fed. Reg. at 38,778, 38,873–74. The
Final Rule also restates ICWA’s placement preferences
and clarifies when they apply and when states may
depart from them. See 25 C.F.R. §§ 23.129–32; 81 Fed.
Reg. at 38,778, 38,874–75.

407a
III. The Instant Action
A. Parties
1. Plaintiffs
Plaintiffs in this action are the states of Texas,
Louisiana, and Indiana, 1 (collectively, the “State
Plaintiffs”), and seven individual Plaintiffs—Chad and
Jennifer Brackeen (the “Brackeens”), Nick and Heather
Libretti (the “Librettis”), Altagracia Socorro Hernandez
(“Hernandez”), and Jason and Danielle Clifford (the
“Cliffords”) (collectively, “Individual Plaintiffs”)
(together with State Plaintiffs, “Plaintiffs”).
a. The Brackeens & A.L.M.
At the time their initial complaint was filed in the
district court, the Brackeens sought to adopt A.L.M.,
who falls within ICWA’s definition of an “Indian Child.”
His biological mother is an enrolled member of the
Navajo Nation and his biological father is an enrolled
member of the Cherokee Nation. When A.L.M. was ten
months old, Texas’s Child Protective Services (“CPS”)
removed him from his paternal grandmother’s custody
and placed him in foster care with the Brackeens. Both
the Navajo Nation and the Cherokee Nation were
notified pursuant to ICWA and the Final Rule. A.L.M.
lived with the Brackeens for more than sixteen months
There are three federally recognized tribes in Texas: the
Yselta del Sur Pueblo, the Kickapoo Tribe, and the AlabamaCoushatta Tribe. There are four federally recognized tribes in
Louisiana: the Chitimacha Tribe, the Coushatta Tribe, the TunicaBiloxi Tribe, and the Jena Band of Choctaw Indians. There is one
federally recognized tribe in Indiana: the Pokagon Band of
Potawatomi Indians.
1

408a
before they sought to adopt him with the support of his
biological parents and paternal grandmother. In May
2017, a Texas court, in voluntary proceedings,
terminated the parental rights of A.L.M.’s biological
parents, making him eligible for adoption under Texas
law. Shortly thereafter, the Navajo Nation notified the
state court that it had located a potential alternative
placement for A.L.M. with non-relatives in New Mexico,
though this placement ultimately failed to materialize. In
July 2017, the Brackeens filed an original petition for
adoption, and the Cherokee Nation and Navajo Nation
were notified in compliance with ICWA. The Navajo
Nation and the Cherokee Nation reached an agreement
whereby the Navajo Nation was designated as A.L.M.’s
tribe for purposes of ICWA’s application in the state
proceedings. No one intervened in the Texas adoption
proceeding or otherwise formally sought to adopt A.L.M.
The Brackeens entered into a settlement with the Texas
state agency and A.L.M.’s guardian ad litem specifying
that, because no one else sought to adopt A.L.M.,
ICWA’s placement preferences did not apply. In
January 2018, the Brackeens successfully petitioned to
adopt A.L.M. The Brackeens initially alleged in their
complaint that they would like to continue to provide
foster care for and possibly adopt additional children in
need, but their experience adopting A.L.M. made them
reluctant to provide foster care for other Indian children
in the future. Since their complaint was filed, the
Brackeens have sought to adopt A.L.M.’s sister, Y.R.J.
in Texas state court. Y.R.J., like her brother, is an Indian
Child for purposes of ICWA. The Navajo Nation contests
the adoption. On February 2, 2019, the Texas court

409a
granted the Brackeens’ motion to declare ICWA
inapplicable as a violation of the Texas constitution, but
“conscientiously refrain[ed]” from ruling on the
Brackeens’ claims under the United States Constitution
pending our resolution of the instant appeal.
b. The Librettis & Baby O.
The Librettis live in Nevada and sought to adopt
Baby O. when she was born in March 2016. Baby O.’s
biological mother, Hernandez, wished to place Baby O.
for adoption at her birth, though Hernandez has
continued to be a part of Baby O.’s life and she and the
Librettis visit each other regularly. Baby O.’s biological
father, E.R.G., descends from members of the Ysleta del
sur Pueblo Tribe (the “Pueblo Tribe”), located in El
Paso, Texas, and was a registered member at the time
Baby O. was born. The Pueblo Tribe intervened in the
Nevada custody proceedings seeking to remove Baby O.
from the Librettis. Once the Librettis joined the
challenge to the constitutionality of the ICWA and the
Final Rule, the Pueblo Tribe indicated that it was willing
settle. The Librettis agreed to a settlement with the tribe
that would permit them to petition for adoption of Baby
O. The Pueblo Tribe agreed not to contest the Librettis’
adoption of Baby O., and on December 19, 2018, the
Nevada state court issued a decree of adoption, declaring
that the Librettis were Baby O.’s lawful parents. Like
the Brackeens, the Librettis alleged that they intend to
provide foster care for and possibly adopt additional
children in need but are reluctant to foster Indian
children after this experience.

410a
c. The Cliffords & Child P.
The Cliffords live in Minnesota and seek to adopt
Child P., whose maternal grandmother is a registered
member of the White Earth Band of Ojibwe Tribe (the
“White Earth Band”). Child P. is a member of the White
Earth Band for purposes of ICWA’s application in the
Minnesota state court proceedings. Pursuant to ICWA
section 1915’s placement preferences, county officials
removed Child P. from the Cliffords’ custody and, in
January 2018, placed her in the care of her maternal
grandmother, whose foster license had been revoked.
Child P.’s guardian ad litem supports the Cliffords’
efforts to adopt her and agrees that the adoption is in
Child P.’s best interest. The Cliffords and Child P.
remain separated, and the Cliffords face heightened
legal barriers to adopting her. On January 17, 2019, the
Minnesota court denied the Cliffords’ motion for
adoptive placement.
2. Defendants
Defendants are the United States of America; the
United States Department of the Interior and its
Secretary Ryan Zinke, in his official capacity; the BIA
and its Director Bryan Rice, in his official capacity; the
BIA Principal Assistant Secretary for Indian Affairs
John Tahsuda III, in his official capacity; and the
Department of Health and Human Services (“HHS”) and
its Secretary Alex M. Azar II, in his official capacity
(collectively the “Federal Defendants”). Shortly after
this case was filed in the district court, the Cherokee
Nation, Oneida Nation, Quinalt Indian Nation, and
Morengo Band of Mission Indians (collectively, the
“Tribal Defendants”) moved to intervene, and the

411a
district court granted the motion. On appeal, we granted
the Navajo Nation’s motion to intervene as a defendant 2
(together with Federal and Tribal Defendants,
“Defendants”).
B. Procedural History
Plaintiffs filed the instant action against the Federal
Defendants in October 2017, alleging that the Final Rule
and certain provisions of ICWA are unconstitutional and
seeking injunctive and declaratory relief. Plaintiffs
argued that ICWA and the Final Rule violated equal
protection and substantive due process under the Fifth
Amendment and the anticommandeering doctrine that
arises from the Tenth Amendment. Plaintiffs
additionally sought a declaration that provisions of
ICWA and the Final Rule violated the nondelegation
doctrine and the Administrative Procedure Act (APA).
Defendants moved to dismiss, alleging that Plaintiffs
lacked standing. The district court denied the motion. All
parties filed cross-motions for summary judgment. The
district court granted Plaintiffs’ motion for summary
judgment in part, concluding that ICWA and the Final
Rule violated equal protection, the Tenth Amendment,
and the nondelegation doctrine, and that the challenged

The Navajo Nation had previously moved to intervene twice in
the district court. The first motion was for the limited purpose of
seeking dismissal pursuant to Rule 19, which the district court
denied. The Navajo Nation filed a second motion to intervene for
purposes of appeal after the district court’s summary judgment
order. The district court deferred decision on the motion pending
further action by this court, at which time the Navajo Nation filed
the motion directly with this court.
2

412a
portions of the Final Rule were invalid under the APA. 3
Defendants appealed. A panel of this court subsequently
stayed the district court’s judgment pending further
order of this court. In total, fourteen amicus briefs were
filed in this court, including a brief in support of
Plaintiffs and affirmance filed by the state of Ohio; and a
brief in support of Defendants and reversal filed by the
states of California, Alaska, Arizona, Colorado, Idaho,
Illinois, Iowa, Maine, Massachusetts, Michigan,
Minnesota, Mississippi, Montana, New Jersey, New
Mexico, Oregon, Rhode Island, Utah, Virginia,
Washington, and Wisconsin.
STANDARD OF REVIEW
We review a district court’s grant of summary
judgment de novo. See Texas v. United States, 497 F.3d
491, 495 (5th Cir. 2007). Summary judgment is
appropriate when the movant has demonstrated “that
there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.”
FED. R. CIV. P. 56(a). A genuine dispute of material fact
exists “if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986).
DISCUSSION
I. Article III Standing
Defendants first contend that Plaintiffs lack standing
to challenge ICWA and the Final Rule. The district court
The district court denied Plaintiffs’ substantive Due Process
claim, from which Plaintiffs do not appeal.
3

413a
denied Defendants’ motion to dismiss on this basis,
concluding that Individual Plaintiffs had standing to
bring an equal protection claim; State Plaintiffs had
standing to challenge provisions of ICWA and the Final
Rule on the grounds that they violated the Tenth
Amendment and the nondelegation doctrine; and all
Plaintiffs had standing to bring an APA claim
challenging the validity of the Final Rule.
Article III limits the power of federal courts to
“Cases” and “Controversies.” See Spokeo, Inc. v. Robins,
136 S. Ct. 1540, 1547 (2016) (citing U.S. CONST. art. III,
§ 2). “Standing to sue is a doctrine rooted in the
traditional understanding of a case or controversy.” Id.
To meet the Article III standing requirement, plaintiffs
must demonstrate “(1) an injury that is (2) fairly
traceable to the defendant’s allegedly unlawful conduct
and that is (3) likely to be redressed by the requested
relief.” Lujan v. Defs. of Wildlife, 504 U.S. 555, 590
(1992) (internal quotations omitted). A plaintiff seeking
equitable relief must demonstrate a likelihood of future
injury in addition to past harm. See City of Los Angeles
v. Lyons, 461 U.S. 95, 105 (1983). This injury must be
“concrete and particularized” and “actual or imminent,
not conjectural or hypothetical.” See Lujan, 504 U.S. at
560 (cleaned up). “[S]tanding is not dispensed in gross,”
and “a plaintiff must demonstrate standing for each
claim he seeks to press and for each form of relief that is
sought.” Town of Chester, N.Y. v. Laroe Estates, Inc.,
137 S. Ct. 1645, 1650 (2017) (quoting Davis v. Fed.
Election Comm’n, 554 U.S. 724, 734 (2008)). “[T]he
presence of one party with standing is sufficient to
satisfy Article III’s case-or-controversy requirement.”

414a
Rumsfeld v. Forum for Acad. & Institutional Rights,
Inc., 547 U.S. 47, 53 n.2 (2006). “This court reviews
questions of standing de novo.” Nat’l Rifle Ass’n of Am.,
Inc. v. McCraw, 719 F.3d 338, 343 (5th Cir. 2013).
A. Standing to Bring Equal Protection Claim
Plaintiffs challenged ICWA sections 1915(a)–(b),
1913(d), and 1914 and Final Rule sections 23.129–32 on
equal protection grounds, alleging that these provisions
impose regulatory burdens on non-Indian families
seeking to adopt Indian children that are not similarly
imposed on Indian families who seek to adopt Indian
children. The district court concluded that Individual
Plaintiffs suffered and continued to suffer injuries when
their efforts to adopt Indian children were burdened by
ICWA and the Final Rule; that their injuries were fairly
traceable to ICWA and the Final Rule because these
authorities mandated state compliance; and that these
injuries were redressable because if ICWA and the Final
Rule were invalidated, then state courts would no longer
be required to follow them. Defendants disagree,
arguing that the Individual Plaintiffs cannot
demonstrate an injury in fact or redressability and thus
lack standing to bring an equal protection claim. For the
reasons below, we conclude that the Brackeens have
standing to assert an equal protection claim as to ICWA
sections 1915(a)–(b) and Final Rule sections 23.129–32,
but as discussed below, not as to ICWA sections 1913–
14. Accordingly, because one Plaintiff has standing, the
“case-or-controversy requirement” is satisfied as to this
claim, and we do not analyze whether any other

415a
Individual Plaintiff has standing to raise it. 4 See
Rumsfeld, 547 U.S. at 53 n.2.
The district court concluded that ICWA section
1913(d), which allows a parent to petition the court to
vacate a final decree of adoption on the grounds that
consent was obtained through fraud or duress, left the
Brackeens’ adoption of A.L.M. vulnerable to collateral
attack for two years. Defendants argue that section
1914, 5 and not section 1913(d), applies to the Brackeens’
state court proceedings and that, in any event, an injury
premised on potential future collateral attack under
either provision is too speculative. We need not decide
which provision applies here, as neither the Brackeens
nor any of the Individual Plaintiffs havesuffered an
injury under either provision. Plaintiffs do not assert
that A.L.M.’s biological parents, the Navajo Nation, or
any other party seeks to invalidate the Brackeens’
adoption of A.L.M. under either provision. Plaintiffs’
proffered injury under section 1913 or section 1914 is
therefore too speculative to support standing. See Lujan,
State Plaintiffs argue that they have standing to bring an equal
protection challenge in parens patriae on behalf of their citizens.
We disagree. See South Carolina v. Katzenbach, 383 U.S. 301, 324
(1966) (“[A] State [does not] have standing as the parent of its
citizens to invoke [the Fifth Amendment Due Process Clause]
against the Federal Government, the ultimate parens patriae of
every American citizen.”).
5
“Any Indian child who is the subject of any action for foster
care placement or termination of parental rights under State law,
any parent or Indian custodian from whose custody such child was
removed, and the Indian child’s tribe may petition any court of
competent jurisdiction to invalidate such action upon a showing that
such action violated any provision of sections 1911, 1912, and 1913
of this title.” 25 U.S.C. § 1914.
4

416a
504 U.S. at 560; see also Clapper v. Amnesty Int’l USA,
568 U.S. 398, 409 (2013) (“[T]hreatened injury must be
certainly impending to constitute injury in fact, and []
[a]llegations of possible future injury are not sufficient.”
(cleaned up)). To the extent Plaintiffs argue that an
injury arises from their attempts to avoid collateral
attack under section 1914 by complying with sections
1911–13, “costs incurred to avoid injury are insufficient
to create standing” where the injury is not certainly
impending. See Clapper, 568 U.S. at 417.
The district court also concluded that ICWA section
1915, and sections 23.129–32 of the Final Rule, which
clarify section 1915, gave rise to an injury from an
increased regulatory burden. We agree. Prior to the
finalization of the Brackeens’ adoption of A.L.M., the
Navajo Nation notified the state court that it had located
a potential alternative placement for A.L.M. in New
Mexico. Though that alternative placement ultimately
failed to materialize, the regulatory burdens ICWA
section 1915 and Final Rule sections 23.129–32 imposed
on the Brackeens in A.L.M.’s adoption proceedings,
which were ongoing at the time the complaint was filed,
are sufficient to demonstrate injury. See Contender
Farms, L.L.P. v. U.S. Dep’t of Agric., 779 F.3d 258, 266
(5th Cir. 2015) (“An increased regulatory burden
typically satisfies the injury in fact requirement.”); see
also Rockwell Int’l Corp. v. United States, 549 U.S. 457,
473–74 (2007) (standing is assessed at the time the
complaint was filed); Friends of the Earth, Inc. v.
Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167, 184
(2000) (discussing Lyons, 461 U.S. at 108, and finding the

417a
injury requirement satisfied where the alleged harmful
conduct was occurring when the complaint was filed).
Defendants contend that the Brackeens’ challenge to
section 1915 and sections 23.129–32 is moot. They argue
that, because the Brackeens’ adoption of A.L.M. was
finalized in January 2018 and the Navajo Nation will not
seek to challenge the adoption, section 1915’s placement
preferences no longer apply in A.L.M.’s adoption
proceedings. Plaintiffs argue that section 1915’s
placement preferences impose on them the ongoing
injury of increased regulatory burdens in their
proceedings to adopt A.L.M.’s sister, Y.R.J., which the
Navajo Nation currently opposes in Texas state court.
“A corollary to this case-or-controversy requirement
is that an actual controversy must be extant at all stages
of review, not merely at the time the complaint is filed.”
Genesis Healthcare Corp. v. Symczyk, 569 U.S. 66, 71
(2013). “[A] case is moot when the issues presented are
no longer live or the parties lack a legally cognizable
interest in the outcome.” Powell v. McCormack, 395 U.S.
486, 496 (1969)(internal quotation marks omitted).
However, mootness will not render a case non-justiciable
where the dispute is one that is “capable of repetition,
yet evading review.” See Murphy v. Hunt, 455 U.S. 478,
482 (1982). “That exception applies where (1) the
challenged action is in its duration too short to be fully
litigated prior to cessation or expiration, and (2) there is
a reasonable expectation that the same complaining
party will be subject to the same action again.” Davis v.
Fed. Election Comm’n, 554 U.S. 724, 735 (2008) (internal
citations and quotations omitted). Here, the Brackeens
were unable to fully litigate a challenge to section 1915

418a
before successfully adopting A.L.M. Additionally, they
have demonstrated a reasonable expectation that they
will be subject to section 1915’s regulatory burdens in
their adoption proceedings involving A.L.M.’s sister,
Y.R.J. Thus, the Brackeens’ challenge to section 1915 is
justiciable on the grounds that it is capable of repetition,
yet evading review. See Hunt, 455 U.S. at 482.
Having thus found an injury with respect to ICWA
section 1915 and Final Rule sections 23.129–32, we
consider whether causation and redressability are met
here. See Lujan, 504 U.S. at 590. The Brackeens’ alleged
injury is fairly traceable to the actions of at least some of
the Federal Defendants, who bear some responsibility
for the regulatory burdens imposed by ICWA and the
Final Rule. See Contender Farms, L.L.P., 779 F.3d at
266 (noting that causation “flow[ed] naturally from” a
regulatory injury). Additionally, the Brackeens have
demonstrated a likelihood that their injury will be
redressed by a favorable ruling of this court. In the
Brackeens’ ongoing proceedings to adopt Y.R.J., the
Texas court has indicated that it will refrain from ruling
on the Brackeens’ federal constitutional claims pending
a ruling from this court. Accordingly, Plaintiffs have
standing to bring an equal protection claim challenging
ICWA section 1915(a)–(b) and Final Rule sections
23.129–32. See Lujan, 504 U.S. at 590; Rumsfeld, 547
U.S. at 53 n.2.
B. Standing to Bring Administrative Procedure
Act Claim
Plaintiffs first argue that ICWA does not authorize
the Secretary of the Interior to promulgate binding rules
and regulations, and the Final Rule is therefore invalid

419a
under the APA. The district court ruled that State
Plaintiffs had standing to bring this claim, determining
that the Final Rule injured State Plaintiffs by intruding
upon their interests as quasi-sovereigns to control the
domestic affairs within their states. 6 A state may be
entitled to “special solicitude” in our standing analysis if
the state is vested by statute with a procedural right to
file suit to protect an interest and the state has suffered
an injury to its “quasi-sovereign interests.”
Massachusetts v. EPA, 549 U.S. 497, 518–20 (2007)
(holding that the Clean Air Act provided Massachusetts
a procedural right to challenge the EPA’s rulemaking,
and Massachusetts suffered an injury in its capacity as a
quasi-sovereign landowner due to rising sea levels
associated
with
climate
change).
Applying
Massachusetts, this court in Texas v. United States held
that Texas had standing to challenge the Department of
Homeland Security’s implementation and expansion of
the Deferred Action for Childhood Arrivals program
(DACA) under the APA. See 809 F.3d 134, 152 (5th Cir.
2015). This court reasoned that Texas was entitled to
special solicitude on the grounds that the APA created a
procedural right to challenge the DHS’s actions, and
DHS’s actions affected states’ sovereign interest in
creating and enforcing a legal code. See id. at 153
(internal quotations omitted).
The district court also found an injury based on the Social
Security Act’s conditioning of funding on states’ compliance with
ICWA. However, because we find that Plaintiffs have standing on
other grounds, we decline to decide whether they have
demonstrated standing based on an alleged injury caused by the
SSA.
6

420a
Likewise, here, the APA provides State Plaintiffs a
procedural right to challenge the Final Rule. See id.; 5
U.S.C. § 702. Moreover, State Plaintiffs allege that the
Final Rule affects their sovereign interest in controlling
child custody proceedings in state courts. See Texas, 809
F.3d at 153 (recognizing that, pursuant to a sovereign
interest in creating and enforcing a legal code, states
may have standing based on, inter alia, federal
preemption of state law). Thus, State Plaintiffs are
entitled to special solicitude in our standing inquiry.
With this in mind, we find that the elements of standing
are satisfied. If, as State Plaintiffs alleged, the Secretary
promulgated a rule binding on states without the
authority to do so, then State Plaintiffs have suffered a
concrete injury to their sovereign interest in controlling
child custody proceedings that was caused by the Final
Rule. Additionally, though state courts and agencies are
not bound by this court’s precedent, a favorable ruling
from this court would remedy the alleged injury to states
by making their compliance with ICWA and the Final
Rule
optional rather
than
compulsory. See
Massachusetts, 549 U.S. at 521 (finding redressability
where the requested relief would prompt the agency to
“reduce th[e] risk” of harm to the state).
C. Standing to Bring Tenth Amendment Claim
For similar reasons, the district court found, and we
agree, that State Plaintiffs have standing to challenge
provisions of ICWA and the Final Rule under the Tenth
Amendment. The imposition of regulatory burdens on
State Plaintiffs is sufficient to demonstrate an injury to
their sovereign interest in creating and enforcing a legal
code to govern child custody proceedings in state courts.

421a
See Texas, 809 F.3d at 153. Additionally, the causation
and redressability requirements are satisfied here, as a
favorable ruling from this court would likely redress
State Plaintiffs’ injury by lifting the mandatory burdens
ICWA and the Final Rule impose on states. See Lujan,
504 U.S. at 590.
D. Standing to Bring Nondelegation Claim
Finally, Plaintiffs contend that ICWA section
1915(c), which allows a tribe to establish a different order
of section 1915(a)’s placement preferences, is an
impermissible delegation of legislative power that binds
State Plaintiffs. Defendants argue that State Plaintiffs
cannot demonstrate an injury, given the lack of evidence
that a tribe’s reordering of section 1915(a)’s placement
preferences has affected any children in Texas, Indiana,
or Louisiana or that such impact is “certainly
impending.” State Plaintiffs respond that tribes can
change ICWA’s placement preferences at any time and
that at least one tribe, the Alabama-Coushatta Tribe of
Texas, has already done so. We conclude that State
Plaintiffs have demonstrated injury and causation with
respect to this claim, as State Plaintiffs’ injury from the
Alabama-Coushatta Tribe’s decision to depart from
ICWA section 1915’s placement preferences is concrete
and particularized and not speculative. See Lujan, 504
U.S. at 560. Moreover, a favorable ruling from this court
would redress State Plaintiffs’ injury by making a state’s
compliance with a tribe’s alternative order of
preferences under ICWA section 1915(c) optional rather
than mandatory. See id.
Accordingly, having found that State Plaintiffs have
standing on the aforementioned claims, we proceed to

422a
the merits of these claims. We note at the outset that
ICWA is entitled to a “presumption of constitutionality,”
so long as Congress enacted the statute “based on one or
more of its powers enumerated in the Constitution.” See
United States v. Morrison, 529 U.S. 598, 607 (2000).
“Due respect for the decisions of a coordinate branch of
Government demands that we invalidate a congressional
enactment only upon a plain showing that Congress has
exceeded its constitutional bounds.” Id. (citing, among
others, United States v. Harris, 106 U.S. 629, 635 (1883)).
II. Equal Protection
The Equal Protection Clause of the Fourteenth
Amendment prohibits states from “deny[ing] to any
person within its jurisdiction the equal protection of the
laws.” U.S. CONST., amend. 14, § 1. This clause is
implicitly incorporated into the Fifth Amendment’s
guarantee of due process. See Bolling v. Sharpe, 347 U.S.
497, 499 (1954). We apply the same analysis with respect
to equal protection claims under the Fifth and
Fourteenth Amendments. See Richard v. Hinson, 70
F.3d 415, 417 (5th Cir. 1995). In evaluating an equal
protection claim, strict scrutiny applies to laws that rely
on classifications of persons based on race. See id. But
where the classification is political, rational basis review
applies. See Morton v. Mancari, 417 U.S. 535, 555 (1974).
The district court granted summary judgment on behalf
of Plaintiffs, concluding that section 1903(4)—setting
forth ICWA’s definition of “Indian Child” for purposes
of determining when ICWA applies in state child custody
proceedings—was a race-based classification that could

423a
not withstand strict scrutiny. 7 On appeal, the parties
disagree as to whether section 1903(4)’s definition of
“Indian Child” is a political or race-based classification
and which level of scrutiny applies. “We review the
constitutionality of federal statutes de novo.” Nat’l Rifle
Ass’n of Am., Inc. v. Bureau of Alcohol, Tobacco,
Firearms, & Explosives, 700 F.3d 185, 192 (5th Cir.
2012).
A. Level of Scrutiny
We begin by determining whether ICWA’s definition
of “Indian child” is a race-based or political classification
and, consequently, which level of scrutiny applies. The
district court concluded that ICWA’s “Indian Child”
definition was a race-based classification. We conclude
that this was error. Congress has exercised plenary
power “over the tribal relations of the Indians . . . from
the beginning, and the power has always been deemed a
political one, not subject to be controlled by the judicial
department of the government.” Lone Wolf v. Hitchcock,
187 U.S. 553, 565 (1903). The Supreme Court’s decisions
“leave no doubt that federal legislation with respect to
As described above, we conclude that Plaintiffs have standing
to challenge ICWA section 1915(a)–(b) and Final Rule sections
23.129–32 on equal protection grounds. The district court’s analysis
of whether the ICWA classification was political or race-based
focused on ICWA section 1903(4), presumably because section
1903(4) provides a threshold definition of “Indian child” that must
be met for any provision of ICWA to apply in child custody
proceedings in state court. Because we are satisfied that our
analysis would produce the same result with respect to section
1903(4) and the specific provisions Plaintiffs have standing to
challenge, we similarly confine our discussion of whether ICWA
presents a political or race-based classification to section 1903(4).
7

424a
Indian tribes . . . is not based upon impermissible racial
classifications.” United States v. Antelope, 430 U.S. 641,
645 (1977). “Literally every piece of legislation dealing
with Indian tribes and reservations . . . single[s] out for
special treatment a constituency of tribal Indians living
on or near reservations.” Mancari, 417 U.S. at 552. “If
these laws, derived from historical relationships and
explicitly designed to help only Indians, were deemed
invidious racial discrimination, an entire Title of the
United States Code (25 U.S.C.) would be effectively
erased and the solemn commitment of the Government
toward the Indians would be jeopardized.” Id.
In Morton v. Mancari, the Supreme Court rejected a
challenge to a law affording to qualified Indian
applicants—those having one-fourth or more degree
Indian blood with membership in a federally recognized
tribe 8—a hiring preference over non-Indians within the
BIA. Id. at 555. The Court recognized that central to the
resolution of the issue was “the unique legal status of
Indian tribes under federal law and upon the plenary
power of Congress . . . to legislate on behalf of federally
recognized Indian tribes.” Id. at 551. It reasoned that the
The United States currently recognizes 573 Tribal entities. See
84 Fed. Reg. 1,200 (Feb. 1, 2019). Federal recognition “is a formal
political act confirming the tribe’s existence as a distinct political
society, and institutionalizing the government-to-government
relationship between the tribe and the federal government.” See
California Valley Miwok Tribe v. United States, 515 F.3d 1262,
1263 (D.C. Cir. 2008) (quoting COHEN’S HANDBOOK OF FEDERAL
INDIAN LAW § 3.02[3], at 138 (2005 ed.) (internal quotation marks
omitted)). It “[i]s a prerequisite to the protection, services, and
benefits of the Federal Government available to those that qualify.”
25 C.F.R. § 83.2.
8

425a
BIA’s hiring preference was “granted to Indians not as a
discrete racial group, but, rather, as members of quasisovereign tribal entities whose lives and activities are
governed by the BIA in a unique fashion.” Id. at 554. The
preference was thus a non-racial “employment criterion
reasonably designed to further the cause of Indian selfgovernment and to make the BIA more responsive to the
needs of its constituent groups. It [was] directed to
participation by the governed in the governing agency.”
Id. at 553–54. The disadvantages to non-Indians
resulting from the hiring preferences were an intentional
and “desirable feature of the entire program for selfgovernment.” 9 Id. at 544.
Plaintiffs argue that, unlike the law in Mancari, ICWA is not
a law promoting tribal self-governance. However, prior to enacting
ICWA, Congress considered testimony from the Tribal Chief of the
Mississippi Band of Choctaw Indians about the devastating impacts
of removing Indian children from tribes and placing them for
adoption and foster care in non-Indian homes:
9

Culturally, the chances of Indian survival are significantly
reduced if our children, the only real means for the
transmission of the tribal heritage, are to be raised in nonIndian homes and denied exposure to the ways of their
People. Furthermore, these practices seriously undercut the
tribes’ ability to continue as self-governing communities.
Probably in no area is it more important that tribal
sovereignty be respected than in an area as socially and
culturally determinative as family relationships.
Holyfield, 490 U.S. at 34. This testimony undoubtedly informed
Congress’s finding that children are the most vital resource “to the
continued existence and integrity of Indian tribes.” 25 U.S.C.
§ 1901(3). Thus, interpreting ICWA as related to tribal selfgovernment and the survival of tribes makes the most sense in light
of Congress’s explicit intent in enacting the statute. See id.

426a
The district court construed Mancari narrowly and
distinguished it for two primary reasons: First, the
district court found that the law in Mancari provided
special treatment “only to Indians living on or near
reservations.” Second, the district court concluded that
ICWA’s membership eligibility standard for an Indian
child does not rely on actual tribal membership as did the
statute in Mancari. The district court reasoned that,
whereas the law in Mancari “applied ‘only to members
of ‘federally recognized’ tribes which operated to exclude
many individuals who are racially to be classified as
Indians,’” ICWA’s definition of “Indian child” extended
protection to children who were eligible for membership
in a federally recognized tribe and had a biological
parent who was a member of a tribe. The district court,
citing the tribal membership laws of several tribes,
including the Navajo Nation, concluded that “[t]his
means one is an Indian child if the child is related to a
tribal ancestor by blood.”
We disagree with the district court’s reasoning and
conclude that Mancari controls here. As to the district
court’s first distinction, Mancari’s holding does not rise
or fall with the geographical location of the Indians
receiving “special treatment.” See Mancari, 417 U.S. at
552. The Supreme Court has long recognized Congress’s
broad power to regulate Indians and Indian tribes on and
off the reservation. See e.g., United States v. McGowan,
302 U.S. 535, 539 (1938) (“Congress possesses the broad
power of legislating for the protection of the Indians
wherever they may be within the territory of the United
States.”); Perrin v. United States, 232 U.S. 478, 482
(1914) (acknowledging Congress’s power to regulate

427a
Indians “whether upon or off a reservation and whether
within or without the limits of a state”).
Second, the district court concluded that, unlike the
statute in Mancari, ICWA’s definition of Indian child
extends to children who are merely eligible for tribal
membership because of their ancestry. However,
ICWA’s definition of “Indian child” is not based solely on
tribal ancestry or race. ICWA defines an “Indian child”
as “any unmarried person who is under age eighteen and
is either (a) a member of an Indian tribe or (b) is eligible
for membership in an Indian tribe and is the biological
child of a member of an Indian tribe.” 25 U.S.C. § 1903(4).
As Defendants explain, under some tribal membership
laws, eligibility extends to children without Indian blood,
such as the descendants of former slaves of tribes who
became members after they were freed, or the
descendants of adopted white persons. Accordingly, a
child may fall under ICWA’s membership eligibility
standard because his or her biological parent became a
member of a tribe, despite not being racially Indian.
Additionally, many racially Indian children, such as
those belonging to non-federally recognized tribes, do
not fall within ICWA’s definition of “Indian child.”
Conditioning a child’s eligibility for membership, in part,
on whether a biological parent is a member of the tribe
is therefore not a proxy for race, as the district court
concluded, but rather for not-yet-formalized tribal
affiliation, particularly where the child is too young to
formally apply for membership in a tribe. 10
The Navajo Nation’s membership code is instructive on these
points, despite the district court’s reliance on it to the contrary. The
Navajo Nation explains that, under its laws, “blood alone is never
10

428a
Our conclusion that ICWA’s definition of Indian child
is a political classification is consistent with both the
Supreme Court’s holding in Mancari and this court’s
holding in Peyote Way Church of God, Inc. v.
Thornburgh, 922 F.2d 1210, 1212 (5th Cir. 1991). In
Mancari, the hiring preference extended to individuals
who were one-fourth or more degree Indian blood and a
member of a federally recognized tribe. See 417 U.S. at
554. Similarly, in Peyote Way, this court considered
whether equal protection was violated by federal and
state laws prohibiting the possession of peyote by all
persons except members of the Native American Church
of North America (NAC), who used peyote for religious
purposes. See 922 F.2d at 1212. Applying Mancari’s
reasoning, this court upheld the preference on the basis
that membership in NAC “is limited to Native American
members of federally recognized tribes who have at least
25% Native American ancestry, and therefore
represents a political classification.” Id. at 1216. ICWA’s
“Indian child” eligibility provision similarly turns, at
least in part, on whether the child is eligible for
membership in a federally recognized tribe. See
California Valley Miwok Tribe v. United States, 515
F.3d 1262, 1263 (D.C. Cir. 2008) (federal recognition “is
a formal political act” that “institutionaliz[es] the
determinative of membership.” The Navajo Nation will only grant
an application for membership “if the individual has some tangible
connection to the Tribe,” such as the ability to speak the Navajo
language or time spent living among the Navajo people. “Having a
biological parent who is an enrolled member is per se evidence of
such a connection.” Additionally, individuals will not be granted
membership in the Navajo Nation, regardless of their race or
ancestry, if they are members of another tribe.

429a
government-to-government relationship between the
tribe and the federal government.”); 25 U.S.C. § 1903(4).
The district court concluded, and Plaintiffs now
argue, that ICWA’s definition “mirrors the
impermissible racial classification in Rice [v. Cayetano,
528 U.S. 495 (2000)], and is legally and factually
distinguishable from the political classification in
Mancari.” The Supreme Court in Rice concluded that a
provision of the Hawaiian Constitution that permitted
only “Hawaiian” people to vote in the statewide election
for the trustees of the Office of Hawaiian Affairs (OHA)
violated the Fifteenth Amendment. 528 U.S. at 515.
“Hawaiian” was defined by statute as “any descendant of
the aboriginal peoples inhabiting the Hawaiian Islands
which exercised sovereignty and subsisted in the
Hawaiian Islands in 1778, and which peoples thereafter
have continued to reside in Hawaii.” Id. The Court noted
the state legislature’s express purpose in using ancestry
as a proxy for race and held that “[d]istinctions between
citizens solely because of their ancestry are by their very
nature odious to a free people whose institutions are
founded upon the doctrine of equality.” Id. at 514–17
(citing Hirabayashi v. United States, 320 U.S. 81, 100
(1943)). Distinguishing Mancari, the Court noted that its
precedent did not afford Hawaiians a protected status
like that of Indian tribes; that the OHA elections were an
affair of the state and not of a “separate quasi sovereign”
like a tribe; and that extending “Mancari to this context
would [] permit a State, by racial classification, to fence
out whole classes of its citizens from decisionmaking in
critical state affairs.” Id. at 522.

430a
Rice is distinguishable from the present case for
several reasons. Unlike Rice, which involved voter
eligibility in a state-wide election for a state agency,
there is no similar concern here that applying Mancari
would permit “by racial classification, [the fencing] out
[of] whole classes of [a state’s] citizens from
decisionmaking in critical state affairs.” See 528 U.S. at
518–22. Additionally, as discussed above, ICWA’s
definition of “Indian child,” unlike the challenged law in
Rice, does not single out children “solely because of their
ancestry or ethnic characteristics.” See id. at 515
(emphasis added). Further, unlike the law in Rice, ICWA
is a federal law enacted by Congress for the protection
of Indian children and tribes. See Rice, 528 U.S. at 518
(noting that to sustain Hawaii’s restriction under
Mancari, it would have to “accept some beginning
premises not yet established in [its] case law,” such as
that Congress “has determined that native Hawaiians
have a status like that of Indians in organized tribes”);
see also Kahawaiolaa v. Norton, 386 F.3d 1271, 1279 (9th
Cir. 2004) (rejecting an equal protection challenge
brought by Native Hawaiians, who were excluded from
the U.S. Department of the Interior’s regulatory tribal
acknowledgement process, and concluding that the
recognition of Indian tribes was political). Additionally,
whereas the OHA elections in Rice were squarely state
affairs, state court adoption proceedings involving
Indian children are simultaneously affairs of states,
tribes, and Congress. See 25 U.S.C. § 1901(3) (“[T]here
is no resource that is more vital to the continued
existence and integrity of Indian tribes than their
children.”). Because we find Rice inapplicable, and

431a
Mancari controlling here, we conclude, contrary to the
district court’s determination, that ICWA’s definition of
“Indian child” is a political classification subject to
rational basis review. See Mancari, 417 U.S. at 555.
B. Rational Basis Review
Having so determined that rational basis review
applies, we ask whether “the special treatment can be
tied rationally to the fulfillment of Congress’s unique
obligation toward the Indians.” Mancari, 417 U.S. at 555.
Given Congress’s explicit findings and stated objectives
in enacting ICWA, we conclude that the special
treatment ICWA affords Indian children is rationally
tied to Congress’s fulfillment of its unique obligation
toward Indian nations and its stated purpose of
“protect[ing] the best interests of Indian children and []
promot[ing] the stability and security of Indian tribes.”
See 25 U.S.C. §§ 1901–02; see also Mancari, 417 U.S. at
555. ICWA section 1903(4)’s definition of an “Indian
child” is a political classification that does not violate
equal protection.
III. Tenth Amendment
The district court concluded that ICWA sections
1901–23 11 and 1951–52 12 violated the anticommandeering
ICWA sections 1901–03 set forth Congress’s findings,
declaration of policy, and definitions. Sections 1911–23 govern child
custody proceedings, including tribal court jurisdiction, notice
requirements in involuntary and voluntary state proceedings,
termination of parental rights, invalidation of state proceedings,
placement preferences, and agreements between states and tribes.
12
Section 1951 sets forth information-sharing requirements for
state courts. Section 1952 authorizes the Secretary of the Interior
to promulgate necessary rules and regulations.
11

432a
doctrine by requiring state courts and executive agencies
to apply federal standards to state-created claims. The
district court also considered whether ICWA preempts
conflicting state law under the Supremacy Clause and
concluded that preemption did not apply because the law
“directly regulated states.” Defendants argue that the
anticommandeering doctrine does not prevent Congress
from requiring state courts to enforce substantive and
procedural standards and precepts, and that ICWA sets
minimum procedural standards that preempt conflicting
state law. We examine the constitutionality of the
challenged provisions of ICWA below and conclude that
they preempt conflicting state law and do not violate the
anticommandeering doctrine. .
A. Anticommandeering Doctrine
The Tenth Amendment provides that “[t]he powers
not delegated to the United States by the Constitution,
nor prohibited by it to the States, are reserved to the
States respectively, or to the people.” U.S. CONST.
amend. X. Congress’s legislative powers are limited to
those enumerated under the Constitution. Murphy v.
Nat’l Collegiate Athletic Ass’n, 138 S. Ct. 1461, 1476
(2018). “[C]onspicuously absent from the list of powers
given to Congress is the power to issue direct orders to
the governments of the States.” Id. The
anticommandeering doctrine, an expression of this
limitation on Congress, prohibits federal laws
commanding the executive or legislative branch of a
state government to act or refrain from acting. 13 Id. at
Though Congress is prohibited from commandeering states, it can
“encourage a State to regulate in a particular way, or . . . hold out

13

433a
1478 (holding that a federal law prohibiting state
authorization of sports gambling violated the
anticommandeering rule by “unequivocally dictat[ing]
what a state legislature may and may not do”); Printz v.
United States, 521 U.S. 898, 935 (1997) (holding that a
federal law requiring state chief law enforcement
officers to conduct background checks on handgun
purchasers “conscript[ed] the State’s officers directly”
and was invalid); New York v. United States, 505 U.S.
144, 175–76 (1992) (holding that a federal law
impermissibly commandeered states to implement
federal legislation when it gave states “[a] choice
between two unconstitutionally coercive” alternatives: to
either dispose of radioactive waste within their
boundaries according to Congress’s instructions or “take
title” to and assume liabilities for the waste).
1. State Courts
Defendants argue that because the Supremacy
Clause requires the enforcement of ICWA and the Final
Rule by state courts, these provisions do not run afoul of
the anticommandeering doctrine. We agree. The
Supremacy Clause provides that “the Laws of the United
States . . . shall be the supreme Law of the Land; and the
incentives to the States as a method of influencing a State’s policy
choices.” New York, 505 U.S. at 166. For example, Congress may
also condition the receipt of federal funds under its spending power.
See id. at 167. Defendants also contend that ICWA is authorized
under Congress’s Spending Clause powers because Congress
conditioned federal funding in Title IV-B and E of the Social
Security Act on states’ compliance with ICWA. However, because
we conclude that ICWA is constitutionally permissible on other
bases, we need not reach this argument.

434a
Judges in every State shall be bound thereby, any Thing
in the Constitution or Laws of any State to the Contrary
notwithstanding.” U.S. CONST. art. VI, cl. 2. In setting
forth the anticommandeering doctrine, the Supreme
Court drew a distinction between a state’s courts and its
political branches. The Court acknowledged that
“[f]ederal statutes enforceable in state court do, in a
sense, direct state judges to enforce them, but this sort
of federal “direction” of state judges is mandated by the
text of the Supremacy Clause.” New York, 505 U.S. at
178–79 (internal quotation marks omitted). Early laws
passed by the first Congresses requiring state court
action “establish, at most, that the Constitution was
originally understood to permit imposition of an
obligation on state judges to enforce federal
prescriptions, insofar as those prescriptions related to
matters appropriate for the judicial power.” Printz, 521
U.S. at 907. State courts were viewed as distinctive
because, “unlike [state] legislatures and executives, they
applied the law of other sovereigns all the time,”
including as mandated by the Supremacy Clause. Id.
Thus, to the extent provisions of ICWA and the Final
Rule require state courts to enforce federal law, the
anticommandeering doctrine does not apply. See id. at
928–29 (citing Testa v. Katt, 330 U.S. 386 (1947), “for the
proposition that state courts cannot refuse to apply
federal lawa conclusion mandated by the terms of the
Supremacy Clause”).
2. State Agencies
Plaintiffs next challenge several provisions of ICWA
that they contend commandeer state executive agencies,
including sections 1912(a) (imposing notice requirements

435a
on “the party seeking the foster care placement of, or
termination of parental rights to, an Indian child”),
1912(d) (requiring that “any party seeking to effect a
foster care placement of, or termination of parental
rights to, an Indian child under State law shall satisfy the
court that active efforts have been made to provide
remedial services and rehabilitative programs designed
to prevent the breakup of the Indian family and that
these efforts have proved unsuccessful.”), 1915(c)
(requiring “the agency or court effecting [a] placement”
adhere to the order of placement preferences established
by the tribe), and 1915(e) (requiring that “the State” in
which the placement was made keep a record of each
placement, evidencing the efforts to comply with the
order of preference, to be made available upon request
of the Secretary or the child’s tribe). See 25 U.S.C.
§§ 1912, 1915. Plaintiffs argue that ICWA’s
requirements on state agencies go further than the
federal regulatory scheme invalidated in Printz and
impermissibly impose costs that states must bear.
Defendants contend that the challenged provisions of
ICWA apply to private parties and state agencies alike
and therefore do not violate the anticommandeering
doctrine.
In Printz, the Supreme Court affirmed its prior
holding that “[t]he Federal Government may not compel
the States to enact or administer a federal regulatory
program,” and “Congress cannot circumvent that
prohibition by conscripting the State’s officers directly.”
521 U.S. at 925, 935 (quoting New York, 505 U.S. at 188).
The Printz Court, rejecting as irrelevant the
Government’s argument that the federal law imposed a

436a
minimal burden on state executive officers, explained
that it was not “evaluating whether the incidental
application to the States of a federal law of general
applicability excessively interfered with the functioning
of state governments,” but rather a law whose “whole
object . . . [was] to direct the functioning of the state
executive.” Id. at 931–32. Expanding upon this
distinction, the Court in Murphy discussed Reno v.
Condon, 528 U.S. 141 (2000), and South Carolina v.
Baker, 485 U.S. 505 (1988), and held that “[t]he
anticommandeering doctrine does not apply when
Congress evenhandedly regulates an activity in which
both States and private actors engage.” 138 S. Ct. at
1478.
In Condon, the Court upheld a federal regulatory
scheme that restricted the ability of states to disclose a
driver’s personal information without consent. 528 U.S.
at 151. In determining that the anticommandeering
doctrine did not apply, the Court distinguished the law
from those invalidated in New York and Printz:
[This law] does not require the States in their
sovereign capacity to regulate their own citizens.
The [law] regulates the States as the owners of
[Department of Motor Vehicle] data bases. It does
not require the South Carolina Legislature to enact
any laws or regulations, and it does not require
state officials to assist in the enforcement of federal
statutes regulating private individuals.
Id. In Baker, the Court rejected a Tenth Amendment
challenge to a provision of a federal statute that
eliminated the federal income tax exemption for interest
earned on certain bonds issued by state and local

437a
governments unless the bonds were registered, treating
the provision “as if it directly regulated States by
prohibiting outright the issuance of [unregistered]
bearer bonds.” 485 U.S. at 507–08, 511. The Court
reasoned that the provision at issue merely “regulat[ed]
a state activity” and did not “seek to control or influence
the manner in which States regulate private parties.” Id.
at 514. “That a State wishing to engage in certain activity
must take administrative and sometimes legislative
action to comply with federal standards regulating that
activity is a commonplace that presents no constitutional
defect.” Id. at 514–15. “[S]ubstantial effort[s]” to comply
with federal regulations are “an inevitable consequence
of regulating a state activity.” Id. at 514.
In light of these cases, we conclude that the
provisions of ICWA that Plaintiffs challenge do not
commandeer state agencies. Sections 1912(a) and (d)
impose notice and “active efforts” requirements on the
“party” seeking the foster care placement of, or
termination of parental rights to, an Indian child.
Because both state agencies and private parties who
engage in state child custody proceedings may fall under
these provisions, 1912(a) and (d) “evenhandedly
regulate[] an activity in which both States and private
actors engage.” 14 See Murphy, 138 S. Ct. at 1478.
Similarly, section 1912(e) provides that no foster care
placement may be ordered in involuntary proceedings in state court
absent “a determination, supported by clear and convincing
evidence, including testimony of qualified expert witnesses, that the
continued custody of the child by the parent or Indian custodian is
likely to result in serious emotional or physical damage to the child.”
See 25 U.S.C. § 1912(e). Section 1912(f) requires that no termination
of parental rights may be ordered in involuntary proceedings in
14

438a
Moreover, sections 1915(c) and (e) impose an obligation
on “the agency or court effecting the placement” of an
Indian child to respect a tribe’s order of placement
preferences and require that “the State” maintain a
record of each placement to be made available to the
Secretary or child’s tribe. These provisions regulate
state activity and do not require states to enact any laws
or regulations, or to assist in the enforcement of federal
statutes regulating private individuals. See Condon, 528
U.S. at 151; Baker, 485 U.S. at 514; see also Printz, 521
U.S. at 918 (distinguishing statutes that merely require
states to provide information to the federal government
from those that command state executive agencies to
actually administer federal programs). To the contrary,
they merely require states to “take administrative . . .
action to comply with federal standards regulating” child
custody proceedings involving Indian children, which is
permissible under the Tenth Amendment. 15 See Baker,
485 U.S. at 514–15.
state court absent evidence beyond a reasonable doubt of the same.
See id. at 1912(f). Neither section expressly refers to state agencies
and, in conjunction with section 1912(d), both sections must be
reasonably read to refer to “any party” seeking the foster care
placement of, or the termination of parental rights to, an Indian
child. Thus, like section 1912(d), sections 1912(e)–(f) “evenhandedly
regulate[] an activity in which both States and private actors
engage” and do not run afoul of the anticommandeering doctrine.
See Murphy, 138 S. Ct. at 1478; see also Condon, 528 U.S. at 151.
15
In ruling otherwise, the district court discussed Murphy and
emphasized that adhering to the anticommandeering rule is
necessary to protect constitutional principles of state sovereignty,
promote political accountability, and prevent Congress from
shifting the costs of regulation to states. See Murphy, 138 S. Ct. at
1477. These principles do not compel the result reached by the

439a
B. Preemption
Defendants argue that, to the extent there is a
conflict between ICWA and applicable state laws in child
custody proceedings, ICWA preempts state law. The
Supremacy Clause provides that federal law is the
“supreme Law of the Land . . . any Thing in the
Constitution or Laws of any State to the Contrary
notwithstanding.” U.S. CONST. art. VI, cl. 2. Conflict
preemption occurs when “Congress enacts a law that
imposes restrictions or confers rights on private actors;
district court. See id. First, the anticommandeering doctrine is not
necessary here to protect constitutional principles of state
sovereignty because ICWA regulates the actions of state executive
agencies in their role as child advocates and custodians, and not in
their capacity as sovereigns enforcing ICWA. See id. at 1478; see
also Condon, 528 U.S. at 151 (concluding that the law in question
there “does not require the States in their sovereign capacity to
regulate their own citizens [but] regulates the States as the owners
of data bases”). The need to promote political accountability is
minimized here for similar reasons, as ICWA does not require
states to regulate their own citizens. See Murphy, 138 S. Ct. at 1477
(noting concern that, if states are required to impose a federal
regulation on their voters, the voters will not know who to credit or
blame and responsibility will be “blurred”). Finally, the need to
prevent Congress from shifting the costs of regulation to states is
also minimized here, where some of the requirements at issue, like
those in sections 1912(d) and 1915(c), simply regulate a state’s
actions during proceedings that it would already be expending
resources on. ICWA’s recordkeeping and notice requirements could
impose costs on states, but we cannot conclude that these costs
compel application of the anticommandeering doctrine. See Condon,
528 U.S. at 150 (a federal law that “require[d] time and effort on the
part of state employees” was constitutional); Baker, 485 U.S. at 515
(that states may have to raise funds necessary to comply with
federal regulations “presents no constitutional defect”).

440a
a state law confers rights or imposes restrictions that
conflict with the federal law; and therefore the federal
law takes precedence and the state law is preempted.”
Murphy, 138 S. Ct. at 1480. For a federal law to preempt
conflicting state law, two requirements must be satisfied:
The challenged provision of the federal law “must
represent the exercise of a power conferred on Congress
by the Constitution” and “must be best read as one that
regulates private actors” by imposing restrictions or
conferring rights. Id. at 1479–80. The district court
concluded that preemption does not apply here, as ICWA
regulates states rather than private actors. We review de
novo whether a federal law preempts a state statute or
common law cause of action. See Friberg v. Kansas City
S. Ry. Co., 267 F.3d 439, 442 (5th Cir. 2001).
Congress enacted ICWA to “establish[] minimum
Federal standards for the removal of Indian children
from their families and the placement of such children in
foster or adoptive homes which will reflect the unique
values of Indian culture.” 25 U.S.C. § 1902. Defendants
contend that these minimum federal standards preempt
conflicting state laws. Plaintiffs contend that preemption
does not apply here because ICWA regulates states and
not individuals, and nothing in the Constitution gives
Congress authority to regulate the adoption of Indian
children under state jurisdiction.
ICWA specifies that Congress’s authority to regulate
the adoption of Indian children arises under the Indian
Commerce Clause as well as “other constitutional
authority.” 25 U.S.C. § 1901(1). The Indian Commerce
Clause provides that “[t]he Congress shall have Power
To . . . regulate Commerce . . . with the Indian Tribes.”

441a
U.S. CONST. art. I, § 8, cl. 3. The Supreme Court has
repeatedly held that the Indian Commerce Clause grants
Congress plenary power over Indian affairs. See Lara,
541 U.S. at 200 (noting that the Indian Commerce and
Treaty Clauses are sources of Congress’s “plenary and
exclusive” “powers to legislate in respect to Indian
tribes”); Ramah Navajo Sch. Bd., Inc. v. Bureau of
Revenue of New Mexico, 458 U.S. 832, 837 (1982)
(discussing Congress’s “broad power . . . to regulate
tribal affairs under the Indian Commerce Clause”);
Mancari, 417 U.S. at 551–52 (noting that “[t]he plenary
power of Congress to deal with the special problems of
Indians is drawn both explicitly and implicitly from,”
inter alia, the Indian Commerce Clause). Plaintiffs do not
provide authority to support a departure from that
principle here.
Moreover, ICWA clearly regulates private
individuals. See Murphy, 138 S. Ct. at 1479–80. In
enacting the statute, Congress declared that it was the
dual policy of the United States to protect the best
interests of Indian children and promote the stability
and security of Indian families and tribes. 25 U.S.C.
§ 1902. Each of the challenged provisions applies within
the context of state court proceedings involving Indian
children and is informed by and designed to promote
Congress’s goals by conferring rights upon Indian
children and families. 16 See H.R. REP. No. 95-1386, at 18
Arguably, two of the challenged provisions of ICWA could be
construed to simultaneously “confer[] rights” on Indian children
and families while “imposing restrictions” on state agencies. See
Murphy, 138 S. Ct. at 1479–80. Section 1915(c) requires “the agency
or court effecting [a] placement” to adhere to a tribe’s established
16

442a
(1978) (“We conclude that rights arising under [ICWA]
may be enforced, as of right, in the courts of the States
when their jurisdiction, as prescribed by local law, is
adequate to the occasion.” (quoting Second Employers’
Liability Cases, 223 U.S. 1, 59 (1912))). Thus, to the
extent ICWA’s minimum federal standards conflict with
state law, “federal law takes precedence and the state
law is preempted.” See Murphy, 138 S. Ct. at 1480.
IV. Nondelegation Doctrine
Article I of the Constitution vests “[a]ll legislative
Powers” in Congress. U.S. CONST. art. 1, § 1, cl. 1. “In a
delegation challenge, the constitutional question is
whether the statute has delegated legislative power to
the agency.” Whitman v. Am. Trucking Ass’ns, 531 U.S.
457, 472 (2001). The limitations on Congress’s ability to
delegate its legislative power are “less stringent in cases
where the entity exercising the delegated authority itself
possesses independent authority over the subject
matter.” See United States v. Mazurie, 419 U.S. 544,
556–57 (1975). ICWA section 1915(c) allows Indian tribes
to establish through tribal resolution a different order of
preferred placement than that set forth in sections
order of placement preferences, and section 1915(e) requires states
to keep records and make them available to the Secretary and
Indian tribes. 25 U.S.C. § 1915(c), (e). However, Murphy instructs
that for a provision of a federal statute to preempt state law, the
provision must be “best read as one that regulates private actors.”
See 138 S. Ct. at 1479 (emphasis added). In light of Congress’s
express purpose in enacting ICWA, the legislative history of the
statute, and section 1915’s scope in setting forth minimum
standards for the “Placement of Indian children,” we conclude that
these provisions are “best read” as regulating private actors by
conferring rights on Indian children and families. See id.

443a
1915(a) and (b). 17 Section 23.130 of the Final Rule
provides that a tribe’s established placement
preferences apply over those specified in ICWA. 18 The
district court determined that these provisions violated
the nondelegation doctrine, reasoning that section
1915(c) grants Indian tribes the power to change
legislative preferences with binding effect on the states,
and Indian tribes, like private entities, are not part of the
federal government of the United States and cannot
exercise federal legislative or executive regulatory
power over non-Indians on non-tribal lands.
Defendants argue that the district court’s analysis of
the constitutionality of these provisions ignores the
inherent sovereign authority of tribes. They contend that
section 1915 merely recognizes and incorporates a tribe’s
exercise of its inherent sovereignty over Indian children
and therefore does not—indeed cannot—delegate this
existing authority to Indian tribes.
The Supreme Court has long recognized that
Congress may incorporate the laws of another sovereign
into federal law without violating the nondelegation
doctrine. See Mazurie, 419 U.S. at 557 (“[I]ndependent
tribal authority is quite sufficient to protect Congress’
The section provides: “In the case of a placement under
subsection (a) or (b) of this section, if the Indian child’s tribe shall
establish a different order of preference by resolution, the agency
or court effecting the placement shall follow such order so long as
the placement is the least restrictive setting appropriate to the
particular needs of the child, as provided in subsection (b) of this
section.” 25 U.S.C. § 1915(c).
18
“If the Indian child’s Tribe has established by resolution a
different order of preference than that specified in ICWA, the
Tribe’s placement preferences apply.” 25 C.F.R. § 23.130.
17

444a
decision to vest in tribal councils this portion of its own
authority ‘to regulate Commerce . . . with the Indian
tribes.’”); United States v. Sharpnack, 355 U.S. 286, 293–
94 (1958) (holding that a statute that prospectively
incorporated state criminal laws “in force at the time” of
the alleged crime was a “deliberate continuing adoption
by Congress” of state law as binding federal law in
federal enclaves within state boundaries); Gibbons v.
Ogden, 22 U.S. (9 Wheat.) 1, 80 (1824) (“Although
Congress cannot enable a State to legislate, Congress
may adopt the provisions of a State on any subject.”).
“Indian tribes are unique aggregations possessing
attributes of sovereignty over both their members and
their territory.” Mazurie, 419 U.S. at 557. Though some
exercises of tribal power require “express congressional
delegation,” the “tribes retain their inherent power to
determine tribal membership [and] to regulate domestic
relations among members . . . .” See Montana v. United
States, 450 U.S. 544, 564 (1981); see also Merrion v.
Jicarilla Apache Tribe, 455 U.S. 130, 170 (1982) (“tribes
retain the power to create substantive law governing
internal tribal affairs” like tribal citizenship and child
custody).
In Mazurie, a federal law allowed the tribal council of
the Wind River Tribes, with the approval of the
Secretary of the Interior, to adopt ordinances to control
the introduction of alcoholic beverages by non-Indians
on privately owned land within the boundaries of the
reservation. See 419 U.S. at 547, 557. The Supreme Court
held that the law did not violate the nondelegation
doctrine, focusing on the Tribes’ inherent power to
regulate their internal and social relations by controlling

445a
the distribution and use of intoxicants within the
reservation’s bounds. Id. Mazurie is instructive here.
ICWA section 1915(c) provides that a tribe may pass, by
its own legislative authority, a resolution reordering the
three placement preferences set forth by Congress in
section 1915(a). Pursuant to this section, a tribe may
assess whether the most appropriate placement for an
Indian child is with members of the child’s extended
family, the child’s tribe, or other Indian families, and
thereby exercise its “inherent power to determine tribal
membership [and] regulate domestic relations among
members” and Indian children eligible for membership.
See Montana, 450 U.S. at 564.
State Plaintiffs contend that Mazurie is
distinguishable because it involves the exercise of tribal
authority on tribal lands, whereas ICWA permits the
extension of tribal authority over states and persons on
non-tribal lands. We find this argument unpersuasive. It
is well established that tribes have “sovereignty over
both their members and their territory.” See Mazurie,
419 U.S. at 557 (emphasis added). For a tribe to exercise
its authority to determine tribal membership and to
regulate domestic relations among its members, it must
necessarily be able to regulate all Indian children,
irrespective of their location. 19 See Montana, 450 U.S. at
564 (tribes retain inherent power to regulate domestic
relations and determine tribal membership); Merrion,
455 U.S. at 170 (tribes retain power to govern tribal
citizenship and child custody). Section 1915(c), by
Indeed, as the BIA noted in promulgating the Final Rule, at
least 78% of Native Americans lived outside of Indian country as of
2016. See 81 Fed. Reg. at 38,778, 38,783.
19

446a
recognizing the inherent powers of tribal sovereigns to
determine by resolution the order of placement
preferences applicable to an Indian child, is thus a
“deliberate continuing adoption by Congress” of tribal
law as binding federal law. See Sharpnack, 355 U.S. at
293–94; see also 25 U.S.C. § 1915(c); 81 Fed. Reg. at
38,784 (the BIA noting that “through numerous
statutory provisions, ICWA helps ensure that State
courts incorporate Indian social and cultural standards
into decision-making that affects Indian children”). We
therefore conclude that ICWA section 1915(c) is not an
unconstitutional delegation of Congressional legislative
power to tribes, but is an incorporation of inherent tribal
authority by Congress. See Mazurie, 419 U.S. at 544;
Sharpnack, 355 U.S. at 293–94.
V. The Final Rule
The district court held that, to the extent sections
23.106–22, 23.124–32, and 23.140–41 of the Final Rule
were binding on State Plaintiffs, they violated the APA
for three reasons: The provisions (1) purported to
implement an unconstitutional statute; (2) exceeded the
scope of the Interior Department’s statutory regulatory
authority to enforce ICWA with binding regulations; and
(3) reflected an impermissible construction of ICWA
section 1915. We examine each of these bases in turn.
A. The Constitutionality of ICWA
Because we concluded that the challenged provisions
of ICWA are constitutional, for reasons discussed earlier
in this opinion, the district court’s first conclusion that
the Final Rule was invalid because it implemented an

447a
unconstitutional statue was erroneous. Thus, the
statutory basis of the Final Rule is constitutionally valid.
B. The Scope of the BIA’s Authority
Congress authorized the Secretary of the Interior to
promulgate rules and regulations that may be necessary
to carry out the provisions of ICWA. See 25 U.S.C.
§ 1952. Pursuant to this provision, the BIA, acting under
authority delegated by the Interior Department, issued
guidelines in 1979 for state courts in Indian child custody
proceedings that were “not intended to have binding
legislative effect.” 44 Fed. Reg. at 67,584. The BIA
explained that, generally, “when the Department writes
rules needed to carry out responsibilities Congress has
explicitly imposed on the Department, those rules are
binding.” Id. However, when “the Department writes
rules or guidelines advising some other agency how it
should carry out responsibilities explicitly assigned to it
by Congress, those rules or guidelines are not, by
themselves, binding.” Id. With respect to ICWA, the BIA
concluded in 1979 that it was “not necessary” to issue
binding regulations advising states how to carry out the
responsibilities Congress assigned to them; state courts
were “fully capable” of implementing the responsibilities
Congress imposed on them, and nothing in the language
or legislative history of 25 U.S.C. § 1952 indicated that
Congress intended the BIA to exercise supervisory
control over states. Id. However, in 2016, the BIA
changed course and issued the Final Rule, which sets
binding standards for state courts in Indian childcustody proceedings. See 25 C.F.R. §§ 23.101, 23.106; 81
Fed. Reg. at 38,779, 38,785. The BIA explained that its
earlier, nonbinding guidelines were “insufficient to fully

448a
implement Congress’s goal of nationwide protections for
Indian children, parents, and Tribes.” 81 Fed. Reg. at
38,782. Without the Final Rule, the BIA stated, statespecific determinations about how to implement ICWA
would
continue
“with
potentially
devastating
consequences” for those Congress intended ICWA to
protect. See id.
In reviewing “an agency’s construction of the statute
which it administers,” we are “confronted with two
questions.” Chevron, U.S.A., Inc. v. Nat. Res. Def.
Council, Inc., 467 U.S. 837, 842–43 (1984). First, we must
examine whether the statute is ambiguous. Id. at 842. “If
the intent of Congress is clear, that is the end of the
matter; for the court, as well as the agency, must give
effect to the unambiguously expressed intent of
Congress.” Id. But “if the statute is silent or ambiguous
with respect to the specific issue, the question for the
court is whether the agency’s answer is based on a
permissible construction of the statute.” Id. at 842–43.
We must uphold an agency’s reasonable interpretation of
an ambiguous statute. Id. at 844.
Under Chevron step one, the question is whether
Congress unambiguously intended to grant the
Department authority to promulgate binding rules and
regulations. ICWA provides that “the Secretary shall
promulgate such rules and regulations as may be
necessary to carry out the provisions of this chapter.” 25
U.S.C. § 1952. The provision’s plain language confers
broad authority on the Department to promulgate rules
and regulations it deems necessary to carry out ICWA.
This language can be construed to grant the authority to
issue binding rules and regulations; however, because

449a
“Congress has not directly addressed the precise
question at issue,” we conclude that section 1952 is
ambiguous. See Chevron, 467 U.S. at 843.
Moving to the second Chevron step, we must
determine whether the BIA’s current interpretation of
its authority to issue binding regulations pursuant to
section 1952 is reasonable. See 467 U.S. at 843–44.
Defendants argue that section 1952’s language is
substantively identical to other statutes conferring
broad delegations of rulemaking authority. Indeed, the
Supreme Court has held that “[w]here the empowering
provision of a statute states simply that the agency may
make . . . such rules and regulations as may be necessary
to carry out the provisions of this Act . . . the validity of
a regulation promulgated thereunder will be sustained
so long as it is reasonably related to the purposes of the
enabling legislation.” Mourning v. Family Publications
Serv., Inc., 411 U.S. 356, 369 (1973) (internal quotation
marks omitted); see also City of Arlington, Tex. v.
F.C.C., 569 U.S. 290, 306 (2013) (noting a lack of “case[s]
in which a general conferral of rulemaking or
adjudicative authority has been held insufficient to
support Chevron deference for an exercise of that
authority within the agency’s substantive field”). Here,
section 1952’s text is substantially similar to the
language in Mourning, and the Final Rule’s binding
standards for Indian child custody proceedings are
reasonably related to ICWA’s purpose of establishing
minimum federal standards in child custody proceedings
involving Indian children. See 25 U.S.C. § 1902. Thus, the
Final Rule is a reasonable exercise of the broad authority
granted to the BIA by Congress in ICWA section 1952.

450a
Plaintiffs contend that the BIA reversed its position
on the scope of its authority to issue binding regulations
after thirty-seven years and without explanation and its
interpretation was therefore not entitled to deference.
We disagree. “The mere fact that an agency
interpretation contradicts a prior agency position is not
fatal. Sudden and unexplained change, or change that
does not take account of legitimate reliance on prior
interpretation, may be arbitrary, capricious [or] an
abuse of discretion. But if these pitfalls are avoided,
change is not invalidating, since the whole point of
Chevron is to leave the discretion provided by the
ambiguities of a statute with the implementing agency.”
Smiley v. Citibank (S. Dakota), N.A., 517 U.S. 735, 742
(1996) (internal citations and quotation marks omitted).
The agency must provide “reasoned explanation” for its
new policy, though “it need not demonstrate to a court’s
satisfaction that the reasons for the new policy are better
than the reasons for the old one.” F.C.C. v. Fox
Television Stations, Inc., 556 U.S. 502, 515 (2009). “[I]t
suffices that the new policy is permissible under the
statute, that there are good reasons for it, and that the
agency believes it to be better, which the conscious
change of course adequately indicates.” Id.
The BIA directly addressed its reasons for departing
from its earlier interpretation that it had no authority to
promulgate binding regulations, explaining that, under
Supreme Court precedent, the text of section 1952
conferred “a broad and general grant of rulemaking
authority.” 81 Fed. Reg. at 38,785 (collecting Supreme
Court cases). The BIA further discussed why it now
considered binding regulations necessary to implement

451a
ICWA: In 1979, the BIA “had neither the benefit of the
Holyfield Court’s carefully reasoned decision nor the
opportunity to observe how a lack of uniformity in the
interpretation of ICWA by State courts could undermine
the statute’s underlying purposes.” 81 Fed. Reg. at
38,787 (citing Holyfield, 490 U.S. at 30).
In Holyfield, the Supreme Court considered the
meaning of the term “domicile,” which ICWA section
1911 left undefined and the BIA left open to state
interpretation under its 1979 Guidelines. 490 U.S. at 43,
51. The Court held that “it is most improbable that
Congress would have intended to leave the scope of the
statute’s key jurisdictional provision subject to definition
by state courts as a matter of state law,” given that
“Congress was concerned with the rights of Indian
families vis-à-vis state authorities” and considered
“States and their courts as partly responsible for the
problem it intended to correct” through ICWA. Id. at 45.
Because Congress intended for ICWA to address a
nationwide problem, the Court determined that the lack
of nationwide uniformity resulting from varied state-law
definitions of this term frustrated Congress’s intent. Id.
The Holyfield Court’s reasoning applies here.
Congress’s concern with safeguarding the rights of
Indian families and communities was not limited to
section 1911 and extended to all provisions of ICWA,
including those at issue here. Thus, as the BIA explained,
all provisions of ICWA that it left open to state
interpretation in 1979, including many that Plaintiffs
now challenge, were subject to the lack of uniformity the
Supreme Court identified in Holyfield and determined
was contrary to Congress’s intent. 81 Fed. Reg. at

452a
38,782. Thus, in light of Holyfield, the BIA has provided
a “reasoned explanation” for departing from its earlier
interpretation of its authority under section 1952 and for
the need of binding regulations with respect to ICWA.
See Fox Television Stations, 556 U.S. at 515.
In addition to assessing whether an agency’s
interpretation of a statute is reasonable under Chevron,
the APA requires that we “hold unlawful and set aside
agency action . . . found to be . . . arbitrary, capricious, an
abuse of discretion, or otherwise not in accordance with
law.” 5 U.S.C. § 706(2)(A). Contrary to Plaintiffs’
contentions, the BIA explained that the Final Rule
resulted from years of study and public outreach and
participation. See 81 Fed. Reg. 38,778, 38,784–85. In
promulgating the rule, the BIA relied on its own
expertise in Indian affairs, its experience in
administering ICWA and other Indian child-welfare
programs, state interpretations and best practices, 20
public hearings, and tribal consultations. See id. Thus,
the BIA’s current interpretation is not “arbitrary,
capricious, [or] an abuse of discretion” because it was not
sudden and unexplained. See Smiley, 517 U.S. at 742; 5
U.S.C. § 706(a)(2). The district court’s contrary
conclusion was error.
C. The BIA’s Construction of ICWA Section 1915
ICWA section 1915 sets forth three preferences for
the placement of Indian children unless good cause can
Since ICWA’s enactment in 1978, several states have
incorporated the statute’s requirements into their own laws or have
enacted detailed procedures for their state agencies to collaborate
with tribes in child custody proceedings.
20

453a
be shown to depart from them. 25 U.S.C. § 1915(a)–(b).
The 1979 Guidelines initially advised that the term “good
cause” in ICWA section 1915 “was designed to provide
state courts with flexibility in determining the
disposition of a placement proceeding involving an
Indian child.” 44 Fed. Reg. 67,584. However, section
23.132(b) of the Final Rule specifies that “[t]he party
seeking departure from [section 1915’s] placement
preferences should bear the burden of proving by clear
and convincing evidence that there is ‘good cause’ to
depart from the placement preferences.” 25 C.F.R.
§ 23.132(b). The district court determined that Congress
unambiguously intended the ordinary preponderance-ofthe-evidence standard to apply, and the BIA’s
interpretation that a higher standard applied was
therefore not entitled to Chevron deference.
Defendants contend that the Final Rule’s clear-andconvincing standard is merely suggestive and not
binding. They further aver that the Final Rule’s
clarification of the meaning of “good cause” and
imposition of a clear-and-convincing-evidence standard
are entitled to Chevron deference. Plaintiffs respond
that state courts have interpreted the clear-andconvincing standard as more than just suggestive in
practice, and the Final Rule’s fixed definition of “good
cause” is contrary to ICWA’s intent to provide state
courts with flexibility.
Though provisions of the Final Rule are generally
binding on states, the BIA indicated that it did not intend
for section 23.132(b) to establish a binding standard. See
25 C.F.R. § 23.132 (“The party seeking departure from
the placement preferences should bear the burden of

454a
proving by clear and convincing evidence that there is
‘good cause’ to depart from the placement preferences.”
(emphasis added)). The BIA explained that “[w]hile the
final rule advises that the application of the clear and
convincing standard ‘should’ be followed, it does not
categorically require that outcome . . . [and] the
Department declines to establish a uniform standard of
proof on this issue.” See 81 Fed. Reg. at 38,843.
The BIA’s interpretation of section 1915 is also
entitled to Chevron deference. For purposes of Chevron
step one, the statute is silent with respect to which
evidentiary standard applies. See 25 U.S.C. § 1915;
Chevron, 467 U.S. at 842. The district court relied on the
canon of expressio unius est exclusio alterius (“the
expression of one is the exclusion of others”) in finding
that Congress unambiguously intended that a
preponderance-of-the-evidence standard was necessary
to show good cause under ICWA section 1915. The court
reasoned that because Congress specified a heightened
evidentiary standard in other provisions of ICWA, but
did not do so with respect to section 1915, Congress did
not intend for the heightened clear-and-convincingevidence standard to apply. This was error. “When
interpreting statutes that govern agency action, . . . a
congressional mandate in one section and silence in
another often suggests not a prohibition but simply a
decision not to mandate any solution in the second
context, i.e., to leave the question to agency discretion.”
Catawba Cty., N.C. v. E.P.A., 571 F.3d 20, 36 (D.C. Cir.
2009). “[T]hat Congress spoke in one place but remained
silent in another . . . rarely if ever suffices for the direct
answer that Chevron step one requires.” Id. (cleaned up);

455a
see also Texas Rural Legal Aid, Inc. v. Legal Servs.
Corp., 940 F.2d 685, 694 (D.C. Cir. 1991) (“Under
Chevron, we normally withhold deference from an
agency’s interpretation of a statute only when Congress
has directly spoken to the precise question at issue, and
the expressio canon is simply too thin a reed to support
the conclusion that Congress has clearly resolved this
issue.”) (internal citations and quotation marks omitted).
Under Chevron step two, the BIA’s current
interpretation of the applicable evidentiary standard is
reasonable. See Chevron, 467 U.S. at 844. The BIA’s
suggestion that the clear-and-convincing standard
should apply was derived from the best practices of state
courts. 81 Fed. Reg. at, 38,843. The Final Rule explains
that, since ICWA’s passage, “courts that have grappled
with the issue have almost universally concluded that
application of the clear and convincing evidence standard
is required as it is most consistent with Congress’s intent
in ICWA to maintain Indian families and Tribes intact.”
Id. Because the BIA’s current interpretation of section
1915, as set forth in Final Rule section 23.132(b), was
based on its analysis of state cases and geared toward
furthering Congress’s intent, it is reasonable and
entitled to Chevron deference. Moreover, the BIA’s
current interpretation is nonbinding and therefore
consistent with the 1979 Guidelines in allowing state
courts flexibility to determine “good cause.” Section
23.132(b) of the Final Rule is thus valid under the APA.
See 5 U.S.C. § 706(a)(2).
***
For these reasons, we conclude that Plaintiffs had
standing to bring all claims and that ICWA and the Final

456a
Rule are constitutional because they are based on a
political classification that is rationally related to the
fulfillment of Congress’s unique obligation toward
Indians; ICWA preempts conflicting state laws and does
not violate the Tenth Amendment anticommandeering
doctrine; and ICWA and the Final Rule do not violate the
nondelegation doctrine. We also conclude that the Final
Rule implementing the ICWA is valid because the ICWA
is constitutional, the BIA did not exceed its authority
when it issued the Final Rule, and the agency’s
interpretation of ICWA section 1915 is reasonable.
Accordingly, we AFFIRM the district court’s judgment
that Plaintiffs had Article III standing. But we
REVERSE the district court’s grant of summary
judgment for Plaintiffs and RENDER judgment in favor
of Defendants on all claims.

457a
PRISCILLA R. OWEN, Circuit Judge, concurring in
part and dissenting in part:
I agree with much of the majority opinion. But I
conclude that certain provisions of the Indian Child
Welfare Act (ICWA) 1 and related regulations violate the
United States Constitution because they direct state
officers or agents to administer federal law. I therefore
dissent, in part.
The offending statutes include part of 25 U.S.C.
§ 1912(d) (requiring a State seeking to effect foster care
placement of an Indian child to “satisfy the court that
active efforts have been made to provide remedial
services and rehabilitative programs designed to prevent
the breakup of the Indian family and these efforts have
proved unsuccessful”), § 1912(e) (prohibiting foster care
placement unless a State presents evidence from
“qualified expert witnesses . . . that the continued
custody of the child by the parent or Indian custodian is
likely to result in serious emotional or physical damage
to the child”), and § 1915(e) (requiring that “[a] record of
each such placement, under State law, of an Indian child
shall be maintained by the State in which the placement
was made, evidencing the efforts to comply with the
order of preference specified in this section” and that
“[s]uch record[s] shall be made available at any time
upon the request of the Secretary or the Indian child’s
tribe”). Regulations requiring States to maintain related
records also violate the Constitution. 2
25 U.S.C. §§ 1901 et seq.
See 25 C.F.R. § 23.141:
(a) The State must maintain a record of every voluntary or
involuntary foster-care, preadoptive, and adoptive placement of an
1
2

458a
The Supreme Court has made clear that Congress
cannot commandeer a State or its officers or agencies:
“[T]he Federal Government may not compel the States
to implement, by legislation or executive action, federal
regulatory programs.” 3 “The anticommandeering
doctrine may sound arcane, but it is simply the
expression of a fundamental structural decision
incorporated into the Constitution, i.e., the decision to
withhold from Congress the power to issue orders
directly to the States.” 4 “The legislative powers granted
to Congress are sizable, but they are not unlimited. The
Constitution confers on Congress not plenary legislative
power but only certain enumerated powers. Therefore,
all other legislative power is reserved for the States, as
the Tenth Amendment confirms.” 5 The Supreme Court
has recognized that “conspicuously absent from the list
of powers given to Congress is the power to issue direct
Indian child and make the record available within 14 days of a
request by an Indian child’s Tribe or the Secretary.
(b) The record must contain, at a minimum, the petition or
complaint, all substantive orders entered in the child-custody
proceeding, the complete record of the placement determination
(including, but not limited to, the findings in the court record and
the social worker’s statement), and, if the placement departs from
the placement preferences, detailed documentation of the efforts to
comply with the placement preferences.
(c) A State agency or agencies may be designated to be the
repository for this information. The State court or agency should
notify the BIA whether these records are maintained within the
court system or by a State agency.
3
Printz v. United States, 521 U.S. 898, 925 (1997).
4
Murphy v. Nat’l Collegiate Athletic Ass’n, 138 S. Ct. 1461, 1475
(2018).
5
Id. at 1476.

459a
orders to the governments of the States. The
anticommandeering doctrine simply represents the
recognition of this limit on congressional authority.” 6
The defendants in the present case contend that the
Indian Commerce Clause 7 empowers Congress to direct
the States as it has done in the ICWA.
They are mistaken. “Where a federal interest is
sufficiently strong to cause Congress to legislate, it must
do so directly; it may not conscript state governments as
its agents.” 8
The panel’s majority opinion concludes that the
ICWA does “not commandeer state agencies” 9 because it
“evenhandedly regulate[s] an activity in which both
States and private actors engage.” 10 This is incorrect
with respect to the part of 25 U.S.C. § 1912(d) addressed
to foster care placement, § 1912(e), § 1915(e), and 25
C.F.R. § 23.141.
Though § 1912(d) nominally applies to “[a]ny party
seeking to effect a foster care placement of . . . an Indian
child under State law,” 11 as a practical matter, it applies
only to state officers or agents. Foster care placement is
not undertaken by private individuals or private actors.
That is a responsibility that falls upon state officers or
Id.
U.S. CONST. art. I, § 8, cl. 3 (“The Congress shall have Power
. . . To regulate Commerce with foreign Nations, and among the
several States, and with the Indian Tribes.”).
8
Murphy, 138 S. Ct. at 1477 (quoting New York v. United
States, 505 U.S. 144, 178 (1992)).
9
Brackeen v. Bernhardt, __ F.3d __, __, 2019 WL 3759491, at
*14 (5th Cir. 2019).
10
Id. (quoting Murphy, 138 S. Ct. at 1478).
11
25 U.S.C. § 1912(d).
6
7

460a
agencies. Those officers or agencies are required by
§ 1912(d) to “satisfy the court that active efforts have
been made to provide remedial services and
rehabilitative programs designed to prevent the breakup
of the Indian family and that these efforts have proved
unsuccessful.” 12 That directive means that a State cannot
place an Indian child in foster care, regardless of the
exigencies of the circumstances, unless it first provides
the federally specified services and programs without
success. Theoretically, a State could decline to protect
Indian children in need of foster care. It could,
theoretically, allow Indian children to remain in abusive
or even potentially lethal circumstances. But that is not
a realistic choice, even if state law did not apply across
the board and include all children, regardless of their
Indian heritage.
Certain of the ICWA’s provisions are a transparent
attempt to foist onto the States the obligation to execute
a federal program and to bear the attendant costs.
Though the requirements in § 1912(d) are not as direct
as those at issue in Printz v. United States, 13 the federal
imperatives improperly commandeer state officers or
agents:
It is an essential attribute of the States’ retained
sovereignty that they remain independent and
autonomous within their proper sphere of
authority. See Texas v. White, 7 Wall. [700,] 725
[(1868)]. It is no more compatible with this
independence and autonomy that their officers be
12
13

Id.
521 U.S. 898 (1997).

461a
“dragooned” (as Judge Fernandez put it in his
dissent below, [Mack v. United States], 66 F.3d
[ 1025,] 1035 [(9th Cir. 1995)]) into administering
federal law, than it would be compatible with the
independence and autonomy of the United States
that its officers be impressed into service for the
execution of state laws. 14
Similarly, § 1912(e) provides that “[n]o foster care
placement may be ordered” unless there is “qualified
expert witness[]” testimony “that the continued custody
of the child by the parent or Indian custodian is likely to
result in serious emotional or physical damage to the
child.” 15 This places the burden on a State, not a court, to
present expert witness testimony in order to effectuate
foster care for Indian children. If the federal government
has concluded that such testimony is necessary in every
case involving an Indian child’s foster care placement,
then the federal government should provide it. It cannot
require the States to do so.
The requirements in 25 U.S.C. § 1912(d) apply to
termination of parental rights, not just foster care
placement. 16 The laws of Indiana, Louisiana, and Texas
each permit certain individuals to petition for the
termination of parental rights in some circumstances, 17
and § 1912(d) applies to all parties seeking termination,
Id. at 928.
25 U.S.C. § 1912(e).
16
Id. § 1912(d).
17
See, e.g., IND. CODE §§ 31-35-2-4, 31-35-3.5-3 (2018); IND.
CODE § 31-35-3-4 (2013); LA. CHILD. CODE ANN. art. 1122 (2019);
TEX. FAM. CODE ANN. § 102.005 (West 2019); TEX. FAM. CODE ANN.
§ 161.005 (West Supp. 2019).
14
15

462a
not just state actors. 18 At least superficially, § 1912(d)
appears to be an evenhanded regulation of an activity in
which both States and private actors engage. 19 But it is
far from clear based on the present record that § 1912(d)
applies in a meaningful way to private actors and if so,
how many private actors, as compared to state actors,
have actually met its requirements. Additionally, it
appears that the State plaintiffs contend that “the
incidental application to the States of a federal law of
general applicability excessively interfered with the
functioning of state governments.” 20 I would remand for
further factual development. It may be that in the vast
majority of involuntary parental termination
proceedings, the party seeking the termination is a state
official or agency. It also seems highly unlikely that
individuals or private actors seeking termination of
parental rights (if and when permitted to do so under a
State’s laws) will have been in a position “to provide
remedial services and rehabilitative programs designed
to prevent the breakup of the Indian family.” 21 It seems
much more likely that these requirements fall, de facto,
on the shoulders of state actors and agencies.
The records-keeping requirements in 25 U.S.C.
§ 1915(e) and 25 C.F.R. § 23.141 are direct orders to the

25 U.S.C. § 1912(d).
See Murphy v. Nat’l Collegiate Athletic Ass’n, 138 S. Ct. 1461,
1478 (2018) (“The anticommandeering doctrine does not apply when
Congress evenhandedly regulates an activity in which both States
and private actors engage.”).
20
Printz v. United States, 521 U.S. 898, 932 (1997).
21
25 U.S.C. § 1912(d).
18
19

463a
States. 22 They do not apply to private parties in parental
termination or foster care placement proceedings. They
do not apply “evenhandedly [to] an activity in which both
States and private actors engage.” 23
The Supreme Court expressly left open in Printz
whether federal laws “which require only the provision
of information to the Federal Government” are an
unconstitutional commandeering of a State or its officers
or agents. 24 But the principles set forth in Printz lead to
the conclusion that Congress is without authority to
order the States to provide the information required by
§ 1915(e) and related regulations. Even were the burden
on the States of creating, maintaining, and supplying the
required information “minimal and only temporary,” the
Supreme Court has reasoned that “where . . . it is the
whole object of the law to direct the functioning of the
state executive, and hence to compromise the structural
framework of dual sovereignty, such a ‘balancing’
analysis is inappropriate.” 25 The Supreme Court
stressed, “It is the very principle of separate state
sovereignty that such a law offends, and no comparative
assessment of the various interests can overcome that
fundamental defect.” 26
Id. at § 1915(e) (“A record of each such placement, under State
law, of an Indian child shall be maintained by the State in which the
placement was made . . . .”); 25 C.F.R. § 23.141 (“The State must
maintain a record of every voluntary or involuntary foster-care,
preadoptive, and adoptive placement of an Indian child . . . .”).
23
Brackeen v. Bernhardt, __ F.3d __, __, 2019 WL 3759491, at
*14 (5th Cir. 2019) (quoting Murphy, 138 S. Ct. at 1478).
24
521 U.S. at 918.
25
Id. at 932.
26
Id.
22

464a
The panel’s majority opinion concludes that the
requirements of 25 U.S.C. § 1915(e) and 25 C.F.R.
§ 23.141 do not commandeer state officers or agents
because they “regulate state activity and do not require
states to enact any laws or regulations, or to assist in the
enforcement of federal statutes regulating private
individuals.” 27 But the statute orders States to maintain
records of each placement of an Indian child and requires
those records to “evidenc[e] the efforts to comply with
the order of preference specified in this section.” 28 That
directs States to assist in the enforcement of the ICWA
by requiring States to document efforts to comply with
the ICWA’s preferences. The panel’s majority opinion
also cites three Supreme Court decisions, none of which
supports its holding regarding the creation and
maintenance of records. 29 The statute at issue in Condon
prohibited States from disclosing or selling personal
information they obtained from drivers in the course of
licensing drivers and vehicles, unless the driver
consented to the disclosure or sale of that information. 30
The Court’s decision in Condon focused on that
prohibition rather than the statute’s additional
requirement that certain information be disclosed to
carry out the purposes of federal statutes including the
Clean Air Act and the Anti Car Theft Act of 1992. 31 The
Brackeen, __ F.3d at __, 2019 WL 3759491, at *14.
25 U.S.C. § 1915(e).
29
Brackeen, __ F.3d at __, 2019 WL 3759491, at *14 (citing Reno
v. Condon, 528 U.S. 141, 151 (2000); Printz, 521 U.S. at 918; South
Carolina v. Baker, 485 U.S. 505, 514 (1988)).
30
Condon, 528 U.S. at 143-44 (citing the Driver’s Privacy
Protection Act of 1994, 18 U.S.C. §§ 2721-2725).
31
Id. at 145, 148-51.
27
28

465a
Baker decision did not concern a requirement that States
create and maintain records. 32 The federal statute at
issue in Baker allowed a tax exemption for registered,
but not bearer, bonds, and the statute “cover[ed] not only
state bonds but also bonds issued by the United States
and private corporations.” 33 As already discussed above,
the Printz decision expressly left open the question of
whether federal statutes requiring States to provide
information was constitutional, 34 but the rationale of
Printz compels the conclusion that some of the ICWA’s
commandments result in a commandeering of state
officers and agents.
I agree with the panel’s majority opinion that in some
respects, the ICWA “merely require[s] states to ‘take
administrative . . . action to comply with federal
standards regulating’ child custody proceedings
involving Indian children, which is permissible under the
Tenth Amendment.” 35 Unlike the congressional
enactment at issue in Murphy, the ICWA does “confer
. . . federal rights on private actors interested in” 36 foster
care placement, the termination of parental rights to an
Indian child, and adoption of Indian children. States
cannot override or ignore those private actors’ federal
rights by failing to give notice to interested or affected
parties or by failing to follow the placement preferences
expressed in the ICWA. If a State desires to place an
See Baker, 485 U.S. at 508-10.
Id. at 510.
34
Printz, 521 U.S. at 918.
35
Brackeen, __ F.3d at __, 2019 WL 3759491, at *14 (quoting
Baker, 485 U.S. at 515).
36
Murphy v. Nat’l Collegiate Athletic Ass’n, 138 S. Ct. 1461,
1467 (2018).
32
33

466a
Indian child with an individual or individuals other than
the child’s birth parents, the State must respect the
federal rights of those upon whom the ICWA confers an
interest in the placement of the Indian child or Indian
children more generally. But 25 U.S.C. § 1912(d) (to the
extent it concerns foster care placement), § 1912(e),
§ 1915(e), and 25 C.F.R. § 23.141, require more than the
accommodation of private actors’ federal rights
regarding the placement of Indian children. Those
statutes and regulations commandeer state officers or
agents by requiring them “to provide remedial services
and rehabilitative programs designed to prevent the
breakup of the Indian family” and to demonstrate that
such “efforts have proved unsuccessful”; 37 to present
“qualified expert witnesses” to demonstrate “that the
continued custody of the child by the parent or Indian
custodian is likely to result in serious emotional or
physical damage to the child”; 38 and to create and
maintain records of every placement of an Indian child
as well as records “evidencing the efforts to comply with
the order of preference specified in this section.” 39
That these statutes and regulations “serve[] very
important purposes” and that they are “most efficiently
administered” at the state level is of no moment in a
commandeering analysis. 40 As JUSTICE O-CONNOR,
writing for the Court in New York v. United States, so
eloquently expressed, “the Constitution protects us from
our own best intentions: It divides power among
25 U.S.C. § 1912(d).
Id. § 1912(e).
39
Id. § 1915(e).
40
Printz v. United States, 521 U.S. 898, 931-32 (1997).
37
38

467a
sovereigns and among branches of government precisely
so that we may resist the temptation to concentrate
power in one location as an expedient solution to the
crisis of the day.” 41

41

505 U.S. 144, 187 (1992).

468a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
CHAD BRACKEEN, et al.,
Plaintiffs,

§
§
§
v.
§
Civil Action
§ No.4:17-cv-00868-O
RYAN ZINKE, et al.,
§
Defendants,
§
§
CHEROKEE NATION, et al.,
§
Intervenors-Defendants. §
ORDER
This case arises because three children, in need of
foster and adoptive placement, fortunately found loving
adoptive parents who seek to provide for them. Because
of certain provisions of a federal law, however, these
three children have been threatened with removal from,
in some cases, the only family they know, to be placed in
another state with strangers. Indeed, their removals are
opposed by the children’s guardians or biological
parent(s), and in one instance a child was removed and
placed in the custody of a relative who had previously
been declared unfit to serve as a foster parent. As a
result, Plaintiffs seek to declare that federal law, known
as the Indian Child Welfare Act (the “ICWA”),
unconstitutional.

469a
In this case, the State Plaintiffs have filed a Motion
for Summary Judgment (ECF No. 72), on April 26, 2018,
and the Individual Plaintiffs filed a Motion for Summary
Judgment (ECF No. 79), on the same day. Plaintiffs seek
judgment as a matter of law on all of their claims. The
parties appeared at a hearing on these motions and
presented oral arguments on August 1, 2018. See Hr’g
Tr., ECF No. 163. For the following reasons, the Court
finds Plaintiffs’ motions for summary judgment should
be and are hereby GRANTED in part and DENIED in
part.
I. BACKGROUND
First, the Court identifies the parties, next the legal
backdrop of this dispute, and then the parties’ claims,
drawing in large part on those facts set out in the Order
denying Defendants’ motions to dismiss. See July 24,
2018 Order, ECF No. 155. Following these sections, this
order will analyze the claims.
Plaintiffs are comprised of three states—Texas,
Louisiana, and Indiana, (collectively, the “State
Plaintiffs”), and seven individual Plaintiffs—Chad
Everett and Jennifer Kay Brackeen (the “Brackeens”),
Nick and Heather Libretti (the “Librettis”), Altagracia
Socorro Hernandez (“Ms. Hernandez”), and Jason and
Danielle Clifford (the “Cliffords”) (collectively, the
“Individual Plaintiffs”) (together with the State
Plaintiffs, “Plaintiffs”). State Pls.’ Br. Supp. Mot. Summ.
J. 1–2, ECF No. 74 [hereinafter “State Pls.’ Br.”].
Defendants are the United States of America; the United
States Department of the Interior (the “Interior”) and
its Secretary Ryan Zinke (“Zinke”) in his official
capacity; the Bureau of Indian Affairs (the “BIA”) and

470a
its Director Bryan Rice (“Rice”) in his official capacity;
the BIA Principal Assistant Secretary for Indian Affairs
John Tahsuda III (“Tahsuda”) 1 in his official capacity;
the Department of Health and Human Services (“HHS”)
and its Secretary Alex M. Azar II (“Azar”) (collectively
the “Federal Defendants”). Id. Shortly after this case
was filed, the Cherokee Nation, Oneida Nation, Quinalt
Indian Nation, and Morengo Band of Mission Indians
(collectively, the “Tribal Defendants”) filed an
unopposed motion to intervene, which the Court granted.
See Trib. Defs.’ Mot. Intervene, ECF No. 42; Mar. 28,
2018 Order, ECF No. 45.
Plaintiffs seek to declare unconstitutional certain
provisions of the ICWA and its accompanying
regulations (codified at 25 C.F.R. part 23), known as the
Indian Child Welfare Act Proceedings (the “Final
Rule”), as well as certain provisions of the Social Security
Act (the “SSA”) that predicate federal funding for
portions of state child-welfare payments on compliance
with the ICWA. Plaintiffs argue that the ICWA and the
Final Rule implement a system that mandates racial and
ethnic preferences, in direct violation of state and federal
law. Am. Comp. ¶ 193, ECF No. 35; 42 U.S.C. § 1996(b);
Initially Plaintiffs sued Michael Black in his official capacity as
Acting Assistant Secretary of Indian Affairs. See Orig. Compl. ¶ 17,
ECF No. 1. On September 13, 2017, Secretary of the Interior Ryan
Zinke appointed Tahsuda as the Department of Interior’s Principal
Assistant Secretary of Indian Affairs. See Press Release, Secretary
Zinke Names John Tahsuda III the Principal Deputy Assistant
Secretary for Indian Affairs, DEP’T OF THE INT., (Sept. 13, 2017),
https://www.doi.gov/pressreleases/secretary-zinke-names-johntahsuda-iii-principal-deputy-assistant-secretary-indian.
Accordingly, Tahsuda has been substituted as a Defendant.
1

471a
TEX. FAM. CODE §§ 162.015, 264.1085; LA. CONST. art. 1,
§ 3. Plaintiffs ask that the Final Rule be declared invalid
and set aside as a violation of substantive due process
and as not in accordance with law (Counts One and Five).
Am. Compl. ¶¶ 265, 349, ECF No. 35; 5 U.S.C.
§ 705(2)(A). Plaintiffs also ask that the ICWA,
specifically sections 1901–23 and 1951–52, be declared
unconstitutional under Article One and the Tenth
Amendment of the United States Constitution because
these provisions violate the Commerce Clause, intrude
into state domestic relations, and violate the anticommandeering principle (Counts Two and Three). Am.
Compl. ¶¶ 281, 323, ECF No. 35. Finally, Plaintiffs ask
that the ICWA sections 1915(a)–(b) be declared
unconstitutional in violation of the equal protection
guarantee of the Fifth Amendment to the United States
Constitution and Individual Plaintiffs alone ask the same
sections be declared unconstitutional in violation of
substantive due process. (Counts Four and Six). Id.
¶¶ 338, 367. State Plaintiffs alone bring the final count,
seeking a declaration that ICWA section 1915(c) and
Final Rule section 23.130(b) violate the non-delegation
doctrine (Count Seven). Am. Compl. ¶ 376, ECF No. 35.
A. The ICWA and the SSA
Congress passed the ICWA in 1978 in response to
rising concerns over “abusive child welfare practices that
resulted in the separation of large numbers of Indian
children from their families and tribes through adoption
or foster care placement, usually in non-Indian homes.”
Miss. Band of Choctaw Indians v. Holyfield, 490 U.S. 30,
32 (1989). “Congress found that ‘an alarmingly high
percentage of Indian families [were being] broken up by

472a
the removal, often unwarranted, of their children from
them by nontribal public and private agencies.’”
Adoptive Couple v. Baby Girl, 133 S. Ct. 2552, 2557
(2013) (quoting 25 U.S.C. § 1901(4)). Recognizing “that
there is no resource that is more vital to the continued
existence and integrity of Indian tribes than their
children,” Congress created a framework to govern the
adoption of Indian children. 2 See 25 U.S.C. § 1901, et seq.
This framework establishes: (1) placement preferences
in adoptions of Indian children; (2) good cause to depart
from those placement preferences; (3) standards and
responsibilities for state courts and their agents; and (4)
consequences flowing from noncompliance with the
statutory requirements. See id.
The ICWA established “minimum Federal standards
for the removal of Indian children from their families and
the placement of such children in foster or adoptive
homes.” 25 U.S.C. § 1902. The ICWA mandates
placement preferences in foster care, preadoptive, and
adoptive proceedings involving Indian children. Id.
§ 1915. It requires that “in any adoptive placement of an
Indian child under State law, a preference shall be given,
in the absence of good cause to the contrary, to a place
with: (1) a member of the child’s extended family; (2)
other members of the Indian child’s tribe; or (3) other
See also Br. of Amicus Curiae 123 Federally Recognized
Indian Tribes, et al. in Opposition to Plaintiffs’ Motions for
Summary Judgment 1, ECF No. 138. (“Congress enacted the Indian
Child Welfares Act of 1978 (“ICWA” or “the Act”), 25 U.S.C. 1901
et seq., in response to a nationwide crisis—namely, the widespread
and wholesale displacement of Indian children from their families
by state child welfare agencies at rates far higher than those of nonIndian families.”).
2

473a
Indian families.” Id. § 1915(a). Similar requirements are
set for foster care or preadoptive placements. Id.
§ 1915(b). If the Indian child’s tribal court should
establish a different order of the preferences than that
set by Congress, the state court or agency “shall follow
such order so long as the placement is the least
restrictive setting appropriate to the particular needs of
the child.” Id. § 1915(c).
Absent good cause, the state court shall transfer
proceedings concerning an Indian child to the Indian
child’s tribal court. 25 U.S.C. § 1911(b). In any state court
proceeding for the “foster care placement of, or
termination of parental rights to, an Indian child, the
Indian custodian of the child and the Indian child’s tribe
shall have a right to intervene at any point in the
proceeding.” Id. § 1911(c). The ICWA prohibits the
termination of parental rights for an Indian child in the
absence of “evidence beyond a reasonable doubt,
including testimony of qualified expert witnesses, that
continued custody of the child by the parent or Indian
custodian is likely to result in serious emotional or
physical damage to the child.” Id. § 1912(f).
State agencies and courts must notify potential
intervenors and the Director of the BIA of an Indian
child matter. 25 U.S.C. § 1912. In any involuntary child
custody proceeding, the ICWA commands state agencies
and courts—when seeking foster care placement of or
termination of parental rights to an Indian child—to
notify the parents or Indian custodian and the Indian
child’s tribe of the pending proceedings and of their right
to intervene. 25 U.S.C. § 1912(a). Copies of these notices
must be sent to the Secretary of the Interior and the

474a
BIA. No foster care placement or termination of parental
rights proceeding may be held until at least ten days
after receipt of such a notice by the parent or Indian
custodian and tribe or the Secretary of the Interior. Id.
The ICWA also grants the Indian custodian or tribe up
to twenty additional days to prepare for such
proceedings. Id.
The ICWA dictates that an Indian parent or guardian
may not give valid consent to termination of parental
rights before ten days after the birth of the Indian child.
25 U.S.C. § 1913(a). Before parental rights are
terminated “any parent or Indian custodian may
withdraw consent to a foster care placement under State
law at any time.” Id. § 1913(b). In any voluntary
proceeding for termination of parental rights or adoptive
placement of an Indian child, the biological parents or
the Indian tribe may withdraw consent for any reason
prior to the entry of a final decree, and the child shall be
returned. Id. § 1913(c). Finally, the ICWA permits the
parent of an Indian child to withdraw consent to a final
decree of adoption on the grounds that the consent was
obtained through fraud or duress for up to two years
after the final decree. Id. § 1913(d); Ind. Pls.’ Br. Supp.
Mot. Summ. J. 20, ECF No. 80 [hereinafter “Ind. Pls.’
Br.”].
The ICWA places recordkeeping duties on state
agencies and courts, to demonstrate their compliance
with the statute. 25 U.S.C. § 1915(e). Additionally, state
courts entering final decrees must provide the Secretary
of the Interior with a copy of the decree or order, along
with the name and tribal affiliation of the child, names of
the biological parents, names of the adoptive parents,

475a
and the identity of any agency having files or information
relating to the adoption. Id. § 1951.
If the state court or prospective guardian fails to
comply with the ICWA, the final child custody orders or
placements may be overturned, whether on direct appeal
or by another court of competent jurisdiction. 25 U.S.C.
§ 1914. 3 To ensure state agencies and courts comply with
the ICWA’s mandates, it enables any Indian child who is
the subject of any action under the ICWA, any parent or
Indian custodian from whose custody the child was
removed, and the Indian child’s tribe, to petition any
court of competent jurisdiction to invalidate a state
court’s decision for failure to comply with the ICWA
sections 1911, 1912, and 1913. Id. Section 1914 has also
been applied to allow collateral attacks of adoptions after
the close of the relevant window under state law. See id.;
Ind. Pls.’ Br. 6, ECF No. 80; see e.g., Belinda K. v.
Baldovinos, No. 10-cv-2507-LHK, 2012 WL 13571, at *4
(N.D. Cal. Jan. 4, 2012).
Congress has also tied child welfare funding to
compliance with the ICWA. The SSA requires states who
receive child welfare funding through Title IV-B, Part 1
of the SSA to file annual reports, including a description
of their compliance with the ICWA. Social Security
Amendments Act of 1994, Pub. L. No. 103-432, § 204, 108
Stat. 4398 (1994); 42 U.S.C. § 622(a). Title IV-B funding
While a “court of competent jurisdiction” is not defined in the
ICWA or the Final Rule, state appellate courts and federal district
courts have heard challenges to adoption proceedings under the
ICWA. See e.g., Oglala Sioux Tribe v. Van Hunnik, 993 F. Supp. 2d
1017, 1022 (D.S.D. 2014); Doe v. Mann, 285 F. Supp. 2d 1229, 1231
(N.D. Cal. 2003).
3

476a
is partially contingent on how well the states
demonstrate their compliance with the ICWA. Part ‘b’
requires that a state’s plan must also “contain a
description, developed after consultation with tribal
organizations . . . in the State, of the specific measures
taken by the State to comply with the [ICWA].” 42
U.S.C. § 622(b).
Congress expanded the requirement for states to
comply with the ICWA to receive SSA funding in 1999
and 2008 when it amended Title IV-E to require states to
certify ICWA compliance to receive foster care and
adoption services funding. Foster Care Independence
Act of 1999, Pub. L. No. 106-69, § 101, 113 Stat. 1822
(1999); Fostering Connections to Success and Increasing
Adoptions Act of 2008, Pub. L. No. 110-351, § 301, 122
Stat. 3949 (2008). Finally, HHS regulations state that the
HHS Administration for Children and Families (“ACF”)
“will determine a title IV–E agency’s substantial
conformity with title IV–B and title IV–E plan
requirements” based on “criteria related to outcomes.”
45 C.F.R. § 1355.34(a). Part ‘b’ of the same section
includes compliance with the ICWA. Id. § 1355.34(b).
In fiscal year 2018, Congress allocated to Texas
approximately $410 million in federal funding for Title
IV-B and Title IV-E programs, Louisiana received
approximately $64 million, and Indiana received
approximately $189 million. Am. Compl. ¶¶ 76–78, ECF
No. 35. Plaintiffs argue that HHS and Secretary Azar
have the authority to administer funding under Title IVB and Title IV-E and are vested with discretion to
approve or deny a state’s compliance with the
requirements of 42 U.S.C. §§ 622, 677. Therefore,

477a
Plaintiffs claim that funding under Title IV-B and IV-E
is dependent on compliance with the ICWA. Am. Compl.
¶ 80, ECF No. 35.
B. The 1979 Guidelines and Final Rule
In 1979, before passage of the Final Rule, the BIA
promulgated the Guidelines for State Courts—the
Indian Child Custody Proceedings (the “1979
Guidelines”). 44 Fed. Reg. 67,584 (Nov. 26, 1979). The
BIA intended these guidelines to assist in the
implementation of the ICWA but they were “not
intended to have binding legislative effect.” Id. The 1979
Guidelines left the “primary responsibility” for
interpreting the ICWA “with the courts that decide
Indian child custody cases.” Id. The 1979 Guidelines also
emphasized that “the legislative history of the [ICWA]
states explicitly that the use of the term ‘good cause’ was
designed to provide state courts with flexibility in
determining the disposition of a placement proceeding
involving an Indian child.” Id. As state courts applied the
ICWA, some held that the ‘good cause’ exception to the
ICWA placement preferences required a consideration
of a child’s best interest, including any bond or
attachment the child formed. Ind. Pls.’ Br. 7, ECF No.
80; see e.g., In re Interest of Bird Head, 331 N.W.2d 785,
791 (Neb. 1983); In re Appeal in Maricopa Cnty.,
Juvenile Action No. A-25525, 667 P.2d 228, 234 (Ariz. Ct.
App. 1983). Other state courts limited the ICWA’s
application to situations where the child had some
significant political or cultural connection to the tribe.
Ind. Pls.’ Br. 7, ECF No. 80; see e.g., In re Interest of
S.A.M, 703 S.W.2d 603, 608–09 (Mo. Ct. App. 1986);
Claymore v. Serr, 405 N.W.2d 650, 653–54 (S.D. 1987); In

478a
re Adoption of T.R.M., 525 N.E.2d 298, 303 (Ind. 1988);
Hampton v. J.A.L., 658 So. 2d 331, 335 (La. Ct. App.
1995).
In June 2016, the BIA promulgated the Final Rule,
which purported to “clarify the minimum Federal
standards governing implementation of the [ICWA]”
and to ensure that it “is applied in all States consistent
with the Act’s express language.” 25 C.F.R. § 23.101. The
regulations declared that while the BIA “initially hoped
that binding regulations would not be necessary to carry
out [the ICWA], a third of a century of experience has
confirmed the need for more uniformity in the
interpretation and application of this important Federal
law.” 81 Fed. Reg. 38,782 (June 14, 2016).
Plaintiffs contend the main departure from the
previous decades of practice under the ICWA was the
Final Rule’s definition of the ‘good cause’ exception to
the preference placements and the evidentiary standard
required to show good cause. Am. Compl. ¶ 116, ECF No.
35; Ind. Pls.’ Br. 60–63, ECF No. 80. The Final Rule
noted that “State courts . . . differ as to what constitutes
‘good cause’ for departing from ICWA’s placement
preferences.” 81 Fed. Reg. at 38,782. In response, the
Final Rule mandates that “[t]he party urging that ICWA
preferences not be followed bears the burden of proving
by clear and convincing evidence the existence of good
cause” to deviate from such a placement. 81 Fed. Reg. at
38,838; see also 25 C.F.R. § 23.132(b). The Final Rule
further provides that state courts “may not consider
factors such as the participation of the parents or Indian
child in Tribal cultural, social, religious, or political
activities, the relationship between the Indian child and

479a
his or her parents, whether the parent ever had custody
of the child, or the Indian child’s blood quantum.” 81 Fed.
Reg. at 38,868 (codified at 25 C.F.R. § 23.103(c)).
Plaintiffs contrast the text of the 1979 Guidelines
where “the use of the term ‘good cause’ was designed to
provide state courts with flexibility” with the Final Rule,
which now claims that “Congress intended the good
cause exception to be narrow and limited in scope.”
Compare 44 Fed. Reg. at 67,584 (Nov. 26, 1979), with 81
Fed. Reg. at 38,839 (June 14, 2016). Accordingly, the
Final Rule sets forth “five factors upon which courts may
base a determination of good cause to deviate from the
placement preferences,” and further “makes clear that a
court may not depart from the preferences based on the
socioeconomic status of any placement relative to
another placement or based on the ordinary bonding or
attachment that results from time spent in a nonpreferred placement that was made in violation of
ICWA.” 81 Fed. Reg. at 38,839; see also 25 C.F.R.
§ 23.132(c)–(e); Ind. Pls.’ Br. 7–9, ECF No. 80.
Beyond limiting what state courts may consider in
determining “good cause,” the Final Rule places more
responsibilities on states to determine if the child is an
Indian child. 25 C.F.R. § 23.107(a). These inquiries
“should be on the record,” and “state courts must
instruct the parties to inform the court if they
subsequently receive information that provides reason to
know the child is an Indian child.” Id.; 25 C.F.R.
§ 23.107(b). Whenever a state court enters a final
adoption decree or an order in an Indian child placement,
the Final Rule requires the state court or agency to
provide a copy of the decree or order to the BIA. 25

480a
C.F.R. § 23.140. The Final Rule also requires states to
“maintain a record of every voluntary or involuntary
foster care, preadoptive, and adoptive placement of an
Indian child and make the record available within 14
days of a request by an Indian child’s Tribe or the
Secretary [of the Interior].” 25 C.F.R. § 23.141.
In an involuntary foster care or termination of
parental rights proceeding, the Final Rule requires state
courts to ensure and document that the state agency has
used “active efforts” to prevent the breakup of the Indian
family. 25 C.F.R. § 23.120. The Final Rule defines “active
efforts” to include “assisting the parent or parents or
Indian custodian through the steps of a case plan and
with accessing or developing the resources necessary to
satisfy the case plan.” 25 C.F.R. § 23.2.
When determining if the child is an Indian child, only
the Indian tribe of which the child is believed to be a
member may determine whether the child is a member
of the tribe or eligible for membership. 25 C.F.R.
§ 23.108(a). “The State court may not substitute its own
determination regarding a child’s membership in a
Tribe, a child’s eligibility for membership in a Tribe, or a
parent’s membership in a Tribe.” Id. § 23.108(b).
When an Indian child is a member or eligible for
membership in only one tribe, that tribe must be
designated by the state court as the Indian child’s tribe.
But when the child meets the definition of “Indian child”
for more than one tribe, then the Final Rule instructs
state agencies and courts to defer to “the Tribe in which
the Indian child is already a member, unless otherwise
agreed to by the Tribes,” or allow “the Tribes to
determine which should be designated as the Indian

481a
child’s Tribe.” 25 C.F.R. §§ 23.109(b)–(c). Only when the
tribes disagree about the child’s membership may state
courts independently designate the tribe to which the
child belongs, and the Final Rule provides criteria the
courts must use in making that designation. Id.
§ 23.109(c)(2).
The Final Rule instructs state courts to dismiss a
voluntary or involuntary child custody proceeding when
the Indian child’s residence or domicile is on a
reservation where the tribe exercises exclusive
jurisdiction over child custody proceedings. 25 C.F.R.
§ 23.110(a). The Final Rule requires state courts to
terminate child custody proceedings if any party or the
state court has reason to believe that the Indian child
was improperly removed from the custody of his parent
or Indian custodian. 25 C.F.R. § 23.114.
C. The Adoption Proceedings
1.

The Brackeens and A.L.M.

The Brackeens wished to adopt A.L.M, who was born
in Arizona to an unmarried couple, M.M. and J.J. Ind.
Pls.’ App. Supp. Mot. Summ. J. 60, ECF No. 81
[hereinafter “Ind. Pls.’ App.”]. A.L.M. is an Indian child
under the ICWA and the Final Rule because he is
eligible for membership in an Indian tribe—his biological
mother is an enrolled member of the Navajo Nation and
his biological father is an enrolled member of the
Cherokee Nation. Id.; see 25 C.F.R. § 23.2. A few days
after A.L.M. was born, his biological mother brought him
to Texas to live with his paternal grandmother. Ind. Pls.’
App. 61, ECF No. 81. When he was ten months old, Child
Protective Services (“CPS”), a division of the Texas

482a
Department of Family and Protective Services
(“DFPS”), removed A.L.M. from his grandmother and
placed him in foster care with the Brackeens. Id. at 61.
Pursuant to the ICWA and the Final Rule, 25 C.F.R.
§ 23.11, the Cherokee Nation and the Navajo Nation
were notified of A.L.M.’s placement with the Brackeens.
Id at 61–62. Because DFPS identified no ICWApreferred foster placement for A.L.M., he remained with
the Brackeens. Id. A.L.M. lived with the Brackeens for
more than sixteen months before, with the support of his
biological parents and paternal grandmother, the
Brackeens sought to adopt him. Id.
In May 2017, a Texas state court terminated the
parental rights of A.L.M.’s biological parents, making
him eligible for adoption under Texas law. Id. at 61.
Shortly thereafter, a year after the Brackeens took
custody of A.L.M., the Navajo nation notified the state
court that it had located a potential alternative
placement for A.L.M. with non-relatives in New Mexico.
Id. The Brackeens note that this placement would have
moved A.L.M away from both his biological parents and
the only home he has ever known. Id. at 61-62.
In July 2017, the Brackeens filed an original petition
seeking to adopt A.L.M. Id. at 62. The Cherokee and
Navajo Nations were notified of the adoption proceeding
in accordance with the ICWA and the Final Rule. Id.; see
25 U.S.C. § 1912; see 25 C.F.R. § 23.11. No one
intervened in the Texas adoption proceeding or
otherwise formally sought to adopt A.L.M. Id. at 63. On
August 1, 2017, a Texas family court held a hearing
regarding the Brackeens’ petition for adoption. Id. at 62.
The Navajo Nation was designated as A.L.M.’s tribe, but

483a
this “determination of [A.L.M.’s] Tribe for purposes of
ICWA and [the Final Rule] [did] not constitute a
determination for any other purpose.” 25 C.F.R.
§ 23.109(c)(3).
Under the ICWA and the Final Rule placement
preferences, absent good cause, an Indian child should
be placed with a member of the child’s extended family,
a member of the child’s Indian tribe, or another Indian
family, in that order. See 25 U.S.C. § 1915(a). The
Brackeens argued in state court that the ICWA’s
placement preferences should not apply because they
were the only party formally seeking to adopt A.L.M.,
and that good cause existed to depart from the
preferences. Ind. Pls.’ App. 63, ECF No. 81. The Final
Rule places the burden on the Brackeens, the party
seeking adoption, to prove “by clear and convincing
evidence that there was ‘good cause’” to allow them, a
non-Indian couple, to adopt A.L.M. 25 C.F.R. § 23.132(b).
The Brackeens submitted testimony by A.L.M.’s
biological parents, his court appointed guardian, and an
expert in psychology to show good cause. Ind. Pls.’ App.
62, ECF No. 81. However, Texas DFPS pointed to the
Final Rule’s heightened evidentiary requirements and
argued that the Brackeens did not provide clear and
convincing evidence of good cause to justify a departure
from the placement preferences. Id. at 61–62.
In January 2018, the Brackeens successfully
petitioned to adopt A.L.M., but under the ICWA and the
Final Rule, the Brackeens’ adoption of A.L.M. is open to
collateral attack for two years. Id. at 64; see 25 U.S.C
§ 1914; Ind. Pls.’ Br. at 6, ECF No. 80; see e.g., Belinda
K. v. Baldovinos, No. 10-cv-2507-LHK, 2012 WL 13571,

484a
at *4 (N.D. Cal. Jan. 4, 2012). Plaintiffs explain that the
Brackeens intend to continue to provide foster care for,
and possibly adopt, additional children in need. Ind. Pls.’
App. 64, ECF No. 81. But they are reluctant, after this
experience, to provide foster care for other Indian
children in the future. Id. Plaintiffs argue that the ICWA
and the Final Rule therefore interfere with the
Brackeens’ intention and ability to provide a home to
additional children. Am. Compl. ¶ 154, ECF No. 35.
Additionally, Plaintiffs argue that this legal regime
harms Texas’s interests by limiting the supply of
available, qualified homes necessary to help foster-care
children in general and Indian children in particular. Id.
2.

The Librettis and Baby O.

The Librettis are a married couple living in Sparks,
Nevada. See Ind. Pls.’ App. 66, ECF No. 81. They sought
to adopt Baby O. when she was born in March 2016. Id.
at 67. Baby O.’s biological mother, Ms. Hernandez, felt
that she would be unable to care for Baby O. and wished
to place her for adoption at her birth. Id. at 72. Ms.
Hernandez has continued to be a part of Baby O.’s life
and she and the Librettis visit each other regularly. Id.
at 73. Baby O.’s biological father, E.R.G., descends from
members of the Ysleta del sur Pueblo Tribe (the “Pueblo
Tribe”), located in El Paso, Texas. Id. at 69. At the time
of Baby O.’s birth, E.R.G. was not a registered member
of the Pueblo Tribe. Id. at 73.
The Pueblo Tribe intervened in the Nevada custody
proceedings in an effort to remove Baby O. from the
Librettis. Id. at 69. Once the Librettis joined the
challenge to the constitutionality of the ICWA and the
Final Rule, the Pueblo Tribe indicated its willingness to

485a
discuss settlement. Id. at 69. The Librettis have agreed
to a settlement with the tribe that would permit them to
petition for adoption of Baby O. Id at 70. But Plaintiffs
point out that any settlement would still be subject to
collateral attack under the ICWA for two years. Am.
Compl. ¶ 168, ECF No. 35. The Librettis intend to
petition to adopt Baby O. as soon as they are able and are
the only people who have indicated an intent to adopt
her. Ind. Pls.’ App. at 69–70, ECF No. 81.
Similar to the Brackeens, the Librettis intend to
provide foster care for and possibly adopt additional
children in need. Id. at 70. Due to their experiences with
the ICWA, the Librettis are “reluctant to provide a
foster home for other Indian children in the future.” Id.
3.

The Cliffords and Child P.

The Cliffords live in Minnesota and seek to adopt
Child P. See Ind. Pls.’ App. 2, ECF No. 81. Child P.’s
maternal grandmother is a registered member of the
White Earth Band of Ojibwe Tribe (the “White Earth
Band”). Id. at 4. Child P. is a member of the White Earth
Band for the purposes of the ICWA only. Id. The
Minnesota state court considered itself bound by the
White Earth Band’s pronouncement and concluded that
the ICWA must apply to all custody determinations
concerning Child P. Id. at 4. However, because the
ICWA placement preferences apply, county officials
removed Child P. from the Cliffords. Id. at 5–6. Child P.
was placed in the care of her maternal grandmother—
whose foster licensed had been revoked—in January
2018. Id. at 3–6.
Child P.’s guardian ad litem supports the Cliffords’
efforts to adopt her and agrees that the adoption is in

486a
Child P’s best interest. Id. at 5. However, due to the
application of the ICWA, the Cliffords and Child P.
remain separated and the Cliffords face heightened legal
barriers to adopt Child P. Id. at 53. If the Cliffords are
successful in petitioning for adoption, that adoption may
be collaterally attacked for two years under the ICWA.
25 U.S.C. § 1915(a).
D. State Plaintiffs
Texas, Louisiana, and Indiana bring this suit in their
capacities as sovereign states. See Am. Compl. ¶ 178,
ECF No. 35. They claim that the ICWA and the Final
Rule harm state agencies charged with protecting child
welfare by usurping their lawful authority of the
regulation of child custody proceedings and management
of child welfare services. Id. Additionally, State Plaintiffs
contend the ICWA and the Final Rule jeopardize
millions of dollars in federal funding. Id. State Plaintiffs
each have at least one Indian tribe living within their
borders and have regular dealings with Indian child
adoptions and the ICWA. 4 Id.
4

Three federally recognized tribes reside in Texas—Yselta del
Sur Pueblo in El Paso, Texas; the Kickapoo Tribe in Eagle Pass,
Texas; and the Alabama-Coushatta Tribe near Livingston, Texas.
Both the Kickapoo Tribe and the Alabama-Coushatta Tribe have
reservations in Texas. See State Pls’ App at 481, ECF No. 73. Four
tribes reside in Louisiana—the Chitimacha Tribe in Charenton,
Louisiana; Coushatta Tribe in Elton, Louisiana; the Tunica-Biloxi
Tribe in Marksville, Louisiana; and the Jena Band of Choctaw
Indians in Jena, Louisiana. Am. Compl. ¶ 180, ECF No. 35. One
federally recognized tribe resides in Indiana—the Pokagon Band of
Potawatomi Indians. Id. ¶ 181. For example, as of December 2017,
there were thirty-nine children in the care of Texas DFPS who were
verified to be enrolled or eligible for membership in a federally

487a
Plaintiffs argue that the ICWA and the Final Rule
place significant responsibilities and costs on state
agencies and courts to carry out federal Executive
Branch directives. Id. at ¶ 187. Texas DFPS, Louisiana
Department of Child and Family Services (“DCFS”), and
the Indiana Department of Child Services (“DCS”) each
handle Indian child cases. See State Pls.’ App at 10, 370,
394, ECF No. 73.
The State Plaintiffs require their state agencies and
courts to act in the best interest of the child in foster
care, preadoptive, and adoptive proceedings. See id. at
37, 40, 44, 46, 64, 382. But the State Plaintiffs argue that
the ICWA and Final Rule require these courts and
agencies to apply the mandated placement preferences,
regardless of the child’s best interest, if the child at issue
is an “Indian child.” Am. Compl. ¶¶ 194–95, ECF No. 35.
Additionally, State Plaintiffs argue that the ICWA’s
requirement that state courts submit to mandates from
an Indian child’s tribe violates state sovereignty because
the Indian tribe is not an equal sovereign deserving full
faith and credit. Id. ¶ 196; 25 U.S.C. § 1915(c).
In every child custody case, the ICWA and Final Rule
require the State Plaintiffs to undertake additional
responsibilities, inquiries, and costs. As an example of
how the ICWA and the Final Rule affect state
administrative and judicial procedures, State Plaintiffs
submit the Texas CPS Handbook (the “Texas
Handbook”). Ind. Pls.’ App. 16 (Texas Handbook) § 1225,
ECF No. 73 [hereinafter “Texas Handbook”]. The Texas
recognized tribe, many of them living in Texas DFPS homes. Id.
¶ 189.

488a
Handbook contains Texas DFPS’s policies and
procedures for compliance with the ICWA and the Final
Rule. Id. at 9–29. First, these standards require that, in
every case, CPS workers determine if the child or child’s
family has Native American ancestry or heritage. Id. at
12. The Texas Handbook provides guidance on how to
ascertain if the ICWA and the Final Rule apply, how to
comply with it, and warns that failure to comply could
result in the final adoption order being overturned. Id. at
9–29. The Texas Handbook also states that if an Indian
child is taken into DFPS custody, “almost every aspect
of the social work and legal case is affected.” Texas
Handbook § 5844. If the ICWA applies, the legal burden
of proof for removal, obtaining a final order terminating
parental rights, and restricting a parent’s custody rights
is higher. Id. Texas DFPS must serve the child’s parent,
tribe, Indian custodian, and the BIA with a specific
notice regarding the ICWA rights, and DFPS and its
caseworkers “must make active efforts to reunify the
child and biological Indian family.” Id. Finally, the child
must be placed according to the ICWA statutory
preferences; expert testimony on tribal child and family
practices may be necessary; and a valid relinquishment
of parental rights requires a parent to appear in court
and a specific statutory procedure is applied. Id.
Indiana and Louisiana have similar requirements in
place to assure that their child welfare systems comply
with the ICWA and the Final Rule. See id. at 370–400.
Louisiana DCFS must maintain ongoing contact with the
Indian child’s tribe because each tribe may elect to
handle the ICWA differently. Am. Compl. ¶ 220, ECF
No. 35. They are also required to ensure that the state

489a
agencies take “all reasonable steps” to verify the child’s
status. 25 C.F.R. § 23.124.
The ICWA and the Final Rule require state courts to
ask each participant, on the record, at the
commencement of child custody proceedings whether
the person knows or has reason to know whether the
child is an Indian child and directs the parties to inform
the court of any such information that arises later. 25
C.F.R. § 23.107(a). If the state court believes the child is
an Indian child, it must document and confirm that the
relevant state agency (1) used due diligence to identify
and work with all of the tribes that may be connected to
the child and (2) conducted a diligent search to find
suitable placements meeting the preference criteria for
Indian families. Id. §§ 23.107(b), 23.132(c)(5). The ICWA
and the Final Rule require the State Plaintiffs’ agencies
and courts to maintain indefinitely records of placements
involving Indian children and subject those records to
inspection by the Director of the BIA and the child’s
Indian tribe at any time. 25 U.S.C. §§ 1915(e), 1917; 25
C.F.R. §§ 23.140–41. State Plaintiffs claim this increases
costs for the agencies and courts who have to maintain
additional records not called for under state law and hire
or assign additional employees to maintain these records
indefinitely. Am. Compl. ¶ 225, ECF No. 35.
The statutes also affect the State Plaintiffs’ rules of
civil procedure. The ICWA section 1911(c) and the Final
Rule dictate that the Indian child’s custodian and the
child’s tribe must be granted mandatory intervention.
Texas Rule of Civil Procedure 60 permits Texas courts
to strike the intervention of a party upon a showing of
sufficient cause by another party, but the ICWA imposes

490a
a different legal standard of intervention to child custody
cases involving Indian children. TEX. R. CIV. P. 60; 25
U.S.C. § 1911(c) (“In any State court proceeding . . . the
Indian child’s tribe shall have a right to intervene at any
point in the proceeding.”) (emphasis added). In
Louisiana, any person with a justiciable interest in an
action may intervene. LA. CODE CIV. PROC. art. 1091. In
Indiana, a person may intervene as of right or
permissively, similar to the Federal Rules of Civil
Procedure. IND. R. TR. PROC. 24. The ICWA, however,
eliminates these requirements and provides mandatory
intervention for the Indian child’s custodian and the
child’s tribe. 25 U.S.C. § 1911(c).
Finally, the ICWA and the Final Rule override the
State Plaintiffs’ laws with respect to voluntary consent
to relinquish parental rights. See 25 U.S.C. § 1913(a); 25
C.F.R. § 23.125(e). Texas law permits voluntary
relinquishment of parental rights forty-eight hours after
the birth of the child; Louisiana allows surrender prior
to or after birth of the child, and surrender of maternal
rights five days after the birth of the child, and Indiana
permits voluntary termination of parental rights after
birth of the child. TEX. FAM. CODE § 161,103(a)(1); LA.
CHILD CODE art. 1130; IND. CODE § 31-35-1-6. The
ICWA and Final Rule prohibit any consent until ten days
after the birth. 25 U.S.C. § 1913(a); 25 C.F.R. § 23.125(e).
The ICWA and the Final Rule also affect how long a
final adoption decree is subject to challenge. Under the
ICWA, state courts must vacate a final adoption decree
involving an Indian child, and return the child to the
biological parent, any time within two years if the parent
withdraws consent on the grounds that it was obtained

491a
through fraud or duress. 25 U.S.C. § 1913(d); 25 C.F.R.
§ 23.136. This directly conflicts with Texas, Louisiana,
and Indiana state law, which provide that an adoption
decree is subject to direct or collateral attack for no more
than one year. TEX. FAM. CODE § 162.012(a) (up to six
months); Goodson v. Castellanos, 214 S.W.3d 741, 748–
49 (Tex. App.—Austin 2007, pet. denied); LA. CHILD.
CODE art. 1263 (up to six months); IND. CODE § 31-19-142 (up to six months after entry of adoption decree; or up
to one year after adoptive parents obtain custody,
whichever is later). It also contradicts the Texas common
law principle, as well as Indiana statutory law, which
hold that the best interest of the child is served by
concluding child custody decisions so that these decisions
are not unduly delayed. In re M.S., 115 S.W.3d 534, 548
(Tex. 2003); IND. CODE § 31-19-14-2. The ICWA however
permits the invalidation, by any court of competent
jurisdiction, of a state court’s final child custody order if
it fails to comply with the ICWA. 25 U.S.C. § 1914; 25
C.F.R. § 23.137. 5
Finally, the State Plaintiffs contend if they fail to
comply with the ICWA, they risk losing funding for child
welfare services under Title IV-B and Title IV-E of the
SSA. Am. Compl. ¶ 243, ECF No. 35; 42 U.S.C. §§ 622,
677. Defendants Zinke, Rice, Tahsuda, and Azar, and
their respective federal departments, determine if the
State Plaintiffs are in compliance with the ICWA’s
statutory requirements, and in turn, whether they are
eligible for continued funding under Title IV-B and Title
IV-E funding.

5

See supra note 3.

492a
Plaintiffs moved for summary judgment on all counts,
arguing there is no dispute of material fact and only
questions of law remain. See ECF Nos. 72, 79. The
motions are ripe for review.
II. LEGAL STANDARD
The Court may grant summary judgment where the
pleadings and evidence show “that there is no genuine
dispute as to any material fact and the movant is entitled
to judgment as a matter of law.” FED. R. CIV. P. 56(a).
“[T]he substantive law will identify which facts are
material.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242,
248 (1986). A genuine dispute as to any material fact
exists “if the evidence is such that a reasonable jury
could return a verdict for the nonmoving party.” Id. The
movant must inform the Court of the basis of its motion
and demonstrate from the record that no genuine
dispute as to any material fact exists. See Celotex Corp.
v. Catrett, 477 U.S. 317, 323 (1986).
When reviewing the evidence on a motion for
summary judgment, the Court must decide all
reasonable doubts and inferences in the light most
favorable to the non-movant. See Walker v. Sears,
Roebuck & Co., 853 F.2d 355, 358 (5th Cir. 1988). The
court cannot make a credibility determination in light of
conflicting evidence or competing inferences. Anderson,
477 U.S. at 255. If there appears to be some support for
disputed allegations, such that “reasonable minds could
differ as to the import of the evidence,” the Court must
deny the motion. Id. at 250. 6
The Federal Defendants disputed facts relating to Individual
Plaintiffs’ standing in this case. See Fed. Defs.’ Br. Resp, ECF No.
6

493a
III. ANALYSIS
Plaintiffs move for summary judgment, claiming that
the ICWA and the Final Rule violate: (1) the equal
protection requirements of the Fifth Amendment; (2) the
Due Process Clause of the Fifth Amendment; (3) the
Tenth Amendment; and (4) the proper scope of the
Indian Commerce Clause. Plaintiffs also argue that: (1)
the Final Rule violates the Administrative Procedure
Act (the “APA”); and (2) the ICWA violates Article I of
the Constitution. 7 See generally Ind. Pls.’ Br., ECF No.
80; State Pls.’ Br., ECF No. 74.
A. Fifth Amendment Equal Protection Claim
Plaintiffs claim that sections 1915(a)–(b), section
1913(d), and section 1914 of the ICWA as well as sections
23.129–132 of the Final Rule violate the Fifth
Amendment’s guarantee of equal protection under the
laws. The parties primarily disagree about whether
sections 1915(a)–(b) of the ICWA rely on racial
classifications requiring strict scrutiny review. Ind. Pls.’
Br. 41, ECF No. 80; Fed. Defs.’ Br. Supp. Resp. Obj. Ind.
124-1. But the dispute over standing was resolved in the July 24,
2018 Order, ECF No. 156. Neither the Federal nor Tribal
Defendants have disputed facts in the record relating to the claims
to be resolved by summary judgment. See Tribal Defs.’ Br. Supp.
Resp. Mot. Summ. J. 2 n.1, ECF No. 118. (“[Individual] Plaintiffs
rely on none of the other facts in their brief and declarations to
support their legal arguments, and none is relevant to the issues
currently before the court.”).
7
Individual Plaintiffs alone argue the Fifth Amendment due
process claim. See generally Ind. Pls.’ Br.; State Pls.’ Br.; Ind. Pls.’
Reply; State Pls.’ Reply. State Plaintiffs alone argue the Article I
non-delegation claim. Id.

494a
Mot. Summ. J. 14, ECF No. 123 [hereinafter “Fed. Defs.’
Resp. Ind.”]. Plaintiffs argue the ICWA provides special
rules in child placement proceedings depending on the
race of the child, which is permissible only if the racebased distinctions survive strict scrutiny. Ind. Pls.’ Br.
42–44. ECF No. 80; State Pls.’ Br. 57, ECF No. 74. The
Federal Defendants and Tribal Defendants (collectively,
“Defendants”) disagree, contending the ICWA
distinguishes children based on political categories,
which requires only a rational basis. Fed. Defs.’ Resp.
Ind. 11, ECF No. 123; Trib. Defs.’ Resp. 16, ECF No.
118. Resolution of this issue will direct the level of
scrutiny to be applied to Plaintiffs’ challenge of the
ICWA and Final Rule.
1. Appropriate Level of Review
Unlike the Fourteenth Amendment, the text of the
Fifth Amendment does not contain an equal protection
clause. But courts “employ the same test to evaluate
alleged equal protection violations under the Fifth
Amendment as under the Fourteenth Amendment.”
Richard v. Hinson, 70 F.3d 415, 417 (5th Cir. 1995)
(citing Adarand Constructors, Inc. v. Pena, 515 U.S. 200,
217, (1995)). This means that to survive strict scrutiny,
“federal racial classifications, like those of a State, must
serve a compelling governmental interest, and must be
narrowly tailored to further that interest.” Id. at 202; see
also Fisher v. Univ. of Tex. at Austin, 758 F.3d 633, 664
(5th Cir. 2014). On the other hand, when a federal statute
governing Indians relies on political classifications, the
legislation is permissible if singling out Indians for
“particular and special treatment” is “tied rationally to
the fulfillment of Congress’ unique obligation toward the

495a
Indians.” Morton v. Mancari, 417 U.S. 535, 554–55
(1974). This requirement mirrors typical rational basis
review which requires only that the government show a
statute is rationally related to a legitimate government
interest. See F.C.C. v. Beach Commc’ns, Inc., 508 U.S.
307, 314 (1993).
The parties rely on precedent developed by the
Supreme Court’s (and various circuits’) review of
statutes focused on American Indians and other native
peoples. See Mancari, 417 U.S. 535; see Rice v. Cayetano,
528 U.S. 495 (2000). The Supreme Court’s decisions in
Rice and Mancari explain the differences between
classifications based on race and those based on tribal
membership. See id. Plaintiffs argue that Rice controls
because the ICWA, like the statute in Rice, utilizes
ancestry as a proxy for a racial classification. Ind. Pls.’
Br. 42–44, ECF No. 80; State Pls.’ Reply 18, ECF 142.
Defendants counter that Mancari and other decisions
going back hundreds of years support their contention
that the ICWA’s Indian classification is based on political
characteristics. Fed. Defs.’ Resp. Ind. 11, ECF No. 123;
Trib. Defs.’ Resp. 16, ECF No. 118.
a. Ancestry as Racial Classification
Plaintiffs argue that the placement preferences in
sections 1915(a)–(b) of the ICWA, as well as the
collateral-attack provisions in section 1913(d) and section
1914, include race-based classifications like those in Rice,
which must survive strict scrutiny review. Ind. Pls.’ Br.
41, ECF No. 80; State Pls.’ Br. 54–57, ECF No. 74. In
Rice, the Supreme Court overturned a Hawaiian statute
restricting voter eligibility to only “native Hawaiians”
and those with “Hawaiian” ancestry for positions at a

496a
state agency. Rice, 528 U.S. at 519. By declaring this
restriction an unlawful racial preference, the Supreme
Court found that “ancestry can be a proxy for race” and
noted that “racial discrimination is that which singles out
‘identifiable classes of persons . . . solely because of their
ancestry or ethnic characteristics.’” Id. at 515 (citation
omitted). The Supreme Court held that Hawaii had “used
ancestry as a racial definition and for a racial purpose”
and noted “ancestral tracing . . . employs the same
mechanisms, and causes the same injuries, as laws or
statutes that use race by name.” Id. at 517. Plaintiffs
contend the ICWA preferences are no different than the
preferences struck down in Rice.
b. Tribal Membership
Classification

as

a

Political

Defendants respond that the ICWA’s placement
preferences rely on political classifications like the
statute in Mancari, rather than racial classifications like
the statute in Rice, and are therefore only subject to
rational basis review. Fed. Defs.’ Resp. Ind. 11, ECF No.
123; Trib. Defs.’ Resp. 16, ECF No. 118. In Mancari, the
plaintiffs sought to declare unconstitutional a BIA hiring
standard that gave preference to Indian applicants. See
Mancari, 417 U.S. at 535. The Supreme Court upheld
this hiring preference, concluding it was a political,
rather than a racial, preference. Id. Because the
preference was “an employment criterion reasonably
designed to further the cause of Indian self-government
and to make the BIA more responsive to the needs of its
constituent groups,” it was “reasonably and directly
related” to a legitimate non-racial goal. Id. at 554. The
preference was designed to give those Indians who were

497a
“members of quasi-sovereign tribal entities” and who
chose to apply for jobs at the BIA, an opportunity to
govern tribal activities in “a unique fashion.” Id. at 554.
While the Supreme Court held the preference was
constitutional, its decision was uniquely tailored to that
particular set of facts. Id. at 551 (“the Indian preference
statute is a specific provision applying to a very specific
situation”); see Rice, 528 U.S. at 520 (“The [Mancari]
opinion was careful to note, however, that the case was
confined to the authority of the BIA, an agency described
as ‘sui generis.’”). Importantly, the preference in
Mancari applied “only to members of ‘federally
recognized’ tribes which operated to exclude many
individuals who are racially to be classified as Indians.”
Id. at 555 n.24. And this preference provided special
treatment only to Indians living on or near reservations. 8
Defendants rely on a number of cases in support of their
argument. Those cases confirm however that this authority is
directed at Indian self-government and affairs on or near Indian
lands. In Antelope, the Supreme Court found no equal protection
violation because the legislation involved “federal regulation of
criminal conduct within Indian country implicating Indian
interest.” 439 U.S. 641, 646 (1977) (emphasis added); cf. Plains
Comm. Bank v. Long Family Land & Cattle Co., 554 U.S. 316, 330
(2008) (“[E]fforts by a tribe to regulate nonmembers, especially on
non-Indian fee land, are presumptively invalid.”). Other cases cited
by Defendants also relate to Indian affairs occurring in Indian
country. See, e.g., Fisher v. Dist. Court of Sixteenth Judicial Dist.
of Montana, in and for Rosebud Cty, 424 U.S. 382 (1976); United
States v. Mazurie, 419 U.S. 544 (1975); Miss. Band of Choctaw
Indians v. Holyfield, 490 U.S. 30 (1996); U.S. v. Lara, 541 U.S. 193
(2004). Even United States v. McGowan, 302 U.S. 535 (1938), dealt
with prohibitions on Indian land. Similarly, the Fifth Circuit found
no equal protection violation in Peyote Way Church of God, Inc. v.
Thornburgh, where the federal government made an exception
8

498a
Id. at 552; see also Rice, 528 U.S. at 516–17 (“Simply
because a class defined by ancestry does not include all
members of the race does not suffice to make the
classification neutral”). Mancari therefore did not
announce that all arguably racial preferences involving
Indians are actually political preferences. Id. at 554.
Instead, the Supreme Court recognized that applying its
decision more broadly would raise the “obviously more
difficult question that would be presented by a blanket
exemption for Indians.” Id. at 554.
c.

The ICWA Classification

The specific classification at issue in this case mirrors
the impermissible racial classification in Rice, and is
legally and factually distinguishable from the political
classification in Mancari. The ICWA’s membership
eligibility standard for an Indian child does not rely on
actual tribal membership like the statute in Mancari. Id.
at 554, n.24 (the preference only applied to members of
federally recognized tribes, which “operates to exclude
many individuals who are racially classified as
‘Indians’”); see 25 U.S.C. § 1903(4). Instead, it defines an
Indian child as one who is a member “of an Indian tribe”
as well as those children simply eligible for membership
who have a biological Indian parent. See 25 U.S.C.
§ 1903(4). This means one is an Indian child if the child is
related to a tribal ancestor by blood. See e.g. Navajo
Nation Code § 701; see CHEROKEE CONST. art. IV, § 1;
under the Controlled Substance Act for a Native American church’s
use of peyote, when the church limited membership to only
members of federally recognized tribes who have at least twentyfive percent Indian ancestry. 922 F.2d 1210 (5th Cir. 1991)
(emphasis added).

499a
see CONST. OF WHITE EARTH NATION, Chap. 2. Art. 1;
see Yselta del Sur Pueblo Tribe Code of Laws § 3.01;
Ysleta del Sur Pueblo and Alabama and Coushatta
Indian Tribes of Texas Restoration Act, Pub. Law 10089, 101 Stat. 669 (1987). These classifications are similar
to the “blanket exemption for Indians,” which Mancari
noted would raise the difficult issue of racial preferences,
as well as the classifications declared unconstitutional in
Rice. 9 528 U.S. at 499 (“racial discrimination is that
which singles out “identifiable classes of persons . . .
solely because of their ancestry or ethnic
characteristics.”). 10 By deferring to tribal membership
eligibility standards based on ancestry, rather than
actual tribal affiliation, the ICWA’s jurisdictional
definition of “Indian children” uses ancestry as a proxy
At the hearing, the Federal Defendants identified specific
exceptions to the general rule that tribal membership eligibility
depends on biological ancestry. Aug. 1, 2018 Hr’g Tr. at 83:1–11. The
Federal Defendants noted some tribes may include African
Americans who are descendants of freed slaves and that some tribes
may include “adopted whites” as members. Id. Individual Plaintiffs
responded that the Supreme Court addressed similar limited
exceptions in Rice. Id. at 109. Indeed, Rice controls on this issue.
Defendants in that case argued that the preferential statute did not
rely on a racial category because it also could include descendants
of “Native Hawaiians” who were not racially Polynesian. Rice, 528
U.S. at 514. The Court “reject[ed] this line of argument” and noted
immediately thereafter that “Ancestry can be a proxy for race.” Id.
10
Notably, in Adoptive Couple v. Baby Girl, the Supreme Court
mentioned that an interpretation of provisions of the ICWA that
prioritizes a child’s Indian ancestry over all other interests “would
raise equal protection concerns.” 570 U.S. 637, 655 (2013); see Hr’g
Tr. 103 (acknowledging the equal protection violation Adoptive
Couple referenced was race discrimination).
9

500a
for race and therefore “must be analyzed by a reviewing
court under strict scrutiny.” Adarand, 515 U.S. at 227.
2.

Strict Scrutiny Review

Because the ICWA relies on racial classifications, it
must survive strict scrutiny. Courts “apply strict
scrutiny to all racial classifications to ‘smoke out’
illegitimate uses of race by assuring that [the
government] is pursuing a goal important enough to
warrant use of a highly suspect tool.” Grutter v.
Bollinger, 539 U.S. 306, 326 (2003). To survive strict
scrutiny review, the classifications must be “narrowly
tailored to further a compelling governmental interest.”
Id.
a. Compelling Interest Requirement
Here, the Federal Defendants have not offered a
compelling governmental interest that the ICWA’s racial
classification serves, or argued that the classification is
narrowly tailored to that end. Rather, the Federal
Defendants rest their entire defense to this claim on
their argument that the ICWA classified Indians
politically, which requires only that it be rationally tied
to fulfillment of Congress’s unique obligation to the
Indians. Fed. Defs.’ Resp. Ind. 25, ECF No. 123. Given
the ICWA is a race-based statute, 11 the Government has
failed to meet its burden to show the challenged statute
In Rice, after determining that ancestry can be a proxy for
race, the Supreme Court noted the legislation at issue used ancestry
“as a racial definition and for a racial purpose,” and subsequently
referred to the legislation as being “based on race.” See Rice 528
U.S. at 514, 523. Accordingly, as described above, the ICWA uses
ancestry as a proxy for race and is therefore race-based.
11

501a
is narrowly tailored to a compelling interest. Fisher, 758
F.3d at 664 (citation omitted). Because the government
did not prove—or attempt to prove—why the ICWA
survives strict scrutiny, it has not carried its burden to
defend the ICWA and Plaintiffs are entitled to judgment
as a matter of law on their equal protection claim. 12
b.

Narrow Tailoring Requirement

The Federal Defendants argue that “fulfilling
Congress’s unique obligation toward the Indians” is a
legitimate government purpose supporting their rational
basis analysis. Fed. Defs.’ Resp. Ind. 312 ECF No. 123
(citing Mancari, 417 U.S. at 555). Likewise, at the
hearing on these motions the Tribal Defendants offered
“maintain[ing] the Indian child’s relationship with the
tribe” as a possible compelling interest. Hr’g Tr. 87: 23–

Both Defendants requested an opportunity to provide
additional briefing if the Court concludes the ICWA contains racial
preferences. However, Defendants were on notice that Plaintiffs
sought judgment on all of their claims. This obligated Defendants to
meet their burden. See Apache Corp. v. W&T Offshore, Inc., 626
F.3d 789, 798–99 (5th Cir. 2010) (when a party is on notice that its
opponent seeks judgment on all of its claims, it is obligated to
respond to all of the claims); see also United States v. Paradise, 480
U.S. 149, 193 (1987) (Stevens, J. concurring) (“governmental
decisionmaker who would make race-conscious decisions must
overcome a strong presumption against them”). The Federal
Defendants have failed to do so, nor have they offered a sufficient
reason for this failure. Even so, at oral argument the Court
permitted them to offer any arguments they desired on this issue
even though they failed to brief it. The Federal Defendants failed to
articulate any interest they viewed as compelling. See Hr’g Tr. 55–
61.
12

502a
25, ECF No. 163. 13 The compelling interest standard
necessarily requires a stronger interest than is required
under the broad legitimate government purpose
standard. See Richard, 70 F.3d at 417 (describing
rational basis and strict scrutiny review standards).
Here, however, the Court will assume these interests are
compelling and will evaluate whether the statute is
narrowly tailored.
As stated above, a racial statute must be narrowly
tailored to a compelling government interest to survive
strict scrutiny. Grutter, 539 U.S. at 326. In other words,
the statute’s means must be narrowly tailored to its ends.
Id. To evaluate whether a statute is narrowly tailored to
a compelling interest, the Supreme Court has considered
whether the statute covers too many—or too few—
people to achieve its stated purpose. See Brown v.
Entm’t Merchs. Ass’n, 564 U.S. 786, 804 (2011). The
Supreme Court labels statutes that fail this test as
overinclusive, underinclusive, or both. See id. A statute
is overinclusive when it “burdens more people than
necessary to accomplish the legislation’s goal.”
The Federal Defendants similarly point to Congress’s
obligation to Indian tribes to justify Congressional authority to
enact the ICWA. To bolster those arguments, it notes that Congress
intended the ICWA to “protect the ‘continued existence and
integrity of Indian tribes’ by protecting their most vital resources—
their children.” Fed. Defs.’ Resp. Ind. 37, ECF No. 123 (emphasis
added) (quoting 25 U.S.C. § 1901(3)). The Federal Defendants note
that in congressional hearings about the ICWA there was
considerable emphasis “on the impact on the tribes themselves of
the massive removal of their children.” Id. (quoting Holyfield, 490
U.S. at 34) (emphasis added). The emphasis on tribes is telling;
indeed the Indian Commerce Clause specifically references “Indian
Tribes.” U.S. CONST. art. I, § 8, cl. 3.
13

503a
Overinclusive. MERRIAM-WEBSTER’S DICTIONARY OF
LAW (2016); see e.g. Church of the Lukumi Babalu Aye,
Inc v. City of Hialeah, 508 U.S. 520, 578 (1993)
(Blackmun, J. concurring) (an overinclusive statute is
“one that encompasses more . . . than necessary to
achieve its goal”); see e.g. Mance v. Sessions (Ho, J.
dissenting from denial of rehearing en banc) (“a
categorical ban . . . is over-inclusive—it prohibits a
significant number of transactions that fully comply with
state law.”) (emphasis added).
Here, the statute is broader than necessary because
it establishes standards that are unrelated to specific
tribal interests and applies those standards to potential
Indian children. First, portions of the ICWA preferences
are unrelated to specific tribal interests in that the
statute includes as a priority a child’s placement with any
Indian, regardless of whether the child is eligible for
membership in that person’s tribe. See 25 U.S.C.
§ 1915(a)(3). By doing so, the ICWA preferences
categorically, and impermissibly, treat “all Indian tribes
as an undifferentiated mass.” United States v. Bryant,
136 S. Ct. 1954, 1968 (2016) (Thomas, J., concurring).
Applying the preference to any Indian, regardless of
tribe, is not narrowly tailored to maintaining the Indian
child’s relationship with his tribe. See Br. for the
Goldwater Inst. as Amicus Curiae in Opposition to Defs.’
Mot. to Dismiss 5, ECF No. 133 (“ICWA’s placement
preferences do not depend on tribal or political or
cultural affiliation; they depend on generic
“Indianness.”). The ICWA applies to many children who
will never become members of any Indian tribe, 25
U.S.C. § 1903(4), and the first preference is to place the

504a
child with family members who may not be tribal
members at all. 25 U.S.C. § 1915(1). These provisions
burden more children than necessary to accomplish the
goal of ensuring children remain with their tribes.
The ICWA’s racial classification applies to potential
Indian children, including those who will never be
members of their ancestral tribe, those who will
ultimately be placed with non-tribal family members,
and those who will be adopted by members of other
tribes. Because two of the three preferences have no
connection to a child’s tribal membership, this blanket
classification of Indian children is not narrowly tailored
to a compelling governmental interest and thus fails to
survive strict scrutiny review. For these reasons, the
Court finds that Plaintiffs’ motion for summary
judgment on their Equal Protection Claim is
GRANTED.
B. Article I Non-Delegation Claim
State Plaintiffs also argue that section 1915 (c) of the
ICWA is unconstitutional because it delegates
congressional power to Indian tribes in violation of the
non-delegation doctrine outlined in Article I of the
Constitution. Article I, known as the vesting clause,
provides: “All legislative Powers . . . shall be vested in a
Congress of the United States.” U.S. CONST. I, § 1, cl.1.
State Plaintiffs argue that the ICWA impermissibly
grants Indian tribes the authority to reorder
congressionally enacted adoption placement preferences
by tribal decree and then apply their preferred order to
the states. State Pls.’ Br. 47, ECF No. 74. They also
contend that section 23.130 (b) of the Final Rule, which
provides that a tribe’s established placement

505a
preferences apply over those specified in the ICWA,
violates the doctrine. 14 Am. Compl. ¶ 372, ECF No. 35;
25 C.F.R. § 23.130 (b). Tribal Defendants respond that
the tribes are permissibly exercising regulatory power
subject to an intelligible principle. Tribal Defs.’ Br. Supp.
Resp. Mot. Summ. J. at 35, ECF No. 118 [hereinafter
“Trib. Defs.’ Resp.”]. If so, Defendants argue the ICWA
survives the non-delegation challenge. Id.
1.

Legislative or Regulatory Power

Distinguishing between permissible and nonpermissible delegations of congressional power usually
requires asking whether Congress is delegating
discretion to create law or discretion to execute law.
Loving v. United States, 517 U.S. 748, 758 (1996).
Congress plainly cannot delegate its inherent legislative
power to create law, defined as the power to formulate
binding rules generally applicable to private individuals.
Dep’t. of Transp. v. Ass’n of Am. R.R.’s, 135 S. Ct. 1246
(Thomas, J. concurring); A.L.A. Schechter Poultry Corp.
v. United States, 295 U.S. 495, 529 (1935) (“The Congress
is not permitted to abdicate or to transfer to others the
essential legislative functions with which it is thus
vested.”); see Wayman v. Southard, 10 Wheat. 1, 42–43
(1825) (Marshall, C.J.). On the other hand, Congress may
grant a federal agency the regulatory power necessary
to execute legislation as well as interpret ambiguities
therein. See City of Arlington, Tex. v. F.C.C., 569 U.S.
290, 296 (2013).
Texas provides that the Alabama-Coushatta-Tribe of Texas
has filed with DFPS a notice of different placement preferences.
State Pls.’ App. at 918, ECF No. 73.
14

506a
An exercise of regulatory power does not empower an
entity to “formulate generally applicable rules of private
conduct.” Ass’n of Am. R.R.’s, 135 S. Ct. at 1252
(Thomas, J. concurring). The core of regulatory power
involves factual determination or policy judgment
necessary to execute the law. See Whitman v. Am.
Trucking Ass’ns, 531 U.S. 457, 474–75 (2001) (quoting
Mistretta v. United States, 488 U.S. 361, 416 (1989)
(Scalia, J., dissenting)). To determine whether a
delegation of regulatory power is proper, courts employ
the “intelligible principle” standard which states that
Congress properly delegates regulatory power to federal
agencies when it establishes an “intelligible principle” on
which the agency can base decisions. Whitman v. Am.
Trucking Ass’n, 531 U.S. 457, 474 (2001). Defendants are
correct that the Supreme Court applies the test liberally
and has “almost never felt qualified to second-guess
Congress regarding the permissible degree of policy
judgment that can be left to those executing or applying
the law.” Id. at 474–75 (emphasis added).
Here, the Tribes were granted the power to change
the legislative preferences Congress enacted in the
ICWA, and those changes are binding on the States. See
25 U.S.C. § 1915(c); see also Br. of Amicus Curiae 123
Federally Recognized Indian Tribes et al. in Opposition
to Pls.’ Mots. Summ. J. 22–23, ECF No. 138 (“. . . ICWA
confirms tribes’ authority to enact placement
preferences for their member children, and as an
exercise of Congress’ established authority over Indian
affairs, requires that state courts, when exercising their
concurrent jurisdiction over those children, give effect to
those legislative preferences.”) (emphasis added). The

507a
power to change specifically enacted Congressional
priorities and impose them on third parties can only be
described as legislative. Ass’n of Am. R.R.’s, 135 S. Ct.
at 1253–1254 (Thomas, J. concurring) (“an exercise of
policy discretion . . . requires an exercise of legislative
power”). This is particularly true when the entity allowed
to change those priorities is not tasked with executing
the law. Congress “cannot delegate its exclusively
legislative authority at all.” See Washington v.
Confederated Tribes of Colville Indian Reservation, 447
U.S. 134, 156 (1980); White Mountain Apache Tribe v.
Arizona, 649 F.2d 1274, 1281 (9th Cir. 1981).
Accordingly, section 1915(c) of the ICWA and section
23.130 (b) of the Final Rule violate the non-delegation
doctrine.
2.

Federal Actor Requirement

Alternatively, even if Congress granted permissible
regulatory power through the ICWA, it impermissibly
granted federal regulatory power to an Indian tribe.
Congress certainly has authority to regulate the Indian
tribes. U.S. CONST., art. 1, § 8, cl. 3. Likewise, tribes
unquestionably may regulate conduct on tribal lands and
reservations. Atkinson Trading Co., Inc. v. Shirley, 532
U.S. 645, 650–51 (2001). And, Congress may obtain
assistance from its coordinate branches by delegating
regulatory authority without violating the nondelegation doctrine. Mistretta v. United States, 488 U.S.
361, 372 (1989). But, Indian tribes are not a coordinate
branch of government. See Trib. Defs.’ Resp. 36–38,
ECF No. 118. (describing the Tribes as an independent
separate sovereign); see also Lawson, Delegation and
Original Meaning, 88 VA. L. REV. 327, 352–53 (2002)

508a
(Congress cannot delegate legislative or executive power
to a non-federal entity).
Nor is section 1915(c) saved because, as Tribal
Defendants argue, Congress recognized that Indian
tribes carry a unique, long-held, quasi-sovereign status,
and may thus delegate federal authority to them. Trib.
Defs.’ Resp. 36–37, ECF No. 118. An Indian tribe, like a
private entity, is “not part of the [federal] Government
at all,” which “would necessarily mean that it cannot
exercise…governmental power.” Ass’n of Am. R.R.s, 135
S. Ct.at 1253 (Thomas, J. concurring); see also id. at
1237.
Therefore, whatever label is affixed to the tribes by
Defendants is inapposite. No matter how Defendants
characterize Indian tribes—whether as quasi-sovereigns
or domestic dependent nations—the Constitution does
not permit Indian tribes to exercise federal legislative or
executive regulatory power over non-tribal persons on
non-tribal land. Id. The Court finds Article I does not
permit Congress to delegate its inherent authority to the
Tribes through section 1915(c) of the ICWA or the BIA
through section 23.130(b) of the Final Rule, which
unequivocally states tribal placement preferences apply
over those enacted by Congress in the ICWA.
Accordingly, Plaintiffs are entitled to judgment as a
matter of law on their non-delegation claim. For these
reasons, the Court finds that Plaintiffs’ motion for
summary judgment on their Article I non-delegation
claim is GRANTED.

509a
C. Tenth Amendment Anti-Commandeering
Claim
Plaintiffs also claim that the ICWA and the Final
Rule commandeer the States in violation of the Tenth
Amendment. State Pls.’ Br. 37, ECF No. 74; Ind. Pls.’
Br. 68, ECF No. 80. They specifically challenge the
ICWA sections 1901–23 and 1951–52. 15 Am. Compl. ¶ 284,
ECF No. 35. The Federal Defendants respond that
Congress passed the ICWA pursuant to its enumerated
powers and thus authority over Indian children was
never reserved to the States. Fed. Defs.’ Br. Supp. Resp.
States Mot. Summ. J. 29, ECF No. 121 [hereinafter
“Fed. Defs.’ Resp. States”]. Tribal Defendants argue
that, to the extent the ICWA conflicts with state law,
state law is preempted by the Supremacy Clause. Trib.
Defs.’ Resp. 29, ECF No. 118.
The anti-commandeering principle “is simply the
expression of a fundamental structural decision
incorporated into the Constitution, i.e., the decision to
withhold from Congress the power to issue orders
directly to the states.” Murphy v. Nat’l Collegiate
Athletic Ass’n, 138 S. Ct. 1470, 1475 (2018). The
Constitution grants to “Congress not plenary legislative
power but only certain enumerated powers.” Id. at 1476.
“Conspicuously absent from the list of powers given to
Congress is the power to issue direct orders to the
governments of the States” because the Constitution
“confers upon Congress the power to regulate
These provisions include the congressional findings and
declaration of policy, definitions, child custody proceedings, record
keeping, information availability, and timetables. See 25 U.S.C.
§§ 1901–23, 1951–52.
15

510a
individuals, not States.” Murphy, 138 S. Ct. at 1476.
Legislative power that is not enumerated is reserved to
the States through the Tenth Amendment, and
“Congress may regulate areas of traditional state
concern only if the Constitution grants it such power.”
Adoptive Couple, 133 S. Ct. at 2566 (2013) (Thomas, J.
concurring).
The Court must therefore first consider whether
Congress may require state courts and agencies to apply
federal standards to exclusively state created causes of
action. 16
1. Commandeering State Courts and Agencies
Plaintiffs argue that the ICWA unconstitutionally
requires state courts and executive agencies to apply
federal standards and directives to state created claims.
State Pls.’ Br. 37, ECF No. 74; Ind. Pls.’ Br. 68, ECF No.
80. The Federal Defendants respond that the power to
enact the ICWA was granted to Congress by the Indian
Commerce Clause, was never reserved to the States, and
presents no constitutional problem. Fed. Defs.’ Resp.
States 29, ECF No. 121. The Court finds that requiring
the States to apply federal standards to state created
claims contradicts the rulings in Murphy, Printz, and
New York. See Murphy, 138 S. Ct. 1470 (2018); Printz v.
United States, 521 U.S. 898 (1997); New York v. United
States, 505 U.S. 144 (1992).

The ICWA includes federal requirements that apply in a state
child custody proceedings including: involuntary proceedings,
voluntary proceedings, and proceedings involving foster-care,
preadoptive, or adoptive placement, or termination of parental
rights. See 25 CFR §§ 23.103, 23.106.
16

511a
a.

Federal Standards Applied in State
Created Claims

It is unquestionably true that state and federal courts
share concurrent jurisdiction in many legal matters. See
generally Mims v. Arrow Fin. Ser., LLC, 565 U.S. 368
(2012). The law is similarly clear about when a state court
must hear a federal claim. In Testa, the Supreme Court
held that where a state court would hear a comparable
state law claim it must also hear a federal claim. See
Testa v. Katt, 330 U.S. 386 (1947) (emphasis added). In
other words, Congress may create a private federal
cause of action and authorize concurrent jurisdiction in
state courts. When it does so, the state courts cannot
refuse to hear the federal claim. Later, in Haywood, the
Supreme Court confirmed that states “lack authority to
nullify a federal right or cause of action they believe is
inconsistent with their local policies.” Haywood v.
Drown, 556 U.S. 729, 736 (2009) (emphasis added). The
Supreme Court concluded that when “state courts as
well as federal courts are entrusted with providing a
forum for the vindication of federal rights,” state courts
may not refuse to adjudicate the federal claim. Id. at 735.
The controversy here, however, does not involve a
federal cause of action that may be adjudicated in a
federal forum. See 25 U.S.C. § 1915(a). Instead, the
ICWA commands that states modify existing state law
claims. Congress directs state courts to implement the
ICWA by incorporating federal standards that modify
state created causes of action. Id.

512a
b. The Murphy Standard
In Murphy, the Supreme Court ruled that a federal
statute prohibiting state legislatures from authorizing
sports gambling violated the anti-commandeering
doctrine because it directly regulated States rather than
individuals. See Murphy, 138 S. Ct. 1461. The Supreme
Court outlined three reasons why the anticommandeering principle is important. First, it is “one of
the Constitution’s structural protections of liberty.” Id.
at 1477. Second, the principle “promotes political
accountability.” Id. Third, it “prevents Congress from
shifting the costs of regulation to the States.” Id.
Congress violated all three principles when it enacted
the ICWA. First, the ICWA offends the structure of the
Constitution by overstepping the division of federal and
state authority over Indian affairs by commanding
States to impose federal standards in state created
causes of action. See 25 U.S.C. § 1915(a). Second, because
the ICWA only applies in custody proceedings arising
under state law, it appears to the public as if state courts
or legislatures are responsible for federally-mandated
standards, meaning “responsibility is blurred.” Murphy,
138 S. Ct. at 1477.
Third, the ICWA shifts “the costs of regulations to
the States” by giving the sole power to enforce a federal
policy to the States. 17 Id. Congress is similarly not forced

As an example, the ICWA and the Final Rule require State
Plaintiffs’ agencies and courts to maintain indefinitely records of
placements involving Indian children, and subject those records to
inspection by the Director of the BIA and the child’s Indian tribe at
any time, as opposed to simply transferring those records to the
17

513a
to weigh costs the States incur enforcing the ICWA
against the benefits of doing so. In sum, Congress shifts
all responsibility to the States, yet “unequivocally
dictates” what they must do. Id.
That this case primarily involves state courts, rather
than legislative bodies or executive officers, does not
mean the principles outlined in Murphy, New York, and
Printz do not apply. In those cases, the Supreme Court
relied on the idea that “the Framers explicitly chose a
Constitution that confers upon Congress the power to
regulate individuals, not States.” Printz, 521 U.S. at 920.
Here, the ICWA regulates states. As stated above, the
ICWA requires that the state “in any adoptive placement
of an Indian child under state law, a preference shall be
given, in the absence of good cause to the contrary, to a
placement with: (1) a member of the child’s extended
family; (2) other members of the Indian child’s tribe; or
(3) other Indian families.” 25 U.S.C § 1915(a). Similar
requirements are set for foster care or preadoptive
placements. Id. § 1915(b). If the Indian child’s tribal
court establishes a different order of preferences, the
state court or agency “shall follow such order so long as
the placement is the least restrictive setting appropriate
to the particular needs of the child.” Id. § 1915(c). That
requirement is, on its face, a direct command from
Congress to the states. The Court finds that the ICWA
directly regulates the State Plaintiffs and doing so
contradicts the principles outlined by the Supreme Court
in Murphy. Cf. 138 S. Ct. 1470 (2018). Notwithstanding
this impact on the state courts, Texas has also
BIA so they may keep them indefinitely. 25 U.S.C. §§ 1915(e), 1917;
25 C.F.R. §§ 23.140–41.

514a
indisputably demonstrated that the ICWA requires its
executive agencies to carry out its provisions. 18 Hr’g Tr.
at 22–23, ECF No. 163; State Pls.’ App. Supp. Mot.
Summ. J. 28–29, ECF No. 73 [hereinafter State Pls.’
App.]. Accordingly, Congress regulates States—not
individuals—through the ICWA, and the Constitution
does not grant it that power.
Nor does the Indian Commerce Clause save the
ICWA’s mandate to the states. Federal Defendants
assert that the plenary power the Indian Commerce
Clause grants Congress permits directing states in child
custody proceedings involving Indian children eligible
for tribal membership, therefore no power was reserved
to the states, and no Tenth Amendment violation is
possible. Fed. Defs.’ Resp. States 29, ECF No. 121. But
regardless of the reach of the Indian Commerce Clause,
no provision in the Constitution grants Congress the
right to “issue direct orders to the governments of the
States,” and the Indian Commerce Clause can be no
different. Cf. Murphy, 138 S. Ct. at 1478. Like in
Murphy, there is no way to understand mandating state
enforcement of the ICWA “as anything other than a
direct command to the States. And that is exactly what
the anti-commandeering rule does not allow.” Murphy,
138 S. Ct. at 1481.
The Texas DFPS must, among other things; serve notice of
suit on Indian tribes, verify a child’s tribal status, make a diligent
effort to find a suitable placement according to the ICWA
preferences and show good cause if the preferences are not
followed, ensure a child is enrolled in his tribe before referring him
for adoption, and keep a written record of the placement decision.
State Pls.’ App. 28–29, ECF No. 73.
18

515a
2.

State Law Preemption

Finally, the Tribal Defendants argue that the anticommandeering principle does not apply because the
ICWA, enacted pursuant to the Indian Commerce
Clause, simply preempts conflicting state laws
regulating individuals. Trib. Defs.’ Resp. 29, ECF No.
118. Preemption generally applies when federal and
state law conflict over matters in which they have
concurrent jurisdiction. See Wyeth, 555 U.S. at 584.
While Supremacy Clause preemption may apply to a
conflict between state and “federal law that regulates the
conduct of private actors,” it cannot rescue a law that
directly regulates states. Murphy, 138 S. Ct. at 1481.
Even though the ICWA’s general policy is directed
towards protecting Indian children, 25 U.S.C. § 1902, its
specific provisions, like section 1915, directly command
states to enforce the ICWA without a comparable federal
enforcement mechanism and do not “impose any federal
restrictions on private actors.” Id. at § 1915; Murphy,
138 S. Ct. at 1481. As such, these commands do not result
in a conflict between duly enacted state and federal law.
Rather, the provisions command states to directly adopt
federal standards in their state causes of actions. This
argument is not unlike the one rejected in Murphy,
where Congress relied on its commerce clause power, yet
even that express power does not permit it to command
states in this manner. Murphy, 138 S. Ct. at 1479.
Preemption arguments therefore cannot rescue the
ICWA’s impermissible direct commands to the states.
The ICWA is structured in a way that directly requires
states to adopt and administer comprehensive federal
standards in state created causes of action. Therefore,

516a
the Court finds that sections 1901–23 and 1951–52 of the
ICWA violate the anti-commandeering doctrine. For
these reasons, the Court finds that Plaintiffs’ motion for
summary judgment on their Tenth Amendment AntiCommandeering Claim is GRANTED.
D. Administrative Procedure Act Claims
Plaintiffs also claim that the Final Rule violates the
APA because it: (1) purports to implement an
unconstitutional law and therefore must be vacated as
contrary to law; (2) exceeds the scope of Interior’s
statutory regulatory authority under the ICWA; (3)
reflects an impermissibly ambiguous construction of the
statute; and (4) is otherwise arbitrary and capricious.
Ind. Pls.’ Reply at 16, ECF No. 143; State Pls.’ Reply 18,
ECF No. 142; see also Ind. Pls’ Br., ECF 80. Defendants
respond that the Final Rule was properly passed and
promulgated, deserves Chevron deference, and stands
after Chevron review. Trib. Defs.’ Resp. 39–47, ECF No.
118; Fed. Defs.’ Resp. States 41, ECF No. 121.
1.

Constitutionality Requirement

As a threshold matter, if the Final Rule purports to
implement an unconstitutional statute, the Court must
hold it unlawful and set it aside. 5 U.S.C. § 706. As
previously explained, the Court has concluded sections
1901–23 and 1951–52 of the ICWA are unconstitutional.
The challenged sections of the Final Rule that regulate
unconstitutional portions of the ICWA, 25 C.F.R.
§§ 23.106–112, §§ 23.114–19, §§ 23.121–22, §§ 23.124–28,
and §§ 23.130–132 must therefore also be set aside
because “the authority of administrative agencies is
constrained by the language of the statute they

517a
administer.” Texas v. United States, 497 F.3d 491, 500–
01 (5th Cir. 2007) (citing Massachusetts v. EPA, 549 U.S.
497 (2007)). For that reason, Plaintiffs’ Motion for
Summary Judgment on their APA claims is GRANTED.
Alternatively, the Court will address Plaintiffs’
arguments that the Final Rule exceeds the scope of
Interior’s—and thus the BIA’s—statutory regulatory
authority under the ICWA, reflects an impermissibly
ambiguous construction of the statute, and is arbitrary
and capricious.
2.

APA Statutory Authority Requirement

Plaintiffs argue that the challenged portions of the
Final Rule exceed the scope of the BIA’s regulatory
authority under the ICWA because the Final Rule issues
binding regulations—which the BIA previously deemed
unnecessary to enforce the ICWA—without the
statutory authority necessary to do so. Ind. Pls.’ Reply
17–19, ECF 143; State Pls.’ Reply 18, ECF No. 142.
“Expanding the scope” of a BIA regulation “in vast and
novel ways is valid only if it is authorized” by the ICWA.
Chamber of Commerce v. Dep’t of Labor, 885 F.3d 360,
369 (5th Cir. Mar. 15, 2018). “A regulator’s authority is
constrained by the authority that Congress delegated it
by statute. Where the text and structure of a statute
unambiguously foreclose an agency’s statutory
interpretation, the intent of Congress is clear, and ‘that
is the end of the matter; for the court, as well as the
agency, must give effect to the unambiguously expressed
intent of Congress.’” Id. (quoting Chevron, U.S.A., Inc.
v. N.R.D.C., Inc., 467 U.S. 837, 842–43 (1984)). When an
agency waits decades to discover a new interpretation of
a rule it “highlights the Rule’s unreasonableness,” and

518a
“gives us reason to withhold approval or at least
deference for the Rule.” Id. at 380. When a court reviews
an agency’s construction of a statute and determines
Congress has spoken directly to an issue, the court must
give effect to Congress’s unambiguously expressed
intent. Food & Drug Admin. v. Brown & Williamson
Tobacco Corp., 529 U.S. 120, 121 (2000); City of
Arlington, Tex. v. FCC, 133 S. Ct. 1863, 1874 (2013);
Chevron, 467 U.S. at 842–43.
Here, Congress expressly and unambiguously
granted the Secretary of Interior authority to regulate if
necessary. Congress stated in the ICWA that “within
one hundred and eighty days after November 8, 1978, the
Secretary shall promulgate such rules and regulations as
may be necessary to carry out the provisions in this
chapter.” 25 U.S.C § 1952 (emphasis added); see 44 Fed.
Reg. 67,584. The BIA concluded that the ICWA differs
from most other federal statutes because the majority of
the work required to “carry out the provisions” falls to
state courts and administrative agencies, not a federal
agency. See, e.g., 25 U.S.C § 1915. The BIA conceded as
much when administering the 1979 Guidelines:
Promulgation of regulations with legislative
effect with respect to most of the
responsibilities of state or tribal courts under
the act, however, is not necessary to carry out
the Act. State and tribal courts are fully
capable of carrying out the responsibilities
imposed on them by Congress without being
under the direct supervision of this
Department. Nothing in the legislative history
indicates that Congress intended this

519a
Department to exercise supervisory control
over state or tribal courts or to legislate for
them with respect to Indian child custody
matters. For Congress to assign an
administrative agency such supervisory
control over courts would be an extraordinary
step . . . so at odds with concepts of both
federalism and separation of powers that it
should not be imputed to Congress in the
absence of an express declaration of
Congressional intent to that effect.
44 Fed. Reg. 67,584, (Nov. 26, 1979) (emphasis added).
Here, as outlined in the Court’s findings supra on
Plaintiffs’ anti-commandeering and non-delegation
claims, much of the authority to carry out the ICWA was
delegated to the States and Indian tribes. The BIA
admitted state and tribal courts were fully capable of
carrying out the ICWA without direct federal regulation
and allowed them to do so for over thirty years. 44 Fed.
Reg. 67,584 (Nov. 26, 1979). In establishing the Final
Rule, the BIA contradicted their earlier position and
asserted that section 1952 of the ICWA granted
authority to promulgate binding regulations. The BIA
provides justification for the change in position by noting
that state courts have applied the ICWA inconsistently,
which makes binding regulations necessary. 81 Fed.
Reg. 38,785. But when specifically addressing the change
in position about statutory authority under section 1952,
the BIA simply states that it “no longer agrees with the
statements it made in 1979.” Id. at 38,786. In the analysis
that follows, the BIA never addresses the fact that the
1979 BIA determined that “[n]othing in the language or

520a
legislative history of 25 U.S.C. 1952 compels the
conclusion that Congress intended to vest this
Department with such extraordinary power” and that
nothing indicated Congress intended the BIA to exercise
supervisory or legislative control over the state court. 44
Fed. Reg. 67,584, (Nov. 26, 1979). While the BIA
expresses frustration with how state courts and agencies
are applying the ICWA inconsistently, it does not
address how, suddenly, it no longer believes the ICWA
primarily tasks those state courts and agencies with the
authority to apply the statute as they see fit. 81 Fed. Reg.
38,782–90. 19
A current agency interpretation “in conflict with its
initial position, is entitled to considerably less deference”
and is met with “a measure of skepticism.” Chamber, 885
F.3d at 381 (quoting Watt v. Alaska, 451 U.S. 259, 273
(1981); Util. Air Regulatory Grp v. EPA, 134 S. Ct. 2427,
2444 (2014)). The 1979 BIA acknowledged that
“where…primary responsibility for interpreting a
statutory term rests with the courts, administrative
interpretations of statutory terms are given important
but not controlling significance.” 44 Fed. Reg. 67,584
(citing Batterton v. Francis, 432 U.S. 416, 424–25 (1977)).
Because the BIA does not explain its change in position
over its authority to “carry out the provisions” and apply
the ICWA—and therefore its authority to issue binding
As an example, in 1979 the BIA provided that the good cause
standard “was designed to provide state courts with flexibility in
determining the disposition of a placement proceeding involving an
Indian child.” 44 Fed. Reg. 67,584. The Final Rule, however,
provided that “courts should only avail themselves of it in
extraordinary circumstances, as Congress intended the good cause
exception to be narrow and limited in scope.” 81 Fed. Reg. 38,839.
19

521a
regulations—the Court finds those regulations remain
not necessary to carry out the ICWA. See 25 U.S.C
§ 1952. Accordingly, when the BIA promulgated
regulations with binding rather than advisory effect, it
exceeded the statutory authority Congress granted to it
to enforce the ICWA. 20 The Court finds that 25 C.F.R.
§§ 23.106–22, §§ 23.124–32 and §§ 23.140–41 are
INVALID to the extent the regulations are binding on
the State Plaintiffs.
Assuming for the sake of argument that Congress
granted the BIA statutory authority to implement the
legally binding Final Rule, the Court will next consider
whether the Final Rule “fills in the statutory gaps” of an
At the hearing, the Federal Defendants argued that the Final
Rule’s clear and convincing evidence standard is not binding on
state courts. Hr’g Tr. 40:7–20. That argument contradicts the Final
Rule itself which clearly implements binding regulations to
counteract the very discretion Defendants argue states are allowed.
See 25 CFR 23.132(b); see 81 Fed. Reg. 38,782, 38,786, 38,853. (“The
Department’s current nonbinding guidelines are insufficient to fully
implement Congress’s goal of nationwide protections for Indian
children…State courts will sometimes defer to the guidelines in
ICWA cases [but] State courts frequently characterize the
guidelines as lacking the force of law and conclude that they may
depart from the guidelines as they see fit.”; “As described above,
the Department concludes today that this binding regulation is
within the jurisdiction of the agency, was encompassed by the
statutory grant of rulemaking authority, and is necessary to
implement the Act.”; “The final rule generally uses mandatory
language, as it represents binding interpretations of Federal law.”).
The preamble to the Final Rule does note that the rule “does not
categorically require,” that the clear and convincing evidence
standard be followed, but that statement cannot change the fact that
the Final Rule itself was promulgated as a binding regulation. 81
Fed. Reg. 38,843.
20

522a
ambiguous statute, and is entitled to Chevron deference.
See Brown & Williamson Tobacco Corp., 529 U.S. at 159.
3.

Chevron Deference and the Good Cause
Standard

When “a court reviews an agency’s construction of
the statute which it administers, it is confronted with two
questions. First, always, is the question whether
Congress has directly spoken to the precise question at
issue. If the intent of Congress is clear, that is the end of
the matter; for the court, as well as the agency, must give
effect to the unambiguously expressed intent of
Congress.” Chevron, 467 U.S. at 842–43; see, e.g., Encino
Motorcars, LLC v. Navarro, 136 S. Ct. 2117, 2125 (2016).
If a statutory term is ambiguous, courts will assume
Congress granted the implementing agency implicit
authority to fill in the resulting statutory gaps. Food and
Drug Admin., 529 U.S. at 159. Commonly referred to as
Chevron deference, courts will defer to the resulting
agency interpretation if it is reasonable. See Chevron,
467 U.S. at 837.
Here, Plaintiffs claim that the BIA violated the APA
when it promulgated § 23.132(b) of the Final Rule, which
limits the evidence that may be considered by courts to
determine “good cause” under section 1915 of the ICWA.
Ind. Pls.’ Resp. 60–63, ECF No. 80; State Pls.’ Reply 18,
ECF No. 142. Defendants argue that the Final Rule’s
interpretation of “good cause” is entitled to Chevron
deference. Trib. Defs.’ Resp. 39–47, ECF No. 118; Fed
Defs.’ Resp. Ind. 45–49, ECF No. 123.
“Where the text and structure of a statute
unambiguously foreclose an agency’s statutory
interpretation, the intent of Congress is clear, and ‘that

523a
is the end of the matter; for the court, as well as the
agency, must give effect to the unambiguously expressed
intent of Congress.” Chamber of Comm., 885 F.3d at 369
(quoting Chevron, 467 U.S. at 842–43). To determine
whether a statute is ambiguous under Chevron, a court
must: (1) begin with the statute’s language; (2) give
undefined words their ordinary, contemporary, common
meaning; (3) read the statute’s terms in proper context
and consider them based on the statute as a whole; and
(4) consider a statute’s terms in light of the statute’s
purpose. Contender Farms, L.L.P v. U.S. Dep’t of Agric,
779 F.3d 258, 269 (5th Cir. 2015). But a current agency
interpretation “in conflict with its initial position, is
entitled to considerably less deference.” Chamber of
Comm., 885 F.3d at 381 (quoting Watt v. Alaska, 451 U.S.
259, 273 (1981)).
Section 23.132(b) of the Final Rule interprets section
1915(b) of the ICWA, which provides in “any adoptive
placement of an Indian child under State law, a
preference shall be given, in the absence of good cause to
the contrary, to a placement with (1) a member of the
child’s extended family; (2) other members of the Indian
child’s tribe; or (3) other Indian families.” 25 U.S.C.
§ 1915 (b). The Final Rule states that a “party seeking
departure from the placement preferences should bear
the burden of proving by clear and convincing evidence
that there is ‘good cause’ to depart from the placement
preferences." 25 C.F.R. § 23.132(b).
Here, Plaintiffs contend that the Final Rule departs
from the BIA’s original 1979 interpretation and
contradicts the “good cause” standard set by the ICWA
because the Final Rule heightens the evidentiary

524a
burden. Ind. Pls.’ Reply 20–23, ECF No. 143. Defendants
argue that “good cause” is an ambiguous term and it was
therefore appropriate for the BIA to promulgate—as
part of their interpretation of the term good cause—the
necessary evidentiary standard. Trib. Defs.’ Resp. 44–
45, ECF No. 118; Fed. Defs.’ Resp. Ind. 45, ECF No. 123.
Plaintiffs counter that the default evidentiary standard
in civil cases, preponderance of the evidence, applies to
section 1915 and accordingly the Final Rule’s clear and
convincing evidence standard is not a permissible
construction of the statute. Ind. Pls.’ Reply 20, ECF No.
143. The issue here is whether Congress established an
unambiguous evidentiary standard in section 1915 of the
ICWA. That determination is distinct from interpreting
the meaning of the term good cause.
Congress did not codify a preponderance of the
evidence standard in section 1915 of the ICWA. But
other portions of the ICWA specifically included
heightened evidentiary burdens. See 25 U.S.C. § 1912(e)
(establishing a clear and convincing evidence standard
for foster placements). Notably, unlike those sections,
section 1915 does not establish a heightened evidentiary
standard in conjunction with the good cause
requirement. “It is a ‘fundamental canon of statutory
construction that the words of a statute must be read in
their context and with a view to their place in the overall
statutory scheme.’” Food & Drug Admin, 529 U.S. at
133. Similarly, “where Congress includes particular
language in one section of a statute but omits it in
another . . . it is generally presumed that Congress acts
intentionally and purposely in the disparate inclusion or
exclusion.” Keene Corp. v. United States, 508 U.S. 200,

525a
208 (1993) (quoting Russello v. United States, 464 U.S.
16, 23 (1983)). Because Congress included the clear and
convincing evidence standard in certain sections of the
ICWA, but omitted it in section 1915, the Court
presumes it did so intentionally.
When interpreting section 1915 the “silence is
inconsistent with the view that Congress intended to
require a special, heightened standard of proof” and “it
is fair to infer that Congress intended the ordinary
preponderance [of the evidence] standard to govern . . . ”
Grogan v. Garner, 498 U.S. 279, 286–88 (1991). Here, a
holistic reading of the statute and the 1979 BIA
guidelines confirms that Congress intended the default
preponderance of the evidence standard to apply.
Accordingly, defining an evidentiary standard in a way
that contradicts the standard intended by Congress, as
the BIA did in the Final Rule, is contrary to law.
Because the Court finds that the BIA lacked
statutory authority to enact the challenged portions of
the Final Rule, and that the evidentiary standard in
section 1915 is unambiguous, Defendants are not entitled
to Chevron deference and the Final Rule’s change of
standard to clear and convincing evidence is contrary to
law. For these reasons, the Court finds that Plaintiffs’
motion for summary judgment on their APA claim is
GRANTED.
E. Fifth Amendment Due Process Claim
Individual Plaintiffs alone claim that sections 1910 (a)
and (b) of the ICWA, as well as the Final Rule, violate
the Fifth Amendment Due Process Clause. Ind. Pls.’ Br.
49–55, ECF No. 80. Plaintiffs argue that ICWA’s racial
preferences “disrupt . . . intimate familial relationships

526a
based solely on the arbitrary fact of tribal membership”
and that families have a fundamental right “to make
decisions concerning the care, custody, and control of
their children.” Id. at 49, 50. The Federal Defendants
respond that this Court has no basis to “recognize a
fundamental right where the Supreme Court and Fifth
Circuit have refused to do so.” Fed. Defs.’ Resp. Ind. 33,
ECF No. 123. Defendants are correct.
The Supreme Court has recognized both custody and
the right to keep the family together as fundamental
rights. See Troxel v. Granville, 530 U.S. 57 (2000); Moore
v. City of East Cleveland, 431 U.S. 494 (1977). However,
the Supreme Court has never applied those rights to
foster families. See Drummond v. Fulton Cnty. Dep’t of
Family & Children’s Servs., 563 F.2d 1200, 1207 (5th Cir.
1977) (en banc). Similarly, the Supreme Court has not
applied those rights in a situation involving either
prospective adoptive parents or adoptive parents whose
adoption is open to collateral attack. For these reasons,
the Court finds that Plaintiffs’ motion for summary
judgment on their substantive due process claim is
hereby DENIED.
F. Indian Commerce Clause Claim
Plaintiffs also claim Congress did not have the
constitutional authority to pass sections 1901–23 and
sections 1951–52 of the ICWA under the Indian
Commerce Clause. Ind. Pls.’ Br. 66, ECF No. 80; State
Pls.’ Br. 49–52, ECF No. 74. Defendants counter that the
Indian Commerce Clause grants Congress plenary
authority over Indian Affairs. Fed. Def’s Resp. Ind. 35,
ECF No. 123; Trib. Defs.’ Resp. 21–28, ECF No. 118.
But as shown above, Murphy does not permit Congress

527a
to directly command the States in this regard, even when
it relies on Commerce Clause power. Murphy, 138 S. Ct.
at 1479. Therefore Plaintiffs’ request for a declaration
that these sections are unconstitutional is GRANTED.
IV.

CONCLUSION

For the reasons stated above, the Court finds that
Plaintiffs’ Motions for Summary Judgment (ECF Nos.
72, 79) should be and are hereby GRANTED in part and
DENIED in part.
SO ORDERED on this 4th day of October, 2018.
/s/ Reed O’Connor
Reed O’Connor
UNITED STATES DISTRICT JUDGE

528a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
CHAD BRACKEEN, et al.,
Plaintiffs,

§
§
§
v.
§
Civil Action
§ No.4:17-cv-00868-O
RYAN ZINKE, et al.,
§
Defendants,
§
§
CHEROKEE NATION, et al.,
§
Intervenors-Defendants. §
FINAL JUDGMENT
The Court issued its order partially granting
Plaintiffs’ Motions for Summary Judgment. It is
therefore ORDERED, ADJUDGED, and DECREED
that Plaintiffs’ Motions for Summary Judgment (ECF
Nos. 72, 79) are GRANTED in part and DENIED in
part, and this case is DISMISSED with prejudice.
The Court DECLARES that 25 U.S.C. §§ 1901–23,
25 U.S.C. §§ 1951–52, 25 C.F.R. §§ 23.106–22,
25 C.F.R. §§ 23.124–32, and 25 C.F.R. §§ 23.140–41 are
UNCONSTITUTIONAL.

529a
SO ORDERED on this 4th day of October, 2018.
/s/ Reed O’Connor
Reed O’Connor
UNITED STATES DISTRICT JUDGE

530a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
CHAD BRACKEEN, et al.,
Plaintiffs,

§
§
§
v.
§
Civil Action
§ No.4:17-cv-00868-O
RYAN ZINKE, et al.,
§
Defendants,
§
§
CHEROKEE NATION, et al.,
§
Intervenors-Defendants. §
ORDER
All of the Defendants have filed Motions to Dismiss
(ECF Nos. 56, 58). 1 Defendants seek to dismiss
Plaintiffs’ claims due to lack of standing. Plaintiffs
oppose these motions. For the following reasons,
Defendants’ motions are DENIED.

1

The Tribal Defendants “rely on, and incorporate by reference
as if fully set forth herein” Federal Defendants’ motion to dismiss.
See Tribal Defs.’ Mot. Dismiss, ECF No. 58. This Order will refer to
both motions collectively as Defendants’ Motion to Dismiss. Federal
Defendants were also the only Defendants to reply to Plaintiffs’
Response.

531a
I. BACKGROUND
The following factual recitation is taken from
Plaintiffs’ First Amended Complaint (ECF No. 35)
unless stated otherwise. Plaintiffs are composed of three
states—Texas, Louisiana, and Indiana, (collectively the
“State Plaintiffs”), and seven individual Plaintiffs—Chad
Everett and Jennifer Kay Brackeen (the “Brackeens”),
Nick and Heather Libretti (the “Librettis”), Altagracia
Socorro Hernandez (“Ms. Hernandez”), and Jason and
Danielle Clifford (the “Cliffords”) (collectively the
“Individual Plaintiffs”). Am. Compl. 8–10, ECF No. 35.
Defendants are the United States of America; the United
States Department of the Interior (the “Interior”) and
its Secretary Ryan Zinke (“Zinke”) in his official
capacity; the Bureau of Indian Affairs (the “BIA”) and
its Director Bryan Rice (“Rice”) in his official capacity;
BIA Principal Assistant Secretary for Indian Affairs
John Tahsuda, III (“Tahsuda”) 2 in his official capacity;
the Department of Health and Human Services (“HHS”)
and its Secretary Alex M. Azar II (“Azar”) (collectively,
the “Federal Defendants”). Id. Shortly after this case
was filed the Cherokee Nation, Oneida Nation, Quinalt
Indian Nation, and Morengo Band of Mission Indians
Initially Plaintiffs sued Michael Black in his official capacity as
Acting Assistant Secretary of Indian Affairs. See Orig. Compl. ¶ 17,
ECF No. 1. On September 13, 2017, U.S. Secretary of the Interior
Ryan Zinke appointed John Tahsuda III as the Department of
Interior’s Principal Assistant Secretary of Indian Affairs. Press
Release, Secretary Zinke Names John Tahsuda III the Principal
Deputy Assistant Secretary for Indian Affairs, DEP’T OF THE INT.,
(Sept. 13, 2017), https://www.doi.gov/pressreleases/secretary-zinkenames-john-tahsuda-iii-principal-deputy-assistant-secretaryindian. Accordingly, he is substituted as a Defendant.
2

532a
(collectively “Tribal Defendants”) filed an unopposed
motion to intervene, which the Court granted. See Trib.
Defs.’ Mot. Intervene, ECF No. 42; 28 March 2018
Order, ECF No. 45.
This case is about the constitutionality of the Indian
Child Welfare Act (the “ICWA”) and the accompanying
regulations (codified at 25 C.F.R. pt. 23) known as the
Indian Child Welfare Act Proceedings (the “Final Rule”)
as promulgated by the BIA, as well as certain provisions
of the Social Security Act (“SSA”) that predicate federal
funding for portions of state child-welfare payments on
compliance with the ICWA. Plaintiffs argue that the
ICWA and the Final Rule implement a system that
mandates racial and ethnic preferences, in direct
violation of state and federal law. Am. Comp. ¶ 193, ECF
No. 35 (citing TEX. FAM. CODE §§ 162.015, 264.1085; LA.
CONST. ART. 1, § 3; 42 U.S.C. § 1996b). Plaintiffs ask that
the Final Rule be declared invalid and set aside as a
violation of substantive due process and as not in
accordance with law (Counts One and Five). 5 U.S.C.
§ 705(2)(A); Am. Compl. ¶¶ 265, 349, ECF No. 35.
Plaintiffs also ask that the ICWA, specifically §§ 1901–
23 and 1951–52, be declared unconstitutional under
Article One and the Tenth Amendment of the United
States Constitution because the provisions violate the
Commerce Clause, intrude into state domestic relations,
and violate principles of anticommandeering (Counts
Two and Three). Am. Compl. ¶¶ 281, 323, ECF No. 35.
Finally, Plaintiffs ask that the ICWA §§ 1915(a)–(b) be
declared unconstitutional in violation of substantive due
process and the Equal Protection Clause of the Fifth
Amendment to the United States Constitution (Counts

533a
Four and Six). Am. Compl. ¶¶ 338, 367, ECF No. 35. The
State Plaintiffs alone bring the final count, seeking a
declaration that ICWA § 1915(c) and Final Rule
§ 23.130(b) violate the nondelegation doctrine (Count
Seven). Am. Compl. ¶ 376, ECF No. 35. Defendants move
to dismiss, challenging the standing of all Plaintiffs to
bring their claims.
A. The ICWA and SSA
Congress passed the ICWA in the mid-1970s due to
rising concern over “abusive child welfare practices that
resulted in the separation of large numbers of Indian
children from their families and tribes through adoption
or foster care placement, usually in non-Indian homes.”
Miss. Band of Choctaw Indians v. Holyfield, 490 U.S. 30,
32 (1989). “Congress found that ‘an alarmingly high
percentage of Indian families [were being] broken up by
the removal, often unwarranted, of their children from
them by nontribal public and private agencies.’”
Adoptive Couple v. Baby Girl, 133 S. Ct. 2552, 2557
(2013) (quoting 25 U.S.C. § 1901(4)). Recognizing “that
there is no resource that is more vital to the continued
existence and integrity of Indian tribes than their
children,” Congress created a framework to govern the
adoption of Indian children. See 25 U.S.C. §§ 1901–63.
This framework establishes: (1) placement preferences;
(2) good cause to depart from placement preferences; (3)
standards and responsibilities for state courts and their
agents; and (4) fiscal and procedural consequences if the
ICWA is not followed. See id.
The ICWA itself established “minimum Federal
standards for the removal of Indian children from their
families and the placement of such children in foster or

534a
adoptive homes.” 25 U.S.C. § 1902. The ICWA mandates
placement preferences in foster care, preadoptive, and
adoptive proceedings involving Indian children. 25
U.S.C. § 1915. The ICWA requires that “in any adoptive
placement of an Indian child under State law, a
preference shall be given, in the absence of good cause to
the contrary, to a place with: (1) a member of the child’s
extended family; (2) other members of the Indian child’s
tribe; or (3) other Indian families.” 25 U.S.C. § 1915(a).
Similar requirements are set for foster care or
preadoptive placements. Id. § 1915(b). If the Indian
child’s tribal court should establish a different order of
the preferences, the state court or agency “shall follow
such order so long as the placement is the least
restrictive setting appropriate to the particular needs of
the child.” Id. § 1915(c).
Absent good cause, the state court shall transfer
proceedings concerning an Indian child to the Indian
child’s tribal court. 25 U.S.C. § 1911(b). In any state court
proceeding for the “foster care placement of, or
termination of parental rights to, an Indian child, the
Indian custodian of the child and the Indian child’s tribe
shall have a right to intervene at any point in the
proceeding.” 25 U.S.C. § 1911(c). The ICWA prohibits
the termination of parental rights for an Indian child in
the absence of “evidence beyond a reasonable doubt,
including testimony of qualified expert witnesses, that
continued custody of the child by the parent or Indian
custodian is likely to result in serious emotional or
physical damage to the child.” 25 U.S.C. § 1912(f).
State agencies and courts must notify potential
intervenors and the Director of the BIA of an Indian

535a
child matter. 25 U.S.C. § 1912. In any involuntary Indian
child custody proceeding for foster care placement or
termination of parental rights, the ICWA commands
state agencies and courts to notify the parents or Indian
custodian and the Indian child’s tribe of the pending
proceedings and of their right to intervention. 25 U.S.C.
§ 1912(a). Copies of these notices must be sent to the
Secretary of the Interior and the BIA. The ICWA also
grants the Indian custodian or tribe up to twenty
additional days to prepare for such proceedings. Id.
The ICWA imposes a ten-day waiting period on the
termination of parental rights to an Indian child. 25
U.S.C. § 1913(a). Before such parental rights are
terminated “any parent or Indian custodian may
withdraw consent to a foster care placement under State
law at any time.” Id. § 1913(b). In any voluntary
proceeding for termination of parental rights or adoptive
placement of an Indian child, the biological parents or
the Indian tribe may withdraw consent for any reason
prior to the entry of a final decree, and the child shall be
returned to its parents or guardians. Id. § 1913(c).
Finally, the ICWA permits the parent of an Indian child
to withdraw consent to a final decree of adoption on the
grounds that the consent was obtained through fraud or
duress for up to two years after the final decree. 25
U.S.C. § 1913(d); Am. Compl. ¶¶ 58–60, ECF No. 35.
The ICWA places recordkeeping duties on state
agencies and courts to demonstrate states’ compliance
with the statute. 25 U.S.C. § 1915(e); Am. Compl. ¶ 61,
ECF No. 35. Additionally, state courts entering final
decrees must provide the Secretary of the Interior with
a copy of the decree or order, along with the name and

536a
tribal affiliation of the child, names of the biological
parents, names of the adoptive parents, and the identity
of any agency having files or information relating to the
adoption. 25 U.S.C. § 1951.
If the state court or prospective guardians fail to
comply with the ICWA, the final child custody orders or
placements may be overturned on appeal or by another
court of competent jurisdiction. 3 25 U.S.C. § 1914. To
ensure state agencies and courts comply with the
ICWA’s mandates, it enables any Indian child who is the
subject of any action under the ICWA, any parent or
Indian custodian from whose custody the child was
removed, and the Indian child’s tribe, to petition any
court of competent jurisdiction to invalidate a state
court’s decision for failure to comply with the ICWA
§§ 1911, 1912, and 1913. 25 U.S.C. § 1914. Section 1914
has also been applied to allow collateral attacks to
adoptions after the close of the relevant window under
state law. See Id.; Am. Compl. ¶ 67, ECF No. 35; see e.g.,
Belinda K. v. Baldovinos, No. 10-cv-2507, 2012 WL
13571, at *4 (N.D. Cal. Jan. 4, 2012).
Congress has also tied child welfare funding to
compliance with the ICWA. The SSA requires states who
receive child welfare funding through Title IV-B, Part 1
of the SSA to file annual reports, including a description
of their compliance with the ICWA. Am. Compl. ¶ 68,
While “court of competent jurisdiction” is not defined in the
ICWA or the Final Rule, state appellate courts and federal district
courts have heard challenges to adoption proceedings under the
ICWA. See e.g., Oglala Sioux Tribe v. Van Hunnik, 993 F. Supp. 2d
1017, 1022 (D.S.D. 2014); Doe v. Mann, 285 F. Supp. 2d 1229, 1231
(N.D. Cal. 2003).
3

537a
ECF No. 35; Pub. L. No. 103–432, § 204, 108 Stat. 4398
(1994); 42 U.S.C. § 622(a). Title IV-B funding is partially
contingent on how well the states demonstrate they
comply with the ICWA. Part ‘b’ requires that this plan
must also “contain a description, developed after
consultation with tribal organizations . . . in the State, of
the specific measures taken by the State to comply with
the [ICWA].” 42 U.S.C. § 622(b).
Congress expanded the requirement for States to
comply with the ICWA to receive SSA funding in 1999
and 2008 when it amended Title IV-E to require States
to certify ICWA compliance to receive foster care and
adoption services funding. Foster Care Independence
Act of 1999, Pub. L. No. 106–69, § 101, 113 Stat. 1822
(1999); Fostering Connections to Success and Increasing
Adoptions Act of 2008, Pub. L. No. 110–351, § 301, 122
Stat. 3949 (2008).
Finally, HHS regulations state that the HHS
Administration for Children and Families (“ACF”) “will
determine a title IV–E agency’s substantial conformity
with title IV–B and title IV–E plan requirements” based
on “criteria related to outcomes.” 45 C.F.R. § 1355.34(a).
Part ‘b’ of the same section includes compliance with the
ICWA. 54 C.F.R. § 1355.34(b).
In fiscal year 2018, Congress allocated Texas
approximately $410 million in federal funding for Title
IV-B and Title IV-E programs, Louisiana received
approximately $64 million, and Indiana received
approximately $189 million. Am. Compl. ¶¶ 76–78, ECF
No. 35. Plaintiffs argue that HHS and Secretary Azar
administer funding under Title IV-B and Title IV-E and
are vested with discretion to approve or deny a state’s

538a
compliance with the requirements of 42 U.S.C. §§ 622,
677. Because of this, Plaintiffs claim that funding for
Title IV-B and IV-E is dependent on compliance with the
ICWA. Am. Compl. ¶ 80, ECF No. 35.
B. The Final Rule
In 1979, before passage of the Final Rule, BIA
promulgated Guidelines for State Courts—the Indian
Child Custody Proceedings (the “1979 Guidelines”). Am.
Compl. ¶ 82, ECF No. 35. BIA intended these guidelines
to assist in the implementation of the ICWA but they
were “not intended to have binding legislative effect.” 44
Fed. Reg. 67,584 (Nov. 26, 1979). The 1979 Guidelines left
the “primary responsibility” for interpreting the ICWA
“with the courts that decide Indian child custody cases.”
Id. It also emphasized that “the legislative history of the
Act states explicitly that the use of the term ‘good cause’
was designed to provide state courts with flexibility in
determining the disposition of a placement proceeding
involving an Indian child.” Id. As state courts applied the
ICWA, some held that the ‘good cause’ exception to the
ICWA placement preferences required a consideration
of a child’s best interest, including any bond or
attachment the child formed. See e.g., In re Interest of
Bird Head, 331 N.W.2d 785, 791 (Neb. 1983); In re
Appeal in Maricopa Cnty,. Juvenile Action No. A-25525,
667 P.2d 228, 234 (Ariz. Ct. App. 1983); see also Am.
Compl. ¶ 83, ECF No. 35. Other state courts limited the
ICWA’s application to situations where the child had
some significant political or cultural connection to the
tribe. Am. Compl. ¶ 84, ECF No. 35; see, e.g., In re
Interest of S.A.M, 703 S.W.2d 603, 608–09 (Mo. Ct. App.
1986); Claymore v. Serr, 405 N.W.2d 650, 653–54 (S.D.

539a
1987); In re Adoption of T.R.M., 525 N.E.2d 298, 303
(Ind. 1988); Hampton v. J.A.L., 658 So. 2d 331, 335 (La.
Ct. App. 1995).
In June of 2016, BIA promulgated the Final Rule,
which purported to “clarify the minimum Federal
standards governing implementation of the [ICWA]”
and to ensure that the ICWA “is applied in all States
consistent with the Act’s express language.” 25 C.F.R.
§ 23.101. The regulations declared that while BIA
“initially hoped that binding regulations would not be
necessary to carry out [the ICWA], a third of a century
of experience has confirmed the need for more
uniformity in the interpretation and application of this
important Federal law.” 81 Fed. Reg. at 38,782.
The main departure from the previous decades of
practice under the ICWA was the Final Rule’s definition
of the ‘good cause’ exception to the preference
placements. Am. Compl. ¶ 116, ECF No. 35. The Final
Rule noted that “State courts . . . differ as to what
constitutes ‘good cause’ for departing from ICWA’s
placement preferences.” 81 Fed. Reg. at 38,782. In
response, the Final Rule mandates that “[t]he party
urging that ICWA preferences not be followed bears the
burden of proving by clear and convincing evidence the
existence of good cause” to deviate from such a
placement. 81 Fed. Reg. at 38,838; see also 25 C.F.R.
§ 23.132(b).
The Final Rule provides that state courts “may not
consider factors such as the participation of the parents
or Indian child in Tribal cultural, social, religious, or
political activities, the relationship between the Indian
child and his or her parents, whether the parent ever had

540a
custody of the child, or the Indian child’s blood
quantum.” 81 Fed. Reg. at 38,868 (codified at 25 C.F.R.
§ 23.103(c)).
Plaintiffs contrast the 1979 statutory text where “the
use of the term ‘good cause’ was designed to provide
state courts with flexibility” to the Final Rule, which now
claims that “Congress intended the good cause exception
to be narrow and limited in scope.” Compare 44 Fed.
Reg. 67,584 (Nov. 26, 1979), with 81 Fed. Reg. at 38,839.
Accordingly, the Final Rule sets forth “five factors upon
which courts may base a determination of good cause to
deviate from the placement preferences,” and further
“makes clear that a court may not depart from the
preferences based on the socioeconomic status of any
placement relative to another placement or based on the
ordinary bonding or attachment that results from time
spent in a non-preferred placement that was made in
violation of ICWA.” 81 Fed. Reg. at 38,839; see also 25
C.F.R. § 23.132(c)–(e); Am. Compl. ¶ 118, ECF No. 35.
Beyond the narrowing of what state courts may
consider in determining “good cause,” the Final Rule
places more responsibilities on the states to determine if
the child is an Indian child. 25 C.F.R. § 23.107(a). These
inquiries “should be on the record,” and “State courts
must instruct the parties to inform the court if they
subsequently receive information that provides reason to
know the child is an Indian child.” Id., § 23.107(b).
Whenever a state court enters a final adoption decree or
an order in an Indian child placement, the Final Rule
requires the state court or agency to provide a copy of
the decree or order to BIA. Id. § 23.140. The Final Rule
requires states to “maintain a record of every voluntary

541a
or involuntary foster care, preadoptive, and adoptive
placement of an Indian child and make the record
available within 14 days of a request by an Indian child’s
Tribe or the Secretary [of the Interior].’” Id. § 23.141.
In an involuntary foster care or termination of
parental rights proceeding, the Final Rule requires state
courts to ensure and document that the state agency has
used “active efforts” to prevent the breakup of the Indian
family. Id. § 23.120. The Final Rule defines “active
efforts” to include “assisting the parent or parents or
Indian custodian through the steps of a case plan and
with accessing or developing the resources necessary to
satisfy the case plan.” Id. § 23.2.
When determining if the child is an Indian child, only
the Indian tribe of which it is believed the child is a
member may determine whether the child is a member
of the tribe or eligible for membership. Id. § 23.108(a).
“The State court may not substitute its own
determination regarding a child’s membership in a
Tribe, a child’s eligibility for membership in a Tribe, or a
parent’s membership in a Tribe.” Id. § 23.108(b). But
when the child meets the definition of “Indian child” for
more than one tribe, then the Final Rule instructs state
agencies and courts to defer to “the Tribe in which the
Indian child is already a member,” or allow “the Tribes
to determine which should be designated as the Indian
child’s Tribe.” Id. § 23.109(b)–(c). Only when the tribes
disagree about the child’s membership may the state
courts designate the tribe to which the child belongs, and
the Final Rule provides criteria the courts must use in
making that designation. Id. § 23.109(c)(2).

542a
The Final Rule instructs state courts to dismiss a
voluntary or involuntary child custody proceeding when
the Indian child’s residence or domicile is on a
reservation where the tribe exercises exclusive
jurisdiction over child custody proceedings. 25 C.F.R.
§ 23.110(a). The Final Rule requires state courts to
terminate child custody proceedings if any party or the
court has reason to believe that the Indian child was
improperly removed from the custody of his parent or
Indian custodian. 25 C.F.R. § 23.114.
C. The Pertinent Adoption Proceedings
1. The Brackeens and A.L.M.
The Brackeens wished to adopt A.L.M, who was born
in Arizona to an unmarried couple, M.M. and J.J. Am.
Compl. ¶ 127, ECF No. 35. A.L.M. is an Indian child
under the Final Rule because he is eligible for
membership in two Indian tribes—his biological mother
is an enrolled member of the Navajo Nation, and his
biological father is an enrolled member of the Cherokee
Nation. Id.; see 25 C.F.R. § 23.2. A few days after A.L.M.
was born, his biological mother brought him to Fort
Worth, Texas, to live with his paternal grandmother.
When he was ten months old, Child Protective Services
(“CPS”), a division of the Texas Department of Family
and Protective Services (“DFPS”), removed A.L.M. from
his grandmother and placed him in foster care with the
Brackeens. Id. ¶ 129. Per the ICWA and the Final Rule,
the Cherokee Nation and the Navajo Nation were
notified of A.L.M.’s placement with the Brackeens. Id.
The Court identified no ICWA-preferred foster
placement for A.L.M., so he remained with the
Brackeens. Id. A.L.M. lived with the Brackeens for more

543a
than sixteen months before—with the support of his
biological parents and paternal grandmother—the
Brackeens sought to adopt him. Am. Compl. ¶ 128, ECF
No. 35.
On May 2, 2017, a Texas state court terminated the
parental rights of A.L.M.’s biological parents, making
him eligible for adoption under Texas law. Id. ¶ 132. In
June 2017, a year after the Brackeens took custody of
A.L.M., the Navajo nation notified the family court that
it located a potential alternative placement for A.L.M.
with non-relatives in New Mexico. Id. ¶ 133.
On July 29, 2017, the Brackeens filed an original
petition in the 323rd District Court, Tarrant County,
Texas seeking to adopt A.L.M. Id. ¶ 134. The Cherokee
and Navajo Nations were notified of the adoption
proceeding. Id. ¶ 135; see 25 C.F.R. § 23.11. No one
intervened in the Texas adoption proceeding or
otherwise formally sought to adopt A.L.M. Am. Compl.
¶ 135, ECF No. 35. On August 1, 2017, the family court
held a hearing regarding the Brackeens’ petition for
adoption. Id. ¶ 137. At that hearing, the Navajo Nation’s
social worker testified that the two tribes “came up with
[an] agreement” among themselves in the hallway prior
to the hearing to determine the designation of A.L.M.’s
tribe. Id. ¶ 138. According to that agreement, they
decided to designate the Navajo Nation as A.L.M.’s
tribe, but this “determination of [A.L.M.’s] Tribe for
purposes of ICWA and [the Final Rule] do[es] not
constitute a determination for any other purpose.” 25
C.F.R. § 23.109(c)(3).
Under the ICWA and the Final Rule placement
preferences, absent good cause, an Indian child should

544a
be placed with an Indian relative, member of the child’s
tribe, or another Indian party. See 25 U.S.C. § 1915(a).
The Brackeens argued in state court that the ICWA’s
placement preferences should not apply because they
were the only party formally seeking to adopt A.L.M.,
and that good cause existed to depart from the
preferences. The burden is on the party seeking adoption
to prove “by clear and convincing evidence that there
was ‘good cause’” to allow them, a non-Indian couple, to
adopt A.L.M. 25 C.F.R. § 23.132(b). The Brackeens
submitted testimony by A.L.M.’s biological parents, his
court appointed guardian, and an expert in psychology to
show good cause. Am. Compl. ¶ 141, ECF No. 35.
However, Texas DFPS pointed to the Final Rule’s
heightened evidentiary requirements and argued that
the Brackeens did not satisfy the heightened
requirements to justify a departure from the placement
preferences. Id. ¶ 142.
The family court denied the Brackeens’ adoption
petition, citing the ICWA and the Final Rule, concluding
that the Brackeens failed to satisfy the burden of proof
necessary to depart from the placement preferences. Id.
¶ 143; see 23 C.F.R. § 23.132; Order Denying Request for
Adoption of Child, In re A.L.M., a Child, No. 323-10559317 (323rd Dist. Ct., Tarrant Cnty., Tex. Aug. 22, 2017).
DFPS notified all parties of its intention to move A.L.M.
to the Navajo Nation’s proposed placement in New
Mexico. Am. Compl. ¶ 145, ECF No. 35. The Brackeens
sought and obtained an emergency order preventing any
placement of A.L.M. Id. ¶ 146. DFPS then proposed to
take A.L.M., without the Brackeens, on an overnight
visit to the proposed New Mexico placement. Id. ¶ 147–

545a
49. But, before that occurred, the proposed New Mexico
placement withdrew their offer to adopt A.L.M., leaving
the Brackeens the only party seeking to adopt A.L.M. Id.
¶ 150. The Brackeens and A.L.M’s guardian ad litem
then entered into a settlement agreement to that effect.
Id. ¶ 150.
In January 2018, the Brackeens successfully
petitioned to adopt A.L.M., but under the ICWA and the
Final Rule, the Brackeens’ adoption of A.L.M. is open to
collateral attack for two years. Id. ¶ 152. Plaintiffs
explain that the Brackeens intend to continue to provide
foster care for, and possibly adopt, additional children in
need, but they are reluctant, after this experience, to
provide foster care for other Indian children in the
future. Id.¶ 154. Plaintiffs argue that the ICWA and the
Final Rule therefore interferes with the Brackeens’
intention and ability to provide a home to additional
children. Id. Additionally, Plaintiffs argue that this legal
regime damages Texas by limiting the supply of
available, qualified homes necessary to help foster-care
children in general, and Indian children, in particular. Id.
2. The Librettis and Baby O.
The Librettis are a married couple living in Sparks,
Nevada. Id. ¶ 156. They sought to adopt Baby O. when
she was born in March of 2016. Baby O.’s biological
mother, Ms. Hernandez, felt that she would be unable to
care for Baby O. and wished to place her for adoption at
her birth. Id. ¶ 157. Baby O. has significant medical
needs but the Librettis welcomed her into their family,
along with other adopted children and a biological son.
Id. ¶ 158. Ms. Hernandez has continued to be a part of

546a
Baby O.’s life and she and the Librettis visit each other
regularly. Id. ¶ 162.
Baby O.’s biological father, E.R.G., is descended from
members of the Ysleta del sur Pueblo Tribe (“Pueblo
Tribe”), located in El Paso, Texas. Id. ¶ 163. At the time
of Baby O.’s birth, E.R.G. was not a registered member
of the Tribe. Id. Baby O.’s biological paternal
grandmother is a registered member of the Pueblo
Tribe. The Pueblo Tribe intervened in the Nevada
custody proceedings in an effort to remove Baby O. from
the Librettis and send her to foster care on Pueblo Tribe
reservation in west Texas. Id. ¶ 164. To date, the Pueblo
Tribe identified thirty-six potential placements, each
requiring Nevada to conduct full home studies as an
agent of the Pueblo Tribe. Id. ¶¶ 165–66. Given Baby O.’s
significant medical needs, Nevada found the first seven
home studies designated by the tribe unsuitable.
Currently, Nevada is in the process of reviewing the
additional twenty-nine proposed homes nominated by
the Pueblo Tribe to take foster care of Baby O. Id. ¶ 167.
Once the Librettis joined the challenge to the
constitutionality of the ICWA and the Final Rule, the
Pueblo Tribe indicated its willingness to discuss
settlement. Id. ¶ 168. While the settlement negotiations
may result in the Librettis adopting Baby O., Plaintiffs
point out that any settlement would still be subject to
collateral attack under the ICWA for two years. Id.
¶ 168. The Librettis intend to petition to adopt Baby O.
as soon as they are able; they are the only people who
have indicated an intent to adopt her; and they are the
only family she has known. Id. ¶ 169. Similar to the
Brackeens, the Librettis intend to provide foster care for

547a
and possibly adopt additional children in need. Id. ¶ 170.
Due to their experiences with the ICWA, the Librettis
are “reluctant to provide a foster home for other Indian
children in the future.” Id.
3. The Cliffords and Child P.
The Cliffords live in Minnesota and seek to adopt
Child P. Id. ¶ 173. Child P. was born in July 2011 and
placed in foster care in 2014 when her biological parents
were arrested and charged with various drug-related
offenses. Id. ¶ 171. For two years, Child P. moved
between various foster parents and relatives without a
stable or permanent home. Id. The State of Minnesota
attempted to return Child P. to her biological mother,
but when her mother relapsed, the state returned Child
P. to foster care. Id. ¶ 172. Finally, Minnesota
terminated the biological mother’s parental rights and
placed her with the Cliffords in July 2016. Id. The
Cliffords seek to adopt Child P. and “have continually
worked to help her feel that she is a part of their family
and community.” Id. ¶ 173.
Child P.’s maternal grandmother is a registered
member of the White Earth Band of Ojibwe Tribe (the
“White Earth Band”). Id. ¶ 174. When Child P. first
entered the state foster care system, her biological
mother informed the state court that Child P. was not
eligible for tribal membership. Id. In the fall of 2014,
several months after Child P. entered foster care, the
White Earth Band notified the court that Child P. was
not eligible for membership. Id. Nevertheless, the state
court sent notices to the White Earth Band that Child P.
was in the custody of the state, as required by the ICWA.
Id. Then, in January 2017, six months after Child P. was

548a
placed with the Cliffords, the White Earth Band wrote
the court and insisted that Child P. was eligible for
membership. Id. Most recently, the White Earth Band
announced that Child P. was not only eligible but was
now a member of the White Earth Band for the purposes
of the ICWA. Id. ¶ 175. The Minnesota state court
considered itself bound by this latest pronouncement and
concluded that the ICWA must apply to all custody
determinations concerning Child P. Id.
No other family has moved to adopt Child P. Id. ¶ 176.
However, because the ICWA placement preferences
apply, Minnesota removed Child P. from the Cliffords
and placed her in the care of her maternal grandmother
in January 2018. Id. ¶ 176. According to Plaintiffs, Child
P.’s grandmother was previously denied a foster care
license by the state. Id.
Child P.’s guardian ad litem supports the Cliffords’
efforts to adopt her and agrees that this is in Child P’s
best interest. Id. ¶ 177. However, due to the application
of the ICWA, the Cliffords and Child P. remain
separated and the Cliffords face heightened legal
barriers to adopt Child P. Id. Just like the other
Individual Plaintiffs, if the Cliffords are successful in
petitioning for adoption, that adoption may be attacked
for two years under the ICWA. 25 U.S.C. § 1915(a).
D. State Plaintiffs
Texas, Louisiana, and Indiana bring this suit in their
capacities as sovereign states. Id.¶ 178. They claim that
the ICWA and the Final Rule harm state agencies
charged with protecting child welfare by usurping their
lawful authority of the regulation of child custody
proceedings and management of child welfare services.

549a
Id. Additionally, the ICWA and the Final Rule
jeopardize millions of dollars in federal funding. Id. The
State Plaintiffs have at least one Indian tribe living
within their borders and have regular dealings with
Indian child adoptions and the ICWA. 4 Id.
Plaintiffs argue that the ICWA and the Final Rule
place significant responsibilities and costs on state
agencies and courts to carry out federal Executive
Branch directives. Id. ¶ 187. Texas DFPS, Louisiana
Department of Child and Family Services (“DCFS”), and
Indiana Department of Child Services (“DCS”) each
handle several Indian child cases every year. Id. ¶ 188.
The State Plaintiffs require their state agencies and
courts to act in the best interest of the child in foster
care, preadoptive, and adoptive proceedings. Id. ¶ 191.
But the State Plaintiffs argue that the ICWA and Final
Rule require these courts and agencies to apply the
mandated placement preferences, regardless of the
child’s best interest, if the child at issue is an “Indian
child.” Id. ¶¶ 194–95. Additionally, the State Plaintiffs
Three federally recognized tribes live in Texas—Yselta del Sur
Pueblo in El Paso, Texas; the Kickapoo Tribe in Eagle Pass, Texas;
and the Alabama-Coushatta Tribe near Livingston, Texas. Both the
Kickapoo Tribe and the Alabama-Coushatta Tribe have
reservations in Texas. Am. Compl. ¶ 179, ECF No. 35. Four tribes
exist in Louisiana—Chitimacha Tribe in Charenton, Louisiana;
Coushatta Tribe in Elton, Louisiana; Tunica-Biloxi Tribe in
Marksville, Louisiana; and Jena Band of Choctaw Indians in Jena,
Louisiana. Id. ¶ 180. One federally recognized tribe exists in
Indiana: Pokagon Band of Potawatomi Indians. Id. ¶ 181. For
example, as of December 2017, there were thirty-nine children in
the care of Texas DFPS who were verified to be enrolled or eligible
for membership in a federally recognized tribe, many of them living
in Texas DFPS homes. Id. ¶ 189.
4

550a
argue that the ICWA’s requirement that state courts
submit their authority to a mandate from the Indian
child’s tribe violates state sovereignty because the
Indian tribe is not an equally-footed sovereign deserving
full faith and credit. Id. ¶ 196; 25 U.S.C. § 1915(c).
In every child custody case, the ICWA and Final Rule
requires the State Plaintiffs to undertake additional
responsibilities, inquiries, and costs. Id. ¶ 197. As an
example of how the ICWA and the Final Rule affects
state procedures, the State Plaintiffs submit the Texas
CPS Handbook (the “Texas Handbook”). The Texas
Handbook contains Texas DFPS’s policies and
procedures for compliance with the ICWA and the Final
Rule. Id. ¶ 198. First, these standards require that, in
every case, CPS workers determine if the child or the
child’s family has Native American ancestry or heritage.
Id. ¶ 199; Am. Compl., Ex. 1 (Texas Handbook)
[hereinafter “Texas Handbook”] § 1225, ECF No. 35.
The Texas Handbook instructs agencies how to ascertain
if the ICWA and the Final Rule apply, how to comply
with it, and warns that failure to comply could result in
the final adoption order being overturned. Am. Compl.
¶¶ 200–204. The Texas Handbook also warns that if an
Indian child is taken into DFPS custody, “almost every
aspect of the social work and legal case is affected.”
Texas Handbook § 5844, ECF No. 35. If the ICWA
applies, the legal burden of proof for removal, obtaining
a final order terminating parental rights, and restricting
a parent’s custody rights is higher. Id. Texas DFPS must
serve the child’s parent, tribe, Indian custodian, and the
BIA with a specific notice regarding the ICWA rights,
and DFPS and its caseworkers “must make active efforts

551a
to reunify the child and biological Indian family.” Id.
Finally, the child must be placed according to the ICWA
statutory preferences; expert testimony on tribal child
and family practices may be necessary; and a valid
relinquishment of parental rights requires a parent to
appear in court and a specific statutory procedure is
applied. Id.
Indiana and Louisiana have similar requirements in
place to assure that their child welfare systems comply
with the ICWA and Final Rule. See Am. Compl. ¶¶ 209–
19. Louisiana DCFS must maintain on-going contact
with the Indian child’s tribe because each tribe may elect
to handle the ICWA differently. Id. ¶ 220. They are also
required to ensure that the state agencies take “all
reasonable steps” to verify the child’s status. 25 C.F.R.
§ 23.124.
The ICWA and the Final Rule require state judges to
ask each participant, on the record, at the
commencement of child custody proceedings whether
the person knows or has reason to know whether the
child is an Indian child and directs the parties to inform
the court of any such information that arises later. 25
C.F.R. § 23.107(a). If the state court believes the child is
an Indian child, it must document and confirm that the
relevant state agency: (1) used due diligence to identify
and work with all of the tribes that may be connected to
the child; and (2) conducted a diligent search to find
suitable placements meeting the preference criteria for
Indian families. Id. §§ 23.107(b), 23.132(c)(5). The ICWA
and the Final Rule require the State Plaintiffs’ agencies
and courts to maintain indefinitely records of placements
involving Indian children, and subject those records to

552a
inspection by the Director of BIA and the child’s Indian
tribe at any time. 25 U.S.C. §§ 1915(e), 1917; 25 C.F.R.
§§ 23.140–41. This increases costs for State Plaintiffs’
agencies and courts who have to maintain additional
records not called for under state law and hire or assign
additional employees to maintain these records
indefinitely. Am. Compl. ¶ 225, ECF No. 35.
The statutes also affect the State Plaintiffs’ rules of
civil procedure. ICWA § 1911(c) and the Final Rule
dictate that the Indian child’s custodian and the child’s
tribe must be granted mandatory intervention. Texas
Rule of Civil Procedure 60 permits Texas courts to strike
the intervention of a party upon a showing of sufficient
cause by another party, but the ICWA prevents the
rule’s application to child custody cases involving Indian
children. TEX. R. CIV. PRO. 60. In Louisiana, any person
with a justiciable interest in an action may intervene. LA.
CODE CIV. PROC. ART. 1091. In Indiana, a person may
intervene as of right or permissively, similar to the
Federal Rules of Civil Procedure. IND. R. TR. PROC. 24.
The ICWA, however, eliminates these requirements and
provides mandatory intervention for the Indian child’s
custodian and the child’s tribe. Am. Compl. ¶ 231, ECF
No. 35.
Finally, the ICWA and the Final Rule override the
State Plaintiffs’ laws with respect to voluntary consent
to relinquish parental rights. Id. ¶ 234. Texas law
permits voluntary relinquishment of parental rights 48
hours after the birth of the child; Louisiana allows
surrender prior to or after birth of the child and
surrender of maternal rights five days after the birth of
the child; and Indiana permits voluntary termination of

553a
parental rights after birth of the child. TEX. FAM. CODE
§ 161,103(a)(1); La. CHILD CODE ART. 1130; IND. CODE
§31-35-1-6. The ICWA and Final Rule prohibit any
consent until ten days after the birth. 25 U.S.C. § 1913(a);
25 C.F.R. § 23.125(e).
The ICWA and Final Rule also affect how long a final
adoption decree is subject to challenge. Under the
ICWA, state courts must vacate a final adoption decree
involving an Indian child, and return the child to the
biological parent, anytime within two years if the
biological parent withdraws consent on the grounds that
it was obtained through fraud or duress. 25 U.S.C.
§ 1913(d); 25 C.F.R. § 23.136. This directly conflicts with
Texas, Louisiana, and Indiana law, which provide that an
adoption decree is subject to direct or collateral attack
for no more than one year. See, TEX. FAM. CODE
§ 162.012(a) (up to six months); Goodson v. Castellanos,
214 S.W.3d 741, 748–49 (Tex. App.—Austin 2007, pet.
denied); LA. CHILD. CODE ART. 1263; IND. CODE § 31-1914-2. It also contradicts the Texas common law principle,
as well as Indiana statutory law, which hold that the best
interest of the child is served by concluding child custody
decisions so that these decisions are not unduly finalized.
In re M.S., 115 S.W.3d 534, 548 (Tex. 2003); IND. CODE
§ 31-19-14-2. The ICWA however permits the
invalidation, by any court of competent jurisdiction, of a
state court’s final child custody order if it fails to comply
with the ICWA. 25 U.S.C. § 1914; 25 C.F.R. § 23.137. 5
Finally, if states fail to comply with the ICWA, they
risk losing funding for child welfare services under Title
IV-B and Title IV-E of the SSA. Am. Compl. ¶ 243, ECF
5

See note 3, supra.

554a
No. 35; 42 U.S.C. §§ 622, 677. Interior and HHS, and
Defendants Zinke, Rice, Tahsuda, and Azar, determine
if the State Plaintiffs complied with the statutory
requirements, making them eligible for continued
funding under Title IV-B and Title IV-E funding. Am.
Compl. ¶¶ 244–46; 42 U.S.C. § 622(a); 42 U.S.C.
§ 677(e)(3).
II. LEGAL STANDARD
“Every party that comes before a federal court must
establish that it has standing to pursue its claims.”
Cibolo Waste, Inc. v. City of San Antonio, 718 F.3d 469,
473 (5th Cir. 2013); see also Barrett Computer Servs.,
Inc. v. PDA, Inc., 884 F.2d 214, 218 (5th Cir. 1989).
Standing to sue is a doctrine rooted in the traditional
understanding of a case or controversy. “The doctrine
developed in our case law to ensure that federal courts
do not exceed their authority as it has been traditionally
understood.” Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547
(2016); Raines v. Byrd, 521 U.S. 811, 820 (1997).
“The doctrine of standing asks ‘whether the litigant
is entitled to have the court decide the merits of the
dispute or of particular issues.’” Cibolo Waste, 718 F.3d
at 473 (quoting Elk Grove Unified Sch. Dist. v. Newdow,
542 U.S. 1, 11 (2004)). Standing has both constitutional
and prudential components. See id. (quoting Elk Grove,
542 U.S. at 11) (stating standing “contain[s] two strands:
Article III standing . . . and prudential standing”). The
Supreme Court has established that the “irreducible
constitutional minimum” of standing consists of three
elements. Spokeo, 135 S. Ct. at 1547; Lujan v. Defenders
of Wildlife, 504 U.S. 555, 560 (1992). The plaintiff must
have (1) suffered an injury in fact, (2) that is fairly

555a
traceable to the challenged conduct of the defendant, and
(3) that is likely to be redressed by a favorable judicial
decision. Lujan, 504 U.S. at 560–61. But it is not
necessary for all Plaintiffs to demonstrate standing;
rather, “one party with standing is sufficient to satisfy
Article III’s case-or-controversy requirement.” Texas v.
United States, 809 F.3d 134, 151 (5th Cir. 2015) (quoting
Rumsfeld v. Forum for Acad. & Institutional Rights,
Inc., 547 U.S. 47, 52 n.2 (2006)).
“Prudential standing requirements exist in addition
to ‘the immutable requirements of Article III,’ . . . as an
integral part of ‘judicial self-government.’” ACORN v.
Fowler, 178 F.3d 350, 362 (5th Cir. 1999) (quoting Lujan,
504 U.S. at 560). “The goal of this self-governance is to
determine whether the plaintiff ‘is a proper party to
invoke judicial resolution of the dispute and the exercise
of the court’s remedial power.’” Id. (quoting Bender v.
Williamsport Area Sch. Dist., 475 U.S. 534, 546 n.8
(1986)). The Supreme Court has observed that
prudential standing encompasses “at least three broad
principles,” including “the general prohibition on a
litigant’s raising another person’s legal rights . . . .”
Lexmark Int’l, Inc. v. Static Control Components, Inc.,
134 S. Ct. 1377, 1386 (2014); Cibolo Waste, Inc., 718 F.3d
at 474 (quoting Elk Grove, 542 U.S. at 12); see also Sprint
Commc’ns Co., L.P. v. APCC Servs., Inc., 554 U.S. 269,
290 (2008) (discussing cases where third-parties sought
“to assert not their own legal rights, but the legal rights
of others”); Vt. Agency of Natural Res. v. U.S. ex rel.
Stevens, 773 (2000) (noting “the assignee of a claim has
standing to assert the injury in fact suffered by the
assignor”).

556a
The question of standing implicates subject-matter
jurisdiction; therefore, the motion to dismiss standards
pursuant to Rule 12(b)(1) apply. Villas at Parkside
Partners v. City of Farmers Branch, 245 F.R.D. 551, 556
(N.D. Tex. 2007) (citing Steel Co. v. Citizens for a Better
Env’t, 523 U.S. 83, 89 (1998)). A court determines
subject-matter jurisdiction based on “(1) the complaint
alone; (2) the complaint supplemented by undisputed
facts evidenced in the record; or (3) the complaint
supplemented by undisputed facts plus the court’s
resolution of disputed facts.” Ramming v. United States,
281 F.3d 158, 161 (5th Cir. 2001). A challenge to subjectmatter jurisdiction can come in one of two ways—a facial
attack or a factual attack. Paterson v. Weinberger, 644
F.2d 521, 523 (5th Cir. 1981). If the opposing party
merely files a Rule 12(b)(1) motion, it is considered a
facial attack, and the court takes all pleaded facts as true
and looks at the sufficiency of the allegations in the
pleadings. Id. A factual attack requires the moving party
to submit additional evidence, through affidavits or
testimony, and the non-moving party must then prove by
a preponderance of the evidence that the court has
jurisdiction. Id.
Article III confines the federal judicial power to
“cases” and “controversies.” U.S. CONST. art. III, § 2.
The case or controversy requirement ensures that the
federal judiciary respects “the proper—and properly
limited—role of the courts in a democratic society.”
DaimlerChrysler Corp. v. Cuno, 547 U.S. 332, 341 (2006)
(quotation marks omitted). “[T]he presence of one party
with standing is sufficient to satisfy Article III’s case-orcontroversy requirement [for each claim].” Rumsfeld,

557a
547 U.S. at 53 n.2. As the parties invoking jurisdiction,
Plaintiffs bear the burden of demonstrating that all of
the requirements for standing are satisfied. See
Ramming, 281 F.3d at 161.
Here, Defendants filed their motion to dismiss as a
facial attack based on Plaintiffs’ lack of standing. Defs.’
Br. Supp. Mot. Dismiss [hereinafter “Defs.’ Br.
Dismiss”] 8, ECF No. 57. Therefore, when ruling on
Defendants’ motion to dismiss for lack of standing, the
Court accepts “as true all material allegations of the
complaint, and must construe the complaint in favor of
the complaining party.” Warth v. Seldin, 422 U.S. 490,
501 (1975).
III. ANALYSIS
Defendants move to dismiss Plaintiffs’ complaint for
failure to establish subject-matter jurisdiction. Defs.’ Br.
Dismiss 1, ECF No. 57. Defendants argue that: (1)
neither the Individual nor the State Plaintiffs have
standing to bring their claims; (2) the requested relief
will not redress any alleged injury; (3) the claims against
HHS are not ripe; (4) Minnesota and Nevada are
necessary and indispensable parties under Rule 19; (5)
the Younger abstention doctrine should apply; (6) and
the State Plaintiffs waived their ability to challenge the
Final Rule by not objecting to it during the notice and
comment period. Id. at 1–2. The State and Individual
Plaintiffs respond separately. See State Pls.’ Comb.
Resp., ECF No. 72; Indiv. Pls.’ Comb. Resp., ECF No.
79. The Individual Plaintiffs respond that they are
objects of the regulations at issue and have suffered an
injury-in-fact due to the challenged provisions. Indiv.
Pls.’ Resp. Defs.’ Mot. Dismiss Br. Supp. Mot. Summ. J.

558a
[hereinafter “Indiv. Pls.’ Br. Resp.”] 18, ECF No. 80. The
State Plaintiffs respond that they have standing because
the ICWA and the Final Rule pressures them “to
relinquish control over powers reserved to them by the
Constitution, to reevaluate their own laws, and to incur
substantial costs in the process.” State Pls.’ Resp. Defs.’
Mot. Dismiss Br. Supp. Mot. Summ. J. [hereinafter
“State Pls.’ Br. Resp.”] 12, ECF No. 74. The Court will
address standing for each of these challenges separately.
B. Individual Plaintiffs
1. Injury-in-Fact
The Individual Plaintiffs assert first, that they are
“plainly subject to ICWA and the Final Rule, which
govern their adoption efforts because they are seeking to
adopt or place for adoption (or, in the case of the
Brackeens, have adopted) an ‘Indian child.’” Indiv. Pls.’
Br. Resp. 19, ECF No. 80. Defendants argue that foster
parents are not the object of either the ICWA or the
Final Rule, therefore neither regulation provides an
injury-in-fact. Defs.’ Reply Indiv. Pls.’ Opp. [hereinafter
“Defs.’ Reply Indiv.”] 1, ECF No. 116. Defendants also
argue that the Brackeens’ claims are moot because their
adoption has been finalized. Defs.’ Br. Dismiss 10, ECF
No. 57.
Injury-in-fact must be both particularized and
concrete, actual or imminent, not conjectural or
hypothetical. Spokeo, 136 S. Ct. at 1548 (quoting Lujan,
504 U.S. at 560). For an injury to be particularized, it
“must affect the plaintiff in a personal and individual
way.” Id. Finally, the injury must actually exist. Id.
Under Lujan, a type of a concrete and particularized
injury generally exists if the “plaintiff is himself an

559a
object of the action (or forgone action) at issue. If he is,
there is ordinarily little question that the action or
inaction has caused him injury. . . .” Lujan, 504 U.S. at
561–62.
The Supreme Court has explained that a party is the
object of a regulation if “the interest sought to be
protected by the complainant is arguably within the zone
of interests to be protected or regulated by the statute
or constitutional guarantee in question.” Ass’n of Data
Processing Serv. Orgs., Inc. v. Camp, 397 U.S. 150, 153
(1970). When the Fifth Circuit applied this concept, it
held that if legislation targets a party, that party
ordinarily has standing. Duarte ex rel. Duarte v. City of
Lewisville, Tex., 759 F.3d 514, 518 (5th Cir. 2014).
Further, it held that “an increased regulatory burden
typically satisfies the injury in fact requirement [of
standing].” Contender Farms, LLP v. USDA, 779 F.3d
258, 264 (5th Cir. 2015). When determining if someone is
an object of the regulation, the Fifth Circuit uses “a
flexible inquiry rooted in common sense.” Id. In Duarte,
the court held that the daughter and wife of the sex
offender had standing to object to the ordinance that
restricted where sex offenders could live because they
were held to be within the “zone-of-interest” for the
ordinance. Duarte, 759 F.3d at 515; see also Ass’n of Am.
R.R.s v. Dep’t of Trans., 38 F.3d 582 (D.C. Cir. 1994)
(finding standing when the challengers of the regulation
asserted they were harmed by two sets of regulations rather
than one).
Applying the standards established in Duarte and
Contender Farms, it is clear that the Individual
Plaintiffs are objects of the ICWA and the Final Rule.
The language of the Final Rule and the ICWA

560a
anticipates that there will be non-Indian parents seeking
to adopt Indian children. See 25 C.F.R. § 23.130
(detailing the placement preferences for foster care or
adoption, anticipating the possibility of non-Indian
parents only if no preferred options were available).
Individual Plaintiffs are burdened by the additional
regulations and requirements as long as they are
attempting to adopt an Indian child. See Contender
Farms, LLP, 779 F.3d at 264; cf, Lujan, 504 U.S. at 561
(holding standing did not exist without concrete plans to
be subject to the regulation).
The Individual Plaintiffs’ attempts to adopt Indian
children have been burdened, at the very least, by the
ICWA and the Final Rule. See Duarte, 759 F.3d at 519
(finding standing for the wife and child of a man
registered as a sex offender because the regulation
interfered with their lives in “a concrete and personal
way”). In this case, the Individual Plaintiffs attempted to
adopt Indian children and, because they themselves
were not Indian, faced heightened burdens to adoption.
See Contender Farms, LLP, 779 F.3d at 264. The ICWA
and the Final Rule target those adults seeking to adopt
Indian children even if those adults are not members of
an Indian tribe. See 25 U.S.C. §§ 1915(a)–(b); 25 C.F.R.
§ 23.130; Duarte, 759 F.3d at 519.
The Court finds the Individual Plaintiffs to be
objects, therefore, it next examines whether the
Individual Plaintiffs have alleged a concrete and
particularized injury. First, the Brackeens’ adoption of
A.L.M. is open to collateral attack for two years under

561a
the ICWA and the Final Rule. 6 Indiv. Br. Resp. 37, ECF
No. 80. Next, despite Baby O.’s biological mother
supporting them, the Librettis have faced additional
regulatory burdens as they seek to adopt her because
she is eligible for membership in an Indian tribe. 7 Id. 38–
39. And finally the Cliffords saw Child P. removed from
their home because of the ICWA placement preferences.
See supra Part II.C. Even if the Court only considered
the injuries alleged by the Cliffords—that Child P. has
been removed from their home because of the ICWA and
the Final Rule placement preferences—this would
constitute concrete and particularized injury. But, as
stated above, the Librettis and Brackeens have also
stated injuries due to application of the ICWA and the
Final Rule. This constitutes being the “object of the
regulation,” which is a particularized and concrete injury
that satisfies the injury-in-fact requirements for
standing. Contender Farms, LLP, 779 F.3d at 264.
2. Traceability
The second prong of the standing analysis requires
the alleged injury be “fairly traceable to the
defendant[s’] allegedly unlawful conduct.” Lujan, 504
Defendants argue that the Brackeens’ claims are moot because
their adoption of A.L.M. has been finalized. Defs.’ Br. Dismiss, 19,
ECF No. 57. But the Brackeens also claim injury from the two-year
time frame for collateral attack on their adoption that has not yet
run.
7
Defendants also argue that the Librettis are not injured by the
ICWA or the Final Rule because Baby O. has not been taken away
from them, nor have they faced an unusually long delay. Defs.’ Br.
Dismiss 24, ECF No. 57. But the Librettis have taken “concrete
steps” to adopt Baby O. and additional barriers, due to the ICWA
and the Final Rule, have delayed it. Duarte, 759 F.3d at 518.
6

562a
U.S. at 590. Tracing an injury is not the same as seeking
“proximate cause.” Bennett v. Spear, 520 U.S. 154, 169
(1997). Instead, the Fifth Circuit has held that
traceability is satisfied if the defendant “significantly
contributed to the plaintiff’s alleged injuries.” K.P. v.
LeBlanc, 627 F.3d 115, 123 (5th Cir. 2010). The Supreme
Court held that while traceability is not satisfied when
the injury results from actions by a third party not
before the court, this “does not exclude injury produced
by determinative or coercive effect upon the action of
someone else.” Metro. Wash. Airports Auth. v. Citizens
for Abatement of Aircraft Noise, Inc., 501 U.S. 252, 265
(1991).
The Federal Defendants argue that traceability is not
shown here because the Federal Defendants are not the
cause of the Individual Plaintiffs’ injuries. Defs.’ Br.
Dismiss 19, ECF No. 57. Instead, the Federal
Defendants argue the alleged injury is caused by state
courts that enforce the ICWA. Id. at 20. This argument
ignores the fact that the injury complained of exists
because of the ICWA and Final Rule. As explained
below, the state courts only follow these requirements
because the ICWA and the Final Rule require them. The
ICWA and the Final Rule are therefore fairly traceable
to the alleged injury because the pleading demonstrates
the injury complained of results from the ICWA and the
Final Rule. See Legacy Cmty. Health Servs., Inc. v.
Smith, 881 F.3d 358, 368 (5th Cir. 2018). Federal
Defendants also argue that the Individual Plaintiffs’
alleged injuries are not traceable to the federal
government because “ICWA specifies no enforcement
role for Defendants, and neither Interior or HHS or any

563a
of their respective officers have enforced or are
threatening to enforce ICWA.” Defs.’ Br. Dismiss 28–29,
ECF No. 57. But the Final Rule, by its own terms,
requires states to comply or face loss of funds by the
Defendants.
Federal Defendants promulgated the Final Rule,
setting “binding standards for Indian child-custody
proceedings in State courts” that have the force of law.
81 Fed. Reg. at 38,782; see 25 C.F.R. § 23.132 (describing
how a determination of good cause to depart from
placement preferences is made). Accordingly, the
traceability requirements are met.
3. Redressability
The final requirement—redressability—requires a
plaintiff to show “a ‘favorable decision will relieve a
discrete injury to himself,’ but not necessarily ‘that a
favorable decision will relieve his every injury.’” Air
Evac EMS, Inc. v. Texas, 851 F.3d 507, 514 (5th Cir.
2017) (quoting Larson v. Valente, 456 U.S. 228, 243 n.15
(1982)). The Court must be able to structure relief to
redress plaintiff’s injury. The Individual Plaintiffs
request the Final Rule be declared invalid and set aside;
the ICWA and the related SSA provisions be declared
unconstitutional; and Federal Defendants enjoined from
enforcing the statutes. Defendants argue that this
requested relief would not redress Plaintiffs’ alleged
injuries because “a declaratory judgment addressing the
constitutionality of ICWA would not bind state courts.”
Defs.’ Br. Dismiss 23, ECF No. 57.
The Court finds that the Individual Plaintiffs have
satisfied the redressability requirement of constitutional
standing. The redressability requirement is met if a

564a
judgment in plaintiffs’ favor “would at least make it
easier for them” to achieve their desired result. Duarte,
759 F.3d at 521. In this case, a declaration of the ICWA’s
unconstitutionality or the invalidity of the Final Rule
would have the “practical consequence” of increasing
“the likelihood that the plaintiff would obtain relief.”
Evans, 536 U.S. at 464. If the Federal Defendants are
enjoined from applying the ICWA and the Final Rule,
then the obligation to follow these statutory and
regulatory frameworks will no longer be applied to the
states. Nor would the placement preferences and the
two-year collateral attack period be imposed. The
Brackeens’ injury, at the very least, would be redressed
by a favorable decision, allowing their adoption of A.L.M.
to be finalized after six months, as provided by Texas
state law, rather than two years, as required by the
ICWA and the Final Rule. See Part I.D. The
redressability requirement for the Individual Plaintiffs
is therefore met.
4. Prudential Standing
Finally, a court should analyze prudential standing
only “if the Article III standing requirements are met.”
Wyoming v. U.S. Dep’t of the Interior, 674 F.3d 1220,
1231 (10th Cir. 2012). Because the Individual Plaintiffs
alleged Article III standing, the Court now considers
whether the prudential principles of standing require
dismissal.
Prudential standing requires that the plaintiff
generally “assert his own legal rights and interests, and
cannot rest his claim to relief on the legal rights or
interests of third parties.” Valley Forge Christian Coll.
v. Ams. United for Separation of Church & State, Inc.,

565a
454 U.S. 464, 474 (1982). Federal courts must refrain
from “adjudicating ‘abstract questions of wide public
significance,’ which amount to ‘generalized grievances,’
pervasively shared and most appropriately addressed in
the representative branches.” Id. at 474–75. Finally,
plaintiffs must fall within the “zone of interests to be
protected or regulated by the statute or constitutional
guarantee in question.” Id. at 475. If the three
requirements of constitutional standing are met, and the
party is championing his own rights, “the basic practical
and prudential concerns underlying the standing
doctrine are generally satisfied.” Duke Power Co. v.
Carolina Evntl. Study Grp., Inc., 438 U.S. 59, 80–81
(1978). Because the Individual Plaintiffs are the “objects
of the regulations” at issue, they are also within the zone
of interests regulated by the statutes in question. Valley
Forge Christian Coll., 454 U.S. at 475.
For the above reasons, the Court finds that the
Individual Plaintiffs have met the constitutional and
prudential standing requirements to bring their claims.
Accordingly, the Individual Plaintiffs have standing to
bring Count Four (addressing the constitutionality of
§§ 1915(a)–(b), Count Six (alleging §§ 1915(a)–(b) violate
the equal protection clause of the Fifth Amendment),
and parts of Counts One and Five (challenging the Final
Rule as not in accordance with the law). The Individual
Plaintiffs have alleged standing to challenge the parts of
the Final Rule implementing the challenged portions of
the ICWA.

566a
B. State Plaintiffs
1. Standing
Defendants also contend that the State Plaintiffs do
not have standing to bring this suit in parens patriae and
that they fail to allege a fiscal injury because they plead
no facts demonstrating they have been financially
harmed by the ICWA or the Final Rule. Defs.’ Br.
Dismiss 18, ECF No. 57. According to Defendants, the
State Plaintiffs may not represent the interests of
children within their custody or their resident parents
who wish to foster or adopt a child. Id. While it is
generally true that states may not represent their
citizens against the federal government—that is not
what is happening here. See Massachusets v. Mellon, 262
U.S. 447, 485–86 (1923). The State Plaintiffs assert that
their standing is based primarily on a federal intrusion
into a quasi-sovereign realm of state law, through the
ICWA, the Final Rule, and the compliance requirements
found in the SSA Title IV-B and IV-E. State Pls.’ Br.
Resp. 16, ECF No. 74. They also argue they have
standing under Lujan, as they are “objects” of the ICWA
and Final Rule. Id. at 20.
When analyzing if a state has standing to challenge a
statute, a court must ask if the state is entitled to “special
solicitude.” See Massachusetts v. EPA, 549 U.S. 497, 518
(2007). When a state sues for injuries sustained in its
capacity as quasi-sovereign, the state has “an interest
independent of and behind the titles of its citizens.” Id.
at 520 (quoting George v. Tenn. Copper Co., 206 U.S. 230,
237 (1907). In Massachusetts, the Supreme Court
identified two considerations that entitled the state to
special solicitude. First, that the Clean Air Act created a

567a
procedural right to challenge the EPA’s decision, and
second,
that
the
EPA’s
decision
affected
Massachusetts’s quasi-sovereign interest in its territory.
Id. at 520.
The Fifth Circuit applied the Massachusetts
standard to Texas’s right to challenge the Department of
Homeland Services’ (“DHS”) implementation of the
deferred action program for alien children (“DACA”),
particularly the 2014 expansion to parents of the DACA
recipients (“DAPA”). Texas v. United States, 809 F.3d
134, 152 (5th Cir. 2015) [hereinafter Texas DHS]. While
DACA did not contain the same procedural rights as the
EPA statute in Massachusetts, the Fifth Circuit found
that the Administrative Procedures Act’s (the “APA”)
general authorization for challenges to “final agency
action” satisfied the first Massachusetts consideration.
Texas DHS, 809 F.3d at 152. Second, the court also found
that DAPA affected the states’ quasi-sovereign interest
by imposing substantial pressure on the state to change
its laws. Id.
The same considerations apply in this case. First, as
in Texas DHS, the State Plaintiffs are challenging the
Final Rule as not in accordance with law under the APA.
Second, it is well-established that domestic affairs fall
within the traditional police powers of the individual
states. 8 Sosna v. Iowa, 419 U.S. 393 (1975). Third, as
The Fifth Circuit has also found that “States have a sovereign
interest in the ‘power to create and enforce a legal code.’” Tex. Office
of Pub. Util. Counsel v. FCC, 183 F.3d 393, 449 (5th Cir. 1999)
(quoting Alfred L. Snapp & Son, Inc. v. Puerto Rico ex rel. Barez,
458 U.S. 592, 601 (1982)). From that basis, the Fifth Circuit held that
states may have standing based on: (1) federal assertions or
authority to regulate matters the States believe they control, (2)
8

568a
DAPA pressured Texas to change their laws, the ICWA
and the Final Rule pressures the State Plaintiffs to
change their domestic relations laws as they relate to
adoptions of Indian children. The ICWA and the Final
Rule usurp state civil procedure rules by requiring
different procedure framework for an Indian child
adoption proceeding. See supra, Part II.D. Finally, the
State Plaintiffs have standing to challenge federal
assertions of authority to regulate matters they believe
they control. Tex. Office of Pub. Util. Counsel v. FCC,
183 F.3d 393, 449 (5th Cir. 1999). Here, the State
Plaintiffs have stated a sufficient injury-in-fact in
Defendants’ intrusion upon their interests as quasisovereigns to control the domestic affairs within their
states. Am. Compl. ¶ 17, ECF No. 35.
The second injury-in-fact the State Plaintiffs claim is
related to funding under Title IV-B and Title IV-E,
which is contingent on complying with the ICWA. Am.
Compl. ¶¶ 23–25, 53, 263, ECF No. 35. Defendants argue
that the State Plaintiffs have not alleged a fiscal injury
because they have not “alleged any concrete fiscal impact
to State funds, or that Federal Defendants either have
withheld, or threatened to withhold.” Defs.’ Br. Dismiss
19, ECF No. 57. In Texas v. United States (2007),
Defendants raised a similar argument. 497 F.3d 491, 496
(5th Cir. 2007) [hereinafter Texas 2007]. There
federal preemption of state law, and (3) federal interference with
the enforcement of state law, at least where the “state statute at
issue regulate[s] behavior or provides for the administration of a
state program and does not simply purport to immunize state
citizens from federal law.” Id. Those intrusions are analogous to
pressure to change state law. Id.

569a
Defendants claimed that Texas’s challenge amounted to
an alleged injury from the mere existence of the
regulation because it had not yet been applied against
the state. Id.
The regulations at issue in Texas 2007 involved the
approval of Class III gaming licenses involving Indian
tribes and states that invoked sovereign immunity. Id. at
494. If a state invoked sovereign immunity and refused
to bargain with the Indian tribes regarding proposed
licensing regulation, then the Class III Gaming
Procedures, 25 C.F.R. pt. 291 (“Secretarial
Procedures”), would apply. Id. These procedures would
allow the Department of the Interior to either approve
the proposed plan by the Indian tribe without the state’s
input, or consider an alternative plan put forth by the
state. Id. at 495. Texas challenged this regulation and
argued it created an invalid administrative process. Id.
at 496. The Fifth Circuit found that Texas had standing
to challenge the regulation because Texas was forced to
either participate in the allegedly invalid process or
forfeit its only opportunity to object to the proposed
gaming plan, “a forced choice that is itself sufficient to
support standing.” Id. at 497; see Thomas v. Union
Carbide Agr. Prod. Co., 473 U.S. 568, 582 (1985)
(recognizing “the injury of being forced to choose
between relinquishing [the benefit of an unlawful
adjudicatory process] . . . or engaging in an
unconstitutional adjudication”).
This case calls for a similar result. Either the State
Plaintiffs abide by the regimes enacted by the ICWA and
the Final Rule, or they face forfeiture of their child
welfare benefits. See 42 U.S.C. §§ 622, 677. Accordingly,

570a
the State Plaintiffs have alleged a sufficient injury-infact. The traceability and redressability requirements
are satisfied as well. The injury the State Plaintiffs claim
are directly traceable to the application of the ICWA and
the Final Rule to the domestic authority of the state.
Texas has alleged sufficient facts to show that it has been
forced to create alternate laws and requirements for its
DFPS if an adoption proceeding involves an Indian child.
For these reasons, the State Plaintiffs have standing to
challenge the Final Rule as not in accordance with law
under the APA (Count One); the ICWA, §§ 1901–23 and
1951–52 violates the Commerce Clause and the Tenth
Amendment (Counts Two and Three), and §§ 1915(c) and
§ 23.130(b) of the Final Rule violate Article 1, §§ 1 and 8
of the Constitution (Count Seven).
2. Ripeness
Defendants challenge the State Plaintiffs claims
against HHS, Azar, and the United States (the “HHS
Defendants”) on the grounds that these claims are not
ripe. Defs.’ Br. Dismiss 28, ECF No. 57. Defendants
argue that the State Plaintiffs are alleging merely a
possible injury. State Plaintiffs respond that they are
currently injured and have suffered hardship because of
the ICWA and the Final Rule compliance requirements
found under §§ 622 and 677 of the SSA. State Pls.’ Br.
Resp. 25, ECF No. 74. The statutes require such
compliance or warn that the HHS Defendants will
reduce child-welfare funding to the states. Id.; see supra
Part II.B. For these reasons, the State Plaintiffs argue
they have alleged both standing and ripeness. State Pls.’
Br. Resp. 25, ECF No. 74.

571a
The purpose of the ripeness doctrine is to prevent the
courts, through premature adjudication, from entangling
themselves
in
abstract
disagreements
over
administrative policies, and to protect the agencies from
judicial interference until the administrative decision has
been formalized and its effects felt in a concrete way by
the challenging parties. Abbott Labs. v. Gardner, 387
U.S. 136, 148–49 (1967). When evaluating if a case is ripe
for review, the court must consider also (1) the fitness of
the issues for judicial decision, and (2) the hardship to
the parties of withholding court consideration. See id. at
149. Fitness and hardship must be balanced and a “case
is generally ripe if any remaining questions are purely
legal ones.” Am. Forest & Paper Ass’n v. EPA, 137 F.3d
291, 296 (5th Cir. 1998); New Orleans Pub. Serv., Inc. v.
Council of the City of New Orleans, 833 F.2d 583, 587
(5th Cir. 1987). “A challenge to administrative
regulations is fit for review if (1) the questions presented
are ‘purely legal one[s],’ (2) the challenged regulations
constitute ‘final agency action,’ and (3) further factual
development would not ‘significantly advance [the
court’s] ability to deal with the legal issues presented.’”
Texas v. United States, 497 F.3d 491, 498–99 (5th
Cir.2007) (citing Nat’l Park Hosp. Ass’n, 538 U.S. at
812).
The Court finds that State Plaintiffs’ case is ripe for
review. Here, the question is a legal one—whether the
ICWA and Final Rule compliance requirements under
the SSA provisions are violations of constitutional
principles of federalism. Additional facts would not help
the Court make its decision. To be eligible to receive
federal funding under Title IV-B and IV-E, the State

572a
Plaintiffs must submit a plan in conformity with the
ICWA and the Final Rule. See supra Part II.B. The Fifth
Circuit has held that the kinds of hardships considered
in a ripeness analysis include—“the harmful creation of
legal rights or obligations; practical harms on the
interests advanced by the party seeking relief; and the
harm of being forced to modify one’s behavior in order to
avoid future adverse consequences.” Texas 2007, 497
F.3d at 499 (internal quotation marks omitted). Similar
to Texas 2007, either the State Plaintiffs must comply
with the ICWA and the Final Rule or risk their funding
under Title IV-B and IV-E. Defendants seem to imply
that instead the State Plaintiffs should take a wait-andsee approach, suggesting that the State Plaintiffs violate
the SSA requirements by not complying with the ICWA,
and see if the federal government will enforce the
statute. See id.; Defs.’ Br. Dismiss 28, ECF No. 57.
Here, the ICWA and the Final Rule require
additional regulations and obligations from the State
Plaintiffs if they wish to continue to receive federal
funding under Title IV-B and IV-E. This is the harm of
“being forced to modify one’s behavior in order to avoid
future adverse consequences.” Id. (quoting Oh. Forestry
Ass’n v. Sierra Club, 523 U.S. 726, 734 (1998)). For these
reasons, the claims the State Plaintiffs bring against the
HHS Defendants are ripe for adjudication.
C. Sovereign Immunity
Defendants assert that the HHS Defendants and the
United States should be dismissed because they have not
waived sovereign immunity. Defs.’ Br. Dismiss 31, ECF
No. 57. All Plaintiffs respond that sovereign immunity
has been waived for both the administrative and

573a
constitutional actions under the APA and Supreme
Court precedent. State Pls.’ Br. Resp. 27, ECF No. 74;
Indiv. Pls.’ Br. Resp. 35–36, ECF No. 80.
First, the APA allows for claims “seeking relief other
than money damages” against the United States. 5
U.S.C. § 702. When a person suffers a “legal wrong” or
is “adversely affected” by agency action,” he is entitled
to judicial review. Id. Here, all Plaintiffs challenged
Interior and BIA’s Final Rule, as well as the HHS
Defendants SSA ICWA and Final Rule compliance
requirements, as agency actions that adversely affects
State Plaintiffs’ domestic relation laws and subjects
Individual Plaintiffs to an additional regulatory scheme.
State Pls.’ Br. Dismiss 26, ECF No. 74.
Second, all other claims come under a challenge to the
constitutionality of the ICWA or SSA. The Supreme
Court held that if the United States exceeds its
constitutional limitations, sovereign immunity cannot
shield it from suit. Larson v. Domestic & Foreign
Commerce Corp., 337 U.S. 682, 690 (1949). Under
Larson, suits for prospective relief are permitted when
the statute authorizing the challenged actions is itself
beyond constitutional authority. Id.; Anibowei v.
Sessions, No. 3:16-CV-3495-D, 2018 WL 1477242, at *2
(N.D. Tex. Mar. 27, 2018); RICHARD H. FALLON, Jr. ET
AL., HART AND WECHSLER’S THE FEDERAL COURTS
AND THE FEDERAL SYSTEM 895 (7th ed. 2015) (“Hart
and Wechsler”) (“[I]f the officer acted within the
conferred statutory limits of the office, but his or her
conduct allegedly offended a provision of the
Constitution, then sovereign immunity will be lifted.”)
(internal quotation marks and citation omitted).

574a
In this case, all Plaintiffs bring a valid APA challenge
to the Final Rule under § 702 and a constitutional
challenge to the ICWA, the Final Rule, and HHS’s
application of the challenged rule and statute through
the SSA. For these reasons, sovereign immunity does
not act as a bar to Plaintiffs claims in this case.
D. Younger Abstention
Defendants also argue that the Court should abstain
from hearing this case under Younger. Defs.’ Br. Dismiss
32, ECF No. 57. Since Plaintiffs seek declaratory and
injunctive relief to preclude application of the ICWA and
the Final Rule to ongoing state-court child-custody
proceedings, Defendants argue this Court should abstain
from exercising jurisdiction. Id. (citing DeSpain v.
Johnston, 731 F.3d 1171, 1178 (5th Cir. 1984)). Plaintiffs
respond that Defendants’ argument is based on
“outdated authority, all but ignoring the Supreme
Court’s most recent decision . . . on the limited
application of Younger.” Indiv. Pls.’ Br. Resp. 36, ECF
No. 80 (citing Sprint Comms., Inc. v. Jacobs, 571 U.S. 69
(2013)). In 2013, the Supreme Court decided Sprint and
clarified the three categories of the Younger abstention
doctrine. Sprint, 571 U.S. at 78. Specifically, the Younger
exception applies to only “three ‘exceptional’ categories
of state proceedings: ongoing criminal prosecutions,
certain civil enforcement proceedings akin to criminal
prosecutions, and pending ‘civil proceedings involving
certain orders . . . uniquely in furtherance of the state
courts’ ability to perform their judicial functions.” Id.
Since Sprint, courts have declined to invoke Younger
in adoption proceedings unless the case involved “stateinitiated proceedings.” Sprint, 571 U.S. at 79.

575a
Defendants rely on Moore v. Sims as an example of
Younger abstention in an adoption context. Defs.’ Br.
Dismiss 32, ECF No. 57. But in Moore, the proceedings
were “in aid of and closely related to criminal statutes.”
Id. Sprint explained Moore as involving “a state-initiated
proceeding to gain custody of children allegedly abused
by their parents.” Sprint, 571 U.S. at 79. Unlike Moore,
there are no criminal statutes at issue in the state-court
adoption proceedings in this case, nor are there state
initiated proceedings at issue here. The cases
Defendants rely on either pre-date the Supreme Court’s
decision in Sprint, or deal with distinguishable facts. See
Catanach v. Thomson, 718 F. App’x 595, 598 n.2 (10th
Cir. 2017) (clarifying the changes to the Younger
doctrine found in Sprint). When the Fifth Circuit applied
Sprint, it found that, while Younger has been expanded
beyond the purely criminal context, abstention is not
required in every context with parallel state-court
proceedings. Google, Inc. v. Hood, 822 F.3d 212, 222 (5th
Cir. 2016). If a case fits into one of the Sprint categories,
then the three Middlesex factors are evaluated before
invoking Younger abstention. See Middlesex Cty. Ethics
Comm. v. Garden State Bar Ass’n, 457 U.S. 423, 432
(1982).
The first Sprint category does not apply here, as no
party alleges there is an ongoing criminal prosecution.
Neither does the third category, proceedings uniquely
aiding the state court judicial function, apply. See,
Sprint, 571 U.S. at 78 (referencing Pennzoil Co. v.
Texaco, Inc., 481 U.S. 1, 4 (1987) as an example of the
third Sprint category). Defendants attempt to place this
case into the second category, claiming that because

576a
there is an ongoing state-court adoption proceeding,
Younger must apply. Defs.’ Br. Dismiss 33, ECF No. 57.
Sprint describes the second category as “akin to criminal
prosecutions” because they are “characteristically
initiated to sanction the federal plaintiff . . . for some
wrongful act.” Sprint, 571 U.S. at 279. The Fifth Circuit
has applied the second category to an enforcement action
before a civil rights commission, a bar disciplinary
proceedings, and state-instituted public nuisance
proceedings. See Google, Inc., 822 F.3d at 222 (citing
Ohio Civil Rights Comm’n v. Dayton Christian Schs.
Inc., 477 U.S. 619, 623 28 (1986); Middlesex, 457 U.S. at
432–35; Huffman v. Pursue, Ltd., 420 U.S. 592, 595–97
(1975)). None of these apply here. Accordingly, the
Younger abstention doctrine does not apply in this case.
E. Failure to Join an Indispensable Party
Defendants also argue that Nevada and Minnesota
are necessary parties to the Librettis’ and Cliffords’
claims and that they should be joined or the claims
dismissed. Defs.’ Br. Dismiss 45, ECF No. 57. If
Plaintiffs obtain the relief they are seeking, Defendants
argue, this Court’s decision would necessarily bind the
Nevada and Minnesota state courts and their executive
agencies. Id. Plaintiffs respond that they are not asking
to bind state courts; instead they seek “to declare that a
federal regulation and a federal statute are
unconstitutional and otherwise invalid, and to enjoin the
federal government from implementing or administering
them.” Indiv. Pls.’ Br. Resp. 54, ECF No. 80.
When a party is primarily challenging the
constitutionality of a federal statute and not state
statutes or rules, states are not an indispensable party.

577a
Romero v. United States, 784 F.2d 1322, 1325 (5th Cir.
1986). Since Plaintiffs seek to nullify a federal statute
and regulation, Nevada and Minnesota are not
indispensable parties. Bermudez v. U.S. Dep’t of Agric.,
490 F.2d 718, 724 (D.C. Cir. 1973). Rather than binding
the state courts to an affirmative action, a favorable
decision for the Plaintiffs here would remove a federal
mandate on the state courts. Therefore, Nevada and
Minnesota are not necessary parties and this argument
is overruled.
F. Waiver to Challenge the Final Rule
Defendants’ final argument is that the State
Plaintiffs “waived their APA arguments challenging the
Final Rule in Count One by not presenting their
objections to BIA during the notice and comment
period.” Defs.’ Br. Dismiss 47, ECF No. 57. The State
Plaintiffs respond that they have standing under
statutory and Supreme Court precedent to challenge the
Final Rule under the APA. State Pls.’ Br. Resp. 43–4,
ECF No. 74. They also argue that “neither the text of the
APA, nor the Fifth Circuit precedent require a party
aggrieved by an agency rule to comment first on the
proposed rule or risk waiving a later legal challenge to
that rule.” Id. at 45.
In City of Seabrook v. EPA, defendants made a
similar argument. 659 F.2d 1349, 1360–61 (5th Cir.
1981). 9 In that case, the Fifth Circuit declined to require
“The rule urged by EPA would require everyone who wishes
to protect himself from arbitrary agency action not only to become
a faithful reader of the notices of proposed rulemaking published
each day in the Federal Register, but a psychic ability to predict the
possible changes that could be made in the proposal when the rule
9

578a
anyone who wishes to challenge a regulation to first have
commented on it during the administrative process. It
distinguished L.A. Tucker Truck Lines, Inc. and
Merchants Fast Motor Lines, Inc., both of which found
a party waived the right to initiate legal challenges to an
agency decision, because the plaintiffs in both of these
cases participated in the underlying administrative
hearing and failed to appeal the decision. United States
v. L.A. Tucker Truck Lines, Inc., 344 U.S. 33 (1952);
Merchants Fast Motor Lines, Inc. v. ICC, 528 F.2d 1042
(5th Cir. 1976); City of Seabrook, 659 F.2d at 1360 n.17.
City of Seabrook concluded these cases did not apply
because there had been no underlying adversarial
proceeding. Id.
Defendants argue City of Seabrook does not control
because more recent Fifth Circuit decisions have
undermined it. Defs.’ Br. Dismiss 47, ECF No. 57; BCCA
Appeal Group v. EPA, 355 F.3d 817, 829 n.10 (5th Cir.
2003); Texas Oil & Gas Ass’n v. EPA, 161 F.3d 923, 933
n.7 (5th Cir. 1998). While there has been disagreement
about the applicability of City of Seabrook, no Supreme
Court decision or Fifth Circuit en banc decision has
overruled it. Therefore, City of Seabrook remains
binding law on district courts. Accordingly, Defendants’
argument that City of Seabrook does not control fails.
City of Seabrook, 659 F.2d at 1349; see also, Am. Forest
& Paper Ass’n v. EPA, 137 F.3d 291, 295 (5th Cir. 1998)
(citing City of Seabrook’s rule that failure to comment
does not preclude a challenge to the APA statute). At this
time, it appears the Fifth Circuit requires a party that
is finally promulgated. This is a fate this court will impose on no
one.” City of Seabrook, Tex., 659 F.2d at 1360-61.

579a
participates in an administrative process to appeal an
adverse ruling or waive its right to later challenge the
decision. But if a party has not participated in the agency
process, a subsequent challenge is not waived. Compare
L.A. Tucker Truck Lines, Inc., 344 U.S. at 35, with
Fleming Companies, Inc. v. U.S. Dep’t of Agric., 322 F.
Supp. 2d 744, 754 (E.D. Tex. 2004).
Accordingly, the State Plaintiffs did not waive their
right to challenge the Final Rule in this case. See City of
Seabrook, 659 F.2d at 1360–61.
IV. CONCLUSION
For the foregoing reasons, the Court finds that
Federal Defendants’ Motion to Dismiss (ECF No. 56)
and Tribal Defendants’ Motion to Dismiss (ECF No. 58)
should be and are hereby DENIED.
SO ORDERED on this 24th day of July, 2018.
/s/ Reed O’Connor
Reed O’Connor
UNITED STATES DISTRICT JUDGE

580a
APPENDIX G
Relevant Provisions of the United States
Constitution
Article I, Section 1 provides:
All legislative Powers herein granted shall be vested
in a Congress of the United States, which shall
consist of a Senate and House of Representatives.
Article I, Section 8 provides, in relevant part:
The Congress shall have Power . . . To regulate
Commerce with foreign Nations, and among the
several States, and with the Indian Tribes . . . .
The Fifth Amendment provides, in relevant part:
No person shall . . . be deprived of life, liberty, or
property, without due process of law . . . .
The Tenth Amendment provides:
The powers not delegated to the United States by the
Constitution, nor prohibited by it to the States, are
reserved to the States respectively, or to the people.
The Fourteenth Amendment, section 1, provides, in
relevant part:
No state shall . . . deny to any person within its
jurisdiction the equal protection of the laws.

581a
APPENDIX H
Relevant Provisions of the
Indian Child Welfare Act of 1978
25 U.S.C.
§ 1901. Congressional findings
Recognizing the special relationship between the United
States and the Indian tribes and their members and the
Federal responsibility to Indian people, the Congress
finds-(1) that clause 3, section 8, article I of the United
States Constitution provides that “The Congress shall
have Power * * * To regulate Commerce * * * with Indian
tribes1” and, through this and other constitutional
authority, Congress has plenary power over Indian
affairs;
(2) that Congress, through statutes, treaties, and the
general course of dealing with Indian tribes, has
assumed the responsibility for the protection and
preservation of Indian tribes and their resources;
(3) that there is no resource that is more vital to the
continued existence and integrity of Indian tribes than
their children and that the United States has a direct
interest, as trustee, in protecting Indian children who
are members of or are eligible for membership in an
Indian tribe;
(4) that an alarmingly high percentage of Indian
families are broken up by the removal, often
unwarranted, of their children from them by nontribal
public and private agencies and that an alarmingly high
percentage of such children are placed in non-Indian
foster and adoptive homes and institutions; and

582a
(5) that the States, exercising their recognized
jurisdiction over Indian child custody proceedings
through administrative and judicial bodies, have often
failed to recognize the essential tribal relations of Indian
people and the cultural and social standards prevailing in
Indian communities and families.
§ 1902. Congressional declaration of policy
The Congress hereby declares that it is the policy of this
Nation to protect the best interests of Indian children
and to promote the stability and security of Indian tribes
and families by the establishment of minimum Federal
standards for the removal of Indian children from their
families and the placement of such children in foster or
adoptive homes which will reflect the unique values of
Indian culture, and by providing for assistance to Indian
tribes in the operation of child and family service
programs.
§ 1903. Definitions
For the purposes of this chapter, except as may be
specifically provided otherwise, the term-(1) “child custody proceeding” shall mean and
include-(i) “foster care placement” which shall mean any
action removing an Indian child from its parent or
Indian custodian for temporary placement in a foster
home or institution or the home of a guardian or
conservator where the parent or Indian custodian
cannot have the child returned upon demand, but
where parental rights have not been terminated;

583a
(ii) “termination of parental rights” which shall
mean any action resulting in the termination of the
parent-child relationship;
(iii) “preadoptive placement” which shall mean
the temporary placement of an Indian child in a foster
home or institution after the termination of parental
rights, but prior to or in lieu of adoptive placement;
and
(iv) “adoptive placement” which shall mean the
permanent placement of an Indian child for adoption,
including any action resulting in a final decree of
adoption.
Such term or terms shall not include a placement based
upon an act which, if committed by an adult, would be
deemed a crime or upon an award, in a divorce
proceeding, of custody to one of the parents.
(2) “extended family member” shall be as defined by
the law or custom of the Indian child’s tribe or, in the
absence of such law or custom, shall be a person who has
reached the age of eighteen and who is the Indian child’s
grandparent, aunt or uncle, brother or sister, brother-inlaw or sister-in-law, niece or nephew, first or second
cousin, or stepparent;
(3) “Indian” means any person who is a member of an
Indian tribe, or who is an Alaska Native and a member
of a Regional Corporation as defined in section 1606 of
Title 43;
(4) “Indian child” means any unmarried person who
is under age eighteen and is either (a) a member of an
Indian tribe or (b) is eligible for membership in an Indian
tribe and is the biological child of a member of an Indian
tribe;

584a
(5) “Indian child’s tribe” means (a) the Indian tribe
in which an Indian child is a member or eligible for
membership or (b), in the case of an Indian child who is
a member of or eligible for membership in more than one
tribe, the Indian tribe with which the Indian child has the
more significant contacts;
(6) “Indian custodian” means any Indian person who
has legal custody of an Indian child under tribal law or
custom or under State law or to whom temporary
physical care, custody, and control has been transferred
by the parent of such child;
(7) “Indian organization” means any group,
association, partnership, corporation, or other legal
entity owned or controlled by Indians, or a majority of
whose members are Indians;
(8) “Indian tribe” means any Indian tribe, band,
nation, or other organized group or community of
Indians recognized as eligible for the services provided
to Indians by the Secretary because of their status as
Indians, including any Alaska Native village as defined
in section 1602(c) of Title 43;
(9) “parent” means any biological parent or parents
of an Indian child or any Indian person who has lawfully
adopted an Indian child, including adoptions under tribal
law or custom. It does not include the unwed father
where paternity has not been acknowledged or
established;
(10) “reservation” means Indian country as defined
in section 1151 of Title 18 and any lands, not covered
under such section, title to which is either held by the
United States in trust for the benefit of any Indian tribe
or individual or held by any Indian tribe or individual

585a
subject to a restriction by the United States against
alienation;
(11) “Secretary” means the Secretary of the Interior;
and
(12) “tribal court” means a court with jurisdiction
over child custody proceedings and which is either a
Court of Indian Offenses, a court established and
operated under the code or custom of an Indian tribe, or
any other administrative body of a tribe which is vested
with authority over child custody proceedings.
§ 1911. Indian tribe jurisdiction over Indian child
custody proceedings
(a) Exclusive jurisdiction
An Indian tribe shall have jurisdiction exclusive as to any
State over any child custody proceeding involving an
Indian child who resides or is domiciled within the
reservation of such tribe, except where such jurisdiction
is otherwise vested in the State by existing Federal law.
Where an Indian child is a ward of a tribal court, the
Indian tribe shall retain exclusive jurisdiction,
notwithstanding the residence or domicile of the child.
(b) Transfer of proceedings; declination by tribal
court
In any State court proceeding for the foster care
placement of, or termination of parental rights to, an
Indian child not domiciled or residing within the
reservation of the Indian child’s tribe, the court, in the
absence of good cause to the contrary, shall transfer such
proceeding to the jurisdiction of the tribe, absent
objection by either parent, upon the petition of either
parent or the Indian custodian or the Indian child’s tribe:

586a
Provided, That such transfer shall be subject to
declination by the tribal court of such tribe.
(c) State court proceedings; intervention
In any State court proceeding for the foster care
placement of, or termination of parental rights to, an
Indian child, the Indian custodian of the child and the
Indian child’s tribe shall have a right to intervene at any
point in the proceeding.
(d) Full faith and credit to public acts, records,
and judicial proceedings of Indian tribes
The United States, every State, every territory or
possession of the United States, and every Indian tribe
shall give full faith and credit to the public acts, records,
and judicial proceedings of any Indian tribe applicable to
Indian child custody proceedings to the same extent that
such entities give full faith and credit to the public acts,
records, and judicial proceedings of any other entity.
§ 1912. Pending court proceedings
(a)

Notice; time for commencement of
proceedings; additional time for preparation

In any involuntary proceeding in a State court, where the
court knows or has reason to know that an Indian child
is involved, the party seeking the foster care placement
of, or termination of parental rights to, an Indian child
shall notify the parent or Indian custodian and the Indian
child’s tribe, by registered mail with return receipt
requested, of the pending proceedings and of their right
of intervention. If the identity or location of the parent
or Indian custodian and the tribe cannot be determined,
such notice shall be given to the Secretary in like

587a
manner, who shall have fifteen days after receipt to
provide the requisite notice to the parent or Indian
custodian and the tribe. No foster care placement or
termination of parental rights proceeding shall be held
until at least ten days after receipt of notice by the
parent or Indian custodian and the tribe or the
Secretary: Provided, That the parent or Indian custodian
or the tribe shall, upon request, be granted up to twenty
additional days to prepare for such proceeding.
(b) Appointment of counsel
In any case in which the court determines indigency, the
parent or Indian custodian shall have the right to courtappointed counsel in any removal, placement, or
termination proceeding. The court may, in its discretion,
appoint counsel for the child upon a finding that such
appointment is in the best interest of the child. Where
State law makes no provision for appointment of counsel
in such proceedings, the court shall promptly notify the
Secretary upon appointment of counsel, and the
Secretary, upon certification of the presiding judge, shall
pay reasonable fees and expenses out of funds which may
be appropriated pursuant to section 13 of this title.
(c) Examination of reports or other documents
Each party to a foster care placement or termination of
parental rights proceeding under State law involving an
Indian child shall have the right to examine all reports or
other documents filed with the court upon which any
decision with respect to such action may be based.

588a
(d)

Remedial services and rehabilitative
programs; preventive measures

Any party seeking to effect a foster care placement of, or
termination of parental rights to, an Indian child under
State law shall satisfy the court that active efforts have
been made to provide remedial services and
rehabilitative programs designed to prevent the breakup
of the Indian family and that these efforts have proved
unsuccessful.
(e) Foster care placement orders; evidence;
determination of damage to child
No foster care placement may be ordered in such
proceeding in the absence of a determination, supported
by clear and convincing evidence, including testimony of
qualified expert witnesses, that the continued custody of
the child by the parent or Indian custodian is likely to
result in serious emotional or physical damage to the
child.
(f) Parental rights termination orders; evidence;
determination of damage to child
No termination of parental rights may be ordered in such
proceeding in the absence of a determination, supported
by evidence beyond a reasonable doubt, including
testimony of qualified expert witnesses, that the
continued custody of the child by the parent or Indian
custodian is likely to result in serious emotional or
physical damage to the child.

589a
§ 1913. Parental rights; voluntary termination
(a) Consent; record; certification matters; invalid
consents
Where any parent or Indian custodian voluntarily
consents to a foster care placement or to termination of
parental rights, such consent shall not be valid unless
executed in writing and recorded before a judge of a
court of competent jurisdiction and accompanied by the
presiding judge’s certificate that the terms and
consequences of the consent were fully explained in
detail and were fully understood by the parent or Indian
custodian. The court shall also certify that either the
parent or Indian custodian fully understood the
explanation in English or that it was interpreted into a
language that the parent or Indian custodian
understood. Any consent given prior to, or within ten
days after, birth of the Indian child shall not be valid.
(b) Foster care placement; withdrawal of consent
Any parent or Indian custodian may withdraw consent to
a foster care placement under State law at any time and,
upon such withdrawal, the child shall be returned to the
parent or Indian custodian.
(c) Voluntary termination of parental rights or
adoptive placement; withdrawal of consent;
return of custody
In any voluntary proceeding for termination of parental
rights to, or adoptive placement of, an Indian child, the
consent of the parent may be withdrawn for any reason
at any time prior to the entry of a final decree of
termination or adoption, as the case may be, and the child
shall be returned to the parent.

590a
(d) Collateral attack; vacation of decree and
return of custody; limitations
After the entry of a final decree of adoption of an Indian
child in any State court, the parent may withdraw
consent thereto upon the grounds that consent was
obtained through fraud or duress and may petition the
court to vacate such decree. Upon a finding that such
consent was obtained through fraud or duress, the court
shall vacate such decree and return the child to the
parent. No adoption which has been effective for at least
two years may be invalidated under the provisions of this
subsection unless otherwise permitted under State law.
§ 1914. Petition to court of competent jurisdiction to
invalidate action upon showing of certain
violations
Any Indian child who is the subject of any action for
foster care placement or termination of parental rights
under State law, any parent or Indian custodian from
whose custody such child was removed, and the Indian
child’s tribe may petition any court of competent
jurisdiction to invalidate such action upon a showing that
such action violated any provision of sections 1911, 1912,
and 1913 of this title.
§ 1915. Placement of Indian children
(a) Adoptive placements; preferences
In any adoptive placement of an Indian child under State
law, a preference shall be given, in the absence of good
cause to the contrary, to a placement with (1) a member
of the child’s extended family; (2) other members of the
Indian child’s tribe; or (3) other Indian families.

591a
(b) Foster care or preadoptive placements;
criteria; preferences
Any child accepted for foster care or preadoptive
placement shall be placed in the least restrictive setting
which most approximates a family and in which his
special needs, if any, may be met. The child shall also be
placed within reasonable proximity to his or her home,
taking into account any special needs of the child. In any
foster care or preadoptive placement, a preference shall
be given, in the absence of good cause to the contrary, to
a placement with-(i) a member of the Indian child’s extended family;
(ii) a foster home licensed, approved, or specified by
the Indian child’s tribe;
(iii) an Indian foster home licensed or approved by
an authorized non-Indian licensing authority; or
(iv) an institution for children approved by an Indian
tribe or operated by an Indian organization which has a
program suitable to meet the Indian child’s needs.
(c) Tribal resolution for different order of
preference; personal preference considered;
anonymity in application of preferences
In the case of a placement under subsection (a) or (b) of
this section, if the Indian child’s tribe shall establish a
different order of preference by resolution, the agency
or court effecting the placement shall follow such order
so long as the placement is the least restrictive setting
appropriate to the particular needs of the child, as
provided in subsection (b) of this section. Where
appropriate, the preference of the Indian child or parent
shall be considered: Provided, that where a consenting

592a
parent evidences a desire for anonymity, the court or
agency shall give weight to such desire in applying the
preferences.
(d) Social and cultural standards applicable
The standards to be applied in meeting the preference
requirements of this section shall be the prevailing social
and cultural standards of the Indian community in which
the parent or extended family resides or with which the
parent or extended family members maintain social and
cultural ties.
(e) Record of placement; availability
A record of each such placement, under State law, of an
Indian child shall be maintained by the State in which the
placement was made, evidencing the efforts to comply
with the order of preference specified in this section.
Such record shall be made available at any time upon the
request of the Secretary or the Indian child’s tribe.
§ 1916. Return of custody
(a) Petition; best interests of child
Notwithstanding State law to the contrary, whenever a
final decree of adoption of an Indian child has been
vacated or set aside or the adoptive parents voluntarily
consent to the termination of their parental rights to the
child, a biological parent or prior Indian custodian may
petition for return of custody and the court shall grant
such petition unless there is a showing, in a proceeding
subject to the provisions of section 1912 of this title, that
such return of custody is not in the best interests of the
child.

593a
(b) Removal from foster care home; placement
procedure
Whenever an Indian child is removed from a foster care
home or institution for the purpose of further foster care,
preadoptive, or adoptive placement, such placement
shall be in accordance with the provisions of this chapter,
except in the case where an Indian child is being
returned to the parent or Indian custodian from whose
custody the child was originally removed.
§ 1917. Tribal affiliation information and other
information for protection of rights from tribal
relationship; application of subject of adoptive
placement; disclosure by court
Upon application by an Indian individual who has
reached the age of eighteen and who was the subject of
an adoptive placement, the court which entered the final
decree shall inform such individual of the tribal
affiliation, if any, of the individual’s biological parents
and provide such other information as may be necessary
to protect any rights flowing from the individual’s tribal
relationship.
§ 1918. Reassumption of jurisdiction over child
custody proceedings
(a) Petition; suitable plan; approval by Secretary
Any Indian tribe which became subject to State
jurisdiction pursuant to the provisions of the Act of
August 15, 1953 (67 Stat. 588), as amended by Title IV of
the Act of April 11, 1968 (82 Stat. 73, 78), or pursuant to
any other Federal law, may reassume jurisdiction over
child custody proceedings. Before any Indian tribe may
reassume jurisdiction over Indian child custody

594a
proceedings, such tribe shall present to the Secretary for
approval a petition to reassume such jurisdiction which
includes a suitable plan to exercise such jurisdiction.
(b) Criteria applicable to consideration by
Secretary; partial retrocession
(1) In considering the petition and feasibility of the
plan of a tribe under subsection (a), the Secretary may
consider, among other things:
(i) whether or not the tribe maintains a
membership roll or alternative provision for clearly
identifying the persons who will be affected by the
reassumption of jurisdiction by the tribe;
(ii) the size of the reservation or former
reservation area which will be affected by retrocession
and reassumption of jurisdiction by the tribe;
(iii) the population base of the tribe, or
distribution of the population in homogeneous
communities or geographic areas; and
(iv) the feasibility of the plan in cases of
multitribal occupation of a single reservation or
geographic area.
(2) In those cases where the Secretary determines
that the jurisdictional provisions of section 1911(a) of this
title are not feasible, he is authorized to accept partial
retrocession which will enable tribes to exercise referral
jurisdiction as provided in section 1911(b) of this title, or,
where appropriate, will allow them to exercise exclusive
jurisdiction as provided in section 1911(a) of this title
over limited community or geographic areas without
regard for the reservation status of the area affected.

595a
(c) Approval of petition; publication in Federal
Register; notice; reassumption period;
correction of causes for disapproval
If the Secretary approves any petition under subsection
(a), the Secretary shall publish notice of such approval in
the Federal Register and shall notify the affected State
or States of such approval. The Indian tribe concerned
shall reassume jurisdiction sixty days after publication
in the Federal Register of notice of approval. If the
Secretary disapproves any petition under subsection (a),
the Secretary shall provide such technical assistance as
may be necessary to enable the tribe to correct any
deficiency which the Secretary identified as a cause for
disapproval.
(d) Pending actions or proceedings unaffected
Assumption of jurisdiction under this section shall not
affect any action or proceeding over which a court has
already assumed jurisdiction, except as may be provided
pursuant to any agreement under section 1919 of this
title.
§ 1919. Agreements between States and Indian tribes
(a) Subject coverage
States and Indian tribes are authorized to enter into
agreements with each other respecting care and custody
of Indian children and jurisdiction over child custody
proceedings, including agreements which may provide
for orderly transfer of jurisdiction on a case-by-case
basis and agreements which provide for concurrent
jurisdiction between States and Indian tribes.

596a
(b) Revocation; notice; actions or proceedings
unaffected
Such agreements may be revoked by either party upon
one hundred and eighty days’ written notice to the other
party. Such revocation shall not affect any action or
proceeding over which a court has already assumed
jurisdiction, unless the agreement provides otherwise.
§ 1920. Improper removal of child from custody;
declination of jurisdiction; forthwith return of
child: danger exception
Where any petitioner in an Indian child custody
proceeding before a State court has improperly removed
the child from custody of the parent or Indian custodian
or has improperly retained custody after a visit or other
temporary relinquishment of custody, the court shall
decline jurisdiction over such petition and shall forthwith
return the child to his parent or Indian custodian unless
returning the child to his parent or custodian would
subject the child to a substantial and immediate danger
or threat of such danger.
§ 1921. Higher State or Federal standard applicable
to protect rights of parent or Indian custodian of
Indian child
In any case where State or Federal law applicable to a
child custody proceeding under State or Federal law
provides a higher standard of protection to the rights of
the parent or Indian custodian of an Indian child than the
rights provided under this subchapter, the State or
Federal court shall apply the State or Federal standard.

597a
§ 1922. Emergency removal or placement of child;
termination; appropriate action
Nothing in this subchapter shall be construed to prevent
the emergency removal of an Indian child who is a
resident of or is domiciled on a reservation, but
temporarily located off the reservation, from his parent
or Indian custodian or the emergency placement of such
child in a foster home or institution, under applicable
State law, in order to prevent imminent physical damage
or harm to the child. The State authority, official, or
agency involved shall insure that the emergency removal
or placement terminates immediately when such
removal or placement is no longer necessary to prevent
imminent physical damage or harm to the child and shall
expeditiously initiate a child custody proceeding subject
to the provisions of this subchapter, transfer the child to
the jurisdiction of the appropriate Indian tribe, or
restore the child to the parent or Indian custodian, as
may be appropriate.
§ 1923. Effective date
None of the provisions of this subchapter, except
sections 1911(a), 1918, and 1919 of this title, shall affect
a proceeding under State law for foster care placement,
termination of parental rights, preadoptive placement,
or adoptive placement which was initiated or completed
prior to one hundred and eighty days after November 8,
1978, but shall apply to any subsequent proceeding in the
same matter or subsequent proceedings affecting the
custody or placement of the same child.
***

598a
§ 1951. Information availability to and disclosure by
Secretary
(a) Copy of final decree or order; other
information; anonymity affidavit; exemption
from Freedom of Information Act
Any State court entering a final decree or order in any
Indian child adoptive placement after November 8, 1978,
shall provide the Secretary with a copy of such decree or
order together with such other information as may be
necessary to show-(1) the name and tribal affiliation of the child;
(2) the names and addresses of the biological parents;
(3) the names and addresses of the adoptive parents;
and
(4) the identity of any agency having files or
information relating to such adoptive placement.
Where the court records contain an affidavit of the
biological parent or parents that their identity remain
confidential, the court shall include such affidavit with
the other information. The Secretary shall insure that
the confidentiality of such information is maintained and
such information shall not be subject to the Freedom of
Information Act (5 U.S.C. 552), as amended.
(b) Disclosure of information for enrollment of
Indian child in tribe or for determination of
member rights or benefits; certification of
entitlement to enrollment
Upon the request of the adopted Indian child over the
age of eighteen, the adoptive or foster parents of an
Indian child, or an Indian tribe, the Secretary shall
disclose such information as may be necessary for the

599a
enrollment of an Indian child in the tribe in which the
child may be eligible for enrollment or for determining
any rights or benefits associated with that membership.
Where the documents relating to such child contain an
affidavit from the biological parent or parents requesting
anonymity, the Secretary shall certify to the Indian
child’s tribe, where the information warrants, that the
child’s parentage and other circumstances of birth
entitle the child to enrollment under the criteria
established by such tribe.
§ 1952. Rules and regulations
Within one hundred and eighty days after November 8,
1978, the Secretary shall promulgate such rules and
regulations as may be necessary to carry out the
provisions of this chapter.

600a
APPENDIX I
Relevant Provisions of the Final Rule
25 C.F.R.
§ 23.106 How does this subpart interact with State
and Federal laws?
(a) The regulations in this subpart provide minimum
Federal standards to ensure compliance with ICWA.
(b) Under section 1921 of ICWA, where applicable
State or other Federal law provides a higher standard of
protection to the rights of the parent or Indian custodian
than the protection accorded under the Act, ICWA
requires the State or Federal court to apply the higher
State or Federal standard.
§ 23.107 How should a State court determine if there
is reason to know the child is an Indian child?
(a) State courts must ask each participant in an
emergency or voluntary or involuntary child-custody
proceeding whether the participant knows or has reason
to know that the child is an Indian child. The inquiry is
made at the commencement of the proceeding and all
responses should be on the record. State courts must
instruct the parties to inform the court if they
subsequently receive information that provides reason to
know the child is an Indian child.
(b) If there is reason to know the child is an Indian
child, but the court does not have sufficient evidence to
determine that the child is or is not an “Indian child,” the
court must:
(1) Confirm, by way of a report, declaration, or
testimony included in the record that the agency or other
party used due diligence to identify and work with all of

601a
the Tribes of which there is reason to know the child may
be a member (or eligible for membership), to verify
whether the child is in fact a member (or a biological
parent is a member and the child is eligible for
membership); and
(2) Treat the child as an Indian child, unless and
until it is determined on the record that the child does
not meet the definition of an “Indian child” in this part.
(c) A court, upon conducting the inquiry required in
paragraph (a) of this section, has reason to know that a
child involved in an emergency or child-custody
proceeding is an Indian child if:
(1) Any participant in the proceeding, officer of
the court involved in the proceeding, Indian Tribe,
Indian organization, or agency informs the court that the
child is an Indian child;
(2) Any participant in the proceeding, officer of
the court involved in the proceeding, Indian Tribe,
Indian organization, or agency informs the court that it
has discovered information indicating that the child is an
Indian child;
(3) The child who is the subject of the proceeding
gives the court reason to know he or she is an Indian
child;
(4) The court is informed that the domicile or
residence of the child, the child’s parent, or the child’s
Indian custodian is on a reservation or in an Alaska
Native village;
(5) The court is informed that the child is or has
been a ward of a Tribal court; or

602a
(6) The court is informed that either parent or the
child possesses an identification card indicating
membership in an Indian Tribe.
(d) In seeking verification of the child’s status in a
voluntary proceeding where a consenting parent
evidences, by written request or statement in the record,
a desire for anonymity, the court must keep relevant
documents pertaining to the inquiry required under this
section confidential and under seal. A request for
anonymity does not relieve the court, agency, or other
party from any duty of compliance with ICWA, including
the obligation to verify whether the child is an “Indian
child.” A Tribe receiving information related to this
inquiry must keep documents and information
confidential.
§ 23.108 Who makes the determination as to whether
a child is a member, whether a child is eligible for
membership, or whether a biological parent is a
member of a Tribe?
(a) The Indian Tribe of which it is believed the child
is a member (or eligible for membership and of which the
biological parent is a member) determines whether the
child is a member of the Tribe, or whether the child is
eligible for membership in the Tribe and a biological
parent of the child is a member of the Tribe, except as
otherwise provided by Federal or Tribal law.
(b) The determination by a Tribe of whether a child
is a member, whether a child is eligible for membership,
or whether a biological parent is a member, is solely
within the jurisdiction and authority of the Tribe, except
as otherwise provided by Federal or Tribal law. The
State court may not substitute its own determination

603a
regarding a child’s membership in a Tribe, a child’s
eligibility for membership in a Tribe, or a parent’s
membership in a Tribe.
(c) The State court may rely on facts or
documentation indicating a Tribal determination of
membership or eligibility for membership in making a
judicial determination as to whether the child is an
“Indian child.” An example of documentation indicating
membership is a document issued by the Tribe, such as
Tribal enrollment documentation.
§ 23.109 How should a State court determine an
Indian child’s Tribe when the child may be a
member or eligible for membership in more than
one Tribe?
(a) If the Indian child is a member or eligible for
membership in only one Tribe, that Tribe must be
designated as the Indian child’s Tribe.
(b) If the Indian child meets the definition of “Indian
child” through more than one Tribe, deference should be
given to the Tribe in which the Indian child is already a
member, unless otherwise agreed to by the Tribes.
(c) If an Indian child meets the definition of “Indian
child” through more than one Tribe because the child is
a member in more than one Tribe or the child is not a
member of but is eligible for membership in more than
one Tribe, the court must provide the opportunity in any
involuntary child-custody proceeding for the Tribes to
determine which should be designated as the Indian
child’s Tribe.
(1) If the Tribes are able to reach an agreement,
the agreed-upon Tribe should be designated as the
Indian child’s Tribe.

604a
(2) If the Tribes are unable to reach an
agreement, the State court designates, for the purposes
of ICWA, the Indian Tribe with which the Indian child
has the more significant contacts as the Indian child’s
Tribe, taking into consideration:
(i) Preference of the parents for
membership of the child;
(ii) Length of past domicile or residence on
or near the reservation of each Tribe;
(iii) Tribal membership of the child’s
custodial parent or Indian custodian; and
(iv) Interest asserted by each Tribe in the
child-custody proceeding;
(v) Whether there has been a previous
adjudication with respect to the child by a court of one of
the Tribes; and
(vi) Self-identification by the child, if the
child is of sufficient age and capacity to meaningfully
self-identify.
(3) A determination of the Indian child’s Tribe for
purposes of ICWA and the regulations in this subpart do
not constitute a determination for any other purpose.
§ 23.110 When must a State court dismiss an action?
Subject to 25 U.S.C. 1919 (Agreements between States
and Indian Tribes) and § 23.113 (emergency
proceedings), the following limitations on a State court’s
jurisdiction apply:
(a) The court in any voluntary or involuntary childcustody proceeding involving an Indian child must
determine the residence and domicile of the Indian child.
If either the residence or domicile is on a reservation
where the Tribe exercises exclusive jurisdiction over

605a
child-custody proceedings, the State court must
expeditiously notify the Tribal court of the pending
dismissal based on the Tribe’s exclusive jurisdiction,
dismiss the State-court child-custody proceeding, and
ensure that the Tribal court is sent all information
regarding the Indian child-custody proceeding,
including, but not limited to, the pleadings and any court
record.
(b) If the child is a ward of a Tribal court, the State
court must expeditiously notify the Tribal court of the
pending dismissal, dismiss the State-court child-custody
proceeding, and ensure that the Tribal court is sent all
information regarding the Indian child-custody
proceeding, including, but not limited to, the pleadings
and any court record.
§ 23.111 What are the notice requirements for a
child-custody proceeding involving an Indian
child?
(a) When a court knows or has reason to know that
the subject of an involuntary foster-care-placement or
termination-of-parental-rights proceeding is an Indian
child, the court must ensure that:
(1) The party seeking placement promptly sends
notice of each such child-custody proceeding (including,
but not limited to, any foster-care placement or any
termination of parental or custodial rights) in accordance
with this section; and
(2) An original or a copy of each notice sent under
this section is filed with the court together with any
return receipts or other proof of service.
(b) Notice must be sent to:

606a
(1) Each Tribe where the child may be a member
(or eligible for membership if a biological parent is a
member) (see § 23.105 for information on how to contact
a Tribe);
(2) The child’s parents; and
(3) If applicable, the child’s Indian custodian.
(c) Notice must be sent by registered or certified
mail with return receipt requested. Notice may also be
sent via personal service or electronically, but such
alternative methods do not replace the requirement for
notice to be sent by registered or certified mail with
return receipt requested.
(d) Notice must be in clear and understandable
language and include the following:
(1) The child’s name, birthdate, and birthplace;
(2) All names known (including maiden, married,
and former names or aliases) of the parents, the parents’
birthdates and birthplaces, and Tribal enrollment
numbers if known;
(3) If known, the names, birthdates, birthplaces,
and Tribal enrollment information of other direct lineal
ancestors of the child, such as grandparents;
(4) The name of each Indian Tribe in which the
child is a member (or may be eligible for membership if
a biological parent is a member);
(5) A copy of the petition, complaint, or other
document by which the child-custody proceeding was
initiated and, if a hearing has been scheduled,
information on the date, time, and location of the
hearing;
(6) Statements setting out:

607a
(i) The name of the petitioner and the
name and address of petitioner’s attorney;
(ii) The right of any parent or Indian
custodian of the child, if not already a party to the childcustody proceeding, to intervene in the proceedings.
(iii) The Indian Tribe’s right to intervene
at any time in a State-court proceeding for the fostercare placement of or termination of parental rights to an
Indian child.
(iv) That, if the child’s parent or Indian
custodian is unable to afford counsel based on a
determination of indigency by the court, the parent or
Indian custodian has the right to court-appointed
counsel.
(v) The right to be granted, upon request,
up to 20 additional days to prepare for the child-custody
proceedings.
(vi) The right of the parent or Indian
custodian and the Indian child’s Tribe to petition the
court for transfer of the foster-care-placement or
termination-of-parental-rights proceeding to Tribal
court as provided by 25 U.S.C. 1911 and § 23.115.
(vii) The mailing addresses and telephone
numbers of the court and information related to all
parties to the child-custody proceeding and individuals
notified under this section.
(viii) The potential legal consequences of
the child-custody proceedings on the future parental and
custodial rights of the parent or Indian custodian.
(ix) That all parties notified must keep
confidential the information contained in the notice and

608a
the notice should not be handled by anyone not needing
the information to exercise rights under ICWA.
(e) If the identity or location of the child’s parents,
the child’s Indian custodian, or the Tribes in which the
Indian child is a member or eligible for membership
cannot be ascertained, but there is reason to know the
child is an Indian child, notice of the child-custody
proceeding must be sent to the appropriate Bureau of
Indian Affairs Regional Director (see www.bia.gov). To
establish Tribal identity, as much information as is
known regarding the child’s direct lineal ancestors
should be provided. The Bureau of Indian Affairs will not
make a determination of Tribal membership but may, in
some instances, be able to identify Tribes to contact.
(f) If there is a reason to know that a parent or Indian
custodian possesses limited English proficiency and is
therefore not likely to understand the contents of the
notice, the court must provide language access services
as required by Title VI of the Civil Rights Act and other
Federal laws. To secure such translation or
interpretation support, a court may contact or direct a
party to contact the Indian child’s Tribe or the local BIA
office for assistance in locating and obtaining the name
of a qualified translator or interpreter.
(g) If a parent or Indian custodian of an Indian child
appears in court without an attorney, the court must
inform him or her of his or her rights, including any
applicable right to appointed counsel, right to request
that the child-custody proceeding be transferred to
Tribal court, right to object to such transfer, right to
request additional time to prepare for the child-custody
proceeding as provided in § 23.112, and right (if the

609a
parent or Indian custodian is not already a party) to
intervene in the child-custody proceedings.
§ 23.112 What time limits and extensions apply?
(a) No foster-care-placement or termination-ofparental-rights proceeding may be held until at least 10
days after receipt of the notice by the parent (or Indian
custodian) and by the Tribe (or the Secretary). The
parent, Indian custodian, and Tribe each have a right,
upon request, to be granted up to 20 additional days from
the date upon which notice was received to prepare for
participation in the proceeding.
(b) Except as provided in 25 U.S.C. 1922 and § 23.113,
no child-custody proceeding for foster-care placement or
termination of parental rights may be held until the
waiting periods to which the parents or Indian
custodians and to which the Indian child’s Tribe are
entitled have expired, as follows:
(1) 10 days after each parent or Indian custodian
(or Secretary where the parent or Indian custodian is
unknown to the petitioner) has received notice of that
particular child-custody proceeding in accordance with
25 U.S.C. 1912(a) and § 23.111;
(2) 10 days after the Indian child’s Tribe (or the
Secretary if the Indian child’s Tribe is unknown to the
party seeking placement) has received notice of that
particular child-custody proceeding in accordance with
25 U.S.C. 1912(a) and § 23.111;
(3) Up to 30 days after the parent or Indian
custodian has received notice of that particular childcustody proceeding in accordance with 25 U.S.C. 1912(a)
and § 23.111, if the parent or Indian custodian has
requested up to 20 additional days to prepare for the

610a
child-custody proceeding as provided in 25 U.S.C.
1912(a) and § 23.111; and
(4) Up to 30 days after the Indian child’s Tribe has
received notice of that particular child-custody
proceeding in accordance with 25 U.S.C. 1912(a) and
§ 23.111, if the Indian child’s Tribe has requested up to
20 additional days to prepare for the child-custody
proceeding.
(c) Additional time beyond the minimum required by
25 U.S.C. 1912 and § 23.111 may also be available under
State law or pursuant to extensions granted by the court.
§ 23.113 What are the standards for emergency
proceedings involving an Indian child?
(a) Any emergency removal or placement of an
Indian child under State law must terminate
immediately when the removal or placement is no longer
necessary to prevent imminent physical damage or harm
to the child.
(b) The State court must:
(1) Make a finding on the record that the
emergency removal or placement is necessary to prevent
imminent physical damage or harm to the child;
(2) Promptly hold a hearing on whether the
emergency removal or placement continues to be
necessary whenever new information indicates that the
emergency situation has ended; and
(3) At any court hearing during the emergency
proceeding, determine whether the emergency removal
or placement is no longer necessary to prevent imminent
physical damage or harm to the child.
(4) Immediately terminate (or ensure that the
agency immediately terminates) the emergency

611a
proceeding once the court or agency possesses sufficient
evidence to determine that the emergency removal or
placement is no longer necessary to prevent imminent
physical damage or harm to the child.
(c) An emergency proceeding can be terminated by
one or more of the following actions:
(1) Initiation of a child-custody proceeding
subject to the provisions of ICWA;
(2) Transfer of the child to the jurisdiction of the
appropriate Indian Tribe; or
(3) Restoring the child to the parent or Indian
custodian.
(d) A petition for a court order authorizing the
emergency removal or continued emergency placement,
or its accompanying documents, should contain a
statement of the risk of imminent physical damage or
harm to the Indian child and any evidence that the
emergency removal or placement continues to be
necessary to prevent such imminent physical damage or
harm to the child. The petition or its accompanying
documents should also contain the following information:
(1) The name, age, and last known address of the
Indian child;
(2) The name and address of the child’s parents
and Indian custodians, if any;
(3) The steps taken to provide notice to the child’s
parents, custodians, and Tribe about the emergency
proceeding;
(4) If the child’s parents and Indian custodians
are unknown, a detailed explanation of what efforts have
been made to locate and contact them, including contact

612a
with the appropriate BIA Regional Director (see
www.bia.gov);
(5) The residence and the domicile of the Indian
child;
(6) If either the residence or the domicile of the
Indian child is believed to be on a reservation or in an
Alaska Native village, the name of the Tribe affiliated
with that reservation or village;
(7) The Tribal affiliation of the child and of the
parents or Indian custodians;
(8) A specific and detailed account of the
circumstances that led the agency responsible for the
emergency removal of the child to take that action;
(9) If the child is believed to reside or be domiciled
on a reservation where the Tribe exercises exclusive
jurisdiction over child-custody matters, a statement of
efforts that have been made and are being made to
contact the Tribe and transfer the child to the Tribe’s
jurisdiction; and
(10) A statement of the efforts that have been
taken to assist the parents or Indian custodians so the
Indian child may safely be returned to their custody.
(e) An emergency proceeding regarding an Indian
child should not be continued for more than 30 days
unless the court makes the following determinations:
(1) Restoring the child to the parent or Indian
custodian would subject the child to imminent physical
damage or harm;
(2) The court has been unable to transfer the
proceeding to the jurisdiction of the appropriate Indian
Tribe; and

613a
(3) It has not been possible to initiate a “childcustody proceeding” as defined in § 23.2.
§ 23.114 What are the requirements for determining
improper removal?
(a) If, in the course of any child-custody proceeding,
any party asserts or the court has reason to believe that
the Indian child may have been improperly removed
from the custody of his or her parent or Indian custodian,
or that the Indian child has been improperly retained
(such as after a visit or other temporary relinquishment
of custody), the court must expeditiously determine
whether there was improper removal or retention.
(b) If the court finds that the Indian child was
improperly removed or retained, the court must
terminate the proceeding and the child must be returned
immediately to his or her parent or Indian custodian,
unless returning the child to his parent or Indian
custodian would subject the child to substantial and
immediate danger or threat of such danger.
§ 23.115 How are petitions for transfer of a
proceeding made?
(a) Either parent, the Indian custodian, or the Indian
child’s Tribe may request, at any time, orally on the
record or in writing, that the State court transfer a
foster-care or termination-of-parental-rights proceeding
to the jurisdiction of the child’s Tribe.
(b) The right to request a transfer is available at any
stage in each foster-care or termination-of-parentalrights proceeding.

614a
§ 23.116 What happens after a petition for transfer is
made?
Upon receipt of a transfer petition, the State court
must ensure that the Tribal court is promptly notified in
writing of the transfer petition. This notification may
request a timely response regarding whether the Tribal
court wishes to decline the transfer.
§ 23.117 What are the criteria for ruling on transfer
petitions?
Upon receipt of a transfer petition from an Indian
child’s parent, Indian custodian, or Tribe, the State court
must transfer the child-custody proceeding unless the
court determines that transfer is not appropriate
because one or more of the following criteria are met:
(a) Either parent objects to such transfer;
(b) The Tribal court declines the transfer; or
(c) Good cause exists for denying the transfer.
§ 23.118 How is a determination of “good cause” to
deny transfer made?
(a) If the State court believes, or any party asserts,
that good cause to deny transfer exists, the reasons for
that belief or assertion must be stated orally on the
record or provided in writing on the record and to the
parties to the child-custody proceeding.
(b) Any party to the child-custody proceeding must
have the opportunity to provide the court with views
regarding whether good cause to deny transfer exists.
(c) In determining whether good cause exists, the
court must not consider:

615a
(1) Whether the foster-care or termination-ofparental-rights proceeding is at an advanced stage if the
Indian child’s parent, Indian custodian, or Tribe did not
receive notice of the child-custody proceeding until an
advanced stage;
(2) Whether there have been prior proceedings
involving the child for which no petition to transfer was
filed;
(3) Whether transfer could affect the placement
of the child;
(4) The Indian child’s cultural connections with
the Tribe or its reservation; or
(5) Socioeconomic conditions or any negative
perception of Tribal or BIA social services or judicial
systems.
(d) The basis for any State-court decision to deny
transfer should be stated orally on the record or in a
written order.
§ 23.119 What happens after a petition for transfer is
granted?
(a) If the Tribal court accepts the transfer, the State
court should expeditiously provide the Tribal court with
all records related to the proceeding, including, but not
limited to, the pleadings and any court record.
(b) The State court should work with the Tribal court
to ensure that the transfer of the custody of the Indian
child and of the proceeding is accomplished smoothly and
in a way that minimizes the disruption of services to the
family.

616a
§ 23.120 How does the State court ensure that active
efforts have been made?
(a) Prior to ordering an involuntary foster-care
placement or termination of parental rights, the court
must conclude that active efforts have been made to
prevent the breakup of the Indian family and that those
efforts have been unsuccessful.
(b) Active efforts must be documented in detail in the
record.
§ 23.121 What are the applicable standards of
evidence?
(a) The court must not order a foster-care placement
of an Indian child unless clear and convincing evidence is
presented, including the testimony of one or more
qualified expert witnesses, demonstrating that the
child’s continued custody by the child’s parent or Indian
custodian is likely to result in serious emotional or
physical damage to the child.
(b) The court must not order a termination of
parental rights for an Indian child unless evidence
beyond a reasonable doubt is presented, including the
testimony of one or more qualified expert witnesses,
demonstrating that the child’s continued custody by the
child’s parent or Indian custodian is likely to result in
serious emotional or physical damage to the child.
(c) For a foster-care placement or termination of
parental rights, the evidence must show a causal
relationship between the particular conditions in the
home and the likelihood that continued custody of the
child will result in serious emotional or physical damage

617a
to the particular child who is the subject of the childcustody proceeding.
(d) Without a causal relationship identified in
paragraph (c) of this section, evidence that shows only
the existence of community or family poverty, isolation,
single parenthood, custodian age, crowded or inadequate
housing, substance abuse, or nonconforming social
behavior does not by itself constitute clear and
convincing evidence or evidence beyond a reasonable
doubt that continued custody is likely to result in serious
emotional or physical damage to the child.
§ 23.122 Who may serve as a qualified expert witness?
(a) A qualified expert witness must be qualified to
testify regarding whether the child’s continued custody
by the parent or Indian custodian is likely to result in
serious emotional or physical damage to the child and
should be qualified to testify as to the prevailing social
and cultural standards of the Indian child’s Tribe. A
person may be designated by the Indian child’s Tribe as
being qualified to testify to the prevailing social and
cultural standards of the Indian child’s Tribe.
(b) The court or any party may request the assistance
of the Indian child’s Tribe or the BIA office serving the
Indian child’s Tribe in locating persons qualified to serve
as expert witnesses.
(c) The social worker regularly assigned to the
Indian child may not serve as a qualified expert witness
in child-custody proceedings concerning the child.
***

618a
§ 23.124 What actions must a State court undertake
in voluntary proceedings?
(a) The State court must require the participants in
a voluntary proceeding to state on the record whether
the child is an Indian child, or whether there is reason to
believe the child is an Indian child, as provided in
§ 23.107.
(b) If there is reason to believe the child is an Indian
child, the State court must ensure that the party seeking
placement has taken all reasonable steps to verify the
child’s status. This may include contacting the Tribe of
which it is believed the child is a member (or eligible for
membership and of which the biological parent is a
member) to verify the child’s status. As described in §
23.107, where a consenting parent requests anonymity, a
Tribe receiving such information must keep relevant
documents and information confidential.
(c) State courts must ensure that the placement for
the Indian child complies with §§ 23.129-23.132.
§ 23.125 How is consent obtained?
(a) A parent’s or Indian custodian’s consent to a
voluntary termination of parental rights or to a fostercare, preadoptive, or adoptive placement must be
executed in writing and recorded before a court of
competent jurisdiction.
(b) Prior to accepting the consent, the court must
explain to the parent or Indian custodian:
(1) The terms and consequences of the consent in
detail; and

619a
(2) The following limitations, applicable to the
type of child-custody proceeding for which consent is
given, on withdrawal of consent:
(i) For consent to foster-care placement,
the parent or Indian custodian may withdraw consent for
any reason, at any time, and have the child returned; or
(ii) For consent to termination of parental
rights, the parent or Indian custodian may withdraw
consent for any reason, at any time prior to the entry of
the final decree of termination and have the child
returned; or
(iii) For consent to an adoptive placement,
the parent or Indian custodian may withdraw consent for
any reason, at any time prior to the entry of the final
decree of adoption, and have the child returned.
(c) The court must certify that the terms and
consequences of the consent were explained on the
record in detail in English (or the language of the parent
or Indian custodian, if English is not the primary
language) and were fully understood by the parent or
Indian custodian.
(d) Where confidentiality is requested or indicated,
execution of consent need not be made in a session of
court open to the public but still must be made before a
court of competent jurisdiction in compliance with this
section.
(e) A consent given prior to, or within 10 days after,
the birth of an Indian child is not valid.
§ 23.126 What information must a consent document
contain?
(a) If there are any conditions to the consent, the
written consent must clearly set out the conditions.

620a
(b) A written consent to foster-care placement should
contain, in addition to the information specified in
paragraph (a) of this section, the name and birthdate of
the Indian child; the name of the Indian child’s Tribe; the
Tribal enrollment number for the parent and for the
Indian child, where known, or some other indication of
the child’s membership in the Tribe; the name, address,
and other identifying information of the consenting
parent or Indian custodian; the name and address of the
person or entity, if any, who arranged the placement; and
the name and address of the prospective foster parents,
if known at the time.
§ 23.127 How is withdrawal of consent to a fostercare placement achieved?
(a) The parent or Indian custodian may withdraw
consent to voluntary foster-care placement at any time.
(b) To withdraw consent, the parent or Indian
custodian must file a written document with the court or
otherwise testify before the court. Additional methods of
withdrawing consent may be available under State law.
(c) When a parent or Indian custodian withdraws
consent to a voluntary foster-care placement, the court
must ensure that the Indian child is returned to that
parent or Indian custodian as soon as practicable.
§ 23.128 How is withdrawal of consent to a
termination of parental rights or adoption
achieved?
(a) A parent may withdraw consent to voluntary
termination of parental rights at any time prior to the
entry of a final decree of termination.

621a
(b) A parent or Indian custodian may withdraw
consent to voluntary adoption at any time prior to the
entry of a final decree of adoption.
(c) To withdraw consent prior to the entry of a final
decree of adoption, the parent or Indian custodian must
file a written document with the court or otherwise
testify before the court. Additional methods of
withdrawing consent may be available under State law.
(d) The court in which the withdrawal of consent is
filed must promptly notify the person or entity who
arranged any voluntary preadoptive or adoptive
placement of such filing, and the Indian child must be
returned to the parent or Indian custodian as soon as
practicable.
§ 23.129 When do the placement preferences apply?
(a) In any preadoptive, adoptive, or foster-care
placement of an Indian child, the placement preferences
specified in § 23.130 and § 23.131 apply.
(b) Where a consenting parent requests anonymity in
a voluntary proceeding, the court must give weight to the
request in applying the preferences.
(c) The placement preferences must be applied in any
foster-care, preadoptive, or adoptive placement unless
there is a determination on the record that good cause
under § 23.132 exists to not apply those placement
preferences.
§ 23.130 What placement preferences apply in
adoptive placements?
(a) In any adoptive placement of an Indian child
under State law, where the Indian child’s Tribe has not
established a different order of preference under

622a
paragraph (b) of this section, preference must be given
in descending order, as listed below, to placement of the
child with:
(1) A member of the Indian child’s extended
family;
(2) Other members of the Indian child’s Tribe; or
(3) Other Indian families.
(b) If the Indian child’s Tribe has established by
resolution a different order of preference than that
specified in ICWA, the Tribe’s placement preferences
apply.
(c) The court must, where appropriate, also consider
the placement preference of the Indian child or Indian
child’s parent.
§ 23.131 What placement preferences apply in fostercare or preadoptive placements?
(a) In any foster-care or preadoptive placement of an
Indian child under State law, including changes in fostercare or preadoptive placements, the child must be placed
in the least-restrictive setting that:
(1) Most approximates a family, taking into
consideration sibling attachment;
(2) Allows the Indian child’s special needs (if any)
to be met; and
(3) Is in reasonable proximity to the Indian child’s
home, extended family, or siblings.
(b) In any foster-care or preadoptive placement of an
Indian child under State law, where the Indian child’s
Tribe has not established a different order of preference
under paragraph (c) of this section, preference must be
given, in descending order as listed below, to placement
of the child with:

623a
(1) A member of the Indian child’s extended
family;
(2) A foster home that is licensed, approved, or
specified by the Indian child’s Tribe;
(3) An Indian foster home licensed or approved by
an authorized non–Indian licensing authority; or
(4) An institution for children approved by an
Indian Tribe or operated by an Indian organization
which has a program suitable to meet the child’s needs.
(c) If the Indian child’s Tribe has established by
resolution a different order of preference than that
specified in ICWA, the Tribe’s placement preferences
apply, so long as the placement is the least-restrictive
setting appropriate to the particular needs of the Indian
child, as provided in paragraph (a) of this section.
(d) The court must, where appropriate, also consider
the preference of the Indian child or the Indian child’s
parent.
§ 23.132 How is a determination of “good cause” to
depart from the placement preferences made?
(a) If any party asserts that good cause not to follow
the placement preferences exists, the reasons for that
belief or assertion must be stated orally on the record or
provided in writing to the parties to the child-custody
proceeding and the court.
(b) The party seeking departure from the placement
preferences should bear the burden of proving by clear
and convincing evidence that there is “good cause” to
depart from the placement preferences.
(c) A court’s determination of good cause to depart
from the placement preferences must be made on the

624a
record or in writing and should be based on one or more
of the following considerations:
(1) The request of one or both of the Indian child’s
parents, if they attest that they have reviewed the
placement options, if any, that comply with the order of
preference;
(2) The request of the child, if the child is of
sufficient age and capacity to understand the decision
that is being made;
(3) The presence of a sibling attachment that can
be maintained only through a particular placement;
(4) The extraordinary physical, mental, or
emotional needs of the Indian child, such as specialized
treatment services that may be unavailable in the
community where families who meet the placement
preferences live;
(5) The unavailability of a suitable placement
after a determination by the court that a diligent search
was conducted to find suitable placements meeting the
preference criteria, but none has been located. For
purposes of this analysis, the standards for determining
whether a placement is unavailable must conform to the
prevailing social and cultural standards of the Indian
community in which the Indian child’s parent or
extended family resides or with which the Indian child’s
parent or extended family members maintain social and
cultural ties.
(d) A placement may not depart from the preferences
based on the socioeconomic status of any placement
relative to another placement.
(e) A placement may not depart from the preferences
based solely on ordinary bonding or attachment that

625a
flowed from time spent in a non-preferred placement
that was made in violation of ICWA.
***
§ 23.140 What information must States furnish to the
Bureau of Indian Affairs?
(a) Any State court entering a final adoption decree
or order in any voluntary or involuntary Indian-child
adoptive placement must furnish a copy of the decree or
order within 30 days to the Bureau of Indian Affairs,
Chief, Division of Human Services, 1849 C Street NW,
Mail Stop 3645 MIB, Washington, DC 20240, along with
the following information, in an envelope marked
“Confidential”:
(1) Birth name and birthdate of the Indian child,
and Tribal affiliation and name of the Indian child after
adoption;
(2) Names and addresses of the biological
parents;
(3) Names and addresses of the adoptive parents;
(4) Name and contact information for any agency
having files or information relating to the adoption;
(5) Any affidavit signed by the biological parent
or parents asking that their identity remain confidential;
and
(6) Any information relating to Tribal
membership or eligibility for Tribal membership of the
adopted child.
(b) If a State agency has been designated as the
repository for all State-court adoption information and is
fulfilling the duties described in paragraph (a) of this

626a
section, the State courts in that State need not fulfill
those same duties.
§ 23.141 What records must the State maintain?
(a) The State must maintain a record of every
voluntary or involuntary foster-care, preadoptive, and
adoptive placement of an Indian child and make the
record available within 14 days of a request by an Indian
child’s Tribe or the Secretary.
(b) The record must contain, at a minimum, the
petition or complaint, all substantive orders entered in
the child-custody proceeding, the complete record of the
placement determination (including, but not limited to,
the findings in the court record and the social worker’s
statement), and, if the placement departs from the
placement preferences, detailed documentation of the
efforts to comply with the placement preferences.
(c) A State agency or agencies may be designated to
be the repository for this information. The State court or
agency should notify the BIA whether these records are
maintained within the court system or by a State agency.

